                              TABLE OF CONTENTS

CHAPTER      1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    I.       Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    II.      Methodology of this Review . . . . . . . . . . . . . . . . . . . . . . . . . 5
    III.     Organization of this Report . . . . . . . . . . . . . . . . . . . . . . . . . 8

CHAPTER 2: ARREST AND PROCESSING OF ALIENS IN
 RESPONSE TO THE SEPTEMBER 11 ATTACKS . . . . . . . . . . . . . . . 10
    I.   Initial Law Enforcement Response . . . . . . . . . . . . . . . . . . .10
           A. Initial FBI Response . . . . . . . . . . . . . . . . . . . . . . . . . 10
           B. Department of Justice Response . . . . . . . . . . . . . . . . 12
           C. New York FBI’s Response . . . . . . . . . . . . . . . . . . . . . 13
           D. SIOC Working Group . . . . . . . . . . . . . . . . . . . . . . . . 15
    II. Arrests of September 11 Detainees . . . . . . . . . . . . . . . . . . 15
    III. Assignment to a Detention Facility . . . . . . . . . . . . . . . . . . 17
           A. FBI Assessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . .17
           B. INS Housing Determination . . . . . . . . . . . . . . . . . . . .18
           C. BOP Confinement Decisions . . . . . . . . . . . . . . . . . . . 19
           D. Department of Justice’s Role . . . . . . . . . . . . . . . . . . . 20
    IV. Demographics of September 11 Detainees . . . . . . . . . . . . .20
    V. Processing of September 11 Detainees from Arrest
          to Clearance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

CHAPTER 3: CHARGING OF SEPTEMBER 11 DETAINEES . . . . . . . . 27
    I.   INS Regulations and Policies Governing the Timing of
          Charging Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
           A. The Charging Determination . . . . . . . . . . . . . . . . . . . 27
           B. Serving the Notice to Appear (NTA) . . . . . . . . . . . . . . 28
    II. Service of NTAs on September 11 Detainees . . . . . . . . . . . 29
    III. Reasons for Delay in Serving NTAs . . . . . . . . . . . . . . . . . . 30
           A. Pending Criminal Charges . . . . . . . . . . . . . . . . . . . . . 30
           B. Delays Caused by Logistical Disruptions in
              New York City . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .31
           C. Delays Caused by INS Headquarters Review
              of NTAs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
           D. Delays Caused by Transfers of September 11
              Detainees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
    IV. OIG Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

CHAPTER 4: THE CLEARANCE PROCESS . . . . . . . . . . . . . . . . . . . . 37
    I.  “Hold Until Cleared” Policy . . . . . . . . . . . . . . . . . . . . . . . . 37
          A. Origins of Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
          B. Implementation of Policy . . . . . . . . . . . . . . . . . . . . . . 40
    II. INS Operational Orders . . . . . . . . . . . . . . . . . . . . . . . . . . .43
        III. The Clearance Process . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
              A. Determining Which Aliens Would be Subject
                  to the Clearance Process . . . . . . . . . . . . . . . . . . . . . .46
              B. FBI Field Office Role in the Clearance Investigation . . 48
              C. CIA Name Checks . . . . . . . . . . . . . . . . . . . . . . . . . . . 50
        IV. Timing of Clearances . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
        V. Delays in the Clearance Process . . . . . . . . . . . . . . . . . . . . 52
              A. Inclusion of New York Arrests on the INS’s
                  “Special Interest” List Requiring Clearances . . . . . . . 53
                     1. Background to the New York Custody List . . . . 53
                     2. Merger of Lists . . . . . . . . . . . . . . . . . . . . . . . . . 55
              B. Delays in the Field Portion of the Clearance
                   Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
              C. CIA Name Checks . . . . . . . . . . . . . . . . . . . . . . . . . . . 58
              D. Examples of Delays . . . . . . . . . . . . . . . . . . . . . . . . . . 62
              E. Knowledge of the Delays in the Clearance Process. . . 65
        VI. FBI Watch List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
        VII. OIG Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

CHAPTER 5: THE DEPARTMENT’S “NO BOND” POLICY FOR
 SEPTEMBER 11 DETAINEES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72
    I.   Background on Immigration Law . . . . . . . . . . . . . . . . . . . 72
    II. Department’s Strategy for Maintaining Detainees in
          Custody . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74
    III. INS Efforts to Maintain Detainees in Custody . . . . . . . . . . 76
           A. Initial “No Bond” Determination . . . . . . . . . . . . . . . . 76
           B. Pearson Order . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
           C. Creation of a Bond Unit at INS Headquarters . . . . . . 77
           D. Opposing Release at Bond Hearings . . . . . . . . . . . . . 78
                 1. Concerns About Lack of Evidence for Bond
                     Hearings and Impact of Delays in the
                     Clearance Process . . . . . . . . . . . . . . . . . . . . . . 78
                 2. Difficulties Presented by New York Cases
                     Added to INS Special Interest List . . . . . . . . . . 80
                 3. INS Attempts to Revise Bond Policy . . . . . . . . . . 81
           E. Proposed Inter-Agency Memoranda . . . . . . . . . . . . . . 84
           F. Impact of Pearson Order . . . . . . . . . . . . . . . . . . . . . . 85
    IV. OIG Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88

CHAPTER 6: REMOVAL OF SEPTEMBER 11 DETAINEES . . . . . . . . 91
    I.   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91
    II. Discussion of the Limits of the INS’s Detention
         Authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 92
    III. Detainees’ Lawsuits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 98
    IV. Policy Change Allowing Detainees to Be Removed
         Without FBI Clearance . . . . . . . . . . . . . . . . . . . . . . . . . . 100
       V. OLC Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .106
       VI. Post-Order Custody Reviews of September 11 Detainees . 107
       VII. OIG Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 108

CHAPTER 7: CONDITIONS OF CONFINEMENT AT THE
              METROPOLITAN DETENTION CENTER IN
              BROOKLYN, NEW YORK . . . . . . . . . . . . . . . . . . . . . . 111
    I.    Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 111
    II. Initial Communications Blackout After September 11 . . . 112
    III. Impact of Detainee Classification . . . . . . . . . . . . . . . . . . 115
            A. Detainees’ Classification . . . . . . . . . . . . . . . . . . . . . 115
            B. MDC’s Special Housing Unit (SHU) . . . . . . . . . . . . . 118
            C. ADMAX SHU Policies and Procedures . . . . . . . . . . . 124
            D. Detainee Complaint Process . . . . . . . . . . . . . . . . . . 125
    IV. Housing Assignment of September 11 Detainees . . . . . . . 126
            A. Assignment of September 11 Detainees to the
               ADMAX SHU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 126
            B. Reassigning September 11 Detainees to the
                General Population . . . . . . . . . . . . . . . . . . . . . . . . 127
                  1. Centralizing the Notification Process . . . . . . . 127
                  2. Inconsistencies in Detainee
                      Reassignment Procedures . . . . . . . . . . . . . . . 129
    V. Access to Legal Counsel . . . . . . . . . . . . . . . . . . . . . . . . . 130
            A. Legal Telephone Calls . . . . . . . . . . . . . . . . . . . . . . . 130
            B. Attorney Visits . . . . . . . . . . . . . . . . . . . . . . . . . . . . .135
            C. Pro Bono Attorney List . . . . . . . . . . . . . . . . . . . . . . 137
            D. Social Visits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 138
            E. Contact with Foreign Consulates . . . . . . . . . . . . . . . 140
    VI. Allegations of Physical and Verbal Abuse . . . . . . . . . . . . 142
            A. OIG Site Visit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .143
            B. OIG Investigation of Abuse . . . . . . . . . . . . . . . . . . . 144
            C. FBI and BOP Investigations of Abuse . . . . . . . . . . . .146
            D. Allegations of Harassment . . . . . . . . . . . . . . . . . . . . 147
            E. Reporting Allegations of Abuse . . . . . . . . . . . . . . . . 148
            F. MDC Videotapes . . . . . . . . . . . . . . . . . . . . . . . . . . . 149
    VII. Other Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 151
            A. Medical Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 151
            B. Recreation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .152
            C. Lighting in the ADMAX SHU . . . . . . . . . . . . . . . . . . 153
            D. Personal Hygiene Items . . . . . . . . . . . . . . . . . . . . . . 155
            E. Hunger Strikes . . . . . . . . . . . . . . . . . . . . . . . . . . . . 156
    VIII. OIG Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 157

CHAPTER 8: CONDITIONS OF CONFINEMENT AT THE PASSAIC
            COUNTY JAIL IN PATERSON, NEW JERSEY . . . . . . . 165
    I.  Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 165
       II. Background on Passaic County Jail . . . . . . . . . . . . . . . . 166
       III. Housing of Detainees . . . . . . . . . . . . . . . . . . . . . . . . . . . 167
              A. Processing of September 11 Detainees . . . . . . . . . . . 167
              B. SDU Housing Reviews . . . . . . . . . . . . . . . . . . . . . . . 170
       IV. Access to Legal Counsel . . . . . . . . . . . . . . . . . . . . . . . . . 172
              A. Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .172
              B. Legal Telephone Calls . . . . . . . . . . . . . . . . . . . . . . . 174
              C. Pro Bono Attorney List . . . . . . . . . . . . . . . . . . . . . . 175
              D. Legal Rights Presentations . . . . . . . . . . . . . . . . . . . 176
       V. Allegations of Physical and Verbal Abuse . . . . . . . . . . . . 177
       VI. Other Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 180
              A. Medical Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 180
              B. Hunger Strikes . . . . . . . . . . . . . . . . . . . . . . . . . . . . 181
              C. Recreation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .182
       VII. INS Newark District Monitoring of September 11
             Detainees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .182
       VIII. OIG Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 184

CHAPTER      9: OIG RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . 186
    I.       Uniform Arrest and Detainee Classification Policies . . . . 186
    II.      Inter-Agency Cooperation on Detainee Issues . . . . . . . . . 188
    III.     FBI Clearance Process . . . . . . . . . . . . . . . . . . . . . . . . . . 188
    IV.      Notices to Appear . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 189
    V.       Raising Issues of Concern to Senior Department
              Officials . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 190
       VI. BOP Housing of Detainees . . . . . . . . . . . . . . . . . . . . . . . 191
       VII. Oversight of Detainees Housed in Contract
              Facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 193
       VIII. Other Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 193

CHAPTER 10: CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . .195
                       TABLE OF FIGURES AND TABLES


 Figure 1: Age Ranges for the September 11 Detainees . . . . . . . . . . . 21

 Figure 2: Nationality of September 11 Detainees . . . . . . . . . . . . . . . 21

 Figure 3: Arrest Location of September 11 Detainees . . . . . . . . . . . . 22

 Figure 4: September 11 Detainee Arrests (By Week) . . . . . . . . . . . . . 22

 Figure 5: September 11 Detainee Arrests (By Month) . . . . . . . . . . . . 23

 Figure 6: Processing September 11 Detainees from Arrest
           to Clearance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

   Table 1: Number of Days Between Arrest Date and
            NTA Served Date for September 11 Detainees. . . . . . . . . . .30

   Table 2: Timing of NTA Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

   Table 3: Number of Days from Arrest to FBI HQ Clearance . . . . . . . 52

 Figure 7: Number of Days from Arrest to FBI HQ Clearance . . . . . . . 52

 Figure 8: Detainees Removed per Month . . . . . . . . . . . . . . . . . . . . 105

 Figure 9: Number of Days from Arrest Date to Removed/
           Released Date . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 105

Figure 10: Information Regarding Post-Order Custody
           Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .107

Figure 11:      Weekly Average Number of INS Detainees
                Held at Passaic County Jail . . . . . . . . . . . . . . . . . . . . . . .168
                TABLE OF APPENDICES


Appendix A   Glossary of Names in the Report

Appendix B   Glossary of Terms

Appendix C   Organizational Charts
                  Department of Justice
                  Federal Bureau of Investigation
                  Immigration and Naturalization Service
                  Bureau of Prisons

Appendix D   INS Notice To Appear Form

Appendix E   FBI Headquarters Detainee Clearance Memorandum

Appendix F   INS Arrest Form
             (Record of Deportable/Inadmissible Alien)

Appendix G   INS Custody Determination Form

Appendix H   INS Headquarters Release Memorandum

Appendix I   INS Headquarters Bond Memorandum

Appendix J   BOP Reassignment to General Population

Appendix K   Letter from Deputy Attorney General Thompson
                                       CHAPTER ONE

                                       INTRODUCTION

I. BACKGROUND

      On September 11, 2001, terrorists hijacked four airplanes and flew two
of them into the World Trade Center Towers in New York City and one into the
Pentagon in Arlington, Virginia. The fourth plane crashed into a field in
southwestern Pennsylvania before it could strike a target in Washington, D.C.
The attacks killed more than 3,100 people, including all 246 people aboard the
4 airplanes.

      The Federal Bureau of Investigation (FBI) immediately initiated a massive
investigation, called “PENTTBOM,” into this coordinated terrorist attack. The
FBI investigation focused on identifying the terrorists who hijacked the
airplanes and anyone who aided their efforts. In addition, the FBI worked with
other federal, state, and local law enforcement agencies to prevent follow-up
attacks in this country and against U.S. interests abroad.

       Shortly after the attacks, the Attorney General directed the FBI and other
federal law enforcement personnel to use “every available law enforcement tool”
to arrest persons who “participate in, or lend support to, terrorist activities.”1
One of the principal responses by law enforcement authorities after the
September 11 attacks was to use the federal immigration laws to detain aliens
suspected of having possible ties to terrorism. Within 2 months of the attacks,
law enforcement authorities had detained, at least for questioning, more than
1,200 citizens and aliens nationwide.2 Many of these individuals were
questioned and subsequently released without being charged with a criminal or
immigration offense. Many others, however, were arrested and detained for
violating federal immigration law.



       1 Memorandum from Attorney General John Ashcroft to United States Attorneys entitled
“Anti-Terrorism Plan” (September 17, 2001).

        2 In the weeks and months following the attacks, various totals of the number of people

arrested in connection with the September 11 investigation were released by the Department of
Justice or appeared in media accounts. A senior official in the Department’s Office of Public
Affairs told the Office of the Inspector General that in the weeks after the terrorist attacks her
office provided frequent updates to the media on the number of persons questioned, arrested,
and detained by federal, state, and local law enforcement officials. According to this official,
the Public Affairs Office stopped reporting the cumulative totals after the number reached
approximately 1,200, because the statistics became confusing.




                                                1
       Our review determined that the Immigration and Naturalization Service
(INS) detained 762 aliens as a result of the PENTTBOM investigation. Of these
762 aliens, 24 were in INS custody on immigration violations prior to the
September 11 attacks. The remaining 738 aliens were arrested between
September 11, 2001, and August 6, 2002, as a direct result of the FBI’s
PENTTBOM investigation. All 762 detainees were placed on what became
known as an “INS Custody List” because of the FBI’s assessment that they may
have had a connection to the September 11 attacks or terrorism in general, or
because the FBI was unable, at least initially, to determine whether they were
connected to terrorism.

        The Government held these aliens in a variety of federal, local, and
private detention facilities across the United States while the FBI investigated
them for ties to the September 11 attacks or terrorism in general. These
facilities included several Federal Bureau of Prisons (BOP) institutions such as
the Metropolitan Detention Center in Brooklyn, New York; the Federal
Detention Center in Oakdale, Louisiana; and the U.S. Penitentiary in
Leavenworth, Kansas; INS facilities such as the Krome Service Processing
Center in Miami, Florida; and state and local facilities under contract with the
INS to house federal immigration detainees, such as the Passaic County Jail in
Paterson, New Jersey, and the Hudson County Correctional Center in Kearny,
New Jersey.

       Soon after these detentions began, the media began to report allegations
of mistreatment of the detainees. For example, detainees and their attorneys
alleged that the detainees were not informed of the charges against them for
extended periods of time; were not permitted contact with attorneys, their
families, and embassy officials; remained in detention even though they had no
involvement in terrorism; or were physically abused, verbally abused, and
mistreated in other ways while detained.

      Several individual detainees and non-profit organizations filed lawsuits
against the Department of Justice (Department) protesting the lack of public
information about the detainees and the length and conditions of the detainees’
confinement. For example, the Center for National Security Studies brought
suit against the Department under the Freedom of Information Act seeking
information about the detainees, including their names and where they were
being held.3 Five detainees filed a class action lawsuit alleging they were
physically abused, verbally abused, and held without a legitimate immigration
or law enforcement purpose long after they received final removal or voluntary


       3 Center for National Security Studies v. United States Department of Justice,
01-civ-2500 (D.D.C. filed December 6, 2002).




                                               2
departure orders.4 In addition, advocacy organizations such as Amnesty
International and the Lawyers Committee for Human Rights issued reports
asserting mistreatment of the detainees or mishandling of their cases.5

       Pursuant to our responsibilities under the USA PATRIOT Act (Patriot Act)
and the Inspector General Act, the Department of Justice Office of the
Inspector General (OIG) initiated this review to examine the treatment of
detainees arrested in connection with the Department’s September 11
terrorism investigation.6 Specifically, the OIG’s review focused on:

       •     Issues affecting the length of the detainees’ confinement, including
             the process undertaken by the FBI and others to clear individual
             detainees of a connection to the September 11 attacks or terrorism in
             general;

       •     Bond determinations for detainees;

       •     The removal process and the timing of removal; and

       •     Conditions of confinement experienced by detainees, including their
             access to legal counsel.

     We focused our review on INS detainees housed at two facilities – the
BOP’s Metropolitan Detention Center (MDC) in Brooklyn and the Passaic
County Jail (Passaic) in Paterson, New Jersey. We chose these two facilities
because they held the majority of September 11 detainees and were the focus
of many complaints about detainee mistreatment.

       Our review did not seek to examine all aspects of the Department’s
terrorism investigation, including the specific investigative techniques involved
in the September 11 investigation or the decisions made by federal, state, and


       4   Turkmen v. Ashcroft, 02-civ-2307 (E.D.N.Y. filed April 17, 2002).

       5See, e.g., “Presumption of Guilt: Human Rights Abuses of Post-September 11
Detainees,” Human Rights Watch (August 2002); “A Year of Loss: Reexamining Civil Liberties
Since September 11,” Lawyers Committee for Human Rights (September 5, 2002).

        6 Pub. L. No. 107-56 (2001). The USA PATRIOT Act was signed by the President on

October 26, 2001, approximately six weeks after the September 11 terrorist attacks. The
Patriot Act provides new or enhanced law enforcement authorities, including the sharing of
foreign intelligence information, increased penalties for money laundering and other financial
crimes, and stricter controls on immigration. In addition, Section 1001 of the Patriot Act
directs the OIG to receive and review claims of civil rights or civil liberties violations by
Department employees.




                                                 3
local law enforcement on why to detain specific individuals.7 Additional issues
beyond the scope of this review include the reasons and justifications for the
Department’s decision to limit public release of information concerning arrests
related to the ongoing terrorism investigation, its decision to close immigration
proceedings to the public, and its use of voluntary interviews for certain
categories of aliens.8 Several lawsuits related to these issues are ongoing. In
addition, our review did not examine the Department’s use of material witness
warrants to detain certain individuals in connection with its terrorism
investigation, another issue currently being litigated in the courts.9

      Rather, our review focused on the treatment of aliens who were held on
federal immigration charges in connection with the September 11 investigation.
We examined the reasons why many of the detainees experienced prolonged
confinement. In addition, we examined the detainees’ conditions of
confinement, including their access to counsel, access to medical care, and
allegations of physical or verbal abuse by correctional officers.

       In this report, we discuss the actions of senior managers at the
Department, the FBI, the INS, and the BOP, who established the broad policies
and led the investigation in response to the September 11 attacks; the actions
of the INS, which processed and detained many of the aliens arrested in the
aftermath of September 11; and the actions of the BOP, which housed many of
the detainees.



       7
         Some constitutional arguments have been raised regarding the Department’s
treatment of September 11 detainees. The claims were made in a variety of contexts, some of
which are inapplicable in the immigration context and some of which are beyond the scope of
this report. Removal proceedings are matters of civil rather than criminal law. See INS v.
Lopez-Mendoza, 468 U.S. 1032, 1039 (1984). Because they are not criminal proceedings, some
constitutional protections that apply in the context of a criminal prosecution do not apply in a
removal proceeding. For example, immigration detainees have no Sixth Amendment right to
counsel. While they are permitted to be represented by an attorney, they must find and pay for
the attorney themselves, unlike in criminal cases where the Government provides defendants
with an attorney if they are unable to pay for counsel.

       8 For example, on November 9, 2001, the Department and the FBI sought voluntary
interviews with approximately 5,000 male visitors or foreign nationals between the ages of 18
and 33 who had entered the United States after January 2000 from countries “where there
have been strong al Qaeda presences.” See Attorney General John Ashcroft, Press Conference
(March 20, 2002).

       9 A material witness warrant can be obtained from a judge upon a showing that the

testimony of a person is material to a criminal proceeding and that it may become
impracticable to secure the presence of the person by subpoena. See 18 U.S.C. § 3144. A
person held on such a warrant is referred to as a “material witness.” See United States v.
Awadallah, 202 F. Supp. 2d. 55 (S.D.N.Y. 2002).




                                               4
       In conducting our review, we were mindful of the circumstances
confronting the Department and the country as a result of the September 11
attacks, including the massive disruptions they caused. The Department was
faced with monumental challenges, and Department employees worked
tirelessly and with enormous dedication over an extended period to meet these
challenges. It is also important to note that nearly all of the 762 aliens we
examined violated immigration laws, either by overstaying their visas, by
entering the country illegally, or some other immigration violation.

II. METHODOLOGY OF THIS REVIEW

       The OIG conducted interviews, fieldwork, and analysis for this review
from March 2002 until March 2003. As noted above, we focused on two
detention facilities, the MDC in Brooklyn, New York, and the Passaic County
Jail in Paterson, New Jersey. We chose the MDC because it housed 84 aliens
arrested in the aftermath of the September 11 terrorist attacks. In addition,
the MDC received widespread media coverage for allegations of abuse against
detainees and for the restrictive conditions of confinement it imposed on the
detainees. We selected Passaic because it housed 400 aliens arrested in
connection with the September 11 terrorism investigation – the most in any
single facility – and, like the MDC, was the subject of many media articles
regarding the treatment of detainees.

       In this review, “September 11 detainees” are defined as aliens held on
immigration violations in connection with the investigation of the September 11
attacks. The FBI categorized these aliens as either “of interest,” “of high
interest,” or “of undetermined interest” to its terrorism investigation. The INS
treated all three categories as “September 11 detainees,” and sometimes
referred to them as “special interest” or “of interest” detainees.10

       As noted above, the Department detained 762 aliens on immigration
charges in connection with its terrorism investigation between September 2001
and August 2002. From the total of 475 September 11 detainees held at the
MDC and Passaic,11 we selected a sample of 119 detainees – 53 held at the
MDC and 66 confined at Passaic – to examine their detention experiences in
detail.

      Our MDC sample of 53 detainees was composed of 19 aliens who were
being held at the facility during our site visit in May 2002; a random sample of
30 detainees previously held at the MDC but released or transferred prior to
       10 In this report we generally refer to all three FBI categories collectively as “of interest,”

unless otherwise noted.

       11   Nine September 11 detainees were held at both Passaic and the MDC.




                                                  5
our May 2002 visit; and 4 detainees whose experiences at the MDC were the
subject of media articles.

      Our Passaic sample of 66 detainees was composed of 30 aliens reportedly
held at the facility immediately prior to our site visit in May 2002; a random
sample of 30 detainees held at Passaic but released or transferred prior to our
May 2002 visit; and 6 detainees whose detentions at Passaic were the subject
of media articles.12

      We interviewed 32 detainees in these sample groups – 19 housed at the
MDC, 13 at Passaic – with their attorneys present if they requested. We also
separately interviewed seven immigration attorneys who represented
September 11 detainees held at the MDC or Passaic.

      In addition, we reviewed the INS Alien Files (known as “A-Files”) of 104
detainees from our sample of 119 September 11 detainees: 44 of the 53
detainees in our MDC sample and 60 of the 66 detainees in our Passaic
sample.13 The INS was unable to provide us with the remaining 15 A-Files for
these detainees. At the MDC and Passaic, we also reviewed the facilities’
records pertaining to the 119 detainees in our samples, including their
administrative, disciplinary, and medical files. In addition, we reviewed
available FBI Headquarters and FBI field office records for 54 September 11
detainees identified by the INS on January 23, 2002, as having been held
longer than 90 days after receiving voluntary departure or removal orders.14

       We also examined INS and BOP policies and procedures relating to
immigration charging, conditions of confinement, and access to counsel. These
included agency detention standards as well as specific policies applicable to
the MDC and Passaic that were developed prior to and after the September 11
attacks. We focused on how the BOP and INS implemented these standards,
and we examined the actions of managers at the Headquarters and local levels
regarding their adherence to these policies. In particular, we examined the
following documents during our analysis:

       •     A database maintained by the INS’s Custody Review Unit (CRU) that
             contains extensive INS records of the investigative and litigation
             histories of the September 11 detainees;


       12 The INS provided us with a list of 30 September 11 detainees who were being held at

Passaic in April 2002. However, when we conducted our site visit in May 2002, the INS had
released or transferred 17 of the 30 detainees.

       13   The A-File, maintained by the INS, contains an alien’s U.S. immigration history.

       14   See Chapter 6 for a discussion of final orders of removal.



                                                  6
       •    A second CRU-maintained database that depicts the detention history
            of each September 11 detainee;

       •    A document used by FBI Headquarters to track the status of the
            detainee clearance process;

       •    The list of September 11 detainees cleared of connections to terrorism
            by the FBI New York Field Office (this FBI office conducted clearance
            investigations on more than 500 of the 762 September 11 detainees);

       •    FBI Headquarters files for a sample of 54 September 11 detainees
            maintained by the unit that coordinated the detainee clearance
            process, as well as corresponding FBI field office files for 46 of those
            54 detainees; and

       •    The BOP’s list of September 11 detainees held at the MDC.

      In addition, we conducted more than 50 interviews of officials at the FBI,
INS, BOP, and the Department of Justice regarding their involvement in
developing and implementing the policies concerning the apprehension,
detainment, investigation, and adjudication of September 11 detainee cases.
Among the officials we interviewed were the Attorney General, the Deputy
Attorney General (DAG), the Associate Deputy Attorney General responsible for
immigration issues, and various officials in their offices; the Assistant Attorney
General for the Criminal Division and attorneys from the Criminal Division
involved in the September 11 investigation; the INS Commissioner; the INS
Executive Associate Commissioner for Field Operations, the INS General
Counsel, and a variety of other INS attorneys and staff; the FBI Director, the
former Deputy Director, General Counsel, and other FBI officials; the BOP
Director, the BOP’s Assistant Director for Correctional Programs, and other
BOP attorneys and staff; and officials in the Department’s Executive Office for
Immigration Review (EOIR).15 During our fieldwork at the MDC and Passaic,
we interviewed the wardens, supervisors, correctional officers, medical staff,
and other employees who had contact with or oversight of September 11
detainees. In addition, we interviewed managers and employees in the FBI’s
New York Field Office and Newark Field Office, the INS’s New York and Newark
District Offices, and the U.S. Attorney’s Office for the Southern District of
New York.16



        15 Throughout this report, most individuals are identified using the title they held at the

time of the event or action under examination.

        Organization charts for the Department, FBI, INS, and BOP are attached at
       16

Appendix C.



                                                7
      During our review, we also met several times with representatives of
Amnesty International and Human Rights Watch, who offered information and
discussed their concerns about the treatment of aliens arrested after
September 11. In addition, these organizations helped arrange interviews with
some September 11 detainees or their attorneys. We also met with
representatives from the American Civil Liberties Union, the Center for
Constitutional Rights, the Islamic Circle of North America, and the Legal Aid
Society.

III. ORGANIZATION OF THIS REPORT

       This report is organized into ten chapters and begins with this
introduction to the report. Chapter 2 describes the initial actions taken by the
Department in Washington, D.C., and New York City that affected the arrest,
detention, and investigation of the September 11 detainees. It discusses
demographic statistics on the September 11 detainees, including their age,
citizenship, location, and date of arrest. It also describes the procedure used
by the FBI, INS, and BOP to review and process aliens detained on immigration
charges in connection with the Department’s terrorism investigation.

       Chapter 3 discusses the charging of September 11 detainees with
immigration violations. We identify policies, procedures, and issues that
affected the timely charging of the detainees.

       Chapter 4 examines the development and implementation of the
Department’s “hold until cleared” policy for September 11 detainees. It
describes a series of operational orders issued by INS Headquarters to manage
September 11 detainees. It also examines the processes implemented by the
FBI to clear detainees of any connection to terrorism and the ramifications of
this procedure on the detainees’ length of confinement. We discuss why the
FBI New York Field Office and INS New York District Office initially developed a
separate list of September 11 detainees unbeknownst to FBI and INS
Headquarters officials and the problems this presented. In addition, we
describe the impact caused by the Department’s decision to require Central
Intelligence Agency (CIA) name checks for each of the detainees. The chapter
ends with an examination of the FBI’s development of a “watch list” and its
process for adding and removing names from that list.

      Chapter 5 begins with basic information about federal immigration law,
including the charging procedure for immigration violations, bond hearings,
and removal proceedings.17 It then examines the Department’s opposition to


       17 The 1996 amendments to the immigration laws combined “deportation” and
“exclusion” proceedings into “removal” proceedings. In this report, we use the term “removal
(cont’d)


                                              8
bond for September 11 detainees and the INS’s efforts to keep detainees in
custody.

      Chapter 6 discusses detainees with final removal and voluntary
departure orders, the Department’s decision to prevent removal of
September 11 detainees until they were cleared by the FBI, and the eventual
rescission of the policy. The chapter concludes with a review of the INS’s
compliance with a requirement that it conduct a review of the continued
detention of aliens held for 90 days after they received removal orders.

      Chapters 7 and 8 examine the conditions of confinement experienced by
September 11 detainees at the MDC and Passaic facilities. Chapter 7 evaluates
conditions at the MDC, including allegations of physical and verbal abuse,
access to legal counsel, medical care, recreation, and other issues. Chapter 8
examines similar issues for September 11 detainees confined at Passaic.

      In Chapter 9, we offer a series of recommendations to address the issues
discussed in this report. Chapter 10 provides our conclusions. The 11
Appendices contain a glossary of names (Appendix A) and terms (Appendix B),
organization charts, various memoranda, and sample INS forms.




proceedings” to refer to all proceedings that sought to deport, exclude, or remove aliens from
the United States.



                                               9
                                     CHAPTER TWO

                     ARREST AND PROCESSING OF ALIENS
                IN RESPONSE TO THE SEPTEMBER 11 ATTACKS

       This chapter describes the Department’s initial response to the terrorist
attacks. First, we examine the immediate actions taken by the FBI and INS in
New York City to arrest and detain aliens in connection with the terrorism
investigation. Next, we describe the Department’s philosophy as it related to
aliens arrested in connection with the terrorism probe, and we discuss some of
the processes developed at FBI and INS Headquarters to coordinate
information about these detainee cases. We also provide demographic
statistics about the September 11 detainees. In addition, we describe the
system used by the FBI, INS, and BOP to review and process aliens detained on
immigration charges in connection with the terrorism investigation.

I. INITIAL LAW ENFORCEMENT RESPONSE

   A. Initial FBI Response

      The FBI took the lead in investigating the September 11 attacks, an
investigation that became known as the Pentagon/Twin Towers Bombings
investigation, or PENTTBOM. The FBI’s investigation initially was affected by
the chaotic situation in New York City as a result of the terrorist attacks, which
displaced thousands of people from their homes and offices in lower
Manhattan. As a result of the attacks, the FBI was forced to evacuate its
New York City office in the Javits Federal Building at 26 Federal Plaza, seven
blocks from what became known as “Ground Zero.” Similarly, the INS was
forced to evacuate all detainees housed at its Service Processing Center at
201 Varick Street in Manhattan’s lower West Side.18

      The FBI’s focus immediately after the attacks was whether any of the
airplanes remaining in the air posed a threat. Once air traffic over the United
States had ceased completely, the FBI turned its attention to locating those
responsible for the terrorist attacks and preventing future attacks. During the
evening of September 11, the FBI New York Field Office moved telephones,
computers, facsimile machines, and other equipment into a temporary
command post in a parking garage ▀▀ ▀▀▀▀ ▀▀▀▀▀▀. In addition to the
▀▀▀▀ ▀▀▀▀▀▀ site, the FBI created command posts ▀▀ ▀▀▀ ▀▀▀▀▀▀▀▀

       18 INS Service Processing Centers process and detain illegal aliens who are awaiting
disposition of their immigration cases or awaiting removal from the country. A detainee could
be held at a Service Processing Center from one day to several years.



                                             10
▀▀▀▀▀▀▀ ▀▀▀ ▀▀▀▀▀▀▀▀ ▀▀ ▀▀▀ ▀▀▀▀▀▀ ▀▀▀▀▀ near midtown Manhattan
and at FBI offices in Queens and Long Island, New York.

        With the help of the airlines and the INS, the FBI quickly determined
the names used by the hijackers and immediately began to pursue leads
related to them. During this initial period, the overall terrorism investigation
was coordinated from the FBI’s high-security Strategic Information and
Operations Center (SIOC) located at FBI Headquarters in Washington, D.C.
The FBI Headquarters in Washington, D.C. coordinated the New York aspects
of the terrorism investigation through the FBI’s New York Joint Terrorism Task
Force (JTTF), a group composed of a variety of law enforcement agencies
including the INS, the New York Police Department, and the Drug Enforcement
Administration.19 In addition, prosecutors from the U.S. Attorney’s Office for
the Southern District of New York (SDNY) and the Eastern District of Virginia,
in conjunction with the Department’s Criminal Division, worked closely with
the New York JTTF to direct major aspects of the terrorism investigation from
both Washington, D.C., and New York City.

      The day after the attacks, officials at FBI Headquarters began developing
a “watch list” that initially was designed to identify potential hijackers and
other individuals who might be planning additional terrorist acts once air travel
resumed. By September 14, the FBI had forwarded the watch list, which at
this point contained more than 100 names, to the Federal Aviation
Administration, commercial airlines, FBI field offices, the U.S. Border Patrol,
the U.S. Customs Service, and 18,000 state and local police departments
across the country. According to FBI Director Robert Mueller, the watch list
ultimately contained the names of “individuals the FBI would like to talk to
because we believe they have information that could be helpful to the
[PENTTBOM] investigation.”20

      The FBI allocated massive resources to the September 11 terrorism
investigation. Within 3 days of the attacks, more than 4,000 FBI special agents
and 3,000 support personnel were assigned to work on the PENTTBOM probe.
Six days after the attacks, FBI Director Mueller reported that more than 500

       19 Each of the FBI’s 56 domestic field offices now leads a JTTF in its respective
geographic area of responsibility. The FBI’s New York Division formed the first JTTF in 1980.
Participants in JTTFs include the INS; U.S. Secret Service; Naval Criminal Investigative Service;
U.S. Marshals Service; U.S. Customs Service; Bureau of Alcohol, Tobacco, and Firearms; U.S.
Department of State/Diplomatic Security Service; Offices of Inspectors General; Postal
Inspection Service; Internal Revenue Service; Department of Interior Bureau of Land
Management; Air Force Office of Special Investigations; U.S. Park Police; Federal Protective
Service; Defense Criminal Investigative Service; and other federal, state, and local law
enforcement agencies.

       20FBI Director Robert Mueller, Press Conference at FBI Headquarters (September 14,
2001). We discuss the development and eventual dissolution of this watch list in greater detail
in Chapter 4.


                                               11
people representing 32 federal, state, and local law enforcement agencies were
working 24 hours a day at FBI Headquarters. By September 18, 2001, 1 week
after the attacks, the FBI had received more than 96,000 tips or potential leads
from the public, including more than 54,000 through an Internet site it
established for the PENTTBOM case, 33,000 that were forwarded directly to
FBI field offices across the country, and another 9,000 tips called into the FBI’s
toll-free “hotline.”

   B. Department of Justice Response

       In response to the September 11 attacks, the Attorney General directed
all Department of Justice components to focus their efforts on disrupting any
additional terrorist threats. As articulated in a September 17, 2001,
memorandum to all United States Attorneys from Attorney General Ashcroft,
the Department sought to prevent future terrorism by arresting and detaining
violators who “have been identified as persons who participate in, or lend
support to, terrorist activities. Federal law enforcement agencies and the
United States Attorneys’ Offices will use every available law enforcement tool to
incapacitate these individuals and their organizations.” Given the identities of
the September 11 terrorists, the Department recognized from the earliest days
that its terrorism investigation had a significant immigration law component.

     The Attorney General summarized the Department’s new focus in a
speech he gave to the U.S. Conference of Mayors on October 25, 2001:

         Forty years ago, another Attorney General was confronted with a
         different enemy within our borders. Robert F. Kennedy came to the
         Department of Justice at a time when organized crime was
         threatening the very foundations of the Republic...

         Robert Kennedy’s Justice Department, it is said, would arrest
         mobsters for “spitting on the sidewalk” if it would help in the battle
         against organized crime. It has been and will be the policy of this
         Department of Justice to use the same aggressive arrest and
         detention tactics in the war on terror.

         Let the terrorists among us be warned: If you overstay your visa –
         even by one day – we will arrest you. If you violate a local law, you
         will be put in jail and kept in custody as long as possible. We will use
         every available statute. We will seek every prosecutorial advantage.
         We will use all our weapons within the law and under the
         Constitution to protect life and enhance security for America.

         In the war on terror, this Department of Justice will arrest and detain
         any suspected terrorist who has violated the law. Our single objective
         is to prevent terrorist attacks by taking suspected terrorists off the


                                       12
         street. If suspects are found not to have links to terrorism or not to
         have violated the law, they are released. But terrorists who are in
         violation of the law will be convicted, in some cases deported, and in
         all cases prevented from doing further harm to Americans.

       The Attorney General told the OIG that he instructed that if, during the
course of the investigation, aliens were encountered who had violated the law,
they should be charged with appropriate violations, particularly if the alien had
a relationship to the September 11 attacks.

       The Deputy Attorney General explained to the OIG that the threat
presented by terrorists who carried out the September 11 attacks required a
different kind of law enforcement approach. He stated that the Department
needed to disrupt such persons from carrying out further attacks by turning its
focus to prevention, rather than investigation and prosecution.

       Michael Chertoff, the Assistant Attorney General for the Criminal
Division, told the OIG that within days of the attacks it became evident that
some aliens encountered in connection with the PENTTBOM investigation were
“out of status” in violation of the law – a matter that fell within the jurisdiction
of the INS. He stated the Department’s policy was to “use whatever means
legally available” to detain a person linked to the terrorists who might present a
threat and to make sure that no one else was killed. In some instances, he
noted, that would mean detaining aliens on immigration charges, and in other
cases criminal charges. Chertoff said he did not believe that the Department
had a blanket policy to go with one or the other, if both were possible. He said
he understood the Department would use whichever charge was most
“efficacious.” He stated that he was involved in meetings with the Attorney
General, the Deputy Attorney General, and the FBI Director at which this
philosophy was discussed, but he added that, from the beginning, there was an
insistence from senior Department officials that things be done legally.
Chertoff explained that his deputy, Alice Fisher, was placed in charge of
immigration issues for the Criminal Division.

       Fisher told the OIG that during the fall of 2001 she spent the “majority”
of her time on terrorism issues, some of which involved illegal aliens who
presented a potential terrorism threat. She recalled that Chertoff told her “we
have to hold these people until we find out what is going on.” She said she
understood that the Department was detaining aliens on immigration violations
that generally had not been enforced in the past.

   C. New York FBI’s Response

       The FBI Field Office in New York City and its JTTF received thousands of
leads from the public related to terrorism in the weeks after September 11.
Staff at the New York JTTF command post entered the leads into an FBI


                                        13
database that assigned each PENTTBOM lead a unique number. Leads then
were sent to one of the four FBI command posts in the New York City area and
assigned to a JTTF team that included FBI and INS agents, among other law
enforcement personnel.

       Many of the leads pursued by the JTTF in New York City and elsewhere
across the country involved aliens, many from countries with large Arab or
Muslim populations. If JTTF teams in New York encountered an illegal alien in
the course of pursuing a PENTTBOM lead – whether or not the alien was the
subject of the lead – the INS agent on the team examined the alien’s
immigration and identity documents to determine whether the alien was
lawfully in the United States. If an INS agent was not present during the
JTTF’s initial interview of the individual, the team notified the INS New York
District Office, which dispatched an INS agent to determine the alien’s
immigration status. The team would arrest any alien encountered in the
course of investigating a JTTF or PENTTBOM lead who was found to be in the
country illegally.

       Many of the aliens arrested under these circumstances were put into a
special category referred to as persons “of interest” to the FBI. Their names
were placed on a list referred to as “the INS Custody List.” The INS and FBI did
not always agree on which aliens should be included on the list, and we found
that the cases were not handled uniformly nationwide. The complexities of
how a person came to be included in this special category of immigration
detainees is discussed in detail in Chapter 4, where we also examine some of
the problems that arose from creation of this category of detainees. Moreover,
as we describe later in this report, being labeled “of interest” had significant
ramifications for the detainees’ place and length of detention. The Department
severely limited these detainees’ ability to obtain bond, and detainees on this
list could not be removed from the United States without a written “clearance
letter” from the FBI. These requirements created substantial obstacles for
detainees who sought release or removal. We describe these issues in more
detail in the chapters that follow.

       In conjunction with the New York FBI’s JTTF, the U.S. Attorney’s Office
for the SDNY immediately began to investigate the terrorist attacks. David
Kelley, the Deputy United States Attorney for the SDNY, helped direct the
search warrants, subpoenas, and material witness warrants in the Southern
District and also participated in the supervision of the PENTTBOM task force in
Washington, D.C. Within one to three days after the attacks, Kelley explained,
he focused on individuals “really” of “investigative interest” (as opposed to those
simply labeled “special interest” by the FBI or the INS). He explained that
individuals of “genuine investigative interest” were people connected to a
subject or target of the investigation, such as a person whose telephone
number was linked to a hijacker, or a person who lived in a building near a
location of high interest.


                                        14
   D. SIOC Working Group

      Within one week of the attacks, a group was established by Deputy
Assistant Attorney General Alice Fisher to coordinate efforts among the various
components within the Department that had an investigative interest in or
responsibility for the September 11 detainees. This group became known as
the “SIOC Working Group” because its initial meetings took place in the FBI’s
SIOC. In addition to the FBI, the Working Group included staff from the INS;
the Department’s Office of Immigration Litigation (OIL); the Terrorism and
Violent Crime Section (TVCS) of the Department’s Criminal Division, which
reported directly to Fisher; and the Office of the Deputy Attorney General.21

       The SIOC Working Group met daily during the first months after the
attacks, and sometimes multiple times within a single day. As one of its
duties, the group coordinated information and evidence sharing among the
FBI, INS, and U.S. Attorneys’ offices related to the September 11 detainees. As
discussed in detail in Chapter 4, the group sought to ensure that aliens
detained as part of the PENTTBOM investigation would not be released until
they were cleared by the FBI of involvement with the September 11 attacks or
terrorism in general. FBI participants from its Office of General Counsel
assisted in preparing affidavits to support INS opposition to bond for these
detainees, while FBI agents coordinated with FBI field offices to obtain
information regarding clearance investigations for detainees. INS attorneys on
the SIOC Working Group served as a link to INS Headquarters and its field
offices. The assessments of individual detainee cases communicated by the
FBI to the INS at the SIOC Working Group, as we describe later, had a
significant impact on detainees’ ability to obtain bond or be removed from the
United States.

      The FBI created an “INS Detainee Unit” in October 2001 located in the
SIOC to handle detainee cases. This group, staffed by FBI special agents and
others from the FBI Counterterrorism Division, worked closely with the SIOC
Working Group to handle detainee matters.

II. ARRESTS OF SEPTEMBER 11 DETAINEES

      For the most part, the 762 aliens classified as September 11 detainees
were arrested by FBI-led terrorism task forces pursuing investigative leads and
were held on valid immigration charges.22 These leads ranged from information

         21 OIL is the unit within the Department’s Civil Division that handles immigration

litigation, while TVCS assists federal prosecutors nationwide in prosecuting terrorism cases.

       22 We found one instance in which a September 11 detainee was held for over 72 hours
before being released, despite the fact that there was no valid immigration charge.


                                              15
obtained from searches of the hijackers’ cars and personal effects to
anonymous tips called in by members of the public suspicious of Arab and
Muslim neighbors who kept odd schedules.

       In New York, the JTTF moved aggressively to pursue the thousands of
PENTTBOM leads that poured into the FBI in the days and weeks after the
terrorist attacks. Witnesses both inside and outside the FBI told us that given
the wide-ranging nature of the terrorism probe, the FBI interpreted and applied
the term “of interest to the September 11 investigation” quite broadly. For
example, a supervisory special agent in the FBI’s New York Field Office who
was in charge of the unit responsible for detainee clearance investigations told
the OIG that if JTTF agents searching for a particular person on a PENTTBOM
lead arrived at a location and found a dozen individuals out of immigration
status, each of them were considered to be arrested in connection with the
PENTTBOM investigation. He said no distinction generally was made between
the subjects of the lead and any other individuals encountered at the scene
“incidentally,” because the FBI wanted to be certain that no terrorist was
inadvertently set free. Consequently, he said all of the aliens in the above
situation would be arrested on immigration charges and treated as “of interest”
to the September 11 investigation because there was no way to tell who might
be an associate of the subject of the lead.

       PENTTBOM leads that resulted in the arrest of a September 11 detainee
often were quite general in nature, such as a landlord reporting suspicious
activity by an Arab tenant. For example, several Middle Eastern men were
arrested and treated as connected to the September 11 investigation when local
law enforcement authorities discovered “suspicious items,” such as pictures of
the World Trade Center and other famous buildings, during traffic stops.
Similarly, local police stopped three Russian tourists because they were
observed photographing “sensitive” locations in New York City, such as the
Holland Tunnel. Another man was arrested on immigration charges and
labeled a September 11 detainee when authorities discovered that he had taken
a roll of film to be developed and the film had multiple pictures of the World
Trade Center on it but no other Manhattan sites. This man’s roommates also
were arrested when law enforcement authorities found out they were in the
United States illegally, and they too were considered September 11 detainees.

      September 11 detainees and other witnesses interviewed by the OIG
provided additional examples of how some aliens were arrested and labeled
“September 11 detainees,” including:

   •   Shortly before the September 11 attacks, an alien from ▀▀▀▀▀, who
       worked at a ▀▀▀ ▀▀▀▀▀▀▀, struck up a conversation with a ▀▀▀▀▀▀▀▀
       who paid for a purchase using an aviation-related credit card. During
       the conversation, the alien allegedly told the ▀▀▀▀▀▀▀ that he would



                                      16
        like to learn how to fly an airplane. After the September 11 attacks, the
        ▀▀▀▀▀▀▀▀ called the FBI and recounted his conversation with the ▀▀▀
        ▀▀▀▀▀▀▀ ▀▀▀▀▀▀▀▀▀. The INS subsequently arrested the alien when
        it determined he was out of immigration status, and he was considered a
        September 11 detainee.

    •   Another alien treated as a September 11 detainee was arrested at his
        apartment in ▀▀▀▀▀▀ a few days after a caller told the FBI that “two
        Arabs” rented a truck from his ▀▀▀ ▀▀▀▀ vehicle rental business on
        September ▀▀ for a one way trip to a ▀▀▀▀▀▀▀▀ city, and then returned
        it ▀▀ minutes later having gone only ▀ miles. They were, according to
        the caller, “extremely nervous,” and did not argue when told they would
        not be refunded the hundreds of dollars they had paid for the rental.

    •   Another alien was arrested, detained on immigration charges, and
        treated as a September 11 detainee because a person called the FBI to
        report that the ▀▀▀▀▀▀▀▀ grocery store in which the alien worked, “is
        operated by numerous Middle Eastern men, 24 hrs – 7 days a week.
        Each shift daily has 2 or 3 men. . . . Store was closed day after crash,
        reopened days and evenings. Then later on opened during midnight
        hours. Too many people to run a small store.”

III. ASSIGNMENT TO A DETENTION FACILITY

        Our review determined that September 11 detainees arrested in
 New York City generally were confined at the MDC or transported to Passaic
 and other INS contract facilities in northern New Jersey. The housing
 determination for a September 11 detainee was the result of a two-step process
 that began with the FBI’s assessment of the detainee’s possible links to
 terrorism. The FBI provided this assessment to the INS, which made the
 actual housing determination. Witnesses told the OIG that the INS’s
 determination was based almost solely on the FBI’s assessment.

        Where a September 11 detainee was housed had significant ramifications
 on the detainee’s detention experiences. Detainees housed at the MDC
 (discussed in Chapter 7) experienced much harsher confinement conditions
 than those held at Passaic (discussed in Chapter 8). The September 11
 detainees held at the MDC were locked down 23 hours a day, were placed in
 four-man holds during movement, had restricted phone call and visitation
 privileges, and had less ability to obtain and communicate with legal counsel.

        A. FBI Assessment

      The first part of the process to determine where a September 11 detainee
 would be confined began with the FBI’s initial assessment of the detainee’s



                                         17
links to the PENTTBOM investigation or ties to terrorism. The FBI assessed a
detainee as “high interest,” “of interest,” or “interest undetermined.” The “high
interest” detainees were considered by the FBI to have the greatest potential to
be linked to the PENTTBOM investigation or to terrorism. The FBI believed the
“of interest” detainees might have some terrorist connections. For the “interest
undetermined” detainees, the FBI could not affirmatively state that the
detainee did not have a connection to the September 11 attacks. As we discuss
in Chapter 4, this assessment was not based on specified criteria or
consistently applied to all detainees. In addition, the INS was not authorized to
release a September 11 detainee until the FBI completed its clearance
investigation because of the concern about inadvertently releasing a terrorist.
Therefore, the FBI in New York City never labeled a detainee “no interest” until
after the clearance process was complete.

      Almost all the September 11 detainees in our review were arrested by the
INS. Often an FBI agent present at the arrest provided the INS with a verbal
assessment of the FBI’s level of interest in the particular detainee. However,
we found that this initial assessment often was based on little or no concrete
information tying the detainee to the September 11 attacks or terrorism.

      B. INS Housing Determination

       After the INS arrested September 11 detainees, they were taken to an
immigration processing center, such as the INS’s Service Processing Center on
Varick Street in New York City, to complete arrest and initial detention
processing (after the attacks the Center no longer housed detainees, but
remained open for processing). The FBI New York Field Office identified its
level of investigative interest in the detainee to the FBI’s International
Terrorism Operations Section (ITOS) at FBI Headquarters, which informed,
usually verbally, the INS’s National Security Unit (NSU). The information
passed to the NSU by the FBI included a request that detainees of “high
interest” be housed at the MDC.

        From September 11 to 21, 2001, INS Executive Associate Commissioner
for Field Operations Michael Pearson made all decisions regarding where to
house September 11 detainees. According to Daniel Cadman, the NSU
Director, NSU staff provided briefings to Pearson that consisted of the FBI’s
assessments, other derogatory information obtained during the investigation (if
any), and the security risk posed by the detainee (if known). Based on this
information, Pearson decided whether a detainee should be confined at a BOP
facility (such as the MDC), an INS facility, or an INS contract facility (such as
Passaic). Pearson’s decision was relayed to the INS New York District, which
transferred the detainees to the appropriate facility.

      The INS’s housing determination process changed on September 21,
2001, when the INS created the Custody Review Unit (CRU) at Headquarters


                                       18
and appointed three INS District Directors to make detainee housing
determinations based on input provided by the FBI. At this point, Pearson
removed himself from this decision-making process.

       We were also told that some detainee housing determinations were made
outside the process described above. Dan Molerio, Assistant District Director
for Investigations in the INS New York District, said three Assistant U.S.
Attorneys from the Southern District of New York detailed to the FBI
Headquarters contacted him on a number of occasions and identified “high
interest” detainees held by the INS in New York. Molerio said the FBI’s
Assistant Special Agent in Charge for Counterterrorism in New York also called
him on several occasions about “high interest” detainees. Molerio said when
the FBI told him a detainee was “high interest,” he would ensure that the
detainee was sent to the MDC.

      In sum, even though the INS established a process for making housing
determinations, the INS’s decision was based almost entirely on the FBI’s
assessment.

      C. BOP Confinement Decisions

      Soon after the September 11 attacks, the BOP made several decisions
regarding the detention conditions it would impose on the September 11
detainees. These decisions (discussed in more detail in Chapter 7) included
housing the detainees in the administrative maximum (ADMAX) Special
Housing Unit (SHU), implementing a communications blackout, and classifying
the detainees as Witness Security (WITSEC) inmates. According to Michael
Cooksey, the BOP’s Assistant Director for Correctional Programs, the BOP
decisions were based on the BOP’s concerns about potential security risks
posed by the September 11 detainees. He said the BOP made the decision to
impose strict security conditions in part because the FBI provided so little
information about the detainees and because the BOP did not really know
whom the detainees were. He said the BOP chose to err on the side of caution
and treat the September 11 detainees as high-security detainees. He said that
the Department was aware of the BOP’s decision to house the September 11
detainees in high-security sections in various BOP facilities. Cooksey said the
BOP did not treat the September 11 detainees different than “regular” high-
security inmates.

       BOP Director Kathy Hawk Sawyer told the OIG that officials in the
Deputy Attorney General’s Office contacted her to discuss specific detainees’
ability to communicate with other inmates and with the outside world. She
said she understood from these conversations that the Department wanted the




                                      19
 BOP to limit, as much as possible within their lawful discretion, the detainees’
 ability to communicate with other inmates and with people outside the MDC.23

        D. Department of Justice’s Role

        Witnesses told us that the Department of Justice had little input into
 where the detainees were held. For example, Chertoff, the Assistant Attorney
 General in charge of the Criminal Division, said he did not have any
 information about where or how the detainees would be held, with the
 exception of one conversation in which he was told that an alien had claimed
 he was hurt by a guard. He said that he was later told that the report was
 inaccurate, and that the alien had not made such an accusation. David
 Israelite, Deputy Chief of Staff to the Attorney General, said he could not recall
 any discussions of holding people “incommunicado” or any discussion of where
 detainees should be held. He also recalled one allegation of mistreatment being
 called to the attention of the Attorney General, who he said asked staff to look
 into the incident.

        Alice Fisher, the Deputy Assistant Attorney General who was in charge of
 terrorism issues for the Criminal Division, stated that she had no information
 about which facility a detainee would go to or the conditions that would be
 imposed on the detainees. She noted that there was an “effort” to
 accommodate the needs of the Assistant U.S. Attorneys who were conducting
 the grand jury investigation into the attacks. David Kelley, the Deputy U.S.
 Attorney for the SDNY who played an important role in the September 11
 investigation, said he had no input into where people would be confined, except
 that a person might be moved to the New York area if he was needed to testify.
 An Assistant U.S. Attorney from the SDNY who worked on the terrorism
 investigation explained that he generally did not have input into where
 detainees would be held. He recalled being frustrated that the BOP did not
 distinguish between detainees who, in his view, posed a security risk and those
 detained aliens who were uninvolved witnesses.

IV. DEMOGRAPHICS OF SEPTEMBER 11 DETAINEES

      The 762 September 11 detainees we reviewed were almost exclusively
 men, ▀▀▀▀ ▀▀▀ ▀▀▀▀ ▀▀▀▀▀▀▀▀▀ ▀▀▀▀▀ ▀ ▀▀▀▀▀▀ ▀▀▀ ▀▀▀ ▀▀▀
 ▀▀▀▀▀▀▀▀ ▀▀ ▀▀▀▀▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀▀ ▀▀▀▀ ▀▀▀ ▀▀▀▀ ▀▀▀▀ ▀ ▀▀▀▀▀
 ▀▀▀▀▀▀ ▀▀▀▀▀ ▀▀▀▀▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀▀ ▀▀▀ ▀▀▀▀▀ ▀▀▀ ▀▀▀
 ▀▀▀▀▀▀▀▀ ▀▀ ▀▀▀ ▀▀▀ ▀▀ ▀▀▀▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀▀ ▀▀▀ ▀▀▀▀▀▀▀▀ ▀▀
 ▀▀▀▀ ▀▀ ▀▀▀▀▀▀▀ ▀▀ ▀▀▀▀.


        23We discuss Hawk Sawyer’s conversations with Christopher Wray, Principal Associate
 Deputy Attorney General, and David Laufman, Chief of Staff to the Deputy Attorney General, in
 Chapter 7.


                                              20
      The age of the detainees varied, although most, 479 (or 63 percent), were
between 26 and 40 years old. However, many of the detainees were much
older. ▀▀ ▀▀▀▀▀ ▀▀▀▀ ▀▀ ▀▀ ▀▀▀ ▀▀▀ ▀▀▀▀▀▀▀▀▀ ▀▀▀ ▀ ▀▀▀▀▀▀▀▀
▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀ ▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀ ▀▀▀ ▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀▀▀▀▀▀
▀▀▀▀ ▀▀▀▀▀▀▀▀▀ ▀▀▀▀ ▀▀▀▀ ▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀▀▀ ▀▀▀▀ ▀ ▀▀▀
▀▀▀▀▀▀▀▀▀ ▀▀▀▀ ▀▀▀▀ ▀▀▀▀▀ ▀ ▀ ▀▀▀▀ ▀▀ ▀▀▀▀▀ ▀▀▀ ▀▀ ▀▀▀▀▀▀▀▀
See Figure 1.


                                                   Figure 1
                                  Age Ranges for the September 11 Detainees

                200                                                                        170
                                                                   161
                                                                                                               148
                150

                100

                    50                  Redacted                                                                                                     Redacted
                                       0     0                                                                                   0               0        0                              0             0
                     0
                                                                  26-30


                                                                                         31-35


                                                                                                          36-40
                                ###


                                                 ###




                                                                                                                           ###


                                                                                                                                           ###


                                                                                                                                                           ###


                                                                                                                                                                                 ###


                                                                                                                                                                                                    ###
      The September 11 detainees were citizens of more than 20 countries.
The largest number, 254 or 33 percent, came from Pakistan, more than double
the number of any other country. The second largest number (111) came from
Egypt. Nine detainees were from Iran and six from Afghanistan. In addition,
29 detainees were citizens of Israel, the United Kingdom, and France. See
Figure 2.


                                                            Figure 2
                                            Nationality of September 11 Detainees
              300
              250
              200
              150
              100
               50
                0
                                                                  INDIA




                                                                                                                                          IRAN




                                                                                                                                                                                               UK
                                                 JORDAN




                                                                                                     TUNISIA
                                                                                                               SYRIA
                               EGYPT




                                                          YEMEN




                                                                                           MOROCCO




                                                                                                                                 ISRAEL




                                                                                                                                                          ALGERIA




                                                                                                                                                                                                             OTHER
                                                                                                                                                 GUYANA
                    PAKISTAN


                                        TURKEY




                                                                          SAUDI ARABIA




                                                                                                                       LEBANON




                                                                                                                                                                                                    FRANCE
                                                                                                                                                                                 AFGHANISTAN
                                                                                                                                                                    BANGLADESH




      The arrest location of a September 11 detainee proved significant
because it determined which FBI field office had responsibility for, among other
things, investigating the detainee for any connections to terrorism (the
“clearance process” that we examine in detail in Chapter 4). By far the


                                                                                                               21
majority of detainees were arrested in New York (491 of 762, or 64 percent),
followed by New Jersey with 70 detainee arrests, ▀▀▀▀▀▀▀ with 38, ▀▀▀▀▀
with 28, and ▀▀▀▀▀▀▀▀▀▀ with 16. See Figure 3.

                                                                    Figure 3
                                                   Arrest Location of September 11 Detainees
           500   491
           450
           400
           350
           300
           250
           200
           150
           100                           70
            50                                         38                    28                 16                12         9          7            7               5                    5                 5                       5
             0
                 NY

                                        NJ

                                                    Redacted

                                                                          Redacted

                                                                                            Redacted

                                                                                                            Redacted

                                                                                                                       Redacted

                                                                                                                                   Redacted

                                                                                                                                                Redacted

                                                                                                                                                               Redacted

                                                                                                                                                                                     Redacted

                                                                                                                                                                                                       Redacted

                                                                                                                                                                                                                            Redacted
      The timing of detainee arrests shows that 658 detainees (86 percent)
were arrested in the first 3 months after the terrorist attacks. See Figures 4
and 5 for information on the numbers of September 11 detainees arrested by
week and month. The most detainees arrested in a single week – 85 – were
arrested during the week after the September 11 attacks.


                                                                  Figure 4
                                                   September 11 Detainee Arrests (By Week)

                 90
                 80
                 70
                 60
                 50
                 40
                 30
                 20
                 10
                 0
                      Sep 11-17, 2001




                                                                                                                                     Mar 2002




                                                                                                                                                                          May 2002
                                                               Nov 2001




                                                                                                                        Feb 2002
                                                                                                       Jan 2002




                                                                                                                                                    Apr 2002




                                                                                                                                                                                                Jun 2002
                                                                                     Dec 2001




                                                                                                                                                                                                                  After July 2002
                                        Oct 2001




                                                                                                                       22
                                                 Figure 5
                                 September 11 Detainee Arrests (By Month)*

              350

              300

              250

              200

              150

              100

               50

                0

                                                                                      Mar 2002




                                                                                                            May 2002
                                          Nov 2001




                                                                           Feb 2002
                    Sep 2001




                                                                Jan 2002




                                                                                                                       Jun 2002
                                                     Dec 2001




                                                                                                 Apr 2002




                                                                                                                                  Jul 2002
                               Oct 2001




             * Detainee arrest data for the month of September 2001 is as of
               September 11, 2001.

V. PROCESSING OF SEPTEMBER 11 DETAINEES FROM ARREST TO
   CLEARANCE

         Perhaps the factor that most significantly affected the length of a
 September 11 detainee’s confinement was the nature of the multi-step, multi-
 agency process used by the Department for handling aliens detained as part of
 its terrorism investigation. The OIG developed the following flow chart
 (Figure 6) to depict the process for handling September 11 detainees from their
 initial encounter with law enforcement authorities through their release from
 custody or removal from the United States. The chart displays the process
 used by the Department to investigate PENTTBOM leads, arrest September 11
 detainees, determine where to house them, conduct detainee clearance
 investigations, complete the INS hearings and removal proceedings, and
 remove the detainees.24




        24 The chart depicts the process for September 11 detainees held at the MDC or Passaic.
 Some detainees only went through part of this process, depending on their individual
 immigration cases and the progress of their FBI clearance checks. The “BOP Process” shown in
 the chart applied only to those detainees housed at the MDC.


                                                                           23
24
      The following steps describe the procedures depicted by this chart:

Arrest Process:

   1. U.S. law enforcement received information regarding an individual who
      may have connections to the September 11 attacks or terrorism in
      general (a PENTTBOM lead).

   2. If deemed worthy of investigation, the responsible FBI field office
      assigned the lead for investigation (in New York City, generally to the
      JTTF).

   3. Law enforcement personnel interviewed the individual, and an INS agent
      determined his immigration status. The subject was released if the FBI
      expressed no investigative interest related to the terrorism probe and the
      individual had not violated his immigration status.

   4. If the INS agent determined that the alien was in violation of immigration
      status, the INS agent took the alien into custody and asked the FBI for
      an assessment of its interest in the alien with respect to the terrorism
      investigation.

   5. The FBI determined its level of interest in the alien: generally “of
      interest,” “high interest,” “no interest,” or “undetermined.” Based on this
      assessment by the FBI, “high interest detainees” were sent to BOP high-
      security facilities, while “of interest” and “interest unknown” detainees
      generally were housed in less restrictive facilities, such as county jails
      under contract to the INS.

FBI Clearance Process:

   1. After the FBI received the detainee’s A-File from the INS, the FBI initiated
      detainee clearance investigations and notified the SIOC Working Group
      that the alien was in custody. The Department had issued a standing
      order that detainees were not to be released until clearance
      investigations were completed.

   2. The SIOC Working Group requested CIA checks on the detainee.

   3. If clearance investigations and CIA checks on the detainee were clear, the
      detainee was determined to be of “no interest” to the FBI.

   4. The FBI’s ITOS decided the final clearance of a September 11 detainee
      and issued a formal FBI clearance letter, signed by the ITOS Section
      Chief. Until the FBI issued the clearance letter, the Department did not
      allow the INS to remove the detainee.


                                       25
   5. The SIOC Working Group forwarded the FBI clearance letter to the INS or
      BOP, whichever agency was holding the alien. If the BOP was holding
      the alien, BOP Headquarters then issued its clearance memorandum to
      the BOP facility, called a “Cooksey memorandum,” notifying the
      appropriate warden that a detainee was eligible for release into the
      facility’s general population.25

INS Immigration Process:

   1. After INS Headquarters review, the INS District Director in the INS
      district where the September 11 detainee was arrested issued the
      charging document to the detainee (known as the “Notice to Appear” or
      NTA) that describes the immigration laws the detainee has allegedly
      violated. The INS initially held all September 11 detainees without bond,
      but the detainees were able to request bond re-determination hearings
      before an Immigration Judge after receiving the NTA and accompanying
      documents.

   2. An Immigration Judge conducted a hearing on the detainee’s alleged
      immigration violations (a “merits hearing”) to determine whether the
      detainee should be removed from the United States.

   3. The Immigration Judge issued a final order removing the detainee or
      permitting the detainee to leave the country voluntarily.

   4. INS Headquarters issued its clearance memorandum – known as the
      “Pearson memorandum” – to the appropriate INS Region Office.26
      Issuance of the INS clearance letter was predicated on the INS receiving a
      clearance letter from the FBI stating that it had “no interest” in the
      detainee, as described above.

   5. The alien was either removed from the United States, allowed to depart
      voluntarily, or released from INS custody.

      The impact of each of these procedures on the length of the
September 11 detainees’ detentions and their conditions of confinement is
discussed in detail in the chapters that follow.




       25 Cooksey memoranda were signed by Michael Cooksey, the BOP Assistant Director for

Correctional Programs.

      26 Pearson memoranda were signed by Michael Pearson, then the INS Executive
Associate Commissioner for Field Operations.


                                           26
                                     CHAPTER THREE

                     CHARGING OF SEPTEMBER 11 DETAINEES

      The INS arrested hundreds of aliens in New York City and across the
country in the aftermath of the September 11 terrorist attacks, most often
while working as part of a Joint Terrorism Task Force. While some of these
arrests resulted in criminal charges, the vast majority of September 11
detainees were charged with civil violations of federal immigration law,
including: 1) staying past the expiration date on their visas, 2) entering the
country without inspection, or 3) entering the country with invalid immigration
documents.

      Service of the charging document by the INS – called the “Notice to
Appear” or NTA – provided the detainees with their first clear description of the
charges they faced. Because the Department initially opposed bond for all
September 11 detainees, service of the NTA and associated documents provided
detainees their first opportunity to seek release by requesting a bond
re-determination hearing before an Immigration Judge.27

      In this chapter, we examine the INS’s provision of NTAs for September 11
detainees held on immigration violations. We also identify the policies,
procedures, and timeliness of the INS’s charging decisions, and we examine
reasons for the delay in charging experienced by some detainees. In addition,
we discuss efforts by officials at INS Headquarters to review and approve
charging documents for all September 11 detainees and the impact this
Headquarters review had on the timely serving of NTAs and associated
documents.

I. INS REGULATIONS AND POLICIES GOVERNING THE TIMING OF
   CHARGING DECISIONS

   A. The Charging Determination

      After an alien is arrested, the INS must decide whether to charge the
alien with violating federal immigration law.28 If the INS decides that

       27   A blank NTA form is attached at Appendix D.

         28 Section 236A of the Patriot Act provides that the Attorney General may “certify” an

alien if he has “reasonable grounds to believe” that the alien has violated any of the
enumerated immigration provisions (all of which relate to terrorism, espionage, or national
security), or if the Attorney General has “reasonable grounds to believe” that the alien “is
engaged in any other activity that endangers the national security of the United States.” Any
(cont’d)


                                               27
immigration charges are warranted, it initiates a removal proceeding by serving
the NTA on the alien and the Immigration Court. The NTA must include the
alien’s specific acts or conduct alleged to be in violation of the law. While an
INS agent arrests the alien, an INS District Director, or his designee, makes the
charging determination.29

      Prior to the September 11 attacks, the INS was required by federal
regulation to make this charging determination within 24 hours of arresting an
alien. See 8 C.F.R. § 287.3(d). Within days of the September 11 attacks, the
INS found that meeting this 24-hour timetable would be difficult, given the
number of aliens arrested and the prospects of significantly more alien arrests.

      As a result, on September 17, 2001, the Department issued a new
regulation that changed the time by which the INS had to make the charging
determination to 48 hours after the alien’s arrest.30 The revised regulation
contains an exception to this 48-hour rule (an exception not contained in the
previous version), which provides that, in the event of an emergency or other
extraordinary circumstances, the charging decision could be made within an
additional reasonable period of time. The regulation does not define
“extraordinary circumstances” or “reasonable period of time.” It is important to
note that the regulation contains no requirement with respect to when the INS
must notify the alien or the Immigration Court about the charges – that is,
when the NTA must be served on the alien. The regulation only addresses the
timing of when the INS must make its charging determination. The INS does
not record the date or time the charging determination is made.

   B. Serving the Notice to Appear (NTA)

       Once the INS makes the decision to charge an alien with an immigration
violation, it serves the NTA on the alien and the Immigration Court in the


alien certified under the section must be taken into custody. If the certified alien is not placed
in removal proceedings or criminally charged within seven days of his detention, the statute
instructs the Attorney General to release the alien. An alien detained solely under this section
who has not been removed within the initial 90-day removal period and “whose removal is
unlikely in the reasonably foreseeable future, may be detained for additional periods of up to
six months only if the release of the alien will threaten the national security of the United
States or the safety of the community or any person.” INA § 236A(a)(6). As of March 26, 2003,
no alien had been certified by the Attorney General under these provisions.

       29 In criminal cases, defendants must be brought before a magistrate no later than

48 hours after arrest for a probable cause determination, except in exceptional circumstances.
See Riverside v. McLaughlin, 500 U.S. 44 (1991). In the immigration context, the INS District
Director makes this “probable cause” determination.

       30   8 C.F.R. § 287.3.




                                               28
jurisdiction where the alien is confined.31 The NTA must be served on the alien
in person where practicable, but also may be served by mail.

       According to the INS General Counsel’s Office, no statute or regulation
explicitly states when the INS must serve the NTA on the alien or the
Immigration Court. However, prior to the September 11 attacks, the INS’s
general practice was to serve the NTA on aliens within 48 hours of their
arrests. According to Michael Rozos, Chief of the Long Term Review Branch in
the INS’s Office of Detention and Removal, after September 11 the INS
established a goal of serving NTAs on aliens within 72 hours of arrest. Rozos
said this goal was not established by regulation, but rather was based on
“commonly recognized” INS practice. The INS keeps a record of the date the
NTA is served.

II. SERVICE OF NTAs ON SEPTEMBER 11 DETAINEES

      Table 1 describes when NTAs were served on the September 11
detainees. According to INS data, 59 percent of these detainees (452 of 762)
were served NTAs within 72 hours of their arrest, in accordance with INS
practice. In the remaining 192 cases for which data was available, the INS
took more than 72 hours to serve NTAs.32 Of these 192 detainees, 71 percent
(137) were arrested by the INS in the New York City area. On average,
September 11 detainees arrested in New York City and housed at the MDC
received their NTAs 15 days from the time of their arrest.




       31 8 U.S.C. § 1229(a)(1). The INS is not required to serve NTAs on certain categories of
aliens. For example, the INS is not required to serve NTAs on aliens under criminal indictment
and not yet in INS custody until their criminal cases are resolved and the aliens have served
their sentences. In addition, reinstatement of an alien’s prior final order of removal does not
require the INS to serve a new NTA.

       32 Of the 762 detainees, 118 were excluded from this analysis for the following reasons:

90 were served with NTAs prior to September 11, 2001, because they already had a final order
of removal on immigration violations before September 11, 2001; 21 were not required to be
served with NTAs; and 8 had arrest dates prior to September 11, 2001.




                                              29
                                       Table 1
                      Number of Days Between Arrest Date and
                     NTA Served Date for September 11 Detainees

      Number of Days                 Frequency               Percent of Total
        3 days or less                   452                      59.3%
         4 – 10 days                     71                        9.3%
        11 – 17 days                     43                        5.6%
        18 – 24 days                     30                        3.9%
        25 – 31 days                     24                        3.1%
     More than 31 days                   24                        3.1%
   Excluded from analysis                118                      15.5%
             Total                       762                      100%*
 * Rounded

      Table 2 summarizes the timing of charges filed against all 762
 September 11 detainees and for sub-sets of detainees in the OIG sample
 groups from the MDC and Passaic.


                                     Table 2
                              Timing of NTA Service
                               All Sept. 11       MDC            Passaic
      Service of NTA
                                detainees       detainees       detainees
   Detainees charged
                               452 (59.3 %)    24 (45.3%)       22 (33.3%)
    in 3 days or less
   Detainees charged
                               192 (25.2%)     14 (26.4%)       18 (27.3%)
  in more than 3 days
 Detainees with excluded
                               118 (15.5%)     15 (28.3%)       26 (39.4%)
         values
             Total             762 (100.0%)    53 (100.0%)     66 (100.0%)


III. REASONS FOR DELAY IN SERVING NTAs

    A. Pending Criminal Charges

 According to INS data, 12 of the 192 September 11 detainees served with NTAs
 more than 3 days after their arrests also were charged with a criminal offense.
 The INS is not required to serve an NTA on an alien charged with a


                                         30
September 11 detainee arrested in New York City on October 1, 2001, pursuant
to a PENTTBOM lead, was charged with passport fraud, marriage fraud, and
alien smuggling. The detainee was transported to the MDC on October 3,
2001. On April 3, 2002, the INS served an NTA on the detainee for the
immigration violation of overstaying a nonimmigrant visitor visa for business
purposes. The following day, the detainee was sentenced in the Eastern
District of New York to “time served” on the alien smuggling charge. The
detainee was removed from the United States on May 30, 2002. Because the
detainee was in custody based on a criminal indictment, the INS was not
required to serve his NTA at the time of his initial arrest.

      We identified 5 September 11 detainees who the INS served with NTAs an
average of approximately 168 days after their arrest. In some of these
cases, we found appropriate reasons for the delays – for example, two of the
detainees were charged with both immigration and criminal offenses, but were
held on the criminal offense and therefore were not in INS custody.
Consequently, the INS did not serve NTAs on these two detainees until the BOP
or the U.S. Marshals Service transferred custody of the detainees to the INS.
However, according to INS data, once this transfer occurred, the INS still took
36 and 11 days, respectively, to serve NTAs on these detainees.

   B. Delays Caused by Logistical Disruptions in New York City

       The closure of the INS New York District Office at 26 Federal Plaza and
the suspension of overnight delivery service to lower Manhattan after the
September 11 attacks contributed to delays in NTA service. The detainees’
A-Files were stored at the National Records Center in Lee’s Summit, Missouri,
and the INS New York District had to request copies of the detainees’ A-Files
from the Records Center so that INS agents in New York City could determine
the appropriate charges.32 With the disruptions in lower Manhattan, delivery
of the A-Files was often delayed. Initially, in an attempt to speed up the review
process, employees from the INS New York District and the National Records
Center tried to select specific documents from a detainee’s A-File to fax to the
INS New York District. However, INS New York District Counsel said this
process was not effective because attempting to describe legal documents over
the telephone proved inadequate for the INS New York District to determine
their significance to the detainee’s case.




         32 A-Files for September 11 detainees arrested in the New York City area had to be sent

first to the INS New York District rather than to INS Headquarters because the District in
which the detainee was arrested had to prepare and serve the NTA. A-Files are essential to
preparing an NTA because they contain the detainees’ complete immigration histories.




                                               31
   C. Delays Caused by INS Headquarters Review of NTAs

      We found that the INS policy requiring all charging documents for
September 11 detainees to be reviewed and approved by INS Headquarters also
may have contributed to the delay in serving NTAs on many detainees. On
September 15, 2001, the INS issued an Operational Order (discussed in
Chapter 4) that directed all INS field offices to transmit copies of September 11
detainee case documents, including NTAs, to the National Security Unit (NSU)
at INS Headquarters. Another Operational Order issued the following day
stated that no charging documents should be served until the “facts and
circumstances of the case” were reviewed and approved for legal sufficiency
both by the NSU and the INS’s Office of General Counsel.33 Prior to the
September 11 attacks, INS attorneys in the District offices had reviewed and
approved NTAs for legal sufficiency.

      According to Pearson, the INS Executive Associate Commissioner for
Field Operations, INS Commissioner James Ziglar decided that NTAs for all
September 11 detainees had to be approved at INS Headquarters because of
some “glaring errors” in detainee charging documents in several early detainee
cases. Pearson said that three or four September 11 detainees were charged
with incorrect violations of immigration law in the first week after the terrorist
attacks. While he said that these errors were not “pervasive,” the INS
nonetheless was concerned that a potential terrorist could be released from INS
custody because of erroneous charges on an NTA, and therefore wanted INS
Headquarters officials to review all NTAs before they were served on the
detainees.

       Pearson’s order required that the INS New York District fax a copy of the
detainee’s often-voluminous A-File to INS Headquarters. INS New York District
Counsel told the OIG that the volume of documents being sent to INS
Headquarters often caused facsimile machines at the INS New York District
Office to break down. These facsimile transmission problems, coupled with the
additional NTA review process at INS Headquarters, contributed to the delays
in serving NTAs on the September 11 detainees.

      On November 28, 2001, the INS rescinded the requirement that INS
Headquarters review all NTAs for September 11 detainees and returned this
responsibility to INS field offices. The chief of the INS’s National Security Law



        33 The INS Office of General Counsel formed a group of attorneys known as the Legal

Sufficiency Unit at INS Headquarters to review the legal sufficiency of NTAs prepared for
September 11 detainees.




                                             32
Division said that by November 28 the volume of September 11 detainee arrests
had diminished and that centralized NTA review no longer was required.

   D. Delays Caused by Transfers of September 11 Detainees

        The INS was forced to close its Service Processing Center (SPC) on Varick
Street in Manhattan after the terrorist attacks due to a loss of electricity and
utilities. While detainees could no longer be housed in the Varick Street SPC,
they could still be processed there. The INS’s Eastern Region Office, which has
jurisdiction over both the New York and Newark Districts, determined that the
Newark District had available bed space in contract county jails to house
immigration detainees formerly held at the Varick Street SPC. On
September 11, 2001, New York District staff transported to the Newark District
all 244 aliens who had been held at the Varick Street SPC. According to INS
data, approximately 200 more detainees arrested in connection with
September 11 leads in New York City were subsequently transferred to the INS
Newark District from September 11, 2001, through May 31, 2002.

      Facility determinations for September 11 detainees initially were made by
the INS New York District, but beginning on September 23, 2001, these
decisions required the approval of INS Headquarters.33 After INS Headquarters
took over facility determinations for September 11 detainees, all detainees
arrested in New York City were transported to the Newark District unless INS
Headquarters informed the New York Office that a specific detainee should be
held at the MDC. The INS deferred to FBI officials regarding decisions about
whether detainees should be designated “high interest” and therefore housed in
high-security facilities such as the MDC.34

       INS policy requires that NTAs and other legal documents be prepared by
the arresting INS officer. Consequently, September 11 detainees arrested in
the New York City area should have been processed for any immigration
violations in the New York District, and Newark District officials should have
received NTAs for all transferred detainees when the detainees arrived in the
INS Newark District.35 However, the New York Assistant District Director for

       33 Pearson said he decided to centralize reporting and transfer authority for detainees at
INS Headquarters because INS District Offices did not have the “visibility” as to which
detainees were of interest to the FBI. He said that he wanted to ensure that FBI agents in the
field knew where detainees were being held in order to facilitate interviews.

       34 According to Pearson, “high interest” September 11 detainees had possible direct

involvement with the September 11 terrorist attacks, needed to be interviewed by U.S. law
enforcement, presented potential flight risks, and continued to present potential threats to the
public. For a more extensive discussion of the detainee classification issue, see Chapter 4.

       35On April 17, 2001, Scott Blackman, the INS Eastern Region Director, had issued
standardized procedures for transfers of detainees between districts in the Eastern Region that
(cont’d)


                                               33
Investigations told the OIG that the requirement for INS Headquarters review of
all NTAs delayed this process, and many detainees already had been
transferred to the INS Newark District by the time the INS New York District
received INS Headquarters’s sign-off on an NTA.

      Because the detainees’ A-Files did not accompany the detainees when
they were transferred to the INS Newark District, the INS Newark District was
unaware that the NTAs had not been served and was unable to take timely
actions to ensure that the NTAs were served within the INS’s 72-hour target.

      The INS detention standards also require that the NTA and the alien’s
A-File or a substitute “temporary file” accompany a detainee being transferred
to another INS detention facility, including facilities like Passaic under contract
with the INS to house federal immigration detainees. We found that the INS
New York District’s failure to transfer all of the necessary paperwork for
September 11 detainees arrested in New York but transferred to Newark
resulted in inconsistent and untimely service of NTAs on the detainees.

       Because the INS New York District transferred September 11 detainees to
the INS Newark District before receiving INS Headquarters’s approval of
charging documents, NTAs for many of the September 11 detainees had not
been served by the time of the transfer. Yet, both the INS New York and the
Newark Districts assumed that the NTAs had been served. INS Newark District
officials who processed the transferred detainees’ cases told us that they
assumed that NTAs had been served. The INS New York Assistant District
Director for Investigations similarly said the New York District assumed that
INS Headquarters had provided the INS Newark District with a copy of the
approved NTAs when, in fact, it had not.

       In October 2001, INS Eastern Region officials became aware of the case-
processing problems associated with detainees transferred from the INS
New York District to the INS Newark District. Beginning October 5, 2001, the
INS Eastern Region detailed INS detention officers and investigators from other
INS districts to help address the increased workload of the Newark District.
This eventually alleviated some of the processing delays, although INS Newark
District officials said it took time to work through the backlog of cases while
new cases arrived at the INS Newark District.




specified responsibilities for “sending” Districts and “receiving” Districts. These procedures
stated that all charging documents, including NTAs, will be “issued and signed” and served on
detainees “prior to transfer.”



                                              34
IV. OIG ANALYSIS

       The INS does not keep a record of when the charging determination is
made for aliens charged with immigration violations. This makes it impossible
to determine how often the decision is made within the 48-hour time period
required by federal regulations. For the same reason, it is impossible to
determine how often the INS took advantage of the “reasonable time” exception
to the 48-hour requirement, an exception that is based on “extraordinary
circumstances.”

      We found that the INS did not consistently serve September 11 detainees
with NTAs within its stated goal of 72 hours – only 60 percent were served
within 72 hours. Until the INS removed its requirement for INS Headquarters
review, the average length of time to serve the NTA was over seven days. Many
detainees did not receive notice of the charges for weeks, and some for more
than a month after being arrested.

       One significant reason for the delay was the INS Headquarters’s
requirement that it review and approve all NTAs for legal sufficiency. This
delayed the serving of NTAs on September 11 detainees. This was especially
true for those detainees arrested in New York City but transferred to the INS
Newark District. While INS Headquarters wanted to ensure the accuracy and
completeness of NTAs for September 11 detainees, this temporary review
mechanism delayed the process. It also produced a disconnect between the
INS New York and Newark Districts because the INS New York District thought
the charging documents it submitted to INS Headquarters for approval had
been forwarded to the INS Newark District when it took custody of the
detainees. Conversely, the INS Newark District presumed that approved NTAs
already had been served on the September 11 detainees arrested in New York
City in accordance with INS procedures.

       We believe the INS New York District should have exercised more
diligence in ensuring that the INS Newark District was aware of which
detainees had not been served with NTAs prior to their transfer. The practice
of transferring detainees from the INS New York District to the Newark District
after the detainees’ arrests in New York City, along with the failure of the
New York District to transmit required immigration documents with the
transferred detainees, caused significant delays in serving NTAs on
September 11 detainees housed in New Jersey detention facilities.

       In addition, the increased workload experienced by the INS Newark
District’s Office of Detention and Removal after the terrorist attacks further
compounded the delays in serving NTAs on September 11 detainees.

       These delays affected the September 11 detainees in various ways. First,
it postponed detainees’ knowledge of the specific immigration charges they


                                       35
faced. Second, it affected the detainees’ ability to obtain effective legal counsel
given the lack of specific charges. Third, a delay in serving NTAs and
accompanying documents postponed the detainees’ opportunity to request
bond re-determination hearings and seek release. These effects on detainees
were important, given the Department’s “no bond” policy for September 11
detainees and the conditions under which detainees were held, both of which
we describe in more detail later in this report. We believe the INS should have
made a more systematic effort to ensure that NTAs were served on
September 11 detainees in a timely fashion.




                                        36
                                CHAPTER FOUR

                          THE CLEARANCE PROCESS

      This chapter examines the Department’s process for clearing the
September 11 aliens who were detained because of possible links to terrorism.
Specifically, we examine how problems with the process significantly
lengthened the time detainees spent in custody. First, we discuss the origins of
the Department’s directive that all September 11 detainees be held until the
FBI cleared them of any connection to terrorism. Next, we examine the series
of Operational Orders issued by INS Headquarters to its field offices in the
weeks immediately following the September 11 attacks that sought to address
the growing number of detainees arrested in connection with the PENTTBOM
investigation.

       We then turn to the process developed by the Department to clear the
detainees of any connection to terrorism. In particular, we examine the
activities of the squad created by the FBI New York Field Office that conducted
most of the clearance investigations of September 11 detainees. We then
describe the problems caused when the INS New York District failed to inform
Headquarters of the arrest of hundreds of aliens “of interest,” and the discovery
of a separate list of September 11 detainees kept by the FBI New York Field
Office in the weeks immediately following the terrorist attacks, a list apparently
unknown to FBI and INS officials in Washington, D.C. who were attempting to
coordinate all September 11 detainee cases. We also discuss the effects of
detainee name checks in databases maintained by the Central Intelligence
Agency (CIA). We end by examining the FBI’s development of a “watch list” of
potential terrorist suspects and its process for adding and removing names
from that list.

I. “HOLD UNTIL CLEARED” POLICY

   A. Origins of Policy

       Officials from the FBI and the INS told the OIG they clearly understood
from the earliest days after the terrorist attacks that the Department wanted
September 11 detainees held without bond until the FBI cleared them of any
connections to terrorism. This “hold until cleared” policy was not memorialized
in writing, and our review could not determine the exact origins of the policy.
However, this policy was clearly communicated to INS and FBI officials in the
field, who understood and applied the policy.

      We found that the directive was communicated to the INS and the FBI by
a number of Department officials, including Stuart Levey, the Associate Deputy
Attorney General responsible for oversight of immigration issues. Michael


                                       37
Pearson, the INS Executive Associate Commissioner for Field Operations, said
that Levey called a senior INS official the week after the September 11 attacks
and directed that no INS detainees should be released without being cleared by
the FBI. Pearson said he also received instructions from INS Commissioner
James Ziglar that none of the detainees should be released by the INS until
they had been cleared by the FBI of any connections to terrorism. Pearson told
the OIG that he passed these instructions along to employees at INS
Headquarters’s units assigned to handle September 11 detainee cases.

       Similarly in the FBI, our interviews and review of documents confirm
that FBI officials understood and applied the “hold until cleared” policy. For
example, an October 26, 2001, electronic communication (EC) (similar to an
e-mail) from an FBI agent in the SIOC to FBI field offices stated that, “Pursuant
to a directive from the Department of Justice, the INS will only remove
individuals from [the special interest] list after the INS has received a letter
from FBIHQ [FBI Headquarters] stating that the FBI has no investigative
interest in the detainee.”

      In addition, an attorney with the FBI’s Office of General Counsel who
worked on the SIOC Working Group told the OIG that it was understood that
the INS was holding September 11 detainees because the Deputy Attorney
General’s Office and the Criminal Division wanted them held. She said the
Deputy Attorney General’s Office took a “very aggressive stand” on this matter,
and the Department’s policy was clear even though it was not written.

       Levey told the OIG that the idea of detaining September 11 detainees
until cleared by the FBI was “not up for debate.” He said he was not sure
where the policy originated, but thought the policy came from “at least” the
Attorney General.

       A Senior Counsel in the Deputy Attorney General’s Office who worked
closely with Levey on immigration matters (“Senior Counsel to the DAG”) stated
in her response to the draft of this report that those involved in the discussion
of the process, including attorneys from the INS, OIL, and the Criminal
Division (including TVCS), were aware that the strategy had risks, and clearly
anticipated the filing of habeas corpus petitions because of the position the
Department planned to take that any illegal alien encountered pursuant to a
PENTTBOM lead should be detained until cleared by the FBI. She noted that
this was “unchartered territory.” On September 27, 2001, the Senior Counsel
sent an e-mail to David Ayers, Chief of Staff to the Attorney General, on
September 27, 2001, that discussed this “hold until cleared” policy. The e-mail
described the “strategy for maintaining individuals in custody.” The document
attached to the e-mail, entitled “Maintaining Custody of Terrorism Suspects,”
begins with a “Potential AG Explanation” that states:




                                       38
         The Department of Justice (Department) is utilizing several tools to
         ensure that we maintain in custody all individuals suspected of being
         involved in the September 11 attacks without violating the rights of
         any person. If a person is legally present in this country, the person
         may be held only if federal or local law enforcement is pursuing
         criminal charges against him or pursuant to a material witness
         warrant. Many people believed to be involved in the attacks,
         however, are not present legally and they may be detained, at least
         temporarily, on immigration charges. As of September 27, 2001, the
         Immigration and Naturalization Service (INS) was detaining without
         bond 125 aliens related to this investigation on immigration charges.

The document then describes plans for handling bond hearings and
coordination efforts among the FBI, INS, and Criminal Division to ensure that
September 11 detainees would remain in custody. Levey told us this document
was drafted to enable the Attorney General to provide an explanation as to
how, within the bounds of the law, the Department could hold and not release
aliens who were suspected of terrorism.

       Other senior Department officials confirmed that the directive to hold the
September 11 detainees without bond stemmed from discussions at the highest
levels of the Department. Assistant Attorney General Michael Chertoff told the
OIG that in the early days after the terrorist attacks the issue was discussed
among the Attorney General, Deputy Attorney General, and FBI Director that
detention should be sought of a charged person “if there is a link to the
hijackers and we are not able to assure that the person is not a threat and
there is a legal violation.” Alice Fisher, a Deputy Assistant Attorney General in
the Criminal Division and a participant in the SIOC Working Group, told the
OIG that Chertoff told her that “we have to hold these people until we find out
what is going on” and that, in some cases, they could use immigration charges
to keep the detainees in custody.

      David Laufman, Chief of Staff to the Deputy Attorney General, told the
OIG that he recalled a meeting which INS representatives attended soon after
the terrorist attacks that included a discussion of whether potential
immigration violations could be “leveraged” against September 11 detainees
when there was insufficient information for criminal cases. He added that it
was recognized that, “if we turn one person loose we shouldn’t have, there
could be catastrophic consequences.” He said he recalls, however, asking
Levey to take whatever steps were appropriate to expedite clearance by the FBI
and the CIA.

       Daniel Levin, Counselor to the Attorney General, told the OIG that he
could not say for certain when the clearance policy was developed or at what
level. He described a “continuous meeting” for the first few months after the
terrorist attacks involving the Attorney General, Deputy Attorney General, FBI


                                       39
Director, and Chertoff, and said he was sure that the issue of holding aliens
until they were cleared was discussed.

       The Deputy Attorney General told the OIG that he remembers the
“decision to hold without bond” being discussed, and that he was in favor of
requiring the clearance process “within the bounds of the law.” He explained
that the threat after September 11 was a different threat that required a
different approach. He said that investigating and prosecuting could not be the
focus, as it had been before the terrorist attacks, and the Department needed
to aggressively protect public safety, within the bounds of the law, by
disrupting and preventing further incidents.

      FBI Director Mueller stated that he did not recall being involved in any
discussions about the creation of the “hold until cleared” policy, although he
learned about the policy later.

      When asked about a “hold until cleared” policy, the Attorney General told
the OIG that the Department would want to know whom the detainees were if it
was getting ready to remove them. He noted the inherent difficulty involved in
conducting a “clearance” process, in that clearing someone is akin to “proving a
negative.” He also noted that the Department does not assert that it could hold
anyone “forever” without regard to a predicate offense. However, the Attorney
General said he had no reluctance to do those things legally permissible to
detain someone who had violated the law.

   B. Implementation of Policy

       From the first days after the terrorist attacks, the INS adopted the term
“of interest” to identify aliens arrested on immigration violations in connection
with the September 11 investigation who needed to be cleared by the FBI of any
connections to terrorism before they could be released or removed from the
United States. Detainees who were not “of interest” to the FBI’s terrorism
investigation did not have to be cleared by the FBI and could be processed
according to normal INS procedures. The FBI was responsible for determining
whether an alien arrested in connection with a PENTTBOM lead on
immigration charges should be further investigated. If it found further
investigation warranted, then the alien was “of interest” and the FBI notified
the INS of that determination. However, there were many cases where the FBI
told the INS that it could not determine at the outset whether it had an interest
in the alien. In cases of affirmative FBI interest or a statement that interest
could not be determined, the INS treated the alien as “of interest.”

      Problems quickly arose upon implementation of the “hold until cleared”
policy for aliens arrested on PENTTBOM leads, because the Department and
the FBI did not develop clear criteria for determining who was, in fact, “of
interest” to the FBI’s terrorism investigation. From our interviews, we


                                       40
determined that, for the most part, aliens were deemed “of interest” based on
the type of lead the law enforcement officers were pursuing when they
encountered the aliens, rather than any evidence that they were terrorists. In
the New York City area, for example, anyone picked up on a PENTTBOM lead
was deemed “of interest” for purposes of the “hold until cleared” policy,
regardless of the strength of the evidence or the origin of the lead. A
PENTTBOM lead was considered any lead that was in any way connected to the
World Trade Center or Pentagon investigation, or a lead that raised the specter
of “suspicious activity” by an alien who might possibly be a terrorist. However,
there need not be any evidence of connection to the terrorists or to the World
Trade Center or Pentagon bombings for a lead to be considered a PENTTBOM
lead. Any illegal alien encountered by New York City law enforcement officers
following up a PENTTBOM lead – whether or not the alien turned out to have a
connection to the September 11 attacks or any other terrorist activity – was
deemed to be a September 11 detainee.

      In a January 2002 court proceeding, the Department defined the term
“September 11 detainees” as “individuals who were originally questioned
because there were indications that they might have connections with, or
possess information pertaining to, terrorist activity against the United States
including particularly the September 11 attacks and/or the individuals and
organizations who perpetrated them.”36

       Many of the persons arrested as part of the PENTTBOM investigation
were aliens unlawfully present in the United States either because they entered
this country illegally or because they entered legally but remained after their
authorization to do so had expired. It is unlikely that most if not all of the
individuals arrested would have been pursued by law enforcement authorities
for these immigration violations but for the PENTTBOM investigation.37 Some
appear to have been arrested more by virtue of chance encounters or tenuous


       36 This definition was contained in the declaration of James Reynolds, Chief of the
Terrorism and Violent Crime Section in the Department’s Criminal Division (the “Reynolds
Declaration”), submitted by the Department on January 11, 2002, in support of the
Department’s summary judgment motion in connection with the case entitled Ctr. for Nat’l Sec.
Studies v. U.S. Dep’t of Justice, 01-civ-2500 (D.D.C. filed Dec. 6, 2001).

        37 The September 11 attacks focused renewed attention on the importance of knowing

when nonimmigrant visitors enter and depart the United States. The OIG has reported
previously on the INS’s efforts to identify and remove nonimmigrant overstays, most recently in
an April 2002 follow-up report that found the INS has made little progress to effectively address
the issue. The follow-up review concluded that the INS still did not have a reliable system to
track overstays, did not have a specific overstay enforcement program, and could not provide
accurate data on overstays. See Follow-Up Report on INS Efforts to Improve the Control of
Non-Immigrant Overstays, Report No. I-2002-006, April 2002, available at http://www.usdoj.
gov/oig/inspection/I-2002-006/report.pdf.



                                              41
connections to a PENTTBOM lead rather than by any genuine indications of a
possible connection with or possession of information about terrorist activity.

       For example, on September 15, 2001, New York City police stopped a
group of three Middle Eastern men in Manhattan on a traffic violation. The
men had the plans to a public school in their car. The next day, their employer
confirmed that the men were working on construction at the school and that it
was appropriate for them to have the plans. Nonetheless, they were arrested
and remained detained as September 11 detainees. Another alien was arrested
on September 22, 2001, because the phone company mistakenly put his phone
calls home to ▀▀▀▀▀▀▀▀ on the bill of a New York ▀▀▀▀▀▀▀▀ office and the
▀▀▀▀▀▀▀▀ office called to report the “suspicious” bill. The alien was arrested,
detained on immigration charges, and considered a September 11 detainee. He
was not cleared until January 9, 2002. Another Middle Eastern alien was
arrested because he went to a car dealership on September ▀, 2001, and was
anxious to purchase a car right away. He put down a ▀▀▀▀ deposit on a car
but did not return on September ▀▀, 2001, for the car as he agreed he would.
He was arrested on September 29, 2001 and was not cleared until April 29,
2002. Another alien was arrested because a person called the FBI a few days
after the terrorist attacks to say that six to ten weeks prior, the ▀▀▀▀▀▀ ▀▀ ▀
▀▀▀ she hired through ▀ ▀▀▀ ▀▀▀▀▀▀▀, who was an ▀▀▀▀▀▀▀▀ male, told
her that he was a licensed pilot and was saving to go to flight school in the U.S.
to learn to fly commercial jets. He was arrested on September 24, 2001, and
not cleared until February 12, 2002.38

       In the days immediately following the September 11 attacks, before the
clearance process was centralized in Washington, D.C., the INS could obtain an
indication of “no interest” from an FBI field office and proceed to process the
alien as a “regular” immigration case. In mid-September 2001, however, the
Department instructed the INS that before it could treat a September 11
detainee as a “normal” immigration case, the INS needed to obtain a clearance
letter from Michael Rolince, Chief of the FBI’s International Terrorism
Operations Section (ITOS) in its Counterterrorism Division.39 According to
several witnesses with whom we spoke, the FBI and the Department believed
that the PENTTBOM investigation should be viewed as a “mosaic” that
contained countless individual pieces of information and evidence, and field
offices would not be in a position to determine if any single item was of
significance to this mosaic. Therefore, it was believed that FBI Headquarters
would have a broader perspective on the PENTTBOM investigation and would
be in a better position to make an assessment of whether an individual alien

       38 Other examples of tenuous PENTTBOM leads that led to detainee arrests and their

designation as “of interest” to the September 11 investigation were described in Chapter 2.

       39   A copy of a “Rolince” clearance letter is attached at Appendix E.



                                                 42
detained in connection with a PENTTBOM lead was “of interest” to the
investigation. However, as we describe below, this centralized clearance
process was slow and insufficiently staffed, resulting in many detainees being
held for long periods of time while no clearance investigations were being
conducted.

II. INS OPERATIONAL ORDERS

       By September 17, 2001, INS agents working with the FBI on PENTTBOM
leads had detained approximately 69 aliens, and 40 bond hearings were
scheduled for the following week. Michael Rozos, Chief of the INS’s Long Term
Review Branch, told the OIG that, at the time, staff at INS Headquarters began
to believe that the PENTTBOM investigation could involve the largest number of
INS detainees since the Mariel boatlift in 1980.40

       In response to the increasing number of aliens being detained as a result
of the PENTTBOM investigation, officials at INS Headquarters developed a
series of procedures to ensure that the detainees’ cases were handled
uniformly. INS Headquarters officials told the OIG they also wanted to ensure
that they had complete information on each September 11 detainee, because
senior Department officials were requesting regular updates on the status of
the cases. Consequently, Pearson, the INS Executive Associate Commissioner
for Field Operations, disseminated 11 Operational Orders to INS field offices
regarding the handling of September 11 detainees during a 12-day period
beginning on September 15, 2001.

       These Operational Orders varied the normal procedures for handling INS
detainees. Routine immigration cases are usually handled by INS district
offices and normally do not come to the attention of INS Headquarters officials.
However, even before September 11 the National Security Unit (NSU) in INS
Headquarters handled immigration cases involving terrorism and war crimes.
Prior to September 11, the NSU consisted of three INS agents stationed at INS
Headquarters and three agents working at the FBI’s ITOS at FBI Headquarters.
Among other duties, the NSU coordinated the INS’s participation in the
New York JTTF.

      The Operational Orders created a different track for aliens detained in
connection with the PENTTBOM investigation. After the September 11 attacks,
Pearson designated the NSU as the INS’s intake unit for all immigration
detainees designated as “special interest” cases. In the weeks after the attacks,

        40 In 1980, a flotilla of boats carrying more than 100,000 undocumented Cubans

arrived in the United States after Cuban authorities permitted a mass exodus from the Cuban
port of Mariel. The influx of aliens put a tremendous strain on federal immigration and
detention facilities in south Florida and elsewhere across the country.



                                            43
the NSU received information, primarily by facsimile, from INS field offices
across the country that had detained aliens in connection with the PENTTBOM
investigation. Daniel Cadman, the head of the NSU, told the OIG that the NSU
consulted with the FBI to determine whether detainees were “of interest.” If the
FBI notified the INS that the detainee was “of interest,” or if the FBI could not
state whether or not it had interest, the INS labeled the detainee as a “special
interest” case and forwarded the appropriate documentation to its Custody
Review Unit (CRU). This unit, created after September 11, 2001, was the unit
at INS Headquarters responsible for managing the September 11 detainees’
immigration cases.

       Pearson’s Operational Orders described these INS procedures. His first
order required that “information relating to investigating events or actions
taken in [September 11] cases should be relayed immediately – repeat,
immediately – to Headquarters NSU, with concurrent notification to the
appropriate regional office.” Pearson told the OIG that he did not want INS
field offices handling any September 11 cases without INS Headquarters’s full
involvement and approval. A second order, sent later that same day, set forth
the specific documents field offices were required to send to the NSU for each
case.

       Pearson’s third order, issued September 16, 2001, directed INS field
offices to obtain approval from INS Headquarters before issuing any charging
documents for September 11 detainees. In addition, the order instructed INS
agents working with the FBI on the terrorism investigation to “exercise sound
judgment” in deciding whether to arrest illegal aliens they encountered and
generally to do so only if the FBI had “an interest” in the aliens.

      A seventh operational order from Pearson on September 18, 2001, stated
that the FBI had issued an EC to FBI field offices that included the following
language:

         As of early this morning, INS has sixty-one suspect foreign nationals
         in their custody for administrative violations of the Immigration and
         Nationality Act. In order to ensure continued custody of these
         individuals until an informed decision has been made regarding their
         potential as criminal suspects/material witnesses, it is essential that
         all field offices immediately make contact with their respective INS
         counterparts and articulate IN WRITING why these detained
         individuals are of significance. In turn, those submissions will be
         used by INS to argue for continued custody in imminent bail
         recommendation hearings as well as by the Criminal Division for
         possible preparation of material witness warrants.

Pearson’s order instructed INS field offices that participated in these
arrests to communicate to their local FBI field office the urgency of


                                        44
receiving written assessments of the detainees’ investigative significance
because bond re-determination hearings were forthcoming for many of the
detainees.41

       A variety of INS, FBI, and Department officials who worked on these
September 11 detainee cases told the OIG that it soon became evident that
many of the people arrested during the PENTTBOM investigation might not
have a nexus to terrorism. To address this concern, Pearson issued an order
on September 22, 2001, the tenth in the series, which addressed the
responsibilities of INS agents who were participating in joint operations with
the FBI when they encountered illegal aliens. The order instructed INS field
agents to “exercise sound judgment” in determining whether circumstances
require immediate arrest and detention, and urged INS agents to limit arrests
to those aliens in whom the FBI has an “interest” given the “Servicewide
resource implications” of the September 11 attacks. The order reiterated that
field offices were required to “immediately notify” the NSU and INS District
Counsel of any arrests and to provide information regarding the “degree of
interest expressed by the FBI field office, if known.”

       The order stated that “[n]o charging documents will be issued in any
such case until the facts and circumstances of the case have been reviewed
and the documents approved jointly by Headquarters National Security Unit
and Headquarters Counsel (National Security Law Division, ‘NSLD’).” In
instances where the person was already under arrest or where the detainee’s
connection to terrorism is unknown, the order said, “we encourage and expect
forwarding of cases for review and consideration – this is one reason we require
the field to advise us of expressions of interest by the FBI.” Conversely, the
order discouraged INS field offices from submitting cases that are “clearly of no
interest in furthering the investigation of the terrorist attacks of
September 11th.”

       In addition to issuing a series of Operational Orders, INS Headquarters
developed standard operating procedures for processing September 11
detainees. The procedures were intended to keep INS Headquarters informed
of INS field activities related to the terrorism investigation, to enable the INS to
maintain an accurate list of all INS detainees in whom the FBI had an interest,
and to ensure that the INS did not inadvertently release a detainee in violation
of the Department’s instructions to hold all September 11 detainees until


       41 INS District Directors set the initial bond for aliens charged with immigration offenses.

Because of the Department’s blanket “no bond” policy for September 11 detainees, District
Directors refused bond for these detainees. A detainee not satisfied with the District Director’s
initial bond determination could request a bond re-determination hearing before an
Immigration Judge. We discuss in more detail bond issues and bond hearings in Chapter 5.




                                                45
 cleared by the FBI. Under normal circumstances, INS Headquarters officials
 would not have reviewed charging documents in “routine” immigration cases.

III. THE CLEARANCE PROCESS

       Department officials told the OIG that they initially believed the FBI
 would be able to clear, relatively quickly, aliens arrested in connection with a
 September 11 lead and who were “of interest” to the FBI’s PENTTBOM
 investigation. Many said they thought the clearance process generally would
 take only a few days for the majority of the aliens arrested on PENTTBOM
 leads. At most, they expected the process would take a few weeks to clear
 aliens arrested on PENTTBOM leads but who had no additional indications of a
 connection to terrorism.

        For example, Michael Chertoff, the Assistant Attorney General in charge
 of the Criminal Division, told the OIG that he believed many clearances could
 be done “within a few days.” In his estimation, the clearance process involved
 a check of Government databases – including those at the CIA – and an
 evaluation by the FBI of all investigative information that had come to light. As
 late as the summer of 2002, other Department officials told the OIG that they
 were under the impression FBI clearances were completed in only a few days.
 The Attorney General stated that he did not recall hearing any complaints
 about the timeliness of the clearance process or a lack of resources dedicated
 to the effort to clear detainees.

       The belief that the clearance process would occur quickly was
 inaccurate. As we describe below, the FBI cleared only 2.6 percent of the 762
 September 11 detainees within three weeks of their arrests. The average length
 of time from arrest of a September 11 detainee to clearance by FBI
 Headquarters was 80 days.

    A. Determining Which Aliens Would be Subject to the Clearance
       Process

       As described above, the INS tried to hold without bond any alien arrested
 on immigration charges in whom the FBI expressed an interest, or any alien in
 whom the FBI’s interest was undetermined. If the FBI could not state whether
 it had an interest in a particular detainee (i.e., the level of interest was
 “undetermined” or “unknown”), then the INS treated the case as if it was “of
 interest” to the FBI. For example, Daniel Cadman, the head of the INS’s NSU,
 said that INS Executive Associate Commissioner Pearson instructed him that,
 absent a clear written statement to the contrary from Rolince, the ITOS Chief in
 the FBI’s Counterterrorism Division, any aliens arrested in connection with the
 PENTTBOM investigation should be considered “of interest.”




                                        46
       Kenneth Ellwood, the INS Philadelphia District Director who was brought
to INS Headquarters to assist in the detainee operation, told the OIG that the
FBI created difficulties by not giving the INS clear signals about who should be
on the “special interest” list. Ellwood said the FBI did not have enough agents
to run down all the leads on many of the aliens to the point where they could
feel comfortable about making an initial determination as to who was “of
interest.” The FBI attorney assigned to the SIOC Working Group said that the
FBI did its best with regard to “interest” classification determinations, but she
acknowledged that the pace of information from FBI field offices about detainee
cases was slow. Others told us they believed the FBI did not provide sufficient
support to the clearance process. Nonetheless, given that the FBI was leading
the PENTTBOM probe, the INS deferred to FBI assessments about who was “of
interest” to its investigation.

      We also found that the classification issue was not handled uniformly
nationwide. In the New York City area, the INS forwarded case files for all
aliens it arrested to the FBI New York Field Office for clearance. We found that
neither the FBI nor the INS in New York attempted to distinguish between
aliens encountered coincidentally to a PENTTBOM lead and those who were the
subject of a PENTTBOM lead. In contrast, INS offices in jurisdictions outside of
the New York City area used the procedures in Pearson’s Operational Orders
described earlier in this chapter to try to screen out cases in which illegal
aliens showed no evidence of any connection to terrorism. Officials at INS
Headquarters told the OIG that this “vetting process” was somewhat helpful in
ensuring that only meritorious cases were classified as September 11 detainees
and, consequently, held without bond and required to undergo clearance by
the FBI. However, this “vetting process” was not applied in New York City.

       Several Department officials involved in the terrorism investigation also
told the OIG that it soon became clear that many of the September 11
detainees had no immediately apparent nexus to terrorism. As a result, the
terrorism investigation soon narrowed its focus to a few of the individuals who
were detained, not the vast bulk of the aliens arrested in connection with
PENTTBOM leads. For example, David Kelley, the Deputy U.S. Attorney for the
Southern District of New York who immediately after the September 11 attacks
came to Washington, D.C., to help supervise the investigation of the attacks,
told the OIG that within one to three days of the attacks prosecutors were
focusing on individuals of “genuine investigative interest,” such as a person
whose telephone number was linked to one of the hijackers or a person who
lived in a building near a location of high interest to the terrorism investigation,
as opposed to aliens identified by the FBI simply as “of interest.” Other
Department officials acknowledged to the OIG that they realized that many in
the group of September 11 detainees were not connected to the attacks or
terrorism in general.




                                        47
       Nevertheless, the Department required the FBI to clear all September 11
detainees before they could be released – a policy supported uniformly by FBI
staff interviewed by the OIG. Many witnesses told the OIG that no one wanted
to prematurely release a September 11 detainee only to find out later that the
person was a terrorist who posed a threat to the United States. Yet, as we next
describe, the FBI clearance process for September 11 detainees was slow and
not given sufficient priority, which resulted in most detainees being held for
months before they were cleared.

   B. FBI Field Office Role in the Clearance Investigation

       The responsibility for clearing an individual September 11 detainee of a
connection to terrorism fell, at least initially, to the FBI field office in whose
jurisdiction the alien was arrested.42 The FBI New York Field Office bore the
brunt of this requirement because almost 60 percent of the 762 September 11
detainees were arrested in the New York City area. The FBI in New York City
created a special squad called “I-44A” to assist FBI agents and the JTTF in
following up on some of the more than 20,000 PENTTBOM leads covered by the
FBI New York Field Office in the year following the terrorist attacks. This unit
also was given the responsibility for clearing aliens arrested in connection with
PENTTBOM.

      Members of the I-44A squad told the OIG that after an alien’s arrest in
connection with a PENTTBOM lead, the INS agent forwarded a copy of the
detainee’s A-File to the I-44A squad for its use during the detainee’s clearance
investigation. After receiving the A-File, paralegals working in the I-44A squad
began a series of computer checks to examine the detainee’s background.
These included checks of Department of Motor Vehicle records, the FBI’s
National Criminal Information Center database, Drug Enforcement
Administration’s databases, databases with information on authorized federal
wiretaps, Federal Aviation Administration databases, State Department
databases, INTERPOL databases, and searches of as many as nine other
databases. While we were told that the FBI paralegals generally processed
these database checks, if any “positive” information came back on an alien it
was an FBI agent’s responsibility to review that information and determine
whether additional investigation was necessary.

      Supervisors in the I-44A squad said they tried to assign each detainee’s
clearance investigation to the FBI agent who was present at the detainee’s
arrest. In some instances, however, this was not possible because the alien
         42 As discussed later in this chapter, FBI officials centralized the detainee clearance

process at FBI Headquarters in October 2001. After this time, agents in FBI field offices
continued to conduct clearance investigations of September 11 detainees, but FBI
Headquarters officials coordinated CIA checks and eventually issued the formal clearance
letters.



                                                48
was arrested by other JTTF members or local law enforcement. In these cases,
the clearance investigation was assigned to an FBI agent in the I-44A squad.
FBI agents assigned detainee investigations were given a detailed set of
instructions outlining the steps necessary to clear a detainee. In addition to
conducting computer database and fingerprint checks, the agents were
instructed to obtain from the detainee items such as identification documents
and cell phone, and to run checks on all names, addresses, and telephone
numbers obtained from those items. The clearance instructions also suggested
interviewing landlords or employers “if necessary.”

       FBI agents conducting clearance investigations also were required to
interview detainees unless the agents determined that initial interviews with
the detainees at the time of their arrests adequately addressed the required
topics. However, the list of 31 issues FBI agents were required to cover during
their review was so comprehensive that in all 28 New York cases the OIG
reviewed, FBI agents had to re-interview detainees during the clearance
investigations. None relied solely on the detainees’ arrest interviews for the
clearance investigation. Moreover, the instructions directed FBI agents to
interview detainees after I-44A paralegals had completed computer checks and
clearance investigations. Given the required interview topics, the FBI agents’
questions often elicited names, telephone numbers, and addresses that
required additional investigation.

      The OIG’s review of 28 I-44A squad clearance files revealed that for many
detainees the field work was rather straightforward – a few interviews in
addition to the computer checks. In other cases, however, the clearance
process required a substantial amount of investigative work for FBI agents.

        The computer checks and detainee interviews were considered only the
first level of clearance investigation. According to the instructions, if a detainee
was “determined to be involved or associated with hijackers or terrorist
organization” based upon the FBI agent’s initial work, the agent was required
to refer the matter to another FBI unit for additional investigation. In cases not
referred for additional investigation, the agents drafted a summary document
describing the clearance investigation and including their recommendation as
to whether the detainee exhibited any connections to the September 11 attacks
or terrorism in general. FBI agents sent the reports to Kenneth Maxwell, the
Assistant Special Agent in Charge of the FBI New York Field Office, who, among
his many other duties in the weeks immediately after the terrorist attacks,
made the ultimate determination for the FBI New York Field Office regarding
clearance of September 11 detainees.

      FBI agents assigned to the I-44A squad told the OIG that obtaining final
approval from Maxwell on a clearance investigation often took a significant
amount of time because of his hectic schedule. Agents said they would gather
ten or more cases before approaching Maxwell to conduct reviews and, in most


                                        49
instances, they said Maxwell would sign clearance letters for all of the
detainees. However, FBI agents said sometimes Maxwell would return a case
to them for further investigation or would refer the case to the JTTF.

       Until October 24, 2001, the FBI New York Field Office believed that no
additional checks, other than its clearance process, were required to clear a
detainee. On October 24, however, officials at FBI Headquarters notified its
field offices that FBI Headquarters, rather than individual field offices, would
be responsible for coordinating CIA “name checks” on all detainees (discussed
in more detail below). The remainder of the tasks associated with the clearance
investigation, including interviews of the detainee and any other witnesses as
well as checks of law enforcement databases, remained the responsibility of
FBI field offices.

   C. CIA Name Checks

       As part of the clearance process, the Department decided to ask that the
CIA also conduct name checks on all September 11 detainees. The FBI
centralized the CIA checks at FBI Headquarters because of concerns that
requests from individual FBI field offices would flood the CIA and complicate its
ability to respond. Prior to the September 11 attacks, FBI field offices across
the country used a computer system to check if the CIA had information on a
particular person. If that search was positive, or if the field offices wanted a
more in-depth search, they contacted the CIA directly for information on a
particular person. Similarly, the INS’s NSU would send its inquiries directly to
the CIA’s Office of General Counsel (OGC), the point of contact for these
informational requests.

      An attorney in the CIA OGC explained to the OIG that prior to
September 11, after receiving an inquiry from the FBI or INS, CIA OGC staff
would send queries to the various CIA branches that might have pertinent
information. CIA OGC staff would gather all relevant files and notify the FBI or
INS that the information was available for review. AN FBI analyst or INS
attorney would then review the CIA information. While this process was labor
intensive and time consuming both for the CIA and the agency seeking the
information, the CIA OGC attorney said that it had worked well in the past
because the number of requests before September 11 was relatively small.

       After the September 11 attacks, this system no longer worked because of
the large volume of requests from the FBI. For example, a November 6, 2001,
letter from the CIA OGC to an FBI special agent assigned to the SIOC Working
Group explained that files of 42 individuals had been collected and were
awaiting review. The letter also noted that the OGC has limited space in its
offices for file storage and requested that the files be reviewed promptly.




                                       50
       In late October 2001, because of concerns that the checks which could
 be done from FBI offices were not adequate and because of the volume of
 requests for name checks sent directly to the CIA, FBI Headquarters
 centralized the process and required that all contact with the CIA concerning
 September 11 detainees be routed through FBI Headquarters. The FBI
 New York Field Office received an EC dated October 24, 2001, from an FBI
 agent assigned to the SIOC Working Group that stated:

     Effective with this communication, all CIA name checks will be
     conducted by FBIHQ. Therefore, once FBI New York has determined
     that there is no investigative interest in a detainee, FBI New York
     should send an EC to [the FBI] requesting that CIA name checks be
     conducted. Once [the FBI] has received the results of the CIA name
     checks, and a determination is made that there is no information of
     lead value, [FBI Headquarters] will advise FBI New York of this fact so
     that FBI New York can provide INS New York with a no investigative
     interest letter. FBI New York should not provide no interest letters to
     INS New York without CIA name checks being conducted.

        Consequently, as of October 24, 2001, FBI Headquarters took over
 responsibility for the CIA name check portion of the detainee clearance process.
 After that date, the FBI New York Field Office did not issue clearance letters
 until it heard from FBI Headquarters that the CIA name check had not
 discovered any negative information associated with a September 11 detainee.

IV. TIMING OF CLEARANCES

       We found the FBI took a long period of time to clear September 11
 detainees. In an effort to examine the timeliness of the clearance process, the
 OIG analyzed information detailing the date detainees were arrested and the
 date FBI Headquarters issued final clearance letters.

       The FBI cleared less than 3 percent of the 762 September 11 detainees
 within three weeks of their arrest. The average length of time from arrest of a
 September 11 detainee to clearance by FBI Headquarters was 80 days, and the
 median was 69 days. Further, we found that more than a quarter of the 762
 detainees’ clearance investigations took longer than 3 months. See Table 3 and
 Figure 7.




                                        51
                                                 Table 3
                      Number of days from arrest
                      to FBI HQ clearance:
                      Average                                                80.1
                      Median                                                 69
                      Minimum                                                 8
                      Maximum                                               244
                      Missing values*                                       130



                                           Figure 7
                         Number of Days from Arrest to FBI HQ Clearance

                      200


                      150


                      100


                        50


                         0
                                         31-60   61-90   91-120   121-150   151-180 More than Missing
                             1-30 days
                                         days    days     days     days      days   180 days values *
         Frequency of days      42       198     199      89        53        33       18       130


*Arrest date or FBI Headquarters clearance date missing

V. DELAYS IN THE CLEARANCE PROCESS

       A variety of factors contributed to the discrepancy between the time
frames envisioned by Department officials overseeing the detainee clearance
process and the actual time it took to clear detainees. Some of the delay was
attributable to a Department decision to include all New York City area arrests
in the pool of detainees who needed FBI clearances. Another reason for the
delay was a shortage of agents at FBI field offices available to conduct detainee
clearance investigations, given the many demands on the FBI in the fall of
2001 and early 2002. We concluded that the delay was not significantly
affected by CIA response time on name checks, as some officials claimed to the
OIG. Rather, a larger part of the delay was because of the length of time it took
for FBI Headquarters officials to review CIA responses to the name checks.




                                                         52
   A. Inclusion of New York Arrests on the INS’s “Special Interest” List
      Requiring Clearances

       Despite the elaborate system developed by INS Headquarters to identify
and process aliens arrested in connection with the PENTTBOM case, INS
officials in Washington, D.C. discovered – almost by accident – a large number
of “special interest” cases not included on its Custody List that required
clearances before release. By the end of October 2001, officials at INS
Headquarters determined that the FBI’s New York Field Office was maintaining
a separate list of approximately 300 detainees arrested in connection with the
PENTTBOM investigation, most of whom were not on the INS Headquarters’s
Custody List. These aliens were arrested on immigration charges in the
New York City area by INS agents working with the New York JTTF. The names
had been provided to the FBI’s New York Field Office, but had not been
reported to the INS NSU as required by the Operational Orders issued by INS
Headquarters, which we described previously in this chapter. By the time
officials at INS Headquarters became aware of these additional detainees, many
already had been detained for several weeks.

       During discussions about what to do about the detainees on this
separate New York list, officials at the INS, FBI, and the Department raised
concerns about, among other things, whether the aliens had any nexus to
terrorism. However, in the end, the New York list was combined with the INS
Headquarters’s Custody List because of concerns that without further
investigation of these aliens prior to removal, the FBI could unwittingly permit
a dangerous individual to leave the United States.

      1. Background to the New York Custody List

       As noted above, unlike elsewhere in the country, where detainee cases
were individually assessed for placement on the national INS Custody List, the
FBI New York Field Office decided that all aliens arrested in connection with a
PENTTBOM lead would be investigated fully, regardless of the factual
circumstances of their arrests. In the first weeks after the terrorist attacks,
FBI officials in New York City created a list of every alien arrested in connection
with a PENTTBOM lead, regardless of the circumstances of the arrest.
New York FBI and INS officials agreed that the INS New York District would
detain all of the aliens without bond until the FBI had a chance to fully
investigate and clear each one. As discussed previously, prior to centralization
of the clearance process at FBI Headquarters in October 2001, aliens were
removed from New York’s custody list only after receiving a clearance letter
signed by Maxwell, the Assistant Special Agent in Charge of the FBI New York
Field Office.

     In early October 2001, an INS attorney in Newark forwarded INS
Headquarters case names that the INS Newark District believed were on the


                                        53
INS Custody List but that in fact were not on the list. This led INS
representatives to the SIOC Working Group to realize that the INS in New York
and Newark had not been reporting all PENTTBOM-related cases to
Headquarters, as required by the Operational Orders.

      INS officials convened a meeting on November 2, 2001, to discuss why its
New York office had failed to report the names contained on this separate list of
“special interest” detainees, given efforts at INS Headquarters to ensure that it
would be aware of all “special interest” cases. According to notes from the
meeting, the INS New York Assistant District Director for Investigations
explained that the FBI could not determine its interest in a large group of
aliens arrested in connection with the PENTTBOM probe. Therefore, the INS
New York District had read Pearson’s Operational Order 10 to mean that such
cases not be forwarded to INS Headquarters.43 During the meeting, Pearson
asked whether the aliens in question had been initially held without bond, and
he learned that they had been.

       The OIG attempted to determine why the New York FBI and INS offices
failed to keep FBI and INS Headquarters informed of all aliens who would be
subject to the clearance investigation requirement. A variety of witnesses told
the OIG that federal law enforcement organizations in New York City have a
long history of taking actions independent of direction from their Washington,
D.C., headquarters. Several witnesses pointed out that the U.S. Attorney’s
Office in the Southern District of New York and the FBI’s New York Field Office
have coordinated many major terrorism investigations in the United States,
including the 1993 World Trade Center bombing and the African embassy
bombings. Witnesses told the OIG that the U.S. Attorney’s Office and FBI’s
New York Field Office were accustomed to functioning in a highly independent
manner with little oversight from officials in Washington, D.C.

       Discovery of a large group of PENTTBOM-related detainees who had to be
cleared and who were unknown to INS Headquarters until mid-October 2001
presented a host of problems, and several persons told the OIG that the INS
aggressively sought to prevent wholesale incorporation of the New York list of
approximately 300 detainees into its “INS Custody List.” By this time, INS
officials already were concerned about the slow pace of FBI clearances even
though the SIOC Working Group was only dealing with 200 detainee cases.
Moreover, INS officials were concerned about such a merger’s impact because
the New York list indicated that 85 cases were “unassigned,” meaning no FBI
agents were working clearance investigations for these detainees. In addition,

        43 Operational Order 10, issued by Pearson to all INS field offices on September 22,

2001, instructed INS field agents to exercise “sound judgment” in determining whether
circumstances required immediate arrest and detention of aliens, and urged the agents to limit
arrest to those aliens in whom the FBI had an interest.



                                             54
contemporaneous notes indicate that at least one INS Headquarters official was
concerned about how it would look when the Department’s statistics regarding
the number of September 11 detainees doubled overnight.

       2. Merger of Lists

       On October 22, 2001, the Senior Counsel in the Deputy Attorney
General’s Office who worked on immigration matters, an attorney from the
Terrorism and Violent Crime Section (TVCS), two attorneys from the
Department’s Office of Immigration Litigation (OIL), an attorney from the FBI’s
OGC, and the Unit Chief of the FBI ITOS staff met with INS staff to discuss the
problems presented by the New York list. The INS sent multiple
representatives to the meeting, including Victor Cerda (Commissioner Ziglar’s
Chief of Staff), INS Deputy General Counsel Dea Carpenter, and others. Notes
taken at the meeting by an INS attorney reflect that INS officials argued
vehemently against subjecting all September 11 detainees on the New York list
to the full FBI clearance process because, among other things, the clearance
investigations were not being expeditiously completed.

       According to meeting notes, Carpenter also stated that the Department
might be subject to “Bivens liability” if it did not release the New York detainees
in a timely manner.44 Another person at the meeting commented that the INS
could not hold the detainees “forever.” One of the INS attorneys at the meeting
who was in the SIOC Working Group noted that the recent reassignment of a
helpful FBI special agent had brought the information flow from the FBI to the
INS to a “grinding halt,” further delaying the clearance process. Among the
issues raised at the meeting was the Department’s requirement that CIA
checks be completed on all detainees before they could be released.

       A similar group held a follow-up meeting at the FBI’s SIOC on
November 2, 2001, to continue discussing what to do about the separate
New York list. Associate Deputy Attorney General Levey attended the meeting,
along with representatives from INS OGC; Cadman, the Director of the INS’s
NSU; Cerda; and attorneys from the INS’s Bond Unit, OIL, and TVCS, among
others. Raymond Kerr, the Supervisory Special Agent in charge of the I-44A
squad in the FBI’s New York Field Office, participated by speakerphone.
Contemporaneous notes taken by participants and subsequent OIG interviews
indicate that the meeting was very contentious. According to the notes, INS
officials expressed a wide range of concerns during the meeting, including the
fact that FBI clearance checks on the detainees were not timely, that the INS
        44 In Bivens v. Six Unknown Named Agents of the Federal Bureau of Narcotics, 403 U.S.

388 (1971), the Supreme Court held that damages may be obtained for injuries stemming from
violation by a federal official of a person’s Fourth Amendment right to be free from
unreasonable search and seizure.




                                             55
had insufficient evidence for upcoming bond hearings, and that Immigration
Judges already had ordered certain September 11 detainees to be removed
from the United States. When an INS official complained that the INS could
not continue to hold the detainees, Levey responded that the INS needed to be
patient. According to the notes, Levey said that he did not expect INS to wait
months for the results of the clearance checks, but that the INS could wait four
to five days for the CIA checks. The group also discussed resource problems at
the FBI and INS, as well as ways to improve the flow of information between
the two agencies.

       According to the notes of the meeting, FBI Supervisory Special Agent
(SSA) Kerr said the time frame for assigning a September 11 detainee case to
an FBI agent for a clearance investigation was a few days. He urged Levey to
direct that all the detainees on the New York list continue to be held without
bond until cleared. Notes taken by a participant at the meeting summarized
the conflict: “In NY, all people FBI picks up on pentbom [sic] get held no bond.
Everyone else, INS exercises a little discretion, looking for a scintilla of
evidence, to justify no bond.”

       Cerda argued that the New York list should not be added wholesale to
the INS’s Custody List. He explained that the INS did not want to begin
treating all the detainees on the New York list under the more restrictive INS
policies applicable to September 11 detainees. He stated that, for the most
part, detainees’ placement on the list meant they did not get off for a long time.
During the meeting, at least one INS official suggested dispensing with CIA
checks for detainees who otherwise had been fully cleared by the FBI. Levey
told the group that the Criminal Division favored the CIA checks and that he
would need to check to see if any detainees could be released without the CIA
check.

       At the conclusion of the meeting, Levey decided that all the detainees on
the New York list would be added to the INS Custody List and held without
bond. In explaining his decision later to the OIG, Levey said he wanted to err
on the side of caution so that a terrorist would not be released by mistake. He
also stated that he had received a commitment from the FBI to “expedite” its
investigation of everyone on the list, and a promise that the FBI would
“analyze” all the detainees within one or two weeks. The FBI OGC attorney
present at the November 2 meeting said she does not recall making, or hearing
Kerr make, such a commitment. Kerr told the OIG that, while present at the
November 2 meeting, he may well have committed to assigning the case within
a short time frame but he does not recall making a commitment to expedite all
the cases or analyze all the cases within two weeks. The notes of this meeting
provided to the OIG by INS and TVCS officials contain mention of Kerr’s
commitment to assign the “unassigned” cases to agents within a few days, but
make no mention of a commitment to “expedite” the investigations or of any
promise to “analyze” the cases within one to two weeks. According to


                                        56
contemporaneous notes from the meeting, Cerda stated at the end of the
meeting that the “INS position is that we don’t want to ‘no bond’ the NY list.
But we will comply with the no bond policy.”

       As a result, on November 2, 2001, the INS Custody List contained 185
active INS cases and 34 inactive cases (meaning 34 detainees had been
cleared). On November 5, 2001, after the New York cases were added, the INS
Custody List contained 440 active and 41 inactive cases. The addition of the
New York cases to the INS Custody List made the task of removing people from
the list “unmanageable,” according to one INS participant at the meeting, and it
clearly had the effect of slowing the clearance process.

   B. Delays in the Field Portion of the Clearance Investigation

        According to members of the I-44A squad, reassignment of FBI agents to
other duties contributed to delays in detainee field investigations. Kerr, the
Supervisory Special Agent in charge of the I-44A squad, said he consistently
requested additional resources for clearance investigations but was told they
were unavailable, and that he had been given all the resources that could be
spared, given the many priorities assigned to the FBI. For example, during the
fall of 2001 and the spring of 2002, the FBI Newark Field Office had been
assigned a substantial amount of work in connection with the anthrax
investigation and the Daniel Pearl kidnapping in Pakistan. The FBI
Philadelphia Field Office had responsibility for the Fresh Kills landfill on Staten
Island, where officials were examining debris and remains from the World
Trade Center. In addition, FBI agents were assigned to investigate the crash of
an American Airlines flight in Queens on November 12, 2001, while other
agents were sent to Salt Lake City in early 2002 to help with security at the
Winter Olympics.

      In addition, during some clearance investigations, FBI agents uncovered
information that Maxwell, the Assistant Special Agent in Charge of the
New York Field Office, thought warranted review by the New York JTTF. In
those cases, FBI agents transferred the files to the JTTF. The documents we
reviewed showed that the files often were not returned to the I-44A squad for
many months.

       Moreover, the method by which the FBI managed the clearance
investigation process affected the timeliness of these investigations. According
to the members of the I-44A squad, once the FBI investigated a lead and the
INS arrested an individual in connection with that lead, agents generally moved
on to the next lead rather than taking time to investigate or clear the person
arrested. Furthermore, we found that FBI Headquarters did not impose
deadlines on squad members or other FBI agents to complete September 11
clearance investigations.



                                        57
       We also found instances in which I-44A squad supervisors did not
prioritize clearance investigations, even in response to ECs from FBI
Headquarters alerting the FBI New York Field Office about upcoming detainee
bond hearings. FBI agents working in the I-44A squad said they never were
told about any time limits with respect to the INS’s authority to detain these
aliens without bond. While an FBI member of the SIOC Working Group was
designated to serve as liaison to the I-44A squad, that person changed in mid-
November 2001. The INS New York District liaison to the I-44A squad changed
frequently, according to the squad supervisor. Consequently, the flow of
information from the SIOC to the I-44A squad and from the FBI New York Field
Office to INS Headquarters staff concerning the status of individual detainee
clearances was, in the INS’s view, sporadic at best.

   C. CIA Name Checks

      Several FBI and INS officials interviewed by the OIG expressed
frustration with the CIA checks required by FBI Headquarters. For example,
Kerr told the OIG that he believed his office had the ability to conduct an
adequate clearance investigation using its own contacts at the CIA and its
long-standing experience investigating al Qaeda and other related terrorist
groups. Within the INS, the frustration came not so much from who handled
the CIA checks but rather how long it took.

      According to INS officials, the FBI told them that the CIA name check
played a major role in delaying completion of detainee clearance investigations
for September 11 detainees. Cerda, the INS Chief of Staff, told Levey that the
CIA name checks were causing delays in the clearance process. As a result,
Levey attempted to facilitate an expedited CIA name check that would meet the
Department’s desire to ensure that dangerous individuals were not released,
but would not cause unreasonable delay.

       Consequently, representatives from the CIA, FBI, INS, and the
Department met at the FBI SIOC on October 23, 2001, and agreed that an
expedited name check would be sufficient to meet the FBI’s needs. On
October 29, 2001, the CIA’s Litigation Division Chief sent a draft letter to Levey
that outlined the new, expedited process. The Litigation Division Chief
explained that the FBI would send a cable to the CIA with detainee names, in
priority order, together with required identifying information. The CIA agreed
to check its main database for each name and provide copies of the search
results to the FBI, including a summary of any “derogatory” information, on an
“expedited basis.” Levey said he was told this expedited name check could be
accomplished in 48 hours. An FBI agent in the SIOC Working Group told the
OIG that he was told the CIA checks should take only a “few days.”

     This check of the CIA’s main database was a less thorough search than
had been pursued in the past at CIA Headquarters. The new process required


                                        58
only that the raw information be summarized by the CIA, rather than requiring
the FBI to review the files itself. Under the plan, FBI and Criminal Division
attorneys would review the initial CIA summary information and send the CIA a
letter identifying any individuals for whom they wanted the CIA to conduct a
broader database and records search. The letter from the CIA stated that the
more thorough search, which would be initiated only upon receiving a specific
request, in most cases would take approximately two weeks.

       Yet, despite the new, expedited procedures, several FBI and Department
officials we interviewed stated that there continued to be a substantial delay in
the CIA’s response to requests for name checks on the September 11 detainees.
Several officials argued this was a big part of the reason why the clearance
process for September 11 detainees continued to take so long. According to
CIA officials, after the Department and the CIA developed the expedited name
check process, the CIA’s initial checks for September 11 detainees were
completed within approximately eight days. However, our analysis did not
substantiate this claim.

       First, in a number of instances, we found the CIA’s response was delayed
due to a failure by the FBI or INS to submit complete information. We found
multiple instances in which the CIA responded that it was waiting on the INS
Form I-213 (the INS’s arrest report) in order to complete the check.45 CIA staff
interviewed by the OIG noted that the cables received from the FBI often did
not contain adequate identifying information on the detainees, thereby making
the searches more difficult and ultimately less helpful. For example, a
November 26, 2001, letter from the CIA OGC to Levey and the Chief of the FBI
OGC’s National Security Law Division explained that the FBI name check
requests “do not provide all of the information upon which we agreed during
our meeting.” The letter explained that the information from the INS Form I-
213 allowed the CIA to more quickly discard nonresponsive hits on similar
names, thereby improving the response time. The attachments to the letter
demonstrated that the FBI had failed to include information from the INS Form
I-213, as agreed, and had also failed to prioritize the names.

      Second, we found that the substantial delays in many of the
September 11 detainee clearance investigations were attributable to delays at
FBI Headquarters, not because of delays in CIA name checks. In many cases,
the OIG found that the CIA provided the FBI with the results of its name check
months before FBI Headquarters cleared the detainee. The OIG’s review of 54
detainees’ files showed that the CIA was not responsible for clearance delays.46
       45   A blank copy of Form I-213 is attached as Appendix F.

       46  The OIG sample consisted of 54 detainees from the INS Custody List who were
identified by the INS as having been held more than 90 days as of January 23, 2002.




                                               59
In these 54 cases, the CIA responded in just over 2 weeks on average. In 18 of
54 cases, the CIA responded within 8 days. While these times slightly exceeded
the time frame the Department anticipated during discussions at the
October 23, 2001, SIOC meeting, the response times do not seem
unreasonable, given that the Department sent up to 190 names to the CIA at
one time.

      In contrast, we found that the FBI took months to analyze the
information after receiving a response from the CIA. In 36 of the 54 detainee
cases in our sample, the records reflect an average of 54 days between when
the FBI received the CIA name check information and when it cleared the
detainees. In all 36 of these cases, the aliens ultimately were cleared. In 14 of
these 36 cases, the CIA had responded that either there were no records of the
individuals in its databases or the information they had was “not identifiable”
with the detainees.47 In 22 cases, the FBI received some information but
deemed it “not identifiable” with the detainees. In the remaining 18 of the 54
cases, we were unable to determine the time it took to analyze this information,
due to insufficient data in the file.

       In most instances, we found that Rolince, the ITOS Chief in the FBI’s
Counterterrorism Division, issued the detainee’s clearance letter shortly after
receiving an EC from the Supervisory Special Agent assigned to evaluate the
CIA information that affirmed there was no identifiable CIA information on the
detainee. Consequently, it appears that failure by the FBI to provide sufficient
resources to review the CIA name check results in a timely manner
significantly delayed the issuance of detainees’ clearance letters.

       The FBI OGC attorney assigned to the SIOC Working Group explained to
the OIG that she recognized that she and her fellow OGC attorneys could not
evaluate the CIA cables themselves, because they lacked the expertise to do so,
and the personnel in the SIOC assigned to the detainees did not have adequate
resources to handle the analysis. She alerted her superior, FBI General
Counsel Larry Parkinson, who contacted the Deputy Executive Assistant
Director, Tim Caruso. Caruso then contacted the Chief of the National
Domestic Preparedness Office, Tom Kinnally, which was part of the ITOS.
Kinnally assigned two SSAs from that unit to assist with and oversee the
analysis of the CIA information. One of the SSAs told the OIG that, at the time,
every member of her unit was working on a “critical” assignment, including
work related to the anthrax investigation. She said she and the other SSA were
assigned to do the CIA checks full time beginning in late November 2001, but
later in December they also were assigned to work on the creation of a

       47According to an FBI analyst who reviewed the CIA name check results at FBI
Headquarters, “not identifiable” meant that “based on information available, it cannot be
determined if the subject is, in fact, identical to CIA file references.”



                                              60
document exploitation unit. Beginning in approximately January 2002, 2
special agents were detailed to the CIA name check project for 30 days at a
time. While this provided some help, it also required new agents to be trained
on the project every month.

       Moreover, we found that these resources were insufficient to permit the
group to analyze the CIA information in a more timely manner for a number of
reasons. First, according to one of the SSAs assigned to the project, the
volume of cases was simply too great. One of the FBI requests to the CIA for
information contained the names of 190 detainees. Second, the SSA pointed to
many technical difficulties and “growing pains” they faced when they first
started in late November 2001. For example, they had to find a person who
had access to and was trained on the computer system that contained many of
the documents they needed. According to the SSA, it took “several weeks” to
get things in place and running. Third, many of the people working on this
project were not focused exclusively on this task, due to the many demands on
the FBI. Finally, some of the cases required contacting FBI offices overseas or
other agencies, which took time, especially because the FBI offices in the
Middle Eastern countries also were over-burdened at the time.

      The SSA also stated that, despite all the efforts made to carefully
evaluate the CIA information, for the most part it was almost impossible to
determine if the information provided by the CIA was identifiable with the
detainee. Even if the name was the same or quite similar, many of the names
were common and the lack of other identifiers beyond names made connecting
the information to the detainees nearly impossible.

      The SSA explained that the group of agents and intelligence analysts
assigned to the project attempted to prioritize its work so that those with final
orders of removal or other issues could be dealt with first. Cases were
sometimes brought to their attention that were “priority” due to a court date or
order of removal.

      In late November 2001, INS Chief of Staff Cerda contacted Levey by
e-mail to complain again about the timeliness of the CIA checks. He stated
that 157 September 11 detainees who otherwise had been cleared by the FBI
were “in limbo” while waiting for CIA checks. He asked Levey whether the
Department would reconsider its policy to require CIA checks under these
circumstances.48



        48 This demonstrates the misperception held by many people, including some at the

INS, who incorrectly attributed delays in the clearance process to unresponsiveness by the CIA
rather than at FBI Headquarters.




                                             61
       By the time Cerda raised this concern, even Fisher, a Criminal Division
Deputy Assistant Attorney General and a member of the SIOC Working Group
who initially imposed the CIA check requirement, was willing to reconsider the
issue. In a November 29, 2001, e-mail to TVCS supervisors, Fisher wrote, “I
guess my initial view is that we should triage at this point, rather than scrap
the system. Let’s hold on people where we have other [negative] information
until the CIA checks go through. Let’s get a CIA list with priority. And for
those who are ready to be deported and we have no other [negative] info, let’s
let them be deported if CIA can’t check, as a last resort.”

      Levey told the OIG that he did not feel comfortable making the decision
about Cerda’s request to change the CIA check policy without additional input,
so he consulted David Laufman, the Deputy Attorney General’s Chief of Staff.
Levey told the OIG that Laufman advised him to continue to require CIA
checks, and Levey said he communicated this decision to Cerda by e-mail.
Laufman told the OIG that while he did not recall specifically being asked by
Levey about the CIA check policy, he did not dispute Levey’s claim that they
discussed the matter. Laufman also stated that there could be “catastrophic
consequences” if the Department turned one person loose it should not have.

      Levey said that even after the decision to keep requiring CIA checks, he
continued to try to expedite the CIA check process. Ultimately, however, the
decision to require CIA checks and FBI clearance before a September 11
detainee could be removed from the country was changed. On February 6,
2002, based upon the FBI’s re-evaluation of the “hold until cleared” policy,
Levey changed the Department’s policy that up to that point required formal
clearance from both the FBI and CIA before removing a detainee. Neither the
FBI nor the Criminal Division opposed the change. This reversal is described
in detail in Chapter 6 of this report.

       D. Examples of Delays

      The following are examples of how delays in conducting clearance
investigations affected individual September 11 detainees:

   •   An alien arrested in early October 2001 in the New York City area had
       been employed by a Middle Eastern airline, although not as a pilot. The
       alien, who entered the United States as a crewman, had been ordered
       removed from the country in 1995. His appeal of that order had been
       dismissed in 1996. In October 2001, he was arrested based on a lead
       received by the FBI indicating he was employed in the airline industry.
       On the Form I-213 completed on the day of his arrest, the INS special
       agent indicated, “FBI Trenton stated there is no reason to delay with
       removal of the subject.” The alien was nonetheless placed on New York’s
       “special interest” list because he had been arrested on a PENTTBOM lead



                                      62
       stemming from his previous employment in the airline industry. In
       mid-October 2001, FBI agents interviewed the alien, one of his relatives,
       and his previous employer. On November 21, 2001, the FBI agent
       assigned to the SIOC Working Group sent an EC to the Special Agent in
       Charge of the FBI Newark Field Office requesting information about the
       detainee, stating:

           [A]ll response ECs should contain a statement from the SAC or
           his/her designee stating whether the FBI has an investigation [sic]
           interest in [the] detainee. If a field office does not have an
           investigative interest in a detainee, the response EC should state this
           fact and request that Project INS/FBI Detainee conduct appropriate
           CIA name checks. Once the no interest EC is received from a field
           office and CIA name checks are completed, a letter will be generated
           to INSHQ advising of FBI’s no interest if the name checks do not
           provide information of investigative interest.

       The EC contained no specific deadline for a response, although it had a
       precedence of “Immediate” and requested the information “as soon as
       possible.”49 We could find no response from the FBI Newark Field Office.
       In early December 2001, FBI Headquarters requested that the CIA
       conduct a name check for the detainee. In mid-December 2001, FBI
       Headquarters sent a follow-up EC to the FBI Newark Field Office, also
       with a precedence of “Immediate,” again requesting the “interest/no
       interest” assessment. Before it received a response to this second EC,
       FBI Headquarters received the results of the CIA name check that found
       “no identifiable information” in connection with the detainee. The CIA
       response arrived 17 days after the FBI requested the name check. This
       detainee’s name subsequently appeared on a list of detainees held more
       than 90 days that the INS forwarded to the Office of the Deputy Attorney
       General during the third week of January 2002. Within a week of the
       detainee’s name appearing on this list, the FBI Newark Field Office
       provided FBI Headquarters with an EC stating it had “no interest” in the
       detainee and, based on that information, FBI Headquarters produced a
       clearance letter indicating that the INS could remove the detainee.


        49 FBI ECs have a line marked “precedence” that can be designated “immediate,”

“priority,” or “routine.” The FBI Investigative Manual states that the “immediate” designator is
to be used when the addressee(s) must take prompt action or have an urgent need for the
information. Immediate teletypes require approval by the special agent in charge, division
head, or their designated representative (at FBI Headquarters) and must be given preferred
handling. The FBI Investigative Manual states that “priority” is used when information is
needed within 24 hours, while “routine” is used when information is needed within the normal
course of business.




                                               63
    Thus, it appears that the FBI completed all field investigative work within
    three weeks of the detainee’s arrest. The CIA check, which was negative,
    took slightly more than two weeks. Yet the detainee was not cleared for
    nearly four months. Based on the FBI Newark Field Office’s and
    Headquarters’s records in connection with this case, there does not
    appear to be any justification for the three-and-a-half-month delay in
    clearing this detainee. Furthermore, the timing of the clearance suggests
    that the reason the FBI finally cleared him was due to his inclusion on
    the list forwarded by the INS to the Office of the Deputy Attorney
    General.

•   A Middle Eastern man in his 20s was arrested on August 30, 2001 –
    more than a week prior to the terrorist attacks – for illegally crossing the
    border from Canada into the United States without inspection. After the
    September 11 attacks, the alien was placed on the New York “special
    interest” list even though a document in his file, dated September 26,
    2001, stated that FBI New York had “no knowledge” of the basis for his
    detention. FBI Headquarters did not request a CIA name check on the
    detainee until November 8, 2001. The name check came back negative
    13 days later, but the clearance letter was not issued until December 7,
    2001. The alien was removed in late February 2002.

•   A Muslim man in his 40s, who was a citizen of ▀▀▀ ▀▀▀▀▀▀ ▀▀▀▀▀▀▀,
    was arrested after an acquaintance wrote a letter to law enforcement
    officers stating that the man had made anti-American statements. The
    statements, as reported in the letter, were very general and did not
    involve threats of violence or suggest any direct connection to terrorism.
    Nonetheless, the lead was assigned to a special agent with the JTTF and
    resulted in the man’s arrest for overstaying his visa. Because he had
    been arrested on a PENTTBOM lead, he automatically was placed in the
    FBI New York’s “special interest” category.

    Within a week, the New York FBI Field Office conducted a detailed
    interview of the detainee. By mid-November 2001, the Field Office
    concluded that the detainee was of no interest. However, FBI
    Headquarters did not request a CIA name check until December 7, 2001.
    In addition, FBI Headquarters failed to include the INS Form I-213 with
    its request to the CIA, even though the FBI Field Office’s records reflected
    that the FBI had a copy of the detainee’s Form I-213 in its file. A CIA
    response to the FBI’s request, dated late February 2002, indicated that
    the detainee’s case was one of those “pending 213s from 12/7.” The
    response also indicated that the CIA found “no identifying information”
    about the detainee in its databases. FBI Headquarters issued the
    detainee a clearance letter the next day. Thus, it appears that this alien,
    who was cleared by the New York FBI Field Office by mid-November



                                     64
       2001, was not cleared by FBI Headquarters until late February 2002 due
       to an administrative oversight.

   E. Knowledge of the Delays in the Clearance Process

       At the end of September 2001, an attorney from the Criminal Division’s
TVCS, who was also a member of the SIOC Working Group, raised concerns to
his superiors that the FBI lacked adequate resources to conduct detainee
clearances in a timely manner. In response, the Principal Deputy Chief of the
TVCS drafted a memorandum in late September or early October 2001 from
Assistant Attorney General Chertoff to Dale Watson, then the Assistant
Director of the FBI’s Counterterrorism Section. The draft memorandum
requested that each FBI field office designate at least one agent to promptly
interview September 11 detainees held in that district, and urged that these
interviews be conducted on a “priority basis.” The memorandum also
requested that “[s]ufficient resources must be allocated in SIOC to provide
notification to field offices of detainees and bond hearings in their districts and
to facilitate the exchange of information to the INS attorney who will appear at
the bond hearing. Currently, one person is handling this responsibility for all
detainees and detention hearings with only intermittent assistance.” Finally,
the draft memorandum noted that “It is important that these aliens in
detention are handled appropriately to make sure that those who are of
investigative interest continue to be detained and those who are not of
investigative interest are handled by the INS in the manner that similarly
situated aliens would be handled.”

       After reviewing the draft memorandum, the TVCS attorney sent a typed
note to the Chief and Deputy Chief of TVCS saying he believed that the FBI
Director would “want to know that the field isn’t getting the job done.” He
added, “To be candid, we are all getting screwed because the Bureau’s SACs
haven’t been told explicitly they must clear, or produce evidence to hold, these
people and given a deadline to do it.” He suggested that the way to resolve the
problem was to “get to [FBI Director] Mueller or [Deputy Director] Pickard, and
have them direct the SACs to interview, run checks and clear or recommend
holding people within 24 hours and direct necessary HQ personnel to clear NLT
[no less than] 24 hours after that.”50 He told the OIG the purpose of his typed

       50 The attorney also wrote in his note, “We are sending INS into immigration court today

to argue, in essence, that he [the alien] be held without bond because of WTC [World Trade
Center].” The TVCS attorney told the OIG that after reviewing the files of these detainees it was
“obvious” that the “overwhelming majority” were simple immigration violators and had no
connection to the terrorism investigation. He said continuing to hold these detainees was a
waste of resources and could damage the Government’s credibility to oppose bond or release in
more meritorious detainee cases. He acknowledged that the only way to know “for sure” if
these detainees were linked to terrorism was to conduct clearance investigations, but he
argued that the Government must provide the resources for such an effort.



                                               65
note was to “urge that the memo to the FBI be more blunt.” He said, with
respect to this note, that the FBI was not staffing the detainee cases with
sufficient resources. According to this attorney, the Criminal Division
eventually decided not to send the memorandum to the FBI.

       When interviewed by the OIG, Chertoff said that while he was familiar
with the contents of the draft memorandum, he did not know whether it was
sent (it was not, according to other witnesses). Chertoff recalled orally raising
the issue of the pace of clearance investigations with FBI Director Mueller and
Assistant Director Watson, but indicated that during the first few months after
the attacks he believed these issues related to the impact of the clearance
process on bond hearings (as opposed to removal of aliens from the United
States). Chertoff told the OIG that he later became aware of a delay in
removing detainees when he received questions from Congress about this issue
as a follow-up to his November 28, 2001, testimony before the Senate
Committee on the Judiciary.51

       Director Mueller said he did not recall hearing about any problems with
the clearance policy until the spring or summer of 2002. He said he did not
recall any expectation of how long the process would take, and he did not learn
how long the process in fact was taking. At some point, however, he said he
learned that it was taking more than a few days. He said he would have
expected problems with the clearance process and the time it was taking to be
handled at a level lower than him.

       INS Commissioner Ziglar told the OIG that he called FBI Director Mueller
on October 2, 2001, to discuss the INS’s problems in obtaining timely
clearances from the FBI. FBI Deputy Director Pickard returned the call. Ziglar
said he told Pickard that the FBI was putting the INS in the awkward position
of holding aliens in whom the FBI had expressed “interest” but then failing to
follow through with a timely investigation. Ziglar said he told Pickard that
unless the INS received written releases in a timely manner, the INS would
have to start releasing September 11 detainees. Pickard, who retired from the
FBI in November 2001, told the OIG that he did not recall this conversation
with Ziglar. Further, he said that he had no recollection of any complaints
from the INS regarding the pace of the FBI clearance process.

        Ziglar also told the OIG that he contacted the Attorney General’s Office
on November 7, 2001, to discuss concerns about the clearance process,
especially the impact of adding the New York cases to the INS Custody List. He
initially called David Ayres, the Attorney General’s Chief of Staff, but recalls

       51Chertoff is apparently referring to this question posed by Senator Leahy: “Is the
Department intentionally holding people in American custody even after they have been
ordered removed?”



                                              66
 reaching David Israelite, the Deputy Chief of Staff. According to Ziglar, he
 alerted Israelite to the fact that September 11 detainee cases were not being
 managed properly and warned of possible problems for the Department. Ziglar
 told the OIG that he was frustrated at this time and felt powerless to resolve
 the situation because he had no authority over the FBI, which was responsible
 for determining which detainees were “of interest,” who would be cleared, and
 when. Israelite told the OIG that he could not recall this particular
 conversation with Ziglar and did not recall any complaints from the INS during
 the fall of 2001 regarding the clearance process for September 11 detainees.

       Ziglar said that based on these and other contacts with senior
 Department officials, he believed the Department was fully aware of the INS’s
 concerns about the ramifications caused by the slow pace of the detainee
 clearance process. When asked why he did not press the issue with the
 Attorney General or the Deputy Attorney General, he acknowledged that at
 some point he should have “gone around the chain of command” directly to the
 Attorney General or the Deputy Attorney General, but he felt it would have
 been futile to approach them directly about these issues because he did not
 think the outcome would have been different.

       Deputy Attorney General Thompson told the OIG that he had not been
 made aware of the slow pace of FBI clearance investigations. He said that had
 the INS alerted him to the time limits it believed were applicable, he would have
 contacted the FBI immediately. Thompson said he received regular briefings
 during this period regarding the INS in which he was assured that the
 immigration processes for the detainees were being handled “properly.”

       The Attorney General stated that he had no recollection of being advised
 that the clearance process was taking months, nor did he recall hearing any
 complaints about the timeliness of the clearance process or a lack of resources
 dedicated to the effort to clear detainees.

VI. FBI WATCH LIST

        In contrast to the inefficient way that the clearance process for
 September 11 detainees on the INS Custody List was handled, the FBI handled
 clearances from another important list – its watch list – in a more efficient
 manner.52 We briefly discuss the FBI’s handling of this watch list to illustrate
 the differences in how the two clearance processes were handled.




        52  We have not analyzed legal issues that may be presented by the creation of such a
 list, nor have we determined whether the list itself was effective from an investigatory or public
 safety perspective.



                                                67
        The day after the terrorist attacks, the FBI began developing a watch list
originally designed to identify potential hijackers who might be planning
additional terrorist acts once air travel resumed. The FBI distributed the watch
list to airlines, rail stations, and other common carriers to assist in its
terrorism investigation.

      The FBI developed two versions of the list. One contained a person’s
name and date of birth only and the other contained additional information.
The information on the lists was updated once or twice daily. The FBI provided
the name and date of birth list to common carriers such as Amtrak, bus
companies, truck rental companies, and the National Business Aviation
Association. By September 26, 2001, the list had grown from the initial names
to several hundred. As word spread nationwide that such a watch list existed,
various agencies requested that names be added to the list.

       Kevin Perkins, the Inspection Division Section Chief at FBI Headquarters
who coordinated the watch list, told the OIG that he immediately recognized
that the existence of the list created risks that innocent persons not connected
to terrorists would be unfairly implicated. He said he wanted to create a
mechanism for limiting who was placed on the list and for removing people
from the list as quickly as possible. Perkins recruited an attorney from the
FBI’s Office of General Counsel to assist with managing the watch list and
asked the attorney to develop parameters for placing names on the list that
followed the Attorney General’s guidelines for opening a criminal case. The
attorney prepared a one-page document called “Screening Characteristics for
Lookout Lists” that set out three categories of persons to be placed on the list.

       Perkins said the list eventually grew to as many as 450 people. At one
point, Perkins’s supervisor said he directed that no one could be added to the
list without his authorization. When interviewed by the OIG, Perkins and the
attorney assisting him said they became concerned that individuals were being
placed on the list who had no connection to terrorists. For example, because
the airlines use a “soundex” system to retrieve like-sounding names, this
resulted in names ending up on the list as soundex matches to names that
were entirely different. Perkins also gave an example where a group of entries
on the list all had the same first initial and a common last name, with no
additional information.

       Perkins told the OIG that he quickly turned his attention from regulating
who got on the list to working to get people off the list. He recruited a group of
legal instructors stationed at the FBI Academy in Quantico, Virginia, to help
manage the process. Perkins said he ensured that all of the names on the list
were indexed and he created a file for each. He asked the legal instructors to
take each file and review how each person got on the list and what work had
been done by FBI field offices to follow up on any initial leads. He told the OIG



                                        68
 that he asked the legal instructors to review the sufficiency of the information
 and to run records checks for each person.

        Perkins said that in some instances, removing people from the list was
 not difficult. For example, a ▀▀▀▀▀▀▀ FBI field office had provided
 information that approximately 20 Arab men attended the same flight schools
 as the hijackers, so these men were placed on the list. Upon further checking,
 this information turned out to be inaccurate – the men had attended flight
 schools, but not the same ones as the hijackers. Consequently, the men’s
 names were taken off the list.

        By late October 2001, the FBI alerted its field offices that it had stopped
 adding names to the watch list. By the end of November 2001, Perkins said
 the team had reduced the watch list to 20 to 30 names, 19 of which were the
 names used by the hijackers (the FBI was uncertain whether they had used
 their real names).

VII. OIG ANALYSIS

        The Department reacted swiftly to the attacks on the World Trade Center
 and Pentagon by launching a massive investigation in this country and abroad.
 Within a week of the attacks, the FBI had assigned more than 7,000 employees
 to the task of tracking down anyone who had aided the terrorists and
 attempting to prevent additional attacks. In the ensuing weeks, JTTF agents
 and other law enforcement officers across the country arrested hundreds of
 illegal aliens they encountered while pursuing PENTTBOM leads, whether or
 not they were the subjects of the leads. While it is beyond the scope of the
 OIG’s review to assess the appropriateness of these law enforcement actions,
 we saw some instances of the detention of aliens that appear to be extremely
 attenuated from the focus of the PENTTBOM investigation.

        The Department instituted a policy that all aliens in whom the FBI had
 interest in connection with the PENTTBOM investigation, no matter how
 tangential the connection, required clearance by the FBI of any connection to
 terrorism before they could be removed or released. Therefore, determining
 which of these aliens was “of interest” to the FBI’s terrorism investigation
 became the first of a series of critical decision points. We found that often the
 FBI could not state whether or not it had an interest in a particular alien and
 therefore, out of an abundance of caution, the FBI labeled the alien of interest
 or of unknown interest, and consequently the INS treated the alien as a
 September 11 detainee who required clearance from the FBI before he could be
 released.

       In fact, in New York City we found that the FBI and the INS made little
 attempt to distinguish between aliens arrested as subjects of a PENTTBOM
 lead and those encountered coincidentally. This lack of precision had


                                         69
important ramifications for many aliens in the time they spent confined and
the conditions of that confinement, as we discuss in subsequent chapters of
this report.

       We do not criticize the decision to require FBI clearance of aliens to
ensure they had no connection to the September 11 attacks or terrorism in
general. However, we criticize the indiscriminate and haphazard manner in
which the labels of “high interest,” “of interest,” or “of undetermined interest”
were applied to many aliens who had no connection to terrorism. Even in the
hectic aftermath of the September 11 attacks, we believe the FBI should have
taken more care to distinguish between aliens who it actually suspected of
having a connection to terrorism as opposed to aliens who, while possibly
guilty of violating federal immigration law, had no connection to terrorism but
simply were encountered in connection with a PENTTBOM lead. Alternatively,
by early November 2001, when it was clear that the clearances could not be
accomplished in a matter of days (or even weeks), the Department should have
permitted the FBI and INS to review the cases and keep on the list only those
detainees for whom there was some factual basis to suspect a connection to
terrorism or to the PENTTBOM investigation.

      We found that the information provided to high-level Department officials
suggested that this “hold until cleared” policy was being applied to persons
“suspected of being involved in the September 11 attacks.” In practice, the
policy applied much more broadly to many detainees for whom there was no
affirmative evidence of a connection to terrorism. This disconnect should have
been discovered earlier and should have caused a review of the manner in
which detainees were being categorized.

      We appreciate the difficulty of making a definitive and expeditious
determination in many cases, and realize that in the weeks and months after
September 11 law enforcement decided to err on the side of caution. However,
the manner that these designations were applied to arrested aliens was in
many cases weak. Moreover, the FBI failed to provide adequate field office staff
to quickly conduct the detainee clearance investigations and failed to provide
adequate FBI Headquarters staff to effectively coordinate and monitor the
detainee clearance process. This contributed to the slow pace of the FBI’s
clearance process, which meant the FBI’s initial determination of its “interest”
had enormous consequences for the detained aliens.

      We also found that the FBI’s clearance process was understaffed and not
accorded sufficient priority. Moreover, despite the belief at high levels of the
Department that the clearance investigations underlying the “hold until
cleared” policy could be and were being done quickly, we found that they were
not. The average time from arrest to clearance was 80 days and less than 3
percent of the detainees were cleared within 3 weeks of their arrest.



                                       70
       We found several reasons for this substantial delay. Although initially
the clearance process was handled exclusively at local FBI offices, the
clearance decision was soon centralized at FBI Headquarters. While the desire
to centralize these decisions was supportable, given the need for a consistent
process overseen on a national basis, centralization delayed the clearance
process.

      Moreover, the FBI failed to devote adequate resources to the task.
Agents responsible for clearance investigations were often assigned other duties
and were not able to focus on clearance investigations. The result was that
detainees languished on the list for weeks and months, with no investigations
being conducted.

       Another reason for the delay was the inclusion of all New York City
detainees arrested in connection with PENTTBOM leads being placed on the
INS Custody List and therefore requiring FBI clearance. While this decision
also was supportable, given the desire not to release any alien who might be
connected to the attacks or terrorism, the inclusion of so many detainees in the
clearance process required the FBI to devote additional resources to the
clearance task. This did not happen, and the inclusion of 300 new names on
the list overwhelmed the resources of the FBI in conducting clearance
investigations.

      As part of the clearance investigation, the Department required CIA name
checks for all September 11 detainees. While we were told that the CIA delayed
conducting the checks, we did not find this to be true. We found that the CIA
conducted the checks in a timely fashion and that the delays relating to CIA
name checks resulted from inaction by the FBI in reviewing the checks, not
delays by the CIA in conducting them.

      In contrast to the untimely manner in which the FBI handled the
clearance process for September 11 detainees, the FBI handled adding and
removing names to its watch list in a much more timely manner. Although we
did not conduct an in-depth analysis of the watch list, it is clear from our
limited review that the FBI was cognizant of the need to expeditiously remove
people from that list who should not be on it. By contrast, the FBI did not
devote similar attention to clearing September 11 detainees who had no
connection to terrorism. The handling of the watch list also demonstrates the
benefits of placing an individual with operational authority and access to
substantial resources in charge of a project of this nature.

      The untimely clearance process had enormous ramifications for
September 11 detainees, who were denied bond and also were denied the
opportunity to leave the country until the FBI completed its clearance
investigation. For many detainees, this resulted in their continued detention in
harsh conditions of confinement, which we describe in the chapters that follow.


                                      71
                                     CHAPTER FIVE

                        THE DEPARTMENT’S “NO BOND”
                     POLICY FOR SEPTEMBER 11 DETAINEES

       This chapter examines the Department’s “no bond” policy for
September 11 detainees. We first provide background on relevant immigration
law, including an overview of the charging, bond, and removal processes for
aliens arrested for immigration violations. Next, we describe the Department’s
efforts to oppose bond for all September 11 detainees while the FBI conducted
its clearance investigations. We also address the INS’s efforts to comply with
the policy, despite its concerns about the legal dilemma created by the lack of
information for bond hearings.

I. BACKGROUND ON IMMIGRATION LAW

       The INS has authority to arrest aliens if they are present in the United
States in violation of immigration law. Aliens who were never lawfully admitted
into the United States are labeled “inadmissible.” Aliens who were lawfully
admitted into the United States but failed to maintain their immigration status,
overstayed their visa, or engaged in unlawful conduct are “removable” or
“deportable.” In either case, the proceeding that ensues is currently referred to
as a “removal” proceeding. It takes place in the Immigration Court, a trial-level
tribunal that determines whether an alien is in the United States in violation of
law, and, if so, whether any waiver or benefit is available that would allow the
alien to remain in the United States lawfully.53 The Office of the Chief
Immigration Judge coordinates the activities of the more than 220 Immigration
Judges located in 51 Immigration Courts throughout the country. Decisions of
Immigration Judges may be appealed to the Board of Immigration Appeals
(BIA). Both the trial and appellate-level courts are components of the
Department of Justice, under the authority of the Attorney General. In certain
instances, aliens may appeal the decisions of the BIA to federal court.

       Removal proceedings begin when the INS issues a “Notice to Appear” (an
“NTA”) to an alien detained on federal immigration charges. As we described in
Chapter 3, the NTA, issued by an INS District Director, is the charging
document in a civil immigration case. The INS serves the NTA on both the
alien and the local Immigration Court.

       53 Removal proceedings are generally referred to as “section 240 proceedings” because

they are governed by section 240 of the Immigration and Nationality Act, codified at 8 U.S.C.
§§ 1101-1537.



                                              72
       The INS District Director is responsible for setting the initial bond for an
alien. The alien can request a bond re-determination hearing before an
Immigration Judge by marking a box on the INS Form I-286 “Notice of Custody
Determination,” which is served on the alien at the same time as the NTA.54 In
certain cases, aliens are not eligible for bond, but in most cases, according to
the INS General Counsel, the INS must provide justification to support its
position to hold aliens without bond.

       Separate from the bond hearing, the alien is entitled to a merits
hearing.55 If the Immigration Judge orders removal and the alien does not
appeal, the “order of removal” becomes final and the “removal period” begins.
This removal period is the phase during which the INS arranges for the alien to
be returned to the alien’s country of citizenship. Under federal immigration
statutes, the INS “shall remove the alien within a period of 90 days” from the
date the order becomes final.56 There are a number of reasons why removal
may not be accomplished within that time frame, which the statute takes into
account, such as aliens obstructing their return or a failure of the alien’s home
country to accept the alien’s return. The removal period generally begins on
the date the removal order becomes administratively final. Where an alien is
being held for non-immigration reasons (such as when an alien is serving a
criminal sentence), the removal period begins on the date the alien has finished
his criminal sentence. The removal period can be extended if the alien fails to
apply in good faith for travel or other documents necessary for his or her
departure or takes other actions to prevent his or her removal.

       According to the Immigration and Nationality Act, aliens who receive final
orders of removal while being detained by the INS must continue to be detained
during the 90-day “removal period.”57 Once the initial 90-day removal period is
over, if the alien has not departed the country the alien “shall be subject to
supervision under regulations prescribed by the Attorney General.” The
statute permits certain aliens to be detained beyond the 90-day removal period,
including those whom the INS – through a delegation of authority from the



       54   See copy of Form I-286 at Appendix G.

        55 The merits hearing is held to determine whether the alien is removable, or whether

the alien is entitled to relief that would permit the alien to stay in the United States despite the
fact that the alien is technically removable, such as if the alien is eligible for asylum.

       56   8 U.S.C. § 1231.

       57 “[D]uring the removal period, the Attorney General shall detain the alien.” 8 U.S.C.
§ 241(a)(2) (emphasis added).




                                                73
Attorney General – identifies as risks to the community or whom are unlikely to
comply with the removal order.58

       In the alternative, an alien can avoid an order of removal (and the
negative consequences of such an order, including its 10-year ban on returning
to the United States) by agreeing to voluntarily depart the United States.
Aliens who accept “voluntary departure” may remain in custody pending
departure or may be released.59

II. DEPARTMENT’S STRATEGY FOR MAINTAINING DETAINEES IN
    CUSTODY

       As discussed in Chapter 2, after September 11 the Department was
concerned about the possibility of additional terrorist attacks and the FBI
immediately sought to shut down any “sleeper” cells of terrorists who might be
preparing another wave of violence. The Department also wanted to ensure
that the individuals it arrested as part of the PENTTBOM investigation would
not be released to potentially cause additional harm, which led to the “hold
until cleared” policy discussed previously. As Deputy Attorney General
Thompson explained to the OIG, an individual arrested and detained posed no
ongoing threat to the United States, and therefore law enforcement officials
could focus on arresting others still at large who did pose a potential threat.
Assistant Attorney General Chertoff told the OIG that, after the attacks, the
Department almost immediately turned its attention to prevention, and that he
and other top-level officials discussed using all legally available means to
ensure that those who posed a danger would not be able to carry out further
attacks.

      The Attorney General told the OIG that, even though some detainees may
have wanted to be released or may have been willing to leave the country, it
was in the national interest to find out more about them before permitting
them to leave. In addition, he said that the United States might want to share

       58 According to INS data, 48 of the 762 (6 percent) September 11 detainees had received
a final removal order prior to their arrest as part of the PENTTBOM investigation. Some of
these detainees had been released from INS custody and ordered to appear on a certain date to
be removed, but had failed to do so. Consequently, a final order of removal already was in
existence for them when they were arrested after September 11 in connection with the
terrorism investigation.

       59 Certain aliens are not entitled to removal proceedings because they waived rights in

advance of their arrival in the United States under the auspices of special programs, such as
the Visa Waiver Program. Under the Visa Waiver Program, aliens from 28 specified countries
may visit the United States for up to 90 days without first obtaining a visa. These aliens can
be summarily returned to their countries if they are found to have violated the terms of the
Visa Waiver Program.




                                              74
the information with the country to which the alien would be removed. He also
noted that in the past the Department had problems with persons who were
released pending appeal of their removal orders, because a very high
percentage of them became “absconders” who later could not be located to be
removed.

      Within the Office of the Deputy Attorney General, the official primarily
responsible for oversight of immigration issues was Associate Deputy Attorney
General Stuart Levey. He and two attorneys (one a Senior Counsel) who
reported to him coordinated the Department’s strategy to maintain control of
the September 11 detainees until they were cleared by the FBI.

       On September 27, 2001, the Senior Counsel in the Deputy Attorney
General’s office sent an e-mail to David Ayers, Chief of Staff to the Attorney
General, that included a “strategy for maintaining individuals in custody.” The
first section of the document attached to the e-mail, “Potential AG
Explanation,” explained that the Department was using several tools to
maintain custody of all individuals suspected of being involved in the
September 11 attacks, which involved criminal charges and material witness
warrants for those in the country legally and immigration charges for those in
the country illegally. The document noted that the INS already had 125
persons “related to this investigation” in custody, and that these detainees were
requesting bond hearings. It stated:

       In preparation for bond hearings for these individuals, the FBI and INS
       are diligently working to provide the INS attorneys in locations where
       these aliens are detained with all available information relating to the
       individual’s risk of flight and dangerousness. Attorneys from the
       Criminal and Civil Divisions are participating in this process to
       coordinate the immigration proceeding with the criminal investigation
       and to prepare to defend against petitions for writs of habeas corpus
       that these aliens will almost certainly file. In addition, the Criminal
       Division is examining each of the cases to determine whether the
       person can be detained on criminal charges or on a material witness
       warrant if the person is ordered released from INS custody.

      The second section of the document explained that detained aliens who
were not satisfied with their initial bond or no-bond determination could
request bond re-determination hearings. The document then described efforts
the FBI and INS would make to ensure that the aliens in question would not be
released on bond.

       According to the document, the INS would be obtaining information
relevant to the alien’s risk of flight and dangerousness and would present that
information to the Immigration Judge at the alien’s bond hearing through
proffers, documents, or witnesses. If only classified information was available


                                       75
 to establish the alien’s dangerousness or risk of flight, the information would
 be used only as a last resort after high-level review of the case. If the
 Immigration Judge ordered the alien’s release, the INS would “immediately” file
 a motion to stay that decision and would appeal the decision to the BIA. If the
 BIA ordered the alien released, the INS would refer the case to the Attorney
 General. According to the document, the Civil Division was preparing briefs in
 anticipation of having to oppose petitions that might be filed by aliens seeking
 release in federal court. The Department planned to argue that any such
 petitions filed before resolution of the aliens’ bond hearings were premature,
 and it planned to appeal any adverse decision from a federal district court
 granting release to these aliens. The strategy noted that if any alien “believed
 to be involved in the September 11 attacks” was ordered released, the Criminal
 Division might still be able to obtain a material witness warrant.

       Implementation of this strategy, as discussed in the following sections of
 this chapter, determined whether a September 11 detainee would be released
 on bond pending a hearing on his immigration charges.

III. INS EFFORTS TO MAINTAIN DETAINEES IN CUSTODY

        The INS took a variety of steps to ensure that aliens arrested in
 connection with the PENTTBOM investigation would not be released until the
 FBI had determined that they posed no danger to the United States. INS
 District Directors made an initial custody determination of “no bond” for all
 September 11 detainees (since granting bond could have resulted in the release
 of aliens not yet cleared by the FBI). Second, INS Executive Associate
 Commissioner for Field Operations Michael Pearson issued a directive two days
 after the terrorist attacks instructing INS field offices that no September 11
 detainee could be released without Pearson’s written authorization. Third,
 officials at INS Headquarters created a bond unit to handle the September 11
 detainees’ cases. Fourth, INS attorneys requested multiple continuances in
 bond hearings for September 11 detainees in an effort to keep the detainees in
 custody as long as possible. We describe these actions in turn.

    A. Initial “No Bond” Determination

        One of the initial steps taken by the INS to ensure that the September 11
 detainees would not be released was the requirement that District Directors
 across the country who made the initial bond determination for aliens charged
 under federal immigration law make custody determinations of “no bond” for
 all September 11 detainees. As explained above, an alien initially denied bond
 by a District Director has the right to request a bond re-determination hearing
 before an Immigration Judge. In response to the blanket “no bond” policy,
 many September 11 detainees requested bond re-determination hearings.
 Consequently, the INS had to defend the “no bond” determination at hearings



                                        76
soon after the terrorist attacks. For example, 40 September 11 detainees had
bond hearings scheduled during the week of September 24, 2001.

   B. Pearson Order

       Another aspect of the INS’s efforts to maintain control of aliens arrested
as part of the PENTTBOM probe immediately after the terrorist attacks was a
directive issued by Pearson to ensure that no September 11 detainee would be
released by the INS until “cleared” by the FBI of any connection to terrorism.
By September 13, 2001, Pearson issued an order to all INS field offices – at INS
Commissioner James Ziglar’s request – directing that “Effective immediately, all
persons arrested by the FBI, and turned over to the INS will not be released
without written permission” from Pearson. In the initial period after the
September 11 attacks, Pearson would not draft such a memorandum until he
received a clearance letter from the FBI.60

   C. Creation of a Bond Unit at INS Headquarters

      To help INS field offices obtain evidence for the many bond hearings
involving September 11 detainees, the INS established a Bond Unit at INS
Headquarters in late September 2001. The unit, located at the FBI SIOC,
consisted of six INS attorneys.

        An e-mail sent by an INS National Security Law Division (NSLD) attorney
to INS district offices on October 1, 2001, instructed all INS District Counsels
to keep the Bond Unit informed of all bond hearings for aliens on the INS
Custody List.61 This e-mail explained that Bond Unit attorneys would be
working with the FBI and Department attorneys to review FBI Headquarters’s
files for information that could be helpful at bond hearings for September 11
detainees. At the same time, the e-mail encouraged INS District Counsels to
contact local FBI field offices to “ascertain if there is any information in the FBI
file which could help INS maintain a successful ‘no bond’ position in litigation.”
The e-mail indicated that the FBI had agreed to work cooperatively with local
INS District Counsels to provide “as much information as possible without
compromising the WTC/Pentagon investigations.” The e-mail also instructed
the District Counsels to inform the Bond Unit of any information they obtained
from FBI field office files so that the Bond Unit could review the information
and “clear” it for use in a detainee’s bond hearing. This was designed to ensure



       60   A sample of a “Pearson” memorandum is attached as Appendix H.

       61INS districts employ District Counsels who have staff attorneys who represent the
INS in immigration proceedings, including bond hearings.




                                             77
that information used at such hearings would not compromise the ongoing
September 11 investigation.62

   D. Opposing Release at Bond Hearings

       1. Concerns About Lack of Evidence for Bond Hearings and Impact
          of Delays in the Clearance Process

       According to many INS officials we interviewed, implementing the
Department’s “no bond” position for every September 11 detainee quickly
became very difficult. Owen (“Bo”) Cooper, the INS General Counsel, said he
was concerned whether INS attorneys facing bond hearings would have the
evidence needed to support their effort to keep the detainees in custody.
Several INS officials told the OIG that, at least initially, they expected the FBI to
provide them with additional information to present at detainee bond
re-determination hearings to support the “no bond” position. Instead, INS
officials told the OIG they often received no information from the FBI about
September 11 detainees and, consequently, had to request multiple
continuances in their bond hearings.

       On September 19, 2001, Cooper sent an e-mail to an INS Regional
Counsel describing the problem and discussing his efforts to obtain more
information from the FBI about September 11 detainees: “As for the
information to support a no-bond determination, we are trying today to break
through what has been an absence of information from the investigation to use
in the immigration process.” Other INS officials expressed similar concerns,
even as late as the summer of 2002. In a June 27, 2002, memorandum, INS
Deputy General Counsel Dea Carpenter stated, “It was and continues to be a
rare occasion when there is any evidence available for use in the immigration
court to sustain a ‘no bond’ determination.” An INS District Director brought
to INS Headquarters to assist with the detainee cases told the OIG that in
many instances the FBI would base its interest in a detainee on the sole fact
that the alien was arrested in connection with a PENTTBOM lead. Thus, even
though from the INS’s perspective it had no evidence to support a “no bond”
position, INS attorneys were required to argue that position in court.

       The SIOC Working Group helped draft what they referred to as
“boilerplate” documents that INS Counsel could use to oppose bond for
September 11 detainees. These boilerplate memoranda, which became known

        62 At the time, while the Department could close immigration hearings, thereby

protecting the information discussed at those hearings, it did not have the ability to request a
“protective order.” On May 28, 2002, the Department published new regulations that allowed
for “protective orders” for certain information disclosed during immigration proceedings, similar
to the process used in criminal proceedings in which a pleading may be filed under seal. 8
C.F.R. § 3.46.



                                              78
as “declarations,” took the form of affidavits signed by FBI agents that
described the PENTTBOM investigation and the general national security
concerns related to individuals arrested in connection with the investigation.
While some declarations had space for the document to be customized by
inserting details related to the particular detainee in question, others did not.
Beginning October 4, 2001, and continuing over the next two months, INS
attorneys filed 89 declarations and similar “letterhead memoranda” opposing
bond for September 11 detainees.

      The INS’s Bond Unit provided the OIG with examples of the problems
caused by the lack of FBI information for detainee bond hearings. In one case,
an INS attorney in the INS New Orleans District complained in an October 4,
2001, e-mail that the A-File of a detained Israeli citizen contained no basis for
detention. Further, the attorney said that the FBI had, up to that point, failed
to provide him any information about the detainee. The attorney requested
assistance from INS Headquarters and raised the specter of “ethical and
professional considerations” connected with arguing “no bond” under these
circumstances.

      In another example, Cooper noted on an October 1, 2001, printout of the
INS Custody List that there had been “no single expression of interest” by the
FBI for at least 12 of the detainees, 5 of whom were poised for a second bond
re-determination hearing because the Immigration Court previously had
granted a continuance. Cooper told the OIG that while these cases involved
detainees who had been arrested on PENTTBOM leads, the FBI never
affirmatively expressed an interest in them.

       In another case, officials in the INS Miami District sent an e-mail to INS
Headquarters on October 9, 2001, reporting that two detainees were scheduled
for bond hearings the next day and “information has been received from local
FBI liaison that the FBI may no longer be interested in these aliens.” However,
the head of the INS’s NSLD responded to the Miami District officials that they
should continue to oppose bond for the detainees because officials at FBI
Headquarters indicated these two detainees had not yet been cleared.

      Several witnesses told the OIG that the FBI also failed to provide the
resources needed to efficiently manage the complicated and cumbersome
process developed to obtain information relevant to bond re-determination
hearings, get that information through the review process, and provide it in a
format approved for use by INS attorneys at bond re-determination hearings.
For example, a supervisor in the Department’s Terrorism and Violent Crime
Section wrote in an October 5, 2001, e-mail to Levey and others that she had
been told that the FBI agent in the SIOC who coordinated the flow of
information about detainees from FBI field offices to the INS would be assigned
two additional staff members, but the agent had received only intermittent
assistance. Other witnesses also told the OIG that they raised concerns about


                                        79
the lack of FBI resources assigned to obtaining information for INS attorneys to
use at detainee bond hearings.

       In a “normal” immigration case (i.e., not involving a September 11
detainee), FBI field offices generally communicated directly with individual INS
district offices to provide information. In these routine cases, INS attorneys
would simply call FBI agents to testify at bond hearings to state why the alien
should not be released. However, due to the sensitivity of the PENTTBOM
investigation, the Department wanted to ensure that no evidence would be
used in court unless it was approved at FBI Headquarters. In addition, FBI
officials wanted the INS to avoid calling FBI agents to testify at detainee bond
hearings, because they did not want aliens’ attorneys to be able to inquire into
other aspects of the Government’s terrorism investigation. Consequently,
officials developed a “vetting” process before any evidence could be used in a
detainee’s case: information was passed from FBI field offices to the SIOC
Working Group to the INS Bond Unit to INS attorneys preparing for court
hearings. We found that this process made it much more difficult and time
consuming than normal for the INS to obtain evidence for detainee bond
hearings.

      2. Difficulties Presented by New York Cases Added to INS Special
         Interest List

     The fact that hundreds of detainees “of interest” to the FBI had been
arrested in the New York area but not initially reported to INS Headquarters
(see Chapter 4, Section V(A)) created additional problems for the INS related to
bond hearings. In dozens of these cases, INS attorneys initially had not
opposed bond for the detainees and treated them as they would aliens arrested
for immigration violations in “normal” cases unrelated to PENTTBOM. When
these detainees were added to the INS Custody List, the INS was instructed to
oppose bond for these detainees. In a November 7, 2001, e-mail to Pearson,
INS General Counsel Cooper wrote:

         These are cases that had final unappealed bond orders from judges
         before they were added to the list (and therefore before there would
         have been any question of defending “no bond” determinations,
         appealing negative [Immigration Judge] decision, etc.). In these
         cases, there is no legal basis not to accept bond, and those aliens
         who offer to post bond should have that offer accepted and should be
         released. I have let [the Senior Counsel to the DAG] know that this is
         the case. (She agreed, by the way.) There are about 25 as of now.

     In one case, an INS Regional Counsel advised an INS attorney facing an
upcoming bond hearing that, “An alien’s addition to the Custody List is not
sufficient new evidence that would justify the District Director re-determining
bond. General Counsel concurs in this view. Therefore, we are legally


                                       80
obligated to abide by the [Immigration Judge] bond decision and must allow
him to post and be released.” This alien was released on bond two weeks later.

      3. INS Attempts to Revise Bond Policy

      Given the lack of information about detainees forthcoming from the FBI,
the INS developed a process of automatically seeking continuances in bond
hearings to give the FBI more time to investigate the detainees. According to
Cooper, the INS understood that the FBI needed some time to conduct these
clearance investigations. He also said he understood that the FBI considered
maintaining custody of the detainees “necessary to its efforts.”

      However, by early October 2001, Deputy General Counsel Carpenter and
others in the INS Office of General Counsel became concerned that their duty
of candor to the Court created an ethical dilemma when INS attorneys argued
that aliens be detained without bond and there was no evidence to sustain
such positions. Consequently, as described below, the INS sought to modify
the “no bond” policy to accommodate the Department’s desire to hold detainees
in custody for as long as possible without crossing the line into legally
unsupportable territory.

         a. Proposal to Revise Bond Policy

       Cooper said he approached Levey the first week in October 2001 for
approval to change the Department’s “no bond” policy to avoid many of the
problems INS attorneys were facing at detainee bond hearings due to lack of
information from the FBI. Cooper proposed that INS attorneys would request a
continuance at a September 11 detainee’s first bond hearing. If at the time of
the second bond hearing the INS still had not received any evidence from the
FBI that could be used to argue against bond, the INS would not treat the
detainee as if the alien were a “special interest” case and would only argue
against bond if it believed the alien presented a flight risk, danger to the
community, or any other characteristic commonly argued in “normal” bond
hearings. According to Cooper’s plan, in such a case the INS also would not
attempt to intervene if the alien subsequently posted bond and was ordered
released. The FBI opposed Cooper’s proposal and any revisions to the “hold
until cleared” policy.

       Levey agreed to modify the “hold until cleared” policy, but apparently not
to the extent the INS requested. Levey told the OIG that he believed the revised
policy, described in the next section, adequately addressed the INS’s concerns
by permitting a detainee to be released on bond if the INS received no
information from the FBI about the detainee after the second continuance.
However, Cooper told the OIG that the revisions approved by Levey to the
Department’s “hold until cleared” policy did not include all of the changes he
originally requested. Specifically, the revised policy did not allow the INS to


                                       81
treat a September 11 detainee as a “normal” detainee if the FBI failed to
provide information to support the “no bond” position. Instead, the INS still
had to continue to oppose bond for all September 11 detainees unless the FBI
specifically expressed “no interest.”

         b. Revised Bond Hearing Policies

      On October 3, 2001, as a result of the discussions between Levey and
Cooper, the INS’s Office of General Counsel distributed an e-mail within the
INS that described a “revised” policy for bond cases:

           The policy regarding bond conditions for aliens who are
           detained by the INS and who appear on the “INS Custody
           List” has been modified. The new policy is outlined
           below.

           New Position on List Cases:

           1) If the alien is appearing for his/her first hearing and
           the alien is on the “INS Custody List” the [INS] should
           seek a continuance so that the Service can coordinate
           with the FBI to obtain evidence relating to the alien’s no
           bond status. If the [Immigration Judge] denies the
           motion to continue and issues a bond, an emergency
           appeal/stay must be filed under the previously
           delineated policy.

           2) If the Service has received a prior continuance in the
           case and the alien is still on the “INS Custody List” and
           subsequent to the alien’s arrest the FBI has expressed
           no interest in the alien, the Service should proceed as
           with any other case by presenting the available
           evidence.

           3) If the Service has received a prior continuance in the
           case and the alien is still on the “INS Custody List” and
           the FBI has expressed an interest in the alien beyond
           the initial arrest, the Service should seek an additional
           continuance so that it can continue to coordinate with
           the FBI to obtain any evidence relating to the alien in
           question. If the [Immigration Judge] denies the motion
           to continue and issues a bond, an emergency
           appeal/stay must be filed under the previously
           delineated policy. The Appellate Counsel’s Office will
           assist with such filings and should be contacted as
           soon as possible to expedite this process.


                                      82
      Thus, under the revised policy, it appeared that the only cases in which
the INS was not required to oppose bond were cases in which the FBI
expressed “no interest” in aliens in connection with the PENTTBOM
investigation. This expression of “no interest” still had to come from FBI
Headquarters – expressions of “no interest” from FBI field offices continued to
be insufficient.

       However, officials in the INS General Counsel’s Office told the OIG that
either when the October 3 policy was disseminated or shortly thereafter they
began to receive verbal “no interest” statements on particular detainees from
FBI SIOC representatives, and they treated these verbal statements as
expressions of “no interest” for purposes of the bond policy described above.
Thus, between October 2001 and January 2002, a person with a “verbal no
interest” statement from the FBI representative to the SIOC could be released
on bond.63 Nonetheless, these verbal “no interests” were not formal FBI
clearances and were not sufficient to permit the INS to remove the detainees
from the United States.

       It later became apparent that the October 3 “revised” policy quoted above
was silent as to detainees in whom the FBI had not expressed an interest
“beyond the initial arrest” and who were appearing for their second bond
hearing. In explaining how to handle these cases not addressed by the
“revised” policy, Carpenter told an INS attorney handling a detainee bond
hearing: “By the second bond hearing, if no evidence that the person poses a
threat to national security exists and [FBI Headquarters] has not affirmatively
indicated an interest in the person – our attorneys should treat this case no
differently than any other case that is not linked to the events of
September 11.” This e-mail, sent on October 11, 2001, illustrated the conflict
between enforcing the Department’s “no bond” policy until the FBI cleared the
detainee, and INS attorneys’ advice not to oppose bond if the FBI did not
express an affirmative interest. It also illustrated the mixed messages INS
Headquarters was sending to its employees about detainee bond issues,
ranging from Pearson’s September 13, 2001, order not to release any detainees
without his express authorization to advice from INS’s Office of General
Counsel not to oppose bond at a detainee’s second hearing if no information
was forthcoming from the FBI.

       In the end, INS officials told the OIG that the October 3 policy changes
offered little assistance because the INS continued to run into difficulty

       63 The FBI OGC attorney assigned to the SIOC Working Group told the OIG that in

January 2002 she stopped issuing verbal “no interest” statements. Instead, she referred to all
detainee cases as “pending” until FBI Headquarters issued a written clearance letter.




                                              83
obtaining timely expressions of “no interest” from the FBI about individual
detainees.64

   E. Proposed Inter-Agency Memoranda

       At the same time it was attempting to revise the Department’s “no bond”
policy, INS officials drafted four form memoranda it wanted to send to the FBI
in an attempt to memorialize and expedite the clearance process for
September 11 detainees. The first draft memorandum advised the FBI that a
detainee who was held without bond had been placed in removal proceedings
and noted that the detainee “may be of interest to the FBI” relative to its
terrorism investigation. The memorandum had a space for listing the bond
hearing date and requested “information necessary for the INS to determine
whether it continues to be appropriate to argue before the Immigration Court
that the alien should remain in custody without bond.” If no such supporting
evidence or testimony was provided, the memorandum said the INS would
produce whatever information it had in its records for the Immigration Judge to
make an appropriate custody determination.

      The second draft memorandum requested an immediate update from the
FBI on its interest in a specific September 11 detainee. It stated, “Absent any
response within 24 hours of this notice, the INS will remove the alien’s name
from our Custody List and will process the alien according to normal
procedures.”

       The third draft memorandum advised the FBI that the Immigration Court
had set bond for a detainee and that, if the detainee posted the bond, the INS
would be required to release him immediately. It noted that the detainee “may
be of interest” to the FBI, but that the extent of the FBI’s interest was
unknown. The memorandum requested information from the FBI to support
an attempt to reopen the bond proceeding.

       The fourth draft memorandum advised the FBI that a particular detainee
had received a final order of removal. Again, it noted that the detainee “may be
of interest” to the FBI but that the extent of the FBI’s interest was unknown.
The memorandum concluded: “Absent further action on your part, we intend
to remove the alien from the United States pursuant to the Order on (date).”

      Victor Cerda, the INS Chief of Staff, faxed these draft memoranda to
Levey on October 9, 2001, and requested approval to begin sending them to the
         64 Levey said he was not provided with a written copy of the “revised” bond policy prior

to its issuance. He also expressed frustration that INS officials had not raised the matter with
him again when the revised policy, as written, failed to address their concerns. However, INS
officials told the OIG they believed the decision had been made, and the attorneys worked
within the confines of the policy that they understood Levey approved.



                                               84
FBI. Cerda told the OIG that he believed he needed to seek Levey’s approval
because the memoranda would have altered the Department’s directive that no
September 11 detainee could be released without first obtaining FBI clearance.
While the first and third memoranda relating to the “request for information”
and “order setting bond” did not substantially change the policy, the second
and fourth memoranda would have altered significantly the existing process by
permitting the INS to remove aliens who had final orders of removal without
FBI clearance.

       According to Cerda, Levey refused to allow the INS to use any of the
memoranda and said there was no need to document the clearance process in
this written fashion. Commissioner Ziglar told the OIG that he had a “clear
recollection” of Cerda informing him about this telephone call with Levey and
about Levey’s statements regarding the memoranda. Levey told the OIG that
he does not recall making the comment about not wanting the process to be
documented. He acknowledged that the INS had been instructed to hold
detainees until they were cleared by the FBI, a policy that would have been
substantially altered if the INS memoranda were used. Levey said he opposed
using the memoranda because he wanted to create a process by which the FBI
and the INS worked together cooperatively. He said the documents created an
“opposing counsel” type of relationship between two Justice Department
agencies. Levey also told the OIG that during this period he understood the
Department’s position was that the INS’s interests were “subservient” to the
FBI’s investigation, and that it was important to continue holding the detainees
while the FBI investigated any possible connections to terrorism. However,
Levey also stated that if INS officials believed the memoranda were essential,
they should have approached him again to re-argue their position.

       Levey told the OIG that he recognized that the process could not work
well if the FBI failed to provide sufficient and timely information to INS
attorneys to use at detainee bond hearings. He said he raised this issue with
other Department officials, including Dan Levin, Counsel to the Attorney
General. Levin told the OIG that he did not recall this discussion.

   F. Impact of Pearson Order

      Several witnesses told the OIG that Pearson’s order directing that no
September 11 detainee could be released without his written authorization
created tremendous pressure on Pearson to make timely detainee release
decisions. Some witnesses said it was difficult to contact Pearson to obtain
timely decisions in detainee cases.

      In order to address some of these problems, Pearson eventually orally
authorized release of some detainees followed by a written letter. In addition,
occasionally Pearson permitted his deputy to sign letters authorizing a
detainee’s release in his absence. However, these accommodations did not


                                       85
address the dilemma faced by INS field offices that aliens ordered released on
bond by an Immigration Judge could not be released without violating
Pearson’s order. One e-mail from a senior INS official stated, “[I]f bond is set as
a condition of custody by the [Immigration Judge] in the hearing, it puts the
district director and the [Office of Detention and Removal] staff in the position
of either ignoring their orders from Pearson or taking sole responsibility for the
continued detention of the alien in opposition to the [Immigration Judge]’s
determination.”

      INS General Counsel Cooper told the OIG that he met with Pearson in
October 2001 to argue that his order was creating potential legal liability for
the INS, but the order remained in place. Cooper said he advised Pearson and
other INS officials that refusal to accept bond on an unappealed bond order, if
based solely on the need for a “Pearson” letter, was not legally defensible.
Cooper said he also advised Pearson that he was instructing INS field offices
not to continue holding aliens who attempted to post bond unless the INS had
appealed the Immigration Judge’s bond order. Pearson told the OIG that he
attempted to address Cooper’s concern by issuing release authorization
memoranda in advance of detainee bond hearings. The advance release
memorandum stated that in the event the Immigration Judge ordered the
detainee released on bond, the INS District Office was authorized to release the
detainee.65 By receiving these letters in advance, the District Office would not
have to seek out Pearson in order to obtain his approval to comply with the
Judge’s order.

       The problem continued to arise, however, due to the difficulties in
communication between INS field offices, INS Headquarters, and the SIOC.
When Pearson continued to insist on the letters despite the continuing
problems, Cooper went to Cerda, the INS Chief of Staff. Cerda told the OIG
that he encouraged Pearson to ensure that the letters would be issued in a
timely manner. But Cerda said he did not favor eliminating the requirement of
a letter because the purpose of the letter was to ensure that a terrorist did not
get released, and the letter served as a “check” to ensure that all the
coordination with the FBI and the Department had occurred.

      As a result, INS employees routinely faced the dilemma of choosing
between following Pearson’s directive or the INS General Counsel’s advice. For
example, an October 12, 2001, e-mail to Pearson from an attorney working on
detainee cases for the INS’s NSLD stated that INS Acting Deputy Commissioner
Michael Becraft asked her to contact the SIOC to determine if the FBI had any
interest in a particular detainee who had been ordered released on bond by an
Immigration Judge. The attorney said she told Becraft that if the alien was not

      65   A sample of a Pearson “advance” release memorandum is attached as Appendix I.




                                             86
released by the INS, “the individual making that decision could be held liable
under a Bivens action.” She said Becraft instructed her that, “If the FBI did
not provide us with a ‘no release’ recommendation within 20 minutes of his
call, the alien would be released.” The attorney contacted the INS NSU’s agent
on duty, who called the SIOC. The NSU agent reported back to the INS
attorney shortly thereafter that the alien was of no interest to the FBI, and the
alien was released.

     Cooper and Carpenter told the OIG that whenever they confronted a
conflict between a detainee’s unappealed final bond order and Pearson’s
directive, their advice was that INS was obligated to release the detainee,
regardless of whether the FBI had completed its clearance review.66 Carpenter
noted that she provided this advice with reluctance, given that it was in conflict
with the Department’s “hold until cleared” policy. For example, an INS Newark
District official sent an e-mail to an INS Regional Counsel on November 8,
2001, that he had just learned of a case in which the INS refused to release a
detainee when his attorney attempted to post bond even though the
Government did not appeal the bond order. The official wrote, “Frankly, I do
not know what to tell him because I cannot bring myself to say that the INS no
longer feels compelled to obey the law.” The Regional Counsel forwarded the
message to Cooper, noting that the District official clearly believed that he
needed a letter from Pearson in order to release the detainee, even though the
Regional Counsel had advised him to the contrary.

     This dilemma continued to play itself out again and again as Immigration
Judges granted bond for September 11 detainees. An e-mail sent to Carpenter
on November 20, 2001, by an INS attorney discussed the case of a detainee
whose attempts to post the $4,000 bond set in late October 2001 by an
Immigration Judge in the Newark District were rejected because the detainee’s
name appeared on the INS Custody List. The detainee’s name had been placed
on the list as a result of the “merger” of the New York and INS Custody Lists
discussed in Chapter 4. The detainee filed a habeas corpus petition on
November 19, 2001, and was allowed to post bond two days later.67

       66 Cooper told the OIG that beyond offering advice to INS attorneys handling these cases
that it was unlawful for the INS to continue holding aliens who posted bond when the INS had
not appealed, he reached out to the Executive Director of the American Immigration Lawyers
Association (AILA) and asked her to contact him if she became aware of any aliens caught up in
this dilemma. In a number of instances, lawyers for September 11 detainees notified the AILA
about their clients’ bond problems, the AILA Executive Director notified Cooper, and Cooper
worked through internal INS channels to obtain a letter from Pearson so that the aliens’ bond
could be accepted.

       67 Habeas corpus, which literally means “that you may have the body,” refers to a legal

pleading in which a federal court is requested to order a Government official to undertake a
particular action. In this case, a federal judge would order the INS to release a particular
detainee.



                                              87
       Carpenter recognized that her office and Pearson’s office were giving INS
 employees conflicting advice. In a December 3, 2001, e-mail she explained
 that:

          We all recognize that there is a point at which the field will receive
          conflicting instruction from Genco [General Counsel] and Field Ops
          [Pearson’s office] – that is where the attorneys are ethically bound
          (due to a lack of evidence) not to appeal or oppose the setting of a
          bond or voluntary departure. Where that does not coincide with the
          issuance of a Pearson letter – it appears as though the attorneys are
          telling the field to release someone without a Pearson letter. What
          the attorneys are really telling the field is that the agency must
          release someone when there is no appeal pending and the alien has
          posted (or is attempting to post) the court ordered bond – since it
          lacks the legal authority to continue to detain the person.

        According to Cooper, about 30 detainees were caught up in the conflict
 between Pearson’s order and advice from the General Counsel’s Office to allow
 detainees to post bond, primarily in October and November of 2001, but even
 as late as April 2002. Cooper said that when confronted with this dilemma, the
 INS was able to secure clearances for these detainees from the FBI generally
 from a few hours to several days.

IV. OIG ANALYSIS

        The Department decided immediately after the terrorist attacks to oppose
 bond for all aliens arrested in connection with the PENTTBOM investigation
 until they were cleared by the FBI, as a way to disrupt potential future terrorist
 attacks. As the weeks went by, two situations developed that should have led
 to a re-evaluation of this approach. The FBI’s process for clearing
 September 11 detainees, originally envisioned as taking just a few days, was
 taking weeks and months. Also, as the Department learned more about the
 762 September 11 detainees, the fact that many of these detainees were
 guilty of immigration violations alone, and were not tied to terrorism, should
 have prompted the Department to re-evaluate its original decision to deny bond
 in all cases.

        The Department did not revise its approach for many months despite
 complaints by the INS about the problems it faced in bond hearings where it
 received no evidence from the FBI to tie the detained aliens to the
 September 11 attacks or terrorism. The INS raised the problem with officials in
 the Deputy Attorney General’s office responsible for overseeing and
 coordinating INS issues. There is some difference as to whether this resulted
 in any substantial change in policy. Associate Deputy Attorney General Levey
 told the OIG that he thought he had addressed the INS’s concerns by revising


                                        88
the Department’s bond policy. He believed the revisions were satisfactory to
the INS, and thus the revisions permitted detainees to be released on bond if
the INS received no information from the FBI after the detainees’ second
continuance. However, our interviews and review of INS documents show that
the policy was not changed to permit the INS to change its “no bond” position
after the second continuance if there was no evidence provided by the FBI.
While this written policy may not have accurately reflected the understanding
reached between Levey and Cooper, the INS General Counsel, the policy
continued to require FBI clearance.

      The policy continued to place the INS in the untenable position of
opposing bond unless it obtained a sign-off from FBI Headquarters stating that
the FBI had no interest in the detainee, which was exceedingly hard to come by
in the months immediately after the terrorist attacks. Thus, the INS still had
to argue for “no bond” even when it had no information from the FBI to support
that argument.

       Although the INS appropriately raised this issue with Levey and other
officials in the Deputy Attorney General’s office, it did not press the issue at a
higher level, which we believed the INS should have when it recognized that the
policy remained unchanged. At a minimum and at an early stage, it should
have written a legal memorandum that clearly spelled out its concerns and its
position. As we describe in the next chapter, when it did write such a
memorandum in January 2002, the “hold until cleared” policy was changed.

      The provision of prompt, accurate information from the FBI for use in the
bond hearings would have minimized the problems that arose with the “no
bond” policy. Had the FBI devoted more resources to field investigations of
these detainees and more resources at the SIOC to relay that information to the
INS in a timely manner, some of these problems might have been avoided.

       In addition, we found that the process developed by the INS to gather
and “clear” information for use by INS District Counsel in opposing bond for
September 11 detainees was exceedingly cumbersome. Given the swift pace of
bond hearings stemming from the INS’s initial “no bond” position for all
September 11 detainees, asking District Counsel (who had little time to prepare
for these hearings) to contact INS Headquarters, wait for the INS Bond Unit to
receive a response from FBI SIOC agents to its request for a search of FBI files
(where the FBI SIOC agents had to contact their local FBI field office for
additional information), and then wait for approval from the SIOC before any of
this information could be used (even non-classified information) was very time
consuming. Consequently, INS officials in field offices told the OIG that they
appeared in court with very little information to oppose bond in September 11
detainee cases.




                                       89
       Finally, while we recognize the importance of having a final check to
ensure that detainees are released according to Department policies, INS
employees believed they faced the choice of either violating a direct order from
a senior INS official or a valid, unappealed bond order issued by an
Immigration Judge. Given that efforts to “anticipate” bond hearings and
produce “advance” letters continued to be inadequate to address the situation,
the INS should have either revised the Pearson order or developed a more
effective means of ensuring that it did not cause INS officials to violate an
Immigration Judge’s order.




                                       90
                                   CHAPTER SIX

                      REMOVAL OF SEPTEMBER 11 DETAINEES

      Federal law provides that, in general, aliens found to have violated
immigration law shall be removed from the United States within 90 days of
when the alien is ordered removed. This chapter examines the issues raised by
the Department’s decision to delay removal of detainees with final removal
orders and voluntary departure agreements, even after the 90-day removal
periods had expired. In addition, we review the adequacy of the INS “custody
reviews” that are required for any detainee held more than 90 days after an
Immigration Court has issued a final order of removal.

I. BACKGROUND

       Section 241(a) of the Immigration and Nationality Act (INA) provides that
“[e]xcept as otherwise provided in this section, when an alien is ordered
removed, the Attorney General shall remove the alien from the United States
within a period of 90 days (in this section referred to as the ‘removal period’).”
8 U.S.C. § 1231(a)(1)(A). The statute provides exceptions when removal within
the 90-day period is not possible (such as when the alien’s country of
citizenship will not accept the alien). It also permits detention to continue
beyond the 90-day period for aliens charged with certain types of immigration
violations who have not been removed, or where the Attorney General
determines that the aliens present a risk to the community or a risk of flight.68

      As noted in previous chapters, the Department directed the INS to detain
aliens arrested in connection with the PENTTBOM investigation until they
could be cleared by the FBI of connections to terrorism. According to INS
attorneys, the fact that the FBI clearance process took longer than the time
needed by the INS to prepare to remove the aliens (to obtain travel documents
and make travel arrangements) posed a significant legal issue for the INS.

       Early on, INS attorneys believed that the delay in removing detainees
created a legal problem for the INS and the Department and said that they
highlighted these concerns in meetings with officials from the Deputy Attorney
General’s office. However, these Department officials assert that the INS did
not inform them of its belief that it was detaining aliens in violation of the law
until January 2002, and when these Department officials became aware of this
concern they changed the policy shortly thereafter.


      68   8 U.S.C. §1231(a)(6).



                                        91
       Whether an alien could be held within the 90-day period when the INS is
ready to remove the alien, as well as whether the INS could hold an alien
beyond the 90-day period in order to investigate the alien’s possible ties to
terrorism was the subject of differing opinions during the fall of 2001 and
2002. These issues are the subject of the Turkmen lawsuit, which is
pending.69 In a February 2003 opinion, the Department of Justice Office of
Legal Counsel concluded that the INS can hold aliens beyond the 90-day
removal period if the purpose is “related to effectuating the immigration laws
and the nation’s immigration policies.”

      This chapter describes the manner in which the issue was raised by
those working on the detainee cases and concludes that the Department did
not address the issue in a timely way. Once the legal issue was recognized by
the Department as significant, however, the “hold until cleared” policy
described in Chapter 4 was abruptly discontinued. In addition, we found many
instances in which the cases of detainees held over 90 days were not reviewed,
as required by the immigration regulations.

II. DISCUSSION OF THE LIMITS OF THE INS’S DETENTION AUTHORITY

       INS General Counsel Bo Cooper and Deputy General Counsel Dea
Carpenter told the OIG that after September 11, the INS operated under
the belief that legally it had 90 days (the “removal period”) within which to
remove an alien who had a final order of removal. Cooper also said the
INS believed it could only use the entire 90-day period if the full 90 days
were being used to “effectuate the removal.” In other words, Cooper
believed the INS could not delay removal of an alien for a reason “not
related to removal.” For example, Cooper believed that if it took the INS
85 days to obtain travel documents and make flight arrangements for an
alien, then the INS could use 85 days of the 90-day removal period.
However, if an alien was ready to be removed on the 30th day after
receiving a final order, but another agency conducting a criminal
investigation of the alien seeks to delay his removal, Cooper said he
believed the INS could not use the remaining 60 days in the removal
period to delay the alien’s departure.

      According to Cooper, he believed such a delay would be impermissible
because the removal period is for the purpose of removing an alien from the
country, and a delay exclusively attributable to a criminal investigation is not a
delay “related to removal.” Cooper said that he believed that in such a case the
INS had no authority to continue holding the detainee if removal could
otherwise be effectuated. Cooper stated that he recognized that it was

      69   See Turkmen v. Ashcroft, 02-civ-2307 (E.D.N.Y. filed April 17, 2002).




                                               92
“arguable” that consulting with another law enforcement agency to determine if
custody should be transferred to that agency is “related to removal.” Cooper
told the OIG, however, that the slow pace of the FBI’s detainee clearance
process in the months after the September 11 attacks took the INS into “gray
areas” in terms of its legal authority to continue holding detainees in custody,
both within and beyond the 90-day removal period.

       The conflict between the INS’s interpretation of its legal authority to
detain aliens with final removal orders and the Department’s desire to maintain
custody of these detainees until cleared by the FBI created a concern in the INS
beginning as early as September 30, 2001, when an INS attorney noted that
detainees with final orders wanted to leave and were ready to leave. A series of
e-mails between the INS’s three Regional Counsels and Carpenter reflected the
INS’s internal debate about how to interpret and apply the statute’s 90-day
requirement to this circumstance. The central question discussed in these
e-mails was whether the INS had 90 full days within which to effectuate
removal, or whether the INS had to effectuate removal as soon as possible, but
prior to the expiration of the 90-day period. One Regional Counsel held the
view that within the 90-day removal period, the INS did not need to have any
reason to hold an alien who had a final order, and stated that delaying removal
to obtain clearance from the FBI would constitute a legitimate reason for delay
under the statute. Another Regional Counsel held the opposite view.

       Attorneys from the INS and the Department’s Office of Immigration
Litigation (OIL) told the OIG that beginning in mid-October 2001 they
discussed questions about the INS’s legal authority to detain aliens who had
been issued final orders of removal and voluntary departure cases at SIOC
Working Group meetings.70 Either the Senior Counsel to the DAG, a former
INS attorney who coordinated immigration issues along with Levey in the
Deputy Attorney General’s office, or another counsel who transferred from OIL
in November 2001 to the Deputy Attorney General’s office and who worked with
Levey on immigration matters generally, attended these daily SIOC meetings
between September and December 2001.71 Notes taken by OIL attorneys


       70 As described in Chapter 2, the SIOC Working Group was an interagency group
formed to coordinate efforts among the various components within the Department of Justice
who had an investigative interest in or responsibility for the September 11 detainees. In
addition to the FBI, the Working Group included staff from the INS, the Department’s Office of
Immigration Litigation (OIL), the Terrorism and Violent Crime Section (TVCS) of the
Department’s Criminal Division, and the Office of the Deputy Attorney General.

         71 In response to the draft report, the Senior Counsel asserted that she often missed the

SIOC meetings due to other assignments, and that she attended “very few” meetings after the
additional counsel joined the office in November 2001. In response to the report, Levey also
stated that he generally did not attend SIOC meetings with “a few exceptions at the beginning
of the process.” As noted in Chapter 4, however, Levey was in attendance at a SIOC meeting
(cont’d)


                                               93
during this period confirm that its representative in the SIOC Working Group
raised concerns about the limits of the INS’s detention authority as early as
October 26, 2001.

      In particular, one OIL attorney told the OIG he described at an
October 26, 2001, SIOC Working Group meeting limits on the INS’s legal
authority to detain final order cases as a “problem.” According to this attorney,
he told participants at the meeting (including the Senior Counsel to the DAG),
that the Government’s obligations with respect to the 90-day removal
requirement were “ambiguous.” He described how the slow pace of the
clearance process created a “high litigation risk” for the Department.72

      By mid- to late-October 2001, an OIL attorney noted in an internal OIL
document that 45 detainees on the INS Custody List already had final orders of
removal or had been granted voluntary departure. INS and OIL staff working
in the SIOC Working Group said that, at the time, they realized that the FBI
clearance process was moving much slower than anticipated. The OIL attorney
said he told Levey’s staff that voluntary departure cases were even more
problematic than final order cases in terms of the INS’s legal authority to
continue to detain the aliens.73 He said he urged the FBI and INS to place all

on November 2, 2001, when the INS claims it raised concerns about the limits of its detention
authority.

       72 Notes from the FBI OGC attorney assigned to the SIOC Working Group from that
same date indicate that the 90-day issue was discussed in some detail at the meeting.
According to these notes, an INS representative stated that there were “45 cases with final
orders,” dating to as far back as September 12. The notes also reflect that the INS
representative stated that there is a 90-day removal period, and that there is a “split of
opinion” as to whether the INS’s authority is “unfettered” during the 90-day removal period.
The notes contain a notation: “clearances for removal – habeas fear” and reflect a comment
that there is “some” additional time past 90 days, but the INS would “have to be trying to
remove” the aliens. The notes also indicate that voluntary departure cases were discussed.

       73  An alien can avoid an order of removal by agreeing to voluntarily depart the country.
8 U.S.C. § 1229(c). To be eligible for voluntary departure, the alien must show that he or she
has a readiness, willingness, and financial ability to leave the United States at his or her own
expense; that he or she has good moral character for the previous five years; and that a
favorable exercise of discretion is warranted. Id. The INS is not obligated to accept an alien’s
offer to voluntarily depart. If the INS agrees to the voluntary departure and the Immigration
Judge grants it, the removal proceedings are terminated and the alien agrees to leave the
United States on a specific date, under specific terms and conditions. Voluntary departure has
some advantages over removal, both for the alien and the INS. A person who departs
voluntarily is not barred from returning for 10 years, as is a person who is ordered removed.
The INS also saves the expense of litigation (which may prolong detention) and transportation
costs. Aliens who accept voluntary departure may remain in custody pending departure or
may be released, depending on the particular circumstances. If an alien fails to depart by the
specified date, the voluntary departure order converts to a final order, which carries with it the
10-year bar to re-entry.




                                               94
final order cases on a “high priority list.” The attorney told the OIG that his
office was nonetheless prepared to defend any habeas corpus petitions that
might be brought by detainees challenging their continued detention, and he
believed that OIL had legal arguments upon which to base its defense.74

      Several OIL attorneys said they informed members of the SIOC Working
Group that the delays in removing aliens with final orders were creating an
“increased litigation risk,” were “inviting habeas petitions,” and were “a bad
idea.” Two OIL attorneys said they urged the Department to speed up the FBI
clearance process in order to address the issue of removing detainees with final
orders.

      Thomas Hussey, the Director of OIL, told the OIG that in late September
2001, he also raised, at a meeting with representatives of the Criminal Division
and the Deputy Attorney General’s office, the issue of detainees with final
orders who were ready and willing to leave the United States but had yet to be
cleared by the FBI. We confirmed this based on an e-mail exchange that
occurred on February 7, 2002, between Carpenter, the INS’s Deputy General
Counsel, and an OIL attorney in which Carpenter informed the OIL attorney of
two habeas petitions filed by detainees held after voluntarily departure had
been granted. According to the OIL attorney’s response:

           Our and INS’s SIOC representatives have repeatedly sought to move
           the growing number of aliens in the WTCP [World Trade
           Center/Pentagon] pool who have taken or are subject to final orders,
           and particularly those who are approaching 90 or more days out.
           Thom [Hussey] anticipated the problem in one of the earliest WTCP
           meetings in ODAG [Office of the Deputy Attorney General]. What
           tends to happen now is that habeas filings by such aliens move them
           to the immediate attention SIOC list, and final clearance then tends
           to happen before we have to file a merits response.

      OIL attorneys told the OIG they also raised concerns about the extent of
the INS’s detention authority with respect to specific detainee cases. For
example, on December 19, 2001, the OIL supervisor sent an e-mail to other OIL
attorneys noting that the staff in the Deputy Attorney General’s office he spoke
with about a particular case agreed that a habeas corpus petition should move
the detainee “to the head of the CIA line” for clearance. The e-mail also said
that the Deputy Attorney General’s staff agreed with his assessment that the

       74 For example, in the Zadvydas case, which involved aliens whose countries of origin

would not accept them, the Supreme Court stated that the “presumptively reasonable”
detention period was six months. The Court also stated in Zadvydas, “In our view, the statute,
read in light of the Constitution’s demands, limits an alien’s post-removal-period detention to a
period reasonably necessary to bring about the alien’s removal from the United States.”
Zadvydas v. Davis, 533 U.S. 678, 689 (2001).



                                               95
INS’s failure to release certain detainees raised potential liability issues for the
INS. The e-mail stated that the counsel in the Deputy Attorney General’s office
had:

           returned my call to [the Senior Counsel in the DAG’s office] on these
           two [aliens who had filed the petition] and the larger issue. She said
           the similarly situated number is 180 (correcting the 200 number I
           threw out), the CIA has cleared about 120 of them, and 2 weeks ago
           promised quick action on the remaining 60 (whatever quick means,
           but she agreed that a habe[as] moves the alien to the head of the CIA
           line, or should – but who communicates that to the CIA?). She
           indicated that they ([the Senior Counsel]) agree with our legal
           authority assessment and that Bivens etc is a prospect. . . . She
           knows nothing about any HQ-type order that might be imposing
           these holds, other than [the Senior Counsel]/Stewart [Levey]’s verbal
           directive to get the cases through the CIA checks where possible.

      A review of other documents also tends to support the INS’s
contention that it raised legal concerns about the extent of its detention
authority and that attorneys in the Deputy Attorney General’s office were
aware of these issues. For example, e-mails from INS attorneys stated
that the issue was repeatedly raised in SIOC Working Group meetings,
which were often attended by staff from the Deputy Attorney General’s
office. In addition, INS officials interviewed by the OIG stated that Levey
and other members of the Deputy Attorney General’s staff were aware
during the fall of 2001 that continuing to hold detainees who had obtained
a final removal order or voluntary departure order presented a potential
legal problem for the INS. 75

        75 The INS also asserted that the case of Zacarias Moussaoui brought to Levey’s

attention the INS position on the limits on its authority to detain aliens with final orders who
could be removed to their country of origin. Carpenter, the INS Deputy General Counsel,
explained to the OIG that, due to his entry into the United States through the Visa Waiver
Program, Moussaoui was ordered removed pursuant to summary proceedings. On
November 14, 2001, according to Carpenter, Levey suggested the possibility that Moussaoui be
placed into “regular” removal proceedings (versus summary proceedings), in order to start the
process of removal again, and increase the time he could be held on the immigration violation.
The INS advised that the removal proceeding could not be started over, and that if the INS
continued to hold him on the final order, it risked a potentially successful habeas petition. The
INS cited this exchange as evidence that Levey was aware of the INS’s view that final order
cases had strict time limitations within which the INS was required to effectuate the removal.

         By contrast, Levey stated that this was an example of how the process worked – that a
problem was identified and then solved. He did not agree that the Moussaoui case brought to
his attention the general problem of INS time limits on its authority to detain aliens with final
orders. Levey noted that he had a meeting to discuss the Moussaoui case scheduled with the
Criminal Division for November 13, the day before this conversation with the INS apparently
took place. He acknowledged that the discussion likely was prompted by the realization that
(cont’d)


                                               96
       Levey and his Senior Counsel disputed the assertion that they were made
aware of the legal issue regarding the limits of the INS’s detention authority.76
They told the OIG that while they were aware that individual detainees had
final removal orders in the fall of 2001, they did not know that this situation
presented a legal issue for the INS until they received a draft letter from the FBI
in late January 2002 (discussed below) which stated that the FBI would concur
in a decision to release a detainee (even when the clearance investigation was
not complete) if the INS had determined that it had no legal basis to justify
continued detention.

       The Senior Counsel told the OIG that she was aware that aliens were
accepting orders of removal and voluntary departure. She noted that she
contacted the FBI agent assigned to the SIOC Working Group on December 11,
2001 (90 days after the PENTTBOM arrests began). She stated that the FBI
agent told her that the “kinks” in the CIA check had been worked out and that
they were “now caught up.”77 The Senior Counsel and Levey also both noted
that, on December 19, 2001, Victor Cerda, the INS Chief of Staff, stated in an
e-mail that the Department should “sell on the fact that the process is working,
people are not being detained indefinitely in secret locations, and once no link
or negative info[rmation] is determined after careful investigation, they are
being processed in the normal course, often resulting in bond being posted and
their release.”78

Moussaoui was nearing 90 days after his order of removal. But he stated that the case did not
raise, in his mind, a concern about other detainees who might be nearing 90 days after their
orders of removal because he believed Moussaoui was an unusual case given that he was
already in post-order detention on September 11. Levey said he did not realize at the time that
other detainees were, or would soon be, similarly situated. He also stated that the fact that the
INS contacted him about this case would have reinforced his “reasonable expectation” that the
INS would bring other cases to his attention if they were “approaching a legal deadline.”

       76  Levey wrote in his response to the draft report that, in his opinion, what the INS had
failed to bring to his attention was its belief that it was “acting beyond its legal authority.”

       77 The Senior Counsel said that she was not aware of substantial delays in the FBI’s
analysis of that CIA information, which had to be completed before detainees could be cleared.
She also was not aware that the Special Agent whom she contacted was responsible for sending
the name trace requests to the CIA and for forwarding the CIA responses to the FBI analysts.
However, he was not responsible for the completion of the analysis of the CIA responses. See
Chapter 4.

        78 Both the Senior Counsel and Levey point to this e-mail as evidence that the INS was

satisfied with the clearance process and that it did not raise legal concerns to the INS.
However, Cerda’s e-mail was a suggested addition to a Public Affairs officer’s proposed
language to accompany a public release of updated INS detainee figures. According to Cerda,
he clearly and emphatically expressed his concerns about the limits of the INS’s detention
authority to members of the Deputy Attorney General’s office throughout the fall of 2001.




                                               97
       Prior to learning of the legal problem identified in the FBI’s letters, Levey
 claimed he saw the area as presenting more of a “procedural” problem. He said
 he heard the INS’s concerns more as complaints about the slowness of the
 clearance process than legal concerns, so he said he addressed the concerns by
 working to improve the clearance process. He described himself as an
 “advocate” for the INS in that regard. While he acknowledged that the INS may
 have mentioned the “litigation risks” presented by the detentions, he said that
 a warning such as that would not have been an effective means of informing
 him that the INS thought it was either in violation of the law or would soon be
 acting in violation of the law.

        Levey told the OIG that the issue was not raised to him as a “legal”
 problem, as opposed to a procedural issue, until the DAG’s Senior Counsel did
 so in January 2002. Levey explained in his response to the draft of this report
 that he assumed that the INS could hold an alien for 90 days after a final
 removal order. He told the OIG that he did not know that the INS believed
 that, in certain circumstances, it had less than 90 days. He said that once it
 was raised, he immediately did what he was told the law required – allow the
 INS to remove detainees whose 90-day removal period had expired. He said
 that before then he did not understand that the INS believed it was acting
 beyond its legal authority. Both Levey and the Senior Counsel stated that, up
 until that point in time, they had never asked themselves the question “as a
 matter of law, how long can we hold these aliens with final orders of removal or
 voluntary departure orders?”79

III. DETAINEES’ LAWSUITS

       Between October and December 2001, several September 11
 detainees with final orders of removal and voluntary departure orders had
 filed lawsuits, or threatened to file lawsuits, to challenge their continued
 detention. The following are examples of cases in which detainees
 challenged their continued confinement:

    •   Two September 11 detainees filed a lawsuit against the Department
        in the Northern District of Ohio on December 18, 2001, when the
        INS did not allow them to leave the country after they had received
        voluntary departure orders from an Immigration Judge. Two weeks
        prior to filing the petition for release, the detainee’s attorney wrote
        the INS asking, among other things, “[u]nder what specific legal
        authority does the INS and/or the Department of Justice propose to
        prohibit these young men from returning home?” The INS did not

        79Levey asserted that he had no reason to ask himself this question because he said he
 was not informed until January 2002 that aliens were being detained for more than 90 days.



                                              98
    respond to the attorney’s questions. The attorney filed the
    December 18, 2001, habeas corpus petition asserting that it was
    unlawful for the United States to prohibit the detainees from leaving
    the country. The next day, the detainees received final clearances
    from the FBI and were permitted to leave the country.

•   A September 11 detainee who received a voluntary departure order from
    an Immigration Court had until November 23, 2001, to leave the country.
    However, that date passed with the INS refusing to release the detainee
    because FBI Headquarters had not issued a clearance letter because it
    had not received the CIA checks. Consequently, the INS District Director
    extended the time for the detainee’s voluntary departure past
    November 23, 2001, to prevent the voluntary departure order from
    converting to a removal order (which would result in more restrictive
    consequences to the detainee).

    The detainee’s attorney filed a habeas corpus petition seeking his release
    on November 27, 2001. An e-mail from an INS Bond Unit attorney to an
    official at INS Headquarters noted that while the INS attorney handling
    the case in the district had made the “eminently reasonable” assumption
    that the detainee “must be a serious criminal or terrorist,” that
    assumption was not correct. The Bond Unit attorney explained that “the
    only reason [the detainee] remains on the list is for the CIA to run
    checks. It had been in that posture for at least two weeks.” He wrote
    that “there is no evidence [the detainee] is a terrorist or is of interest to
    the FBI.” In an earlier communication, the attorney had stated “how
    should the Service [INS] proceed. Should the Service continue to hold an
    individual for whom there is a final order, is on hunger strike, and for
    whom the FBI has no interest, in order for an administrative function to
    be completed, when that function is for reasons unknown to me, taking
    in excess of two weeks?”

    The acting director of the National Security Law Division forwarded the
    Bond Unit attorney’s comments to Cooper, the INS General Counsel, and
    noted that this detainee’s case was discussed regularly by the SIOC
    Working Group. Another INS attorney noted in an e-mail to a Regional
    Counsel that the alien’s attorney had “threatened to go public and tell
    the Islamic community not to cooperate with the government . . . because
    the only thing that will happen is that they would be locked up
    indefinitely. The timing of this is horrible, coming as it does in the
    middle of the Attorney General’s effort to interview all those other




                                      99
        folks.”80 The alien was removed from the United States on December 4,
        2001.

       These examples indicate that the INS generally avoided addressing the
 substantive legal issues raised in the habeas corpus lawsuits by obtaining FBI
 Headquarters’s clearance for an individual detainee who had filed a legal action
 before a formal response was needed on the merits. The INS first would argue
 that the detainees failed to exhaust all administrative remedies, thereby
 avoiding the primary legal question of whether the Department had legal
 authority to continue holding these detainees until the FBI could complete its
 clearance investigations. However, other aliens in similar circumstances, who
 did not have attorneys or had attorneys who did not file habeas petitions,
 remained in custody.

        Witnesses from the FBI, the INS, the Criminal Division, and OIL stated
 that the habeas cases were a top priority for the Department, and that
 members of the Deputy Attorney General’s office were aware of the issues in
 these cases, including the legal claims brought by the aliens challenging the
 INS’s authority to detain them. Staff members for the Deputy Attorney
 General’s office dispute this. For example, the Senior Counsel in the DAG’s
 office told the OIG that she does not recall being aware of the details of the
 habeas petitions, nor does she recall any of the petitions raising the 90-day
 issue.

IV. POLICY CHANGE ALLOWING DETAINEES TO BE REMOVED WITHOUT
    FBI CLEARANCE

       In January 2002, the Department changed its position as to whether the
 INS should hold aliens after they had received final orders of removal or
 voluntary departure orders until the FBI had completed the clearance process.

        On January 18, 2002, an attorney working in the INS Commissioner’s
 office requested a meeting with the Deputy Attorney General’s Senior Counsel
 to discuss how to handle the final order cases that had not been cleared by the
 FBI.81 Five days later, on January 23, 2002, the INS faxed a list containing 54
 detainees who had been held more than 90 days after receiving final removal or
 voluntary departure orders. INS officials provided a copy of this list to all SIOC
 Working Group members, including OIL, the FBI, and the Senior Counsel from


         80 This apparently refers to the FBI’s plan to conduct voluntary interviews of 5,000

 foreign visitors.

        81The Senior Counsel told the OIG that the request did not contain any words that
 conveyed a sense of urgency. According to her, the e-mail seemed to be innocuous.




                                               100
the Deputy Attorney General’s office, and the Working Group discussed these
cases at a meeting the next day.82

       At the same time, the INS General Counsel’s Office completed a legal
opinion regarding its interpretation of the limits of its authority to detain aliens
with final orders of removal within the 90-day removal period. The INS had
been working on this opinion since October 2001. The legal opinion, formatted
as a memorandum, was addressed to Pearson, the INS Executive Associate
Commissioner for Field Operations. Carpenter, the INS Deputy General
Counsel, and Cerda, the INS Chief of Staff, told the OIG that the opinion was
faxed to Levey’s office on the day it was issued, January 28, 2002. However,
Levey and his counsels stated they did not see the opinion until many months
later.

      The INS written opinion concluded that the INS has a duty to remove an
alien with “reasonable dispatch” and the removal could not be delayed for the
exclusive purpose of allowing the FBI to conduct an investigation to see if the
person is a terrorist. The “Summary Conclusion” of the opinion stated:

            The INS has the authority to detain an alien with a final order of
            removal during the 90-day removal period as long as the INS is acting
            with reasonable dispatch to arrange the removal of the alien from the
            United States. This authority may be called into question if the INS
            cannot establish that it diligently pursued the steps necessary to
            remove the alien. Section 241(a)(2) of the Immigration and
            Nationality Act (INA) states that the INS had the authority to detain
            an alien with a final order of removal for up to 90 days, the length of
            the removal period. However, case law provides that detention must
            be related to removal and cannot be solely for the purpose of
            pursuing criminal prosecution. While there is no bar to the
            government’s continuing a criminal investigation during the removal
            period for possible prosecution of the alien, the INS must also be
            proceeding with reasonable dispatch to arrange for removal and the
            investigation for criminal prosecution cannot be the primary or
            exclusive purpose of detention.

       82 The Senior Counsel to the DAG told the OIG that legal concerns about the limits of
the INS’s detention authority with respect to final order and voluntary departure cases were not
raised at this meeting. OIG interviews with the FBI OGC’s representative at the SIOC Working
Group suggest that the INS’s concerns were being conveyed at the SIOC meetings to members
of the Working Group, including the Deputy Attorney General’s Counsel, with some urgency
during this time frame. According to the FBI OGC representative, her increasing “discomfort”
with respect to the final order issue caused her to brief the FBI General Counsel in December
2001, and caused her to draft the letter from FBI Director Mueller to the INS on January 28,
2002, discussed in detail later in this chapter.




                                             101
       At the same time the INS was drafting this legal opinion, FBI officials
were growing concerned as more and more September 11 detainees passed the
90-day mark after receiving final removal orders without being cleared. After
reviewing the Supreme Court decision that addressed limits on the detention of
aliens who could not be returned to their country of origin in the “foreseeable
future,” 83 the FBI attorney representative to the SIOC Working Group said she
was concerned that the September 11 detainees were being held longer than
permitted under the law. She said she also became increasingly troubled by
the fact that the INS was looking to the FBI as the agency responsible for
extending the length of the detainees’ confinement and the fact that the INS
was not seeking travel documents until clearance letters were received from the
FBI. She was also concerned about the upcoming INS custody review process.
She said that the slow pace of the FBI clearance process was due to an FBI
“staffing issue.” However, she said the INS had not told the FBI “you have to
let them [the detainees] go,” and she believed that the INS had allowed the
situation to get to the point where dozens of detainees had been held beyond
their initial removal periods or voluntary departure dates.

       The FBI attorney also told the OIG that in December 2001 she briefed
FBI General Counsel Larry Parkinson that detainees were filing habeas corpus
petitions to protest their confinement and that she thought there was very little
upon which to defend the case for continuing to detain the aliens. She told
Parkinson that her efforts to “prioritize” detainees so that those with final
orders would receive FBI clearances within the 90-day period had been
unsuccessful. Parkinson subsequently briefed FBI Director Mueller on the
problem. When interviewed by the OIG, Director Mueller could not recall this
particular briefing, but did not dispute that it occurred.

       As several more weeks went by and the issue remained unresolved, with
Parkinson’s approval, the FBI attorney sought to clarify the FBI’s position with
respect to detainees with final removal orders. She therefore drafted a
proposed letter for FBI Director Mueller to send to INS Commissioner Ziglar
that stated, “If the INS has determined that there is no legal basis justifying
continued detainment of that alien, the FBI concurs with the INS’s
determination to permit the individual to be removed.” Previously, the FBI’s
position, and that of the Department, was that the INS should wait for results
of the FBI clearance investigation before releasing or deporting any
September 11 detainee. On January 28, 2002, the same day the INS states
that it circulated its legal opinion about holding the detainees during the
90-day removal period, the attorney circulated her draft letter to her supervisor
and the FBI General Counsel, as well as to the counsel to the DAG. At a
subsequent meeting that, according to the FBI attorney, was attended by the

      83   Zadvydas v. Davis, 533 U.S. 678 (2001).



                                             102
Senior Counsel to the DAG, INS Chief of Staff Cerda, and an INS NSLD
attorney, the letter was discussed and a decision was made that it would not be
formalized and sent by the FBI to the INS.84

        The additional counsel to the DAG, who worked on immigration matters
along with the Senior Counsel to the DAG, stated that the issue of limits on the
INS’s detention authority was raised at a January 28, 2002, SIOC Working
Group meeting she attended. She said she told the FBI attorney that the law
was unclear, but to be on the “safe side” the INS should proceed with removal
as soon as possible. Her notes appear to indicate that the FBI, the Terrorism
and Violent Crime Section, and the Deputy Attorney General’s office made an
initial decision at this meeting to permit the INS to release detainees with final
orders of removal who had not received FBI clearance.

       The Senior Counsel told the OIG that when she read the FBI’s draft letter
it was the first time she became aware that the INS faced a legal issue involving
how long it could detain an alien who had a final order of removal. She told
the OIG that she then raised the issue with Levey immediately. She said she
and Levey discussed the possibility of allowing aliens with final orders to be
removed without FBI clearance with officials from the INS, FBI, and Criminal
Division. This discussion, according to the Senior Counsel, was prompted by
the indication in the FBI letter that detaining aliens after they had received
final orders was unlawful.85

      Levey said he agreed to revise the Department’s policy to allow the INS to
remove aliens with final orders without FBI clearance. Levey told the OIG that
he could not recall whether he consulted with any higher-level officials in the
Deputy Attorney General’s office or the Attorney General’s office before deciding
to change what had been Department policy for almost five months. The
Senior Counsel’s notes indicate that Levey stated on January 29, 2002, “The
       84 After reviewing a draft of this report, the Senior Counsel told the OIG that she does
not recall such a meeting and does not believe such a meeting took place.

       85  In response to a draft of our report, the Senior Counsel said that when the other
counsel to the DAG obtained a copy of the letter from an INS attorney, they and Levey
immediately called Cerda. She said that during that call, Cerda did not mention the
January 28, 2002, INS opinion regarding the limits on the INS’s authority to detain aliens with
final orders of removal within the 90-day removal period. The Senior Counsel stated that she
did not see a copy of the INS opinion until October 2002. She told the OIG that if she had been
informed that the INS was working on such an opinion, her office would have convened a
meeting of representatives from INS, OIL, the Office of Legal Counsel (OLC), and the Office of
the Solicitor General to discuss the legal issues and advise the Department on the correct
interpretation of the law. She told the OIG that when her office requested an opinion on the
issue from OLC in the fall of 2002 with respect to a particular case, her office received oral
advice “within a few weeks” that the detention in question was legal. OLC’s February 2003
opinion is discussed in more detail later in this chapter.




                                              103
law is the law, change the policy.”86 Levey also stated that he verified that the
Criminal Division and the FBI did not oppose this change.

      The Attorney General told the OIG that he was unaware of people being
detained inordinately long after a deportation order. He also stated that he had
no recollection of the INS telling him of any concern that aliens were being
detained against the law.

       The Senior Counsel distributed new procedures to the INS, FBI, OIL, and
Criminal Division in an e-mail on February 6, 2002. According to her e-mail,
the INS was instructed to fax to the FBI and Criminal Division at the end of
each day information on the day’s hearings and the results of each hearing.
The INS then would be able to proceed with removal of aliens with final orders
without giving the FBI or Criminal Division any additional notice. If the FBI or
Criminal Division had a particular interest in a case, they were to contact the
INS about it. The INS would prioritize the cases with final orders over 90 days
to allow those aliens to be removed. The FBI continued the clearance process,
but the INS did not have to wait for a clearance letter in order to remove a
detainee who was otherwise ready to go.

      Many of the September 11 detainees with final orders were not removed
immediately because the INS had not yet requested travel documents for them.
Because travel documents are only valid for a limited period, the INS had not
requested documents in advance since they might expire before the FBI
clearance had arrived. After the policy change, in early February 2002 the INS
requested travel documents for detainees whose removals had been held up
due only to their lack of FBI clearance. By August 2002, the majority of the
aliens on the INS Custody List either had been released or removed.

      The following charts show the timing of when September 11 detainees
were removed and the number of days from their arrest to their removal or
release.




       86 The Senior Counsel and Levey point to this notation from January 29, 2002, as
evidence that they had been unaware of the legal issue prior to that date, and that they took
quick action once the FBI letter raised it to their attention.




                                             104
                                                 Figure 8
                                      Detainees Removed per Month


          100
           90
           80
           70
           60
           50
           40
           30
           20
           10
            0
                    Sep-01




                                                                  Feb-02


                                                                                    Apr-02




                                                                                                                         Aug-02
                                       Nov-01
                                                Dec-01
                                                         Jan-02




                                                                                             May-02
                                                                                                       Jun-02
                                                                           Mar-02
                             Oct-01




                                                                                                                Jul-02
                                                         Month and year

Note: 197 of the 762 detainees were released on bond, leaving 565 detainees.
Of the 565, 68 had no release or removal dates. Consequently, the data in the
chart represents 497 detainees not released on bond.


                                                  Figure 9
                                      Number of Days from Arrest Date to
                                          Removed/Released Date

             250                                220

             200                                                  174

             150             127

             100                                                                    77
                                                                                                      47
              50                                                                                                     27

                0
                           s



                          ys



                          ys



                          ys



                          ys
                           s
                        ay



                        ay



                       da



                       da



                       da



                       da
                     0d
                     0d




                    50



                    00



                    50



                    00
                   10
                  o5




                 o1



                 o2



                 o2



                 o3
                to
               1t




              1t



              1t



              1t



              1t
             51



            10



            15



            20



            25




       *Number of missing values = 90




                                                                  105
V. OLC OPINION

      In the fall of 2002, the Deputy Attorney General’s office asked the Office
of Legal Counsel (OLC) to address two legal questions concerning the timing of
removal of a detainee subject to a final order of removal under section 241(a) of
the Immigration and Nationality Act (INA):

      1) Whether the Department is under an obligation to act with reasonable
         dispatch in effecting an alien’s removal within the 90-day removal
         period established by the INA; and

      2) Whether and for what purposes the Department may refrain from
         removing the alien beyond the 90-day period.

       The OLC conducted its analysis in the context of an alien who had
received a removal order in October 2002 and whose 90-day removal period
expired in December 2002 without his being removed. The OLC opinion stated
that insufficient information existed at first to press criminal charges or to
transfer the detained alien to military custody as an enemy combatant. The
OLC opinion stated that the question presented was whether the alien’s
removal could be delayed to continue the investigation concerning his al Qaeda
connections.

      The OLC issued its memorandum opinion on February 20, 2003. The
opinion concluded that, contrary to the opinion of the INS General Counsel, the
INA by its terms grants the Department the full 90 days to effect an alien’s
removal and imposed no duty to act within any particular speed within the
90-day period. The OLC opinion stated, however, that the Department’s ability
to remove an alien within the 90-day period is not entirely unconstrained and
“must be supported by purposes related to the proper implementation of
immigration laws.” The OLC stated that although its opinion did not have to
provide a comprehensive assessment of what purposes were “related to the
proper implementation of immigration laws,” it concluded that investigating
whether an alien has terrorist or criminal connections was related to the proper
implementation of immigration laws.

       The OLC opinion also concluded that it was permissible for the
Department to take more than 90 days to remove an alien, even when the alien
could be removed within 90 days, if the delay was related to affecting the
immigration laws and the nation’s immigration policies. Again, the opinion did
not describe all the circumstances that would meet this test, but it concluded
that investigating whether an alien has terrorist connections met the test.




                                      106
VI. POST-ORDER CUSTODY REVIEWS OF SEPTEMBER 11 DETAINEES

      We found that the September 11 detainees who were held by the INS
beyond 90 days after their final orders of removal did not receive a Post-Order
Custody Review (POCR) as required by regulation. According to 8 C.F.R.
§ 241(4(h)(5), aliens held for 90 days after a final order of removal are, by INS
regulation, entitled to custody reviews to determine if their continued custody
is warranted. Several witnesses told the OIG that these POCRs were not
conducted for September 11 detainees.

       To examine this issue, we requested information on POCRs for the 54
detainees on the January 23, 2002, list prepared by the INS of aliens with final
orders who had been held more than 90 days. We found that, for the most
part, the INS failed to conduct POCRs for these September 11 detainees as
required by the regulations. For 20 of the 54 cases in this sample, the INS was
unable to provide any information related to POCRs. For another 24 detainees
in the sample, the INS data shows that POCRs should have been completed but
were not. For six additional detainees, the INS noted that POCRs were not
required because the aliens had obtained voluntary departure orders. The INS
said it removed one additional alien before his POCR was due, it completed one
POCR two weeks late, and it completed two reviews without documenting
whether the INS was within the deadline imposed by the regulation.


                                              Figure 10
                          Information Regarding Post-Order Custody Reviews

                                                                 POCR not required
                            POCR done, but not                 because alien removed
                          clear if done on time (2)                 in time (1)



     POCR done late (1)
                                                                                       No information provided
                                                                                                (20)
    POCR not required due
     to alien's status (6)




                                             POCR should have
                                           been done, but was not
                                                   (24)




                                                          107
        When we asked the INS to explain the lapses in conducting POCRs for
 September 11 detainees, a Special Counsel in the INS OGC cited several
 reasons. First, he said because the INS was unable to remove detainees on the
 INS Custody List until they were cleared by the FBI, INS District officers may
 have believed there was no purpose in performing the custody reviews. In
 addition, he said a number of aliens moved in and out of INS custody at
 different points in time and this probably led to confusion. Finally, he cited
 problems caused by the tremendous workload on INS staff in the New York and
 Newark Districts stemming from the PENTTBOM investigation.

VII. OIG ANALYSIS

        In the aftermath of the September 11 attacks, whether the INS legally
 could hold September 11 detainees after they had received final orders of
 removal or voluntary departure orders to conduct FBI clearance investigations
 was the subject of differing opinions. A February 2003 OLC opinion concludes,
 however, that the INS can do so if the delay is related to the proper
 implementation of immigration laws, including investigating whether the alien
 has terrorist or criminal connections. A pending lawsuit also is addressing this
 issue.

        Regardless of the outcome of that lawsuit, our review found that the INS
 and the Department did not address this issue in a timely or considered
 fashion. For many months, detainees were being held, even beyond 90 days,
 despite their willingness to leave the country. Some INS attorneys had doubts
 about the legality of preventing the September 11 detainees from leaving the
 country not only after 90 days had passed, but even within the 90-day removal
 period if the alien was willing to leave and arrangements could be made to
 remove the alien. INS and OIL attorneys asserted that they raised their
 concerns about the limits of the Government’s detention authority at various
 meetings, and we found evidence that they did. Yet, despite their concerns
 about the issue, as time passed and the issue was not addressed, the INS did
 not raise these concerns at a higher level. On such an important issue,
 considering the significant doubts that these attorneys harbored about the
 legality of the policy, we believe the INS had a responsibility to press the issue
 clearly – and in writing – if it believed that the policy presented a legal issue for
 the Department. It did not do so until January 2002, almost five months after
 the issue first arose.

      By the same token, we concluded that attorneys in the Deputy Attorney
 General’s office who were responsible for coordinating these immigration issues
 had enough information to realize that this was a significant legal issue that
 needed to be addressed. The evidence indicates that Associate Deputy Attorney
 General Levey and his counsels attended meetings at the SIOC Working Group
 when the legal concerns regarding the extent of the INS’s authority to detain


                                         108
aliens with final orders of removal were raised. While they stated they did not
know that the final order and voluntary departure cases presented a legal
problem (as opposed to a procedural problem) until late January 2002, we
concluded that there was sufficient discussion and information about this
issue that they should have considered earlier the limits on the Government’s
authority to hold detainees with final removal orders, both within the 90-day
period and after the 90-day period.87 These issues also were raised by habeas
corpus petitions and questions posed in the media and by Congress to
Department officials. We believe the Department’s senior officials with day-to-
day responsibility for immigration issues should not have missed the fact that
continued detention of aliens who had final orders presented an important
legal issue. Further, we believe the Department should have squarely
addressed this issue, well before the end of January 2002 when the policy was
changed.

       In response to the draft of this report, Deputy Attorney General
Thompson stated that it is important to take account of the circumstances and
atmosphere in the Department during this time period. He wrote that the
period after the September 11 attacks was one of tremendous intensity, as the
Department was required to alter its central mission to prevent further acts of
terrorism. He noted that his staff was required to respond, in a crisis
atmosphere, to hundreds of novel issues; had to shoulder a monumental task
and an enormous workload; and had a great number of other responsibilities
during this period as part of a comprehensive effort to protect the United States
from further acts of terrorism. He wrote:

      The detention of those illegal aliens suspected of involvement with
      terrorism was paramount to that mission. My staff understood that the
      immigration authorities of the Department should be used to keep such
      people in custody until we could satisfy ourselves - by the FBI clearance
      process - that they did not mean to do us harm.

      Given those circumstances, I respectfully submit that it is unfair to
      criticize the conduct of members of my staff during this period. In light of
      the imperative placed on these detentions by the Department, I would not
      have expected them to reconsider the detention policy in the absence of a
      clear warning that the law was being violated. It is clear in the Draft
      Report that that did not occur until January 2002. When the issue was
      squarely presented, it is apparent that they promptly did the right thing:
      they changed the policy.
       87 After reviewing a draft of this report, Levey clarified that he was not aware until late

January 2002 that the INS “believed it was acting unlawfully.” He acknowledged that the INS
had raised concerns about detaining the aliens, but asserted that INS officials did not do so in
a “coherent or appropriate” way that communicated their concerns about these final order
cases with any “transparency or urgency.”



                                               109
[The full text of his letter is included at Appendix K.]

      We recognize the circumstances surrounding the response to the
September 11 attacks. We agree that there were enormous demands on the
Deputy Attorney General’s staff – and on the entire Department – after the
September 11 attacks, as the Department reoriented its mission and acted to
prevent further attacks of terrorism. Yet, we believe that the Department,
particularly staff in the Deputy Attorney General’s office who were responsible
for coordinating immigration issues, should have carefully considered before
January 2002 such a critical issue as the extent of the Department’s authority
to hold detainees who had been issued final orders of removal, both up to and
beyond the 90-day removal period. As we have pointed out above, we also
agree that the INS could have, and should have, raised these issue more clearly
and in writing before January 2002.

       But the evidence indicates that concerns about the extent of the INS’s
detention authority were, in fact, raised by the INS and OIL attorneys before
January 2002. We also conclude that the attorneys on the Deputy Attorney
General’s staff who were responsible for coordinating immigration issues
should have been on notice of these issues not only because of the concerns
expressed by INS and OIL attorneys at various meetings, but also because of
the issues raised by the Moussaoui case, the habeas corpus petitions, and
questions that were being raised publicly by Congress and the press. The
authority of the Department to hold detainees after they received final orders of
removal was not a hidden issue. We believe that, notwithstanding their
significant responsibilities and the circumstances and atmosphere of the time,
the Department attorneys responsible for coordinating immigration issues
should have addressed squarely and earlier the issue of the Department’s
authority to hold detainees up to and beyond 90 days from when they received
final orders of removal.

      Finally, with respect to the custody reviews, the regulations clearly
require the reviews and the INS should have conducted them in a timely
manner.




                                        110
                                   CHAPTER SEVEN

              CONDITIONS OF CONFINEMENT AT THE
     METROPOLITAN DETENTION CENTER IN BROOKLYN, NEW YORK

I. INTRODUCTION

      Almost 60 percent of the 762 aliens detained in connection with the
Government’s investigation of the September 11 terrorist attacks were arrested
in the New York City area. As discussed previously, the overwhelming majority
of these aliens were arrested on immigration charges that, in a time and place
other than New York City post-September 11, would have resulted in either no
confinement at all or confinement in an INS or INS contract facility pending an
immigration hearing. However, fear of additional terrorist attacks in New York
City and around the country changed the way aliens detained in connection
with the investigation of the September 11 attacks were treated.

      Aliens arrested by the INS on immigration charges who were deemed by
the FBI to be of “high interest” to its terrorism investigation were held in high-
security federal prisons across the country, such as the Federal Bureau of
Prisons’s (BOP) Metropolitan Detention Center (MDC) in Brooklyn, New York.88
Overall, the BOP confined 184 September 11 detainees in its facilities
nationwide. A total of 84 detainees determined by the FBI to have a possible
connection with the PENTTBOM investigation or terrorism in general were
housed at the MDC from September 14, 2001, to August 27, 2002.

      Generally, aliens deemed by the FBI to be “of interest” or “of
undetermined interest” to the Government’s terrorism investigation were
detained in lower security facilities, such as the Passaic County Jail in
Paterson, New Jersey (Passaic). From September 2001 to May 2002, 400
September 11 detainees were confined in Passaic.

      This chapter examines the conditions of confinement for September 11
detainees held at the MDC, while the next chapter examines conditions
experienced by September 11 detainees at Passaic. As we discuss in these two
chapters, the FBI’s initial assessment of its level of interest in specific
September 11 detainees directly affected the detainees’ conditions of
confinement within the institution and their access to telephones, legal
counsel, and their families.


       88 The MDC is a 9-story BOP facility in Brooklyn that generally houses men and women
either convicted of criminal offenses or awaiting trial or sentencing. On December 10, 2002,
the MDC housed 2,441 men and 181 women.


                                            111
       In this chapter, we discuss the BOP’s initial communications blackout
after the terrorist attacks; its classification of September 11 detainees as
“witness security” inmates; the MDC’s administrative maximum (ADMAX)
Special Housing Unit (SHU), a special high-security section of the facility where
September 11 detainees were held until cleared by the FBI of involvement with
terrorism; the MDC’s process for transferring September 11 detainees from the
ADMAX SHU to the facility’s general population; the detainees’ access to legal
counsel; allegations of physical and verbal abuse made by detainees against
MDC staff; and other condition of confinement issues, including consular
visits, recreation opportunities, medical care, and lighting conditions in the
ADMAX SHU cells.

II. INITIAL COMMUNICATIONS BLACKOUT AFTER SEPTEMBER 11

       Immediately after the September 11 attacks, the BOP ordered all
detainees who were “convicted of, charged with, associated with, or in any way
linked to terrorist activities” to be placed in the highest level of restrictive
detention. Also, MDC officials placed all incoming September 11 detainees in
the ADMAX SHU without conducting the routine individualized assessment.
BOP Director Kathy Hawk Sawyer told the OIG that this designation resulted
from the FBI’s assessment and was not the BOP's “call.” Detainees held in the
MDC’s ADMAX SHU were subjected to the most restrictive conditions of
confinement authorized by BOP policy, including “lockdown” for 23 hours a
day, restrictive escort procedures for all movement outside of the ADMAX SHU
cells, and tight limits on the frequency and duration of legal telephone calls.

        Hawk Sawyer told the OIG that the detainees were held under these
restrictive detention conditions, in part because the BOP did not know who the
detainees were or what security risks they might present to BOP staff and
facilities. She said the policies applied to the September 11 detainees were not
new policies created specially for the detainees. Rather, the policies were long-
standing BOP practices for housing inmates who presented special security
concerns. She noted that on any given day persons are detained by the BOP in
conditions exactly like those applied to the September 11 detainees.

      Hawk Sawyer informed the OIG that the Department did not initially give
the BOP any guidance on how to confine the detainees. However, she said the
Deputy Attorney General’s Chief of Staff, David Laufman, and the Principal
Associate Deputy Attorney General, Christopher Wray, called her during the
weeks after September 11 with concerns about detainees’ ability to
communicate both with those outside the facility and with other inmates.
Hawk Sawyer said she discussed specific September 11 detainees during these
conversations as well as the detainees in general. Hawk Sawyer stated that
Laufman’s and Wray’s concerns about the detainees’ ability to communicate
both with those outside the facility and with other inmates confirmed for her
that the BOP’s initial decision to restrict detainee communications with


                                      112
persons outside the facility and to isolate them from the general inmate
population and from each other was appropriate.

       Hawk Sawyer also told the OIG that she had conversations with David
Laufman and Christopher Wray from the Office of the Deputy Attorney General,
in which she was told to “not be in a hurry” to provide the September 11
detainees with access to communications – including legal and social calls or
visits – as long as the BOP remained within the reasonable bounds of its lawful
discretion. Hawk Sawyer emphasized that Department officials never
instructed her to violate BOP policies, but rather to take the policies to their
legal limit in order to give officials investigating the detainees time to “do their
job.”

      Laufman, Chief of Staff to the Deputy Attorney General, confirmed the
substance of the conversations described by Hawk Sawyer. He told the OIG
that he urged the BOP to exercise the full scope of its discretion to sequence
detainee outside contacts on the “back end” of the BOP’s discretion. Wray
stated that when he contacted Hawk Sawyer about some specific criminal
inmates connected to terrorism who were already in BOP custody at the time of
the September 11 attacks, he discussed having these inmates placed under the
most secure conditions possible. He stated that while he does not recall giving
any specific instructions, he stated that the “spirit” of his comments was that
the BOP should, within the bounds of the law, push as far toward security as
they could.

       On September 12, 2001, David Rardin, the BOP’s Northeast Region
Director (which includes the MDC), directed wardens in his region not to
release inmates classified by the BOP as “terrorist related” from restrictive
detention in SHUs “until further notice.” Rardin also ordered a
communications blackout for September 11 detainees during a telephone
conference call with all Northeast Region Wardens on September 17, 2001.
Consequently, MDC staff did not allow detainees to receive telephone calls,
visitors, or mail, or to place telephone calls or send mail until the BOP received
information concerning the security risks presented by the detainees.

        We could not determine with any certainty the length of the
communications blackout that affected September 11 detainees in BOP
facilities. However, based on multiple witness interviews, the blackout appears
to have lasted from several days to several weeks. According to Michael
Cooksey, the BOP Assistant Director for Correctional Programs, all
September 11 detainees initially were held incommunicado, but after 8 to 10
days detainees were permitted limited attorney and social contacts. John
Vanyur, Senior Deputy Assistant Director in the BOP’s Correctional Programs
Division, told the OIG that the detainees had no external contacts for the first
few weeks after the terrorist attacks until the BOP received more information
on the September 11 detainees being held in BOP facilities.


                                        113
       Fifteen of the September 11 detainees we interviewed who were placed in
the MDC between September 14 and October 16, 2001, told the OIG that this
“communications blackout” continued until mid-October 2001.89 The detainees
said that during this period, MDC staff did not permit them visitors, legal or
social telephone calls, or mail.

       The BOP, in comments submitted to the OIG after reviewing the draft of
this report, stated that “at no time did the [BOP] prohibit detainees from
sending outgoing mail” that would have informed detainee attorneys and family
members where they were being held. Our interviews with MDC staff and
September 11 detainees and BOP documents contradict this assertion. For
example, a conference call between the Eastern Regional Director on
September 20, 2001, and various wardens (including MDC Warden Zenk)
re-established legal visits, legal telephone calls, and legal mail for the
September 11 detainees. However, detainees continued to be denied social
visits, non-legal telephone calls, and non-legal mail until approximately
mid-October 2001.

       By the same token, the detainees’ recollections that the communications
blackout lasted until mid-October 2001 conflicted with MDC records showing
detainees meeting with some consular officials and attorneys in early October
2001. On October 1, 2001, Cooksey issued procedures to all BOP facilities
housing September 11 detainees that should have ended the communications
blackout that had been imposed on the detainees.90 This memorandum
permitted “legal mail, legal calls, and legal visits for September 11 detainees in
accordance with written Bureau (BOP) policy.” Yet, even though this
communications blackout was supposed to be lifted by Cooksey’s October 1
memorandum, the way the BOP classified September 11 detainees created
significant restrictions on access to detainees, which we describe below.




      89 Because the September 11 detainees did not have calendars or clocks in their

ADMAX SHU cells, during their interviews with the OIG most of the detainees estimated dates
when specific events occurred.

     90 “Guidance for Handling of Terrorist Inmates and Recent Detainees,” October 1, 2001,

memorandum from Michael B. Cooksey, Assistant Director, Correctional Programs Division,
BOP.




                                            114
III. IMPACT OF DETAINEE CLASSIFICATION

    A. Detainees’ Classification

       The BOP initially classified all September 11 detainees it housed as
 Witness Security, or WITSEC, inmates.91 Witness Security inmates generally
 are individuals who agree to cooperate with law enforcement, judicial, or
 correctional authorities by providing evidence against persons or groups
 involved in illegal activities. Because their cooperation with the Government
 can place their lives in jeopardy, the BOP takes significant precautions to
 ensure the safety of WITSEC inmates. Accordingly, any information about
 WITSEC inmates is closely guarded, such as their identity, location, and
 status.

       Normally, the arresting agency would inform the BOP of the person’s
 status and the need for WITSEC protection, but the BOP classified the
 detainees in this category without any individual assessment of the
 circumstances of their arrests.

        When applied to the September 11 detainees, the WITSEC classification
 resulted in MDC officials withholding information about the detainees’ status
 and location. This made it very difficult for attorneys, family members, and, at
 times, law enforcement officers to visit September 11 detainees or even
 determine their location. For example, because information on WITSEC
 inmates is so strictly protected, staff who worked at the MDC’s reception desk
 did not know specific detainees were confined at the MDC and often told people
 inquiring about a September 11 detainee that the detainee was not being held
 at MDC when, in fact, he was. The MDC reception staff instead would refer the
 caller or visitor to the BOP’s National Locator systems for information about the
 detainee.92 Yet, because WITSEC inmates are not listed in the BOP’s National
        91 See September 21, 2001, memorandum from Cooksey to BOP Regional Directors and
 Wardens categorizing September 11 detainees as “General Population WITSEC” in the BOP’s
 SENTRY system. SENTRY is the BOP’s database for monitoring the movement and
 management of all BOP inmates. BOP management was uncertain about the potential security
 risks posed to BOP staff and to other BOP inmates by the September 11 detainees. They
 believed that they needed to provide a greater measure of security for the September 11
 detainees. The WITSEC categorization, with its accompanying additional security provisions,
 provided BOP management with a quick, “off-the-shelf” methodology to address their security
 concerns.

          92 Members of the public have access to at least two resources to obtain information

 about inmates – including September 11 detainees – in the BOP’s custody. The first resource,
 the Inmate Locator on the BOP’s website (www.bop.gov), allows people to search the BOP
 database using a variety of criteria, including the inmate’s name and BOP or INS number.
 When a match is made, the Inmate Locator provides the following information: the inmate’s
 name; BOP Register Number; age; race; sex; projected release date; date released; and the
 name of the BOP facility holding the inmate. The information, which comes from the BOP’s
 (cont’d)


                                              115
Locator systems, people who accessed the registry to inquire about
September 11 detainees were unable to obtain any information about where a
particular detainee was being held.

       The OIG interviewed four attorneys who each represented a
September 11 detainee housed at the MDC about their initial efforts to contact
their clients. Three of the attorneys told us that they were informed by MDC
front desk staff at some point that their clients were not present at the MDC
when, in fact, their clients were being held in the facility at the time. One
attorney told us that when she went to the MDC to attempt to locate her client,
MDC staff checked their “system” and informed her that her client was not
housed at MDC. After she complained, another MDC employee came to the
front desk, informed the attorney that her client was in the MDC, and
authorized her to meet with him.

       Another attorney told the OIG that he went to the MDC after front desk
staff had informed his paralegal that his client was not housed at the facility.
The attorney said he provided the MDC front desk staff with numerous
combinations of his client’s name, which contained five different parts. The
attorney said he again was told that his client was not housed at the MDC.
The attorney also visited the INS’s Varick Street Service Processing Center in
Manhattan in a failed effort to locate his client. In fact, his client was in the
MDC at the time.

      In addition to lifting the initial communications blackout for
September 11 detainees, Cooksey’s October 1, 2001, memorandum established
a new inmate classification that was used for the September 11 detainees –
Management Interest Group 155 (Group 155) – in part to address the lack of
information the BOP was providing to attorneys and family members about the
detainees. However, Cooksey’s October 1 memorandum directed all BOP staff,
including staff at the MDC, to continue holding September 11 detainees in the
most restrictive conditions of confinement possible until the detainees could be
“reviewed on a case-by-case basis by the FBI and cleared of any involvement in
or knowledge of on-going terrorist activities.”93 As a result, the BOP continued

main inmate database, is updated daily with data on both sentenced and pre-trial inmates.
The second public resource, the BOP Telephone Inmate Locator, provides callers with
information on federal inmates. To obtain inmate information, the caller must have any one of
the following criteria to provide to a BOP operator: BOP Register Number; U.S. Marshals
Service Number, FBI Number, DCDC Number, or INS Number; or the inmate's first and last
names and age.

        93 According to Cooksey’s October 1 memorandum, all detainees who entered the MDC

“on or after September 11, 2001” and “may have some connection to or knowledge of” the
events of that day or terrorism activities, were to be housed “in the Special Housing Unit [SHU]”
in the “tightest” allowable conditions until cleared by the FBI.




                                              116
to use “WITSEC” as its primary designation for September 11 detainees and
“Group 155” as a secondary designation. Therefore, the tighter restrictions
that flowed from the WITSEC designation continued to apply to all
September 11 detainees, and difficulties that families and attorneys had trying
to locate the September 11 detainees continued.

      Four senior managers at BOP Headquarters, including Senior Deputy
Assistant Director John Vanyur, acknowledged to us that the BOP’s initial
designation of September 11 detainees as WITSEC inmates caused
administrative confusion. The MDC Warden’s Executive Assistant told the OIG
that briefings for MDC staff in the weeks after the terrorist attacks did not
provide clear guidance about how to handle inquiries from the public about
September 11 detainees, particularly to staff assigned to the visitors’ desk in
the MDC’s front lobby. MDC Warden Michael Zenk and the MDC Associate
Warden for Programs both confirmed that staff at MDC’s front desk had turned
away visitors – including attorneys – who sought to contact September 11
detainees because of confusion surrounding the WITSEC/Group 155
designation initially assigned to the September 11 detainees.94

       The WITSEC designation also impeded law enforcement interviews of
September 11 detainees. MDC staff told the OIG that several law enforcement
officials in the New York area who called the MDC to schedule detainee
interviews shortly after the terrorist attacks were told that a particular detainee
was not housed at the MDC. To address this problem, MDC staff established a
process under which law enforcement officers contacted staff in the MDC
Command Center or one of the Lieutenants responsible for supervising the
ADMAX SHU in advance of their arrival to schedule an interview and to ensure
that the September 11 detainee was housed at the MDC.

       In response to the continuing confusion about access to the detainees
and obtaining information about the detainees, the BOP established another
new classification for September 11 detainees. In an October 31, 2001,
memorandum, Cooksey removed the WITSEC designation for September 11
detainees in SENTRY, the BOP’s inmate tracking database, but the Group 155
assignment continued to apply to the detainees. After October 31, when MDC
staff at the front reception area searched for a September 11 detainee in
SENTRY, a warning message referred to the detainee as a “SPECIAL SIS CASE.”
The staff was therefore alerted to contact the MDC’s Special Investigative
Supervisor (SIS), who determined whether the visitor had been cleared to meet
with the detainee.


      94 Dennis Hasty was the MDC Warden at the time of the September 11 attacks and was
replaced by Zenk in April 2002.




                                          117
      However, problems persisted even after this second re-classification
because of the BOP’s initial decision to classify September 11 detainees as
WITSEC inmates. As late as March 1, 2002, the Captain of the ADMAX SHU
e-mailed the MDC Warden and officials at BOP Headquarters requesting that
September 11 detainees no longer be categorized as WITSEC inmates in the
SENTRY system.95 According to the Captain, the WITSEC designation was
unnecessary and caused “confusion . . . at times attorneys are being turned
away.”

   B. MDC’s Special Housing Unit (SHU)

      Because of the policy that all September 11 detainees were to be held in
the most restrictive conditions at BOP facilities, they were placed in the MDC’s
Special Housing Units (SHU). In BOP institutions, SHUs are designed to
segregate inmates who have committed disciplinary infractions or who require
administrative separation from the rest of the facility’s population.96 According
to BOP regulations, an employee called the Segregation Review Official is
required to review the status of each inmate housed in the SHU on a weekly
basis after the inmate has spent seven days in disciplinary segregation or
administrative detention. In addition, that official is required to conduct a
formal hearing every 30 days to assess the inmate’s status.97

       We found that the BOP did not review the status of each September 11
detainee on a weekly basis and did not conduct formal hearings monthly to
assess the detainee’s status. Rather, it relied on the FBI’s assessment of “high
interest.” We reviewed the monthly SHU reports for the September 11
detainees we interviewed and found that each was annotated with the phrase
“continue high security.” MDC officials told the OIG that, if they did not receive
notification from BOP Headquarters that the FBI had cleared a September 11
detainee, the detainee’s monthly report was automatically annotated with the
phrase “continue high security,” without a hearing being conducted, and the
detainee remained in segregation.

        In addition, the September 11 detainees were housed in the most
restrictive type of SHU – an Administrative Maximum (ADMAX) SHU.
According to BOP officials, ADMAX units are not common in most BOP
facilities because the conditions of confinement for disciplinary segregation or

       95 The Captain is the highest-ranking correctional officer with direct responsibility for

custody operations in the ADMAX SHU. The Captain reports to the Associate Warden for
Custody, who reports to the MDC Warden.

       96   BOP Program Statement 5270.07, Discipline and Special Housing Units.

       97   The 30-day review is documented on the BOP Special Housing Review form.




                                               118
administrative detention in a normal SHU are usually sufficient for correcting
inmate misbehavior and addressing security concerns. An ADMAX SHU has
more restrictive conditions than a normal SHU. For example, the ADMAX SHU
at the MDC, unlike a regular SHU, has a four-man hold restraint policy, hand-
held cameras recording detainee movements, cameras in each cell to monitor
detainees, and physical security enhancements.98

      Conditions in the ADMAX SHU differ markedly from conditions in the
MDC’s general population. In the general population, inmates are allowed to
move around the unit and use the unit’s telephones. They also are not
subjected to the movement and restraint policies enforced in the ADMAX SHU.
In addition, detainees in the general population are permitted certain electronic
equipment in their cells, such as small radios.

       By contrast, as we describe below, detainees in the ADMAX SHU are
restricted to their cells, have limited use of telephones with strict frequency and
duration restrictions, and can only move outside their cells for specific
purposes and while restrained and accompanied by MDC staff. Several
September 11 detainees who spent time in the ADMAX SHU before being
moved to the MDC’s general population described the difference as “between
night and day.”

       Prior to September 11, 2001, the MDC had a SHU, but not an ADMAX
SHU. After the September 11 terrorist attacks, MDC staff contacted staff from
the BOP’s Metropolitan Correctional Center (MCC) in Manhattan for assistance
in establishing an ADMAX SHU.99 The MDC quickly created an ADMAX SHU
from one part of its existing SHU. This ADMAX SHU was only partially
operational when the first September 11 detainees arrived on September 14,
2001. According to MDC officials, the unit became fully operational by
October 15, 2001, when MDC management distributed operating procedures to
staff assigned to the ADMAX SHU.

       Each wing has 31 cells and a capacity of 60 inmates per wing. The wings
are divided into two blocks of cells called “ranges.” September 11 detainees
were housed in individual cells in the SHU range that was converted to an
ADMAX SHU. As more detainees were transferred to the MDC, two and at
times three detainees were housed in a single cell in the ADMAX SHU. MDC
staff told the OIG that as many as 60 detainees were housed in the ADMAX
SHU at one time.

        98 The structure and policies of the MDC’s ADMAX SHU are discussed in more detail

later in this chapter.

       99 The MCC in Manhattan had created an ADMAX SHU after one of its correctional
officers was seriously injured by a terrorist housed in the MCC’s regular SHU who had been
convicted of involvement in the 1998 embassy bombings in Kenya and Tanzania.



                                            119
      In an effort to improve security, the MDC also initiated a series of
structural changes to the ADMAX SHU in early October 2001 that were
completed in mid-November 2001. The changes included:

         •   Heavy iron grillwork was installed between the SHU area housing
             September 11 detainees and the area housing inmates in other
             SHU ranges;

         •   Two stationary security cameras were installed in each ADMAX
             cell, each mounted on the wall at ceiling height. The MDC
             previously had installed cameras for viewing the range hallway in
             front of the SHU cells. Monitors for viewing the cameras in the
             corridors and the new cameras installed in the cells were located in
             the officer-in-charge’s room; and

         •   A video camera mounted on a tripod or held by an MDC staff
             member was used to record all movement of September 11
             detainees. Video recording equipment, linked to the stationary
             cameras in the cells, was located in a locked room adjacent to the
             ADMAX SHU.




                                       120
       The cells in the ADMAX SHU contained a set of bunk beds, toilet and
sink fixtures, a shower, and a small seating area.




Image 1: These pictures depict a typical ADMAX SHU cell and show (moving
clockwise from top left) the bunk bed, shower, seating area, and combination
toilet and sink fixture. Photographs dated May 1, 2002.

      Detainees and MDC staff used a multipurpose room located at the end of
the ADMAX SHU range for medical examinations, strip searches, recreation,
and individual meetings.




                                     121
Image 2: This picture shows a multipurpose room on the ADMAX SHU range
that is equipped for detainee medical examinations. Photograph dated May 1,
2002.

       A modified food preparation area was located between the ADMAX range
and the regular SHU ranges on the MDC’s ninth floor. Normally, inmate food
at the MDC is served on hard plastic trays, but food for the September 11
detainees was transferred to foam plates to prevent the detainees from using
plastic trays as weapons.

      The recreation area in the ADMAX SHU consisted of four cell bays
enclosed by chain link fencing on all sides and the ceiling. The roofs of the
four recreation cells, located on the top floor of the MDC, were open to the
outside. Due to security concerns, MDC staff did not provide recreation
equipment to September 11 detainees housed in the ADMAX SHU.




                                      122
Image 3: This picture shows the ADMAX SHU recreation cells as viewed from
the last recreation cell. Photograph dated May 1, 2002.

       Visitors, attorneys, and family members met with September 11
detainees in a special visitation area adjacent to the ADMAX SHU range. All
visits between detainees and their attorneys or family were “non-contact,”
meaning physical contact between parties was prevented by a clear partition.
Correctional officers were not present in the special visitation areas during
these visits.




Image 4: These photographs show two views of the non-contact visiting area
used by September 11 detainees in the ADMAX SHU. Photographs dated
May 1, 2002.


                                     123
       Law enforcement visitors to the ADMAX SHU were permitted contact
visits with September 11 detainees in a separate visiting area across from the
non-contact area.




Image 5: These pictures show two views of the contact visiting area in the
ADMAX SHU. Photographs dated May 1, 2002.

   C. ADMAX SHU Policies and Procedures

       Officials at the MDC combined existing BOP policies for disciplinary
segregation and administrative detention to create policies and procedures
governing September 11 detainees housed in the ADMAX SHU.100 The
following procedures were implemented for these detainees on September 20,
2001:

           •   One social telephone call a month;

           •   One legal telephone call a week;

       100 Disciplinary segregation has more restrictive conditions than administrative

detention. For example, an inmate in disciplinary segregation is entitled to one social
telephone call a month, while an inmate in administrative detention is entitled to one social
telephone call a week. Administrative detention is considered non-punitive and is used to
house either inmates who pose a threat to themselves or facility staff, or inmates in protective
custody. According to BOP Program Statements, administrative detention is designed for short
periods of time unless the inmate requires long-term protection or presents “exceptional
circumstances, ordinarily tied to security or complex investigative concerns.”




                                             124
            •   A correctional counselor was required to stand in front of the cell
                while detainees completed all telephone calls (according to BOP
                officials, this was done for security purposes and not in an effort to
                monitor the detainee’s conversation);

            •   All requests to use the telephone had to be made using a “copout”
                form, which we describe below;

            •   Legal and social visits, except by law enforcement officers, were
                non-contact;

            •   Detainees remained in restraints while out of their cells. The MDC
                imposed three different restraint policies on the September 11
                detainees:

                      – Routine escort: handcuffs and leg irons;

                      – When required to sign forms, be interviewed, or for
                        visitation: handcuffs, leg irons, and “Martin Chain”
                        (approximately four feet of heavy chain that links the leg
                        irons to the handcuffs);

                      – When escorted from the institution: handcuffs, handcuff
                        cover with padlock, Martin Chain, and leg irons.

            •   Three staff members and one Lieutenant were present each time a
                detainee was placed into restraints and escorted from a cell.
                During this “four-man hold,” one of the staff members was
                required to operate the portable video camera; and

            •   Detainees remained in restraints during non-contact visits with
                attorneys or family members.

   D. Detainee Complaint Process

       September 11 detainees had two methods to make a request or file a
complaint about their treatment or conditions at the MDC – the “copout” and
the Administrative Remedy Program. The copout, a process in which detainees
identify concerns to MDC staff, was the primary method for detainees to
request telephone calls (social and legal), medical care, or resolution of
visitation problems.101 The copout, while not an official complaint process, was
used by detainees to request staff assistance for a variety of issues.

      101   BOP Program Statement 5511.07, Inmate Request to Staff.



                                            125
       In contrast, the Administrative Remedy Program is the BOP’s formal
 process for filing a complaint, such as an allegation of physical or verbal abuse
 against facility staff. Detainees (or inmates) are expected to exhaust all
 informal methods for resolving their concerns, such as submitting copouts,
 before filing complaints under the Administrative Remedy Program.102

IV. HOUSING ASSIGNMENT OF SEPTEMBER 11 DETAINEES

    A. Assignment of September 11 Detainees to the ADMAX SHU

       As described above, the MDC did not follow the BOP’s inmate security
 risk assessment procedures for determining where to house the September 11
 detainees. Instead, MDC officials relied on the FBI’s assessment that the
 detainees generally were “of high interest” to its ongoing terrorism investigation
 and automatically placed them in the MDC’s most restrictive housing
 conditions – the ADMAX SHU.

         The first September 11 detainees arrived at the MDC on September 14,
 2001. Initially, Dennis Hasty, the MDC Warden at the time, and the former
 Associate Warden for Custody told us they were under the impression that the
 MDC would be asked to house only about 16 September 11 detainees, the
 capacity of one block of SHU cells if each detainee was housed individually.103
 However, the number of September 11 detainees sent to the MDC soon
 exceeded their original expectations as the FBI arrested additional aliens and
 classified them “of high interest.” At the time, the MDC was the only detention
 facility in New York City operational and suitable for housing detainees under
 highly restrictive conditions.104

        Officials from the BOP’s Northeast Region and BOP Headquarters told
 MDC staff that they believed that September 11 detainees who were sent to the
 MDC were “suspected terrorists.” However, as discussed previously, from our
 interviews and document reviews we determined that the FBI did not have a
 formal process for making an initial assessment of a detainee’s possible links to
 terrorism, and this assessment lacked specific criteria and was applied

        102   BOP Program Statement 1330.13, Administrative Remedy Program.

        103 A 17th cell along the block was used for isolation purposes (e.g., an inmate on suicide

 watch). This isolation cell had bars traversing the front of the cell so that correctional staff
 could view the occupant at all times. Each of the other 16 SHU cells had a solid door with a
 small window.

        104  The MCC in Manhattan had an ADMAX SHU. However, because of security and
 logistical concerns associated with its proximity to the World Trade Center, the MCC did not
 accept new inmates during the weeks after the attacks.



                                               126
inconsistently. The BOP’s Northeast Region Counsel explained to the OIG that
the BOP accepted this assessment, since the BOP normally takes “at face
value” FBI determinations that detainees had a potential nexus to terrorism
and therefore were “high-risk.”

       Under standard BOP practice, newly arrived inmates are kept separate
from an institution’s general inmate population for the first 30 days while staff
conducts risk assessments to determine whether the inmates can be released
safely into the general population. We found no evidence that MDC staff
performed any of the normal risk assessments on the September 11 detainees,
because the detainees were assigned automatically to the ADMAX SHU.

   B. Reassigning September 11 Detainees to the General Population

      We found that even after September 11 detainees who had been placed in
the ADMAX SHU were finally “cleared” by the FBI, some remained in the
ADMAX SHU for days or weeks after they were supposed to be transferred to
the MDC’s less restrictive general population.

      1. Centralizing the Notification Process

      As discussed in Chapter 4, prior to October 1, 2001, the FBI New York
Field Office and the INS New York District Office developed their own
procedures to clear local September 11 detainees using staff who served on the
New York Joint Terrorism Task Force (JTTF). When the FBI liaison to the
New York JTTF told the INS and BOP liaisons that the FBI had no further
investigative interest in a particular detainee, the BOP liaison drafted a
clearance memorandum to the MDC Warden or Captain. When the Warden
received this memorandum, the detainee could be “normalized” (i.e., released to
the general population).105

      However, this process did not occur quickly, even after the FBI cleared
the detainee. According to the OIG’s data analysis, before October 2001, the
MDC received notification that the FBI had cleared a September 11 detainee an
average of 15 days after the FBI’s New York Field Office had actually cleared
the detainee.

      On October 1, 2001, the process for transferring the detainees from the
ADMAX SHU to the general population was centralized to BOP Headquarters in
Washington, D.C. Under the new process, the FBI’s New York Field Office
informed FBI Headquarters that a detainee was no longer of investigative
interest to its terrorism investigation. Subsequently, staff in the International


      105   A copy of such a memorandum is attached as Appendix J.



                                            127
Terrorism Operations Section at FBI Headquarters coordinated CIA checks for
detainees before issuing clearance memoranda.

      The BOP employee who served as a liaison to FBI Headquarters during
this period told the OIG that he generally checked with the FBI on a daily basis
for new clearance memoranda for September 11 detainees.106 The liaison said
that once a clearance memorandum was issued, he notified the Intelligence
Section at BOP Headquarters, either by e-mail or in his weekly report, that the
FBI had cleared a specific September 11 detainee. Staff in BOP’s Intelligence
Section then prepared a memorandum from Cooksey, the BOP’s Assistant
Director for Correctional Programs, to the Warden of the BOP institution in
which the detainee was held. The “Cooksey memorandum,” as it became
known, formally notified a BOP Warden that a detainee was no longer
considered “high risk” and that his conditions of confinement could be
normalized.

      After the FBI and BOP implemented this centralized process, the time it
took for a BOP facility to receive notice that an inmate was no longer
considered “high risk” lengthened. Our analysis found that the MDC received
notice from BOP Headquarters, via a Cooksey memorandum, an average of 32
days after the FBI New York Field Office had cleared a September 11 detainee.
The range of these cases varied from a minimum of 7 days after the FBI
New York Field Office’s clearance for one detainee to 109 days for another
detainee.

       BOP officials told us that they would not transfer a September 11
detainee to an institution’s general population prior to receiving the FBI
clearance notification via the Cooksey memorandum. We found
inconsistencies in this policy, which we discuss in the next section. Moreover,
BOP officials explained that the process to transfer an inmate to the general
population after receiving clearance could take several days. The Cooksey
memorandum permitted the MDC to assess detainees using normal BOP
policies to place them in appropriate housing. After receiving a memorandum
on a particular detainee, the MDC conducted its own assessment of the
detainee, and BOP officials said it took time to review records and interview
correctional officers as part of this assessment. BOP officials told us that they
were aware of two detainees who unintentionally were left in the ADMAX SHU
after the MDC received the Cooksey memorandum, due to administrative
errors. They also stated that they were aware of a third detainee who received


       106 The BOP liaison stated that he checked with the FBI daily until the end of April

2002, by which time the number of September 11 detainees held in BOP facilities was
drastically reduced. The liaison said that starting in May 2002 he monitored the issuance of
FBI clearance memoranda once or twice weekly.




                                             128
a Cooksey memorandum but remained in the ADMAX SHU because of
disciplinary problems.

       The efficiency of the FBI clearance process and the length of time it took
BOP Headquarters to notify the MDC of a detainee’s clearance were significant
because they dictated when a September 11 detainee could be released to the
MDC’s general population, where detention conditions were markedly less
restrictive.

       2. Inconsistencies in Detainee Reassignment Procedures

      We also found that the MDC inconsistently applied the Cooksey
memorandum process for transferring September 11 detainees from the
ADMAX SHU to the general population. Of the 53 detainees in our MDC
sample, 23 received Cooksey memoranda; 20 never received Cooksey
memoranda; and 10 were cleared using the local procedures in effect prior to
centralization of the process at FBI and BOP Headquarters on October 1, 2001.
Of the 20 detainees who never received Cooksey memoranda, 14 were
transferred from the MDC,107 5 were released into the general population
without FBI clearances,108 and 1 was released on bond.

      Our analysis of the 23 detainees in our MDC sample who received
Cooksey memoranda determined that FBI Headquarters took an average of 107
days to clear the detainees of any connection to terrorism, and the MDC
received this notification an average of 24 days after the detainee was actually
cleared by FBI Headquarters.109 In response to OIG questions, BOP
management offered no explanation for why it took, on average, more than one
month to issue Cooksey memoranda after the FBI had cleared the
September 11 detainees.



       107Detainees removed from the institution were returned to INS custody, transferred to
another BOP institution, or removed from the United States. One detainee in our sample was
released on bond.

       108We asked MDC management for an explanation for why detainees were released into
the general population without FBI clearances. They were unable to provide an explanation.

        109 The time it took the MDC to release the inmate into the general population, after the

FBI clearance was received, ranged from 5 to 119 days in our sample. In the 119-day case, the
detainee had entered the MDC on October 4, 2001, and was cleared by the FBI on
December 19, 2001. However, he was not released to the MDC’s general population until
April 17, 2002. According to Warden Zenk, the detainee’s continued confinement in the
ADMAX SHU for 119 days after he was cleared by the FBI “was due to an administrative error”
on MDC’s part and was uncovered after BOP Headquarters performed an audit of
September 11 detainees.




                                              129
      Our analysis of the records of the 23 detainees who received a Cooksey
memorandum showed that 4 of the 23 detainees were released into the general
population prior to a Cooksey memorandum being received. Further, three of
these four detainees did not have FBI clearances prior to being released into
the general population. While it is possible that the MDC could have learned
that a detainee had been cleared by the FBI from a source other than a
Cooksey memorandum, such deviation from the standard procedure is
noteworthy given the BOP’s adherence to other rules developed to ensure that
the September 11 detainees did not present a risk to the facility’s staff or other
inmates.

   Case Study 1:

   A September 11 detainee arrested in New York City arrived at the MDC
   on November 5, 2001. More than six months later, on May 16, 2002,
   the FBI officially determined that the detainee was of “no investigative
   interest” regarding the September 11 attacks or terrorism in general.
   However, a BOP Intelligence Liaison in the SIOC at FBI Headquarters
   wrote that “due to an internal FBI admin[istrative] error,” notification
   from the FBI to the BOP that the detainee had been cleared was not
   received by the BOP until June 13, 2002.

   The Cooksey memorandum for this detainee issued by BOP
   Headquarters arrived at the MDC on June 14, 2002. The detainee was
   released into the MDC’s general population later that same day, more
   than seven months after his arrest and almost one month after the FBI
   had cleared him.


V. ACCESS TO LEGAL COUNSEL

      This section examines the access to counsel afforded September 11
detainees while housed in the MDC. We focus on the policies and procedures
implemented by the MDC that affected these detainees’ access to counsel. We
also examine how the MDC’s initial communications blackout and the
detainees’ WITSEC classification affected the availability of legal calls, access to
pro bono attorney lists, and the ability of their attorneys to meet with them.

   A. Legal Telephone Calls

      We found that the BOP’s decision to house September 11 detainees in
the most restrictive confinement conditions possible severely limited the
detainees’ ability to obtain, and communicate with, legal counsel.




                                        130
      Under applicable BOP policies, MDC officials had significant discretion to
determine the frequency and length of the detainees’ legal telephone calls. Yet,
we found that the MDC adopted procedures for September 11 detainees more
appropriate for pre-trial inmates who had obtained counsel prior to their
detention, rather than for individuals like the September 11 detainees, the vast
majority of whom had no legal representation upon arriving at the MDC and
needed to secure counsel.110

       The BOP’s national policy on attorney telephone calls states that inmates
should be afforded the opportunity “to place an occasional unmonitored call to
his or her attorney . . . frequent calls should be allowed only when an inmate
demonstrates that communication with his or her attorney by other means is
not adequate.” BOP regulations do not specify an acceptable number of inmate
legal telephone calls, nor does the policy define what level of attorney
communication is “not adequate.”111 MDC officials told us that in accordance
with BOP Headquarters’s instructions to maintain the tightest restrictions
possible on the September 11 detainees, they decided to adopt a practice of
permitting detainees one legal telephone call per week. The MDC’s legal call
practice did not violate any BOP policy because, given the absence of existing
written guidance from BOP Headquarters, MDC management was given broad
discretion to develop and implement a facility-specific legal call policy for the
detainees.

       MDC unit managers and counselors controlled the process for placing
legal telephone calls for detainees housed in the ADMAX SHU. Detainees who
wanted to make a legal call had to submit a written request known as a
“copout.” A unit counselor described the process for placing legal telephone
calls in the ADMAX SHU once a September 11 detainee submitted a copout:

             •   The counselor or unit manager plugged a telephone into an
                 unmonitored line outside of the detainee’s ADMAX SHU cell;

             •   The detainee provided the MDC employee with a telephone
                 number, which the counselor or unit manager dialed and verified
                 that the unmonitored call was placed to the detainee’s attorney;



        110 For example, the BOP has no national policy regulating the number or length of

telephone calls that inmates in an ADMAX SHU can make to their attorneys. Neither BOP
Headquarters nor the MDC developed new policies addressing the unique needs of
September 11 detainees regarding telephone access to allow them to obtain attorneys or place
legal calls.

         An exception in the written policy is when the inmate or the inmate’s attorney
       111

demonstrates an imminent court deadline.



                                            131
          •   The counselor passed the telephone to the detainee through the
              horizontal slot in the cell door; and

          •   The counselor remained at the cell door until the detainee
              completed his call.

       In addition to the written copout process, our interview with the ADMAX
SHU unit counselor and our review of the MDC Legal Call Log revealed that the
unit counselor made rounds to offer legal calls to September 11 detainees, at
the most, 2 to 3 times per week. In fact, our review of the Legal Call Log and
copout records revealed that between September 17, 2001, and April 3, 2002,
there were six periods of over seven days in which the counselor did not make
rounds in the ADMAX SHU to offer detainees the opportunity to place legal
calls. Three of these periods were between September 17, 2001, and
January 2, 2002, and lasted 28, 16, and 8 days. The other three periods were
between January 8 and April 3, 2002, and lasted 20, 16, and 8 days.

       Three September 11 detainees interviewed by the OIG said that each
time the unit counselor made rounds through the ADMAX SHU he simply
asked detainees “are you okay?” The three detainees said that, initially at
least, they did not realize that this question was shorthand for, “Do you want a
weekly legal telephone call?” A unit counselor confirmed to the OIG that when
he made rounds through the ADMAX SHU to provide legal calls, he asked the
September 11 detainees, “Are you okay?” to determine whether they wanted to
make legal calls. Detainees we interviewed reported that an affirmative
response to the question of whether they were “okay” resulted in them not
receiving a legal telephone call that week.

       The Associate Warden for Programs, the ADMAX SHU unit manager, and
a unit counselor told us that if a detainee declined an opportunity to make a
legal call, this refusal was not always recorded in the MDC’s Legal Call Log.
Our analysis also found that legal call refusals were not consistently annotated
in the log. The Associate Warden said that the unit counselor prepared a
weekly memorandum that listed the names of the detainees who refused legal
calls that week.

       We analyzed the weekly legal call memoranda, the Legal Call Log, and
copouts for legal calls submitted by the 19 September 11 detainees we
interviewed at the MDC. The first legal call made by any September 11
detainee, according to these three sources, was not until October 15, 2001.112

         112 In order to assess the placement of legal calls by September 11 detainees, we

requested the telephone records for the unmonitored telephone lines used by the detainees in
the ADMAX SHU. The telephone company stated that it could not isolate telephone line
extensions within the MDC. Additionally, MDC Warden Zenk informed us that the MDC
(cont’d)


                                            132
Yet, the MDC was notified via conference call by the BOP Northeast Region that
legal telephone calls could be made by detainees as of September 20, 2001.

       Based on the length of time spent in the ADMAX SHU, the 19 detainees
we interviewed collectively should have been offered 383 opportunities to make
legal phone calls. The Legal Call Log lists 200 legal calls made by these
detainees.113 We also reviewed 60 memoranda with the names of detainees
who declined their legal calls and 27 copouts for which there are no
corresponding entries in the log. We concluded that, at best, detainees in our
sample were offered 287 legal telephone calls, far less than one legal call per
detainee per week.

      The detainees we interviewed also stated they were not always offered
weekly legal calls. Seven of the 19 September 11 detainees we interviewed
stated that they did not complete legal telephone calls and were not visited by
attorneys from the time they arrived at the MDC in mid-October until mid-
December 2001. When detainees began placing legal calls from the ADMAX
SHU in mid-October 2001, 15 of the 19 detainees we interviewed told the OIG
they were permitted, at most, one legal telephone call per week. Three
detainees told us that they never were offered legal telephone calls, and one
detainee stated that he was denied legal calls as part of disciplinary
punishment. A review of the Legal Call Log indicates that this particular
detainee placed one legal call during the month he spent in the ADMAX SHU.

       Fourteen of the 19 detainees were not offered their first legal phone calls
within 7 days of arrival at the MDC. Of this group of detainees, the earliest
legal phone call was offered ten days after arrival. One detainee was not
offered his first legal phone call until 42 days after arrival. The average time
from arrival to the first offer to make a legal phone call for the 14 detainees was
17 days.

       We found that of the 287 legal telephone calls offered, 101 (37 percent)
were offered more than seven days apart. In response to this finding, the MDC
unit counselor said he offered weekly legal calls and the detainees’ statements
to the contrary were inaccurate.

       Even when MDC offered detainees telephone calls, the MDC’s response to
unsuccessful attempts to contact attorneys by telephone was arbitrary. Four
of the 19 detainees we interviewed told the OIG that legal calls resulting in a

telephone system did not have the capacity to retrieve the detainees’ telephone records that we
requested. Therefore, we were not able to independently verify the information in the MDC
Legal Call Log or on the legal call copouts.

       113   We obtained corresponding copouts for 123 of the legal calls.




                                                133
busy signal or calls answered by voicemail counted as their one legal call for
the week. In addition, six detainees told the OIG that their calls to attorneys
on the pro bono attorney list that resulted in no answer, were a wrong number,
or resulted in a refusal to provide legal services counted as the detainees’ legal
call for that week. The unit counselor disputed these claims, stating that a “no
contact” or busy signal did not count against the detainee as his sole weekly
legal call. The unit counselor told the OIG that if the line was busy or the call
could not be placed for some other reason, he tried to provide another legal call
to the detainee the next time he made rounds in the ADMAX SHU. Yet, the
Legal Call Log, which lists 200 total calls for September 11 detainees, indicates
at least four instances when a "no contact" or busy signal counted as a
detainee's weekly legal call. Moreover, the Associate Warden for Programs, the
ADMAX unit manager, and a second unit counselor acknowledged to the OIG
that reaching an answering machine counted as a completed legal call,
although encountering a busy signal did not. This meant that for some
detainees, if they reached an answering machine while trying to obtain an
attorney during their one weekly telephone call, they would not be permitted
another legal call for a week.

       Also, according to six September 11 detainees we interviewed, unit
counselors unilaterally hung up the telephone when a detainee’s legal call
lasted longer than three minutes. The ADMAX SHU unit counselor denied this
allegation and stated that he did not limit the length of detainees’ legal calls.
The Legal Call Log, which is supposed to track the length of detainee legal
calls, shows most calls lasting at least 5 minutes, with the longest call noted as
34 minutes.

       In late November 2001, at least 20 September 11 detainees at the MDC
staged a hunger strike to express dissatisfaction with their confinement and
the conditions in the ADMAX SHU, including the restrictive telephone policies.
Four of the 19 September 11 detainees we interviewed said they refused food
beginning in late November 2001 to protest a lack of attorney telephone calls,
among other issues. A daily ADMAX SHU report filed on November 28, 2001,
confirmed the hunger strike, and noted that 20 of the September 11 detainees
were refusing to eat, in part because of concerns about limited legal telephone
calls.114

      Case Study 2:

      We interviewed a September 11 detainee at the MDC who was
      arrested on September 26, 2001. He said he was originally arrested
      after the New York JTTF executed a search warrant for his

       114   We discuss detainee hunger strikes at the MDC in greater detail in Section VII of this
chapter.



                                                134
      apartment. He was suspected of social security fraud, insurance
      fraud, and credit card fraud. He also was suspected of working
      with others in a scheme to provide funds to al Qaeda. He was
      immediately transferred to INS custody and spent approximately
      one day at the INS Varick Street Service Processing Center. He told
      us he was never informed as to why he was arrested but said he
      later pleaded guilty to marriage fraud.

      Based on the Legal Call Log, the detainee was not offered a legal
      call until October 15, 2001. That call was listed as a completed 10-
      minute call. According to the Legal Call Log, the detainee was not
      offered his next legal call until November 7, 2001, which the
      ADMAX SHU Counselor recorded as being refused by the detainee.
      The log showed that on December 17, 2001, the detainee made his
      next legal call, the result of which was an incomplete “no answer.”
      This detainee refused three legal call offers in January 2002,
      according to weekly memoranda that recorded the detainees who
      did not wish to make a legal call.

      The detainee told us that he was given a pro bono attorney list by
      MDC staff in October 2001. He stated that he tried to contact
      several legal services providers on the list, but received no
      responses when he called the numbers listed. He denied being
      offered the opportunity to make a legal phone call in November
      2001. The detainee also stated that he was not allowed to make a
      social call to his sister for the first three months he was
      incarcerated at the MDC. He said that in December 2001, he
      finally contacted his sister and that by mid-January 2002, his
      sister had obtained legal representation for him, approximately four
      months after he entered the MDC.


   B. Attorney Visits

        The BOP’s classification of September 11 detainees as WITSEC inmates
also hampered their ability to visit with attorneys long after the MDC lifted its
initial communications blackout. Even though MDC officials developed
procedures to permit meetings between detainees and their attorneys in the
ADMAX SHU, the continuing confusion on the part of MDC staff who interacted
with attorneys about the location of detainees made the attorneys’ ability to
visit their clients more difficult.

      The first attorney visit recorded for a September 11 detainee at the MDC
took place on September 29, 2001. The next two attorney visits for different
detainees were noted on October 10, 2001. According to the Associate Warden



                                      135
for Programs, the MDC did not allow September 11 detainees any visitors for
about three weeks after the terrorist attacks. During this communications
blackout period, MDC staff told attorneys who sought to visit September 11
detainees that information on the detainees was not available. Instead, MDC
staff referred the attorneys to the BOP’s National Locator Service, which, as we
discussed previously, contained no information about September 11 detainees
due to their WITSEC classification.

      By the end of the first week in October 2001 (after the communications
blackout was lifted), the MDC instituted the following new screening
procedures to determine whether attorneys could meet with September 11
detainees:

         •   MDC staff referred an attorney seeking to visit a September 11
             detainee to the Associate Warden for Programs;

         •   The Associate Warden called an Assistant United States Attorney
             to verify the credentials of the lawyer requesting to visit a detainee
             in the ADMAX SHU;

         •   The Associate Warden contacted the attorney to verify that the
             attorney represented a specific detainee or wanted to meet with a
             certain detainee to discuss representation; and

         •   If the attorney met the above criteria, the Associate Warden
             prepared a memorandum approving the attorney’s visit, which she
             sent to staff stationed at the MDC’s front desk. This approval for
             visitations by the Associate Warden also was effective for future
             visits by the attorney to the same detainee.

       When an attorney seeking to visit a September 11 detainee arrived at the
MDC and provided the name of his or her client, the desk officer checked two
lists which were updated daily: a general, sanitized roster of all MDC inmates
that did not include WITSEC/Group 155 inmates, and a list of “separatees” –
inmates who had been separated from the general population for a variety of
reasons. However, the Associate Warden for Programs, the MDC Captain, and
MDC reception area staff told the OIG that the September 11 detainees were
not on either list. Instead, their names were kept on a third list maintained
elsewhere in the MDC in order to control access to the information. This list
was not kept at the MDC reception area. Therefore, if an attorney asked about
a detainee whose name was not on either of the two daily lists available to the
officer at the front desk, and the attorney had not obtained prior approval for
visits from the Associate Warden, the desk officer told the attorney that the
detainee was not present at the facility (when, in fact, the detainee may have
been incarcerated in the ADMAX SHU).


                                        136
       Five New York-area attorneys told us that they were unable to meet with
their September 11 detainee clients for many weeks because MDC staff told
them that their clients were not housed at the MDC. Four of the attorneys
each represented one detainee and one attorney represented several MDC
detainees. According to the attorneys, they were not permitted to visit their
clients during the second week of November 2001, and the first weeks of
December 2001, February 2002, and March 2002. The attorneys said they
were turned away either over the telephone or when they showed up at the
MDC. According to the attorneys, no MDC officials mentioned any clearance
procedure they needed to follow in order to visit their clients.

      Eventually, these attorneys did gain access to their clients, and by the
time of our May 2002 site visit to the MDC, all of the attorneys we interviewed
said they were not having problems obtaining access to their clients at the
MDC.

   C. Pro Bono Attorney List

      As noted above, most of the September 11 detainees had not hired
attorneys before entering the MDC and, consequently, needed to solicit legal
representation when initially incarcerated in the MDC. For example, 17 of the
19 September 11 detainees we interviewed said they did not have attorneys
when they arrived at the MDC. The remaining two detainees had retained
attorneys during their stays at other detention facilities before they were
transferred to the MDC.

       We found that the INS did not consistently provide September 11
detainees with lists of attorneys who would take immigration clients without
compensation (known as “pro bono” cases). Several of the detainees we
interviewed said that they did not receive the pro bono lists until days or
months after their arrival at the MDC.115 We also found that the lists they
eventually received contained significant inaccuracies, including wrong
telephone numbers and numbers for attorneys who were unwilling or unable to
take the September 11 detainees as clients because they only handled
immigration asylum claims.



       115 Eleven of the 19 September 11 detainees we interviewed said they received pro bono

attorney lists from ADMAX SHU counselors within the first month of entering the MDC.
However, four detainees stated that they did not receive the list for more than a month, and
one detainee stated that he never received a pro bono attorney list. Two September 11
detainees we interviewed were unsure when they received the list, and one detainee’s attorney
advised him not to respond to our question.




                                            137
       As stated previously, the BOP classified the September 11 detainees as
pre-trial inmates. The BOP has no policy that requires its staff to provide lists
of pro bono attorneys to pre-trial inmates arrested by the INS. On the other
hand, federal regulations specify that INS officers who processed the
September 11 detainees after they were arrested were responsible for providing
the detainees “with a list of the available free legal services . . . located in the
[INS] district.”116 The Executive Office for Immigration Review (EOIR), part of
the Department of Justice, maintains lists of pro bono attorneys who offer free
legal services to immigration detainees in each INS District and distributes
these lists to detention facilities holding immigration detainees.

        In addition, Immigration Judges overseeing removal proceedings for the
September 11 detainees also are required to, “[a]dvise [detainees] of the
availability of free legal services . . . located in the [INS] district”.117 The INS
requires that staff members at all of its detention facilities, including contract
facilities, enable detainees to make calls to attorneys on the INS-provided pro
bono list.

      According to the MDC’s Associate Warden for Programs and the ADMAX
SHU Captain, when the BOP lifted its restriction on telephone calls for
September 11 detainees on October 1, 2001, MDC staff obtained a list of pro
bono attorneys from the INS within a week and provided that list to detainees.
However, the MDC staff we interviewed, including the Associate Warden, stated
that the list contained inaccurate telephone numbers.

      As described above, some detainees told us that their calls to attorneys
on the pro bono list that resulted in no answer, were clearly an inaccurate
number, or resulted in a refusal to provide legal services counted as the
detainees’ legal calls for that week. Consequently, the inaccurate pro bono
attorney list affected detainees’ ability to contact counsel in a timely manner.
The Associate Warden and the ADMAX SHU Captain told the OIG that they
obtained more accurate pro bono lists from EOIR and the INS between
mid-October and early November 2001.

   D. Social Visits

      We found that BOP’s classification of September 11 detainees as
WITSEC/Group 155 inmates, and the resulting confusion this designation
caused MDC staff, prevented or delayed many of the detainees’ visits from
family members.

      116   8 C.F.R. § 287.3(c).

      117   8 C.F.R. § 240.10(a)(2).




                                         138
      In order to schedule a social (as opposed to an attorney) visit,
September 11 detainees had to provide a list to MDC staff of which family
members they wanted to be able to visit them. The same problems that
attorneys encountered in attempting to visit their clients at the MDC hindered
the detainees’ family visits as well. Three detainees we interviewed said family
members on their lists were told by MDC staff that the detainees were not
housed at the MDC when, in fact, the detainees were in the facility.

       As discussed previously, the BOP made changes in the detainees’
classification status at the end of October 2001 after realizing that its original
WITSEC/Group 155 designations were causing problems for MDC staff in
handling requests for visits from detainees’ attorneys and family members. The
BOP also added notations in its SENTRY inmate tracking system whenever a
September 11 detainee’s name was queried before staff authorized a visit. The
messages were designed to alert MDC staff about information that could and
could not be released about these detainees (e.g., “Special SIS case – do not
disclose location – notify SIS of inquiry”). We found, however, that the
detainees’ redesignation in the BOP system did not mean that MDC staff
provided better assistance to detainees’ visitors. The MDC’s Associate Warden
for Programs told the OIG that MDC management sought to address the social
visitation problem by training reception area staff on proper procedures for
granting visitation to detainee family members. However, problems persisted,
as illustrated by the following case study.

Case Study 3:

One September 11 detainee was held at the MDC from October 16, 2001, until
June 14, 2002. His wife said she experienced repeated problems while
attempting to visit her husband. The woman, who took unpaid leave from
work to travel from her home in New Jersey to the MDC, said that between
October and December 2001 she was told by staff at the MDC visitors’ desk
that her husband was not incarcerated at the facility when, in fact, he was.
When she eventually learned her husband was at the MDC, she visited him for
the first time on December 19, 2001, after being granted a “special visit” by
the unit manager at a date and time outside the normal visiting schedule.
From January 31 to March 31, 2002, the woman said she was not permitted
to visit her husband because he was being disciplined for failing to stand up
for a 4:00 p.m. daily count.

The woman subsequently was permitted to visit her husband during the week
of April 2, 2002. However, she was not permitted to visit her husband the
week of May 1, 2002, because she arrived at the MDC on a day and at a time
that MDC reception area staff told her was not the appropriate time to visit
detainees held in the ADMAX SHU. The woman told the OIG that she



                                       139
assumed this was an appropriate time because it was the same day of the
week and hour of her previous “special visit.” When she contacted the
ADMAX SHU unit manager about this particular visitation problem, he
arranged for another “special visit” which took place on May 4, 2002. On
May 9, 2002, the detainee’s wife arrived at the MDC to visit her husband but
MDC staff told her that all the visitation rooms were full. She was asked to
wait until after the 4:00 p.m. inmate count for a possible visit at 4:30 p.m. At
4:30 p.m., the reception staff told her to go home and call the following day.
On May 10, 2002, the detainee’s wife said she was unsuccessful in contacting
anyone at the MDC to arrange a visit with her husband.

As of May 10, 2002, the woman had succeeded in visiting her husband three
times during his more than five months of confinement in the ADMAX SHU.

   E. Contact with Foreign Consulates

      Similar to the problems experienced by attorneys seeking access to their
September 11 detainee clients, the BOP’s categorization of these detainees as
WITSEC inmates inhibited the ability of consular officials to determine whether
individuals from their countries were held at the MDC. Beyond that issue,
however, we found that MDC staff did attempt to facilitate visits by foreign
consulates that requested meetings with detainees from their countries.

       The federal government’s policy regarding consular access to
incarcerated foreign nationals applies whether the detainees are in the custody
of the BOP or the INS. Federal regulations state:

            Every detained alien shall be notified that he or she may
            communicate with the consular or diplomatic officers of the country
            of his or her nationality in the United States. Existing treaties with
            the following countries . . . require immediate communication with
            appropriate consular or diplomatic officers whenever nationals . . .
            are detained in removal proceedings, whether or not requested by the
            alien and even if the alien requests that no communication be
            undertaken in his or her behalf.118

      According to Michael Rozos, Chief of the INS’s Long Term Review Branch,
INS agents who arrested September 11 detainees on immigration violations
were required to inform the aliens that they had a right to contact consular or
diplomatic officers from their country of nationality in the United States. Rozos
acknowledged that if aliens express an interest in making such contacts, the
INS is required to facilitate that request, usually by providing the detainee
access to a telephone along with the number for the appropriate consulate.

      118   8 C.F.R. § 236.1(e).



                                        140
       INS regulations specifically provide that an alien detained by the INS
“shall be notified that he or she may communicate with the consular or
diplomatic officers of the country of his or her nationality in the United States.”
Therefore, the INS was responsible for informing the September 11 detainees of
their rights to contact their consular representatives, even for those detainees
who were first held at BOP facilities like the MDC. The INS uses a form to
document that it asked detained aliens if they wanted to contact their
consulate.119 Of the 44 A-Files we were able to review for the September 11
detainees in our MDC sample, only 10 detainees had copies of this form in
their files.

        BOP policy requires that “whenever it is determined that an inmate is a
citizen of a foreign country, the Warden shall permit the consular
representative of the country to visit on matters of legitimate business. A
Warden may not deny this privilege even if the inmate is in disciplinary
status.”120 MDC Warden Zenk said that the MDC’s role was limited to
providing detainees with consular telephone calls upon their request and to
facilitate detainees’ meetings with consular officials after MDC staff conducted
appropriate screenings of the consular officials. He said that the MDC did not
have responsibility for notifying detainees’ consulates about their
incarcerations.

       Zenk told the OIG that the MDC was not contacted by any foreign
consulates about September 11 detainees in the two weeks immediately
following the September 11 attacks. Zenk and the Associate Warden for
Programs said that beginning in October 2001, all inquiries from consulates to
the MDC were directed to the Warden’s Executive Assistant, who served as the
point of contact for consular representatives seeking to visit September 11
detainees at the MDC. According to Zenk, the MDC carefully screened
consular personnel before permitting them to visit with September 11
detainees. He said consulates were required to submit a written request
stating the name of the detainee to be visited and the names of the visiting
consular officials. When the visitors were approved, the Executive Assistant or
the Associate Warden for Programs forwarded a memorandum officially
approving the visits to the MDC’s front desk to inform MDC staff of the
impending consular visit.

      However, similar to the difficulty experienced by detainees’ attorneys and
family members seeking to meet with them, the MDC detainees’ designation as
        119 INS Form I-213, “Notice to Arrested or Detained Foreign Nationals Consular

Notification and Access.”

       120   BOP Program Statement 5267.06, Visiting Regulations.




                                             141
WITSEC inmates made it difficult for consulates to contact detainees who were
citizens of their countries. For example, on October 9, 2001, a consular official
met with five September 11 detainees at the MDC. Later that same day, the
consular official tried to call the MDC Warden to discuss the detainees’ cases,
but was informed by an MDC employee that none of the five detainees was held
at the MDC. Instead, the MDC employee gave the consular official the
telephone number for BOP’s National Inmate Locator, which, as discussed
previously, did not contain information about the September 11 detainees.

      Our review of files maintained by the Warden’s Executive Assistant
shows that between October 1, 2001, and May 7, 2002, the MDC received 22
requests for visits from 9 consulates regarding 24 different detainees. In
addition, the Pakistani consulate made two requests to meet all Pakistani
detainees housed at the MDC. Most of the correspondence in the file is
annotated to indicate that a consular visit was approved or actually occurred.
The exceptions were an October 24, 2001, request to visit five detainees, and a
December 6, 2001, letter requesting visits with two detainees. We were unable
to determine whether these consular visits took place because the letters are
not annotated and the MDC did not maintain a separate list that reflected
consular visits with September 11 detainees.

       The MDC was not required to affirmatively notify foreign consulates that
it was detaining citizens from their countries who had been arrested in
connection with the September 11 terrorism investigation. BOP policy
mandated only that MDC officials “permit” visits by consular officials. The
overwhelming majority of September 11 detainees were nationals of Pakistan,
India, Egypt, and Saudi Arabia. The international treaties that the United
States has with these countries do not require mandatory notification of the
consulate when a foreign national of those countries is held in U.S. detention.

       Our review of the 22 visitation requests from consulates received by the
MDC from October 2001 to early May 2002 showed that only 2 of the requests
were from a country (United Kingdom) that, by treaty, requires affirmative
notification. While we did not determine if the INS affirmatively notified United
Kingdom consular officials of these two detentions, we found that these two
detainees were visited by consular officials from the United Kingdom and the
MDC complied with BOP policies in facilitating consular visits for these two
detainees.

VI. ALLEGATIONS OF PHYSICAL AND VERBAL ABUSE

      Based on our interviews of 19 September 11 detainees and our
investigation of allegations of abuse raised by several detainees, we believe the
evidence indicates a pattern of physical and verbal abuse against some
September 11 detainees held at the MDC by some correctional officers,
particularly during the first months after the terrorist attacks. Although the


                                       142
allegations have been declined for criminal prosecution, the OIG is continuing
to investigate these matters administratively.121

      In this section of the report, we describe our interviews of 19
September 11 detainees during our inspection visit in May 2002, the
investigation conducted by the OIG’s Investigations Division regarding specific
complaints of abuse, and other allegations of abuse that were referred to the
FBI or BOP for investigation.

   A. OIG Site Visit

      In connection with this review of the treatment of September 11
detainees, our inspection team interviewed 19 detainees who were being held at
the MDC when we visited the facility in May 2002. All 19 detainees complained
of some form of abuse. Twelve complained about physical abuse and 10
complained about verbal abuse. The complaints of physical abuse ranged from
painfully tight handcuffs to allegations they were slammed against the wall by
MDC staff. The detainees told us that the physical abuse usually occurred
upon their arrival at the MDC, while being moved to and from their cells, or
when the hand-held surveillance camera was turned off.

       Ten of the 19 detainees we interviewed during our inspection visit alleged
they had been subjected to verbal abuse by MDC staff, consisting of slurs and
threats. According to detainees, the verbal abuse included taunts such as “Bin
Laden Junior” or threats such as “you’re going to die here,” “you’re never going
to get out of here,” and “you will be here for 20-25 years like the Cuban
people.” They said most of the verbal abuse occurred during intake and during
movement to and from the detainees’ cells.

      Our inspection team interviewed 12 correctional officers about the
detainees’ allegations of physical abuse. All 12 officers denied witnessing or
committing any acts of abuse. Further, they denied knowledge of any rumors
about allegations of abuse. The correctional officers we interviewed also denied
they verbally abused the detainees and denied making these specific comments
to the detainees.




        121 The OIG can pursue a complaint either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, for a variety of reasons, may not
result in prosecution. When this occurs, the OIG can continue the investigation and treat the
matter as a case for potential administrative action. The standard of proof to prove allegations
in an administrative case is less than the “beyond a reasonable doubt” standard in a criminal
case.



                                              143
   B. OIG Investigation of Abuse

       On October 30, 2001, the OIG reviewed a newspaper article in which a
September 11 detainee alleged he was physically abused when he arrived at the
MDC on October 4, 2001. Based on the allegations in the article, the OIG’s
Investigations Division initiated an investigation into the matter. When we
interviewed the detainee, he complained that MDC officers repeatedly slammed
him against walls while twisting his arm behind his back. He also alleged
officers dragged him by his handcuffed arms and frequently stepped on the
chain between his ankle cuffs. The detainee stated his ankles and wrists were
injured as a result of the officers’ abuse. He also identified three other
September 11 detainees who allegedly had been abused by MDC staff
members.

       We interviewed these three other September 11 detainees. They stated
that when they arrived at the MDC, they were forcefully pulled out of the
vehicle and slammed against walls. One detainee further alleged that his
handcuffs were painfully tight around his wrists and that MDC officers
repeatedly stepped on the chain between his ankle cuffs. Another detainee
alleged officers dragged him by his handcuffs and twisted his wrist every time
they moved him. All three detainees alleged that officers verbally abused them
with racial slurs and threats like “you will feel pain” and “someone thinks you
have something to do with the World Trade Center so don’t expect to be treated
well.”

       During our investigation of these complaints, we received similar
allegations from other September 11 detainees. On February 11, 2002, four
September 11 detainees held at the MDC (including one of the detainees we
interviewed previously) told MDC officers that certain MDC officers were
physically and verbally abusing them. Those complaints were provided to us.
In interviews with our investigators, these detainees alleged that when they
arrived at the MDC in September and October 2001, MDC officers forcefully
pulled them from the car, slammed them into walls, dragged them by their
arms, stepped on the chain between their ankle cuffs, verbally abused them,
and twisted their arms, hands, wrists, and fingers. One of the detainees
alleged that when he was being taken to the MDC’s medical department
following a 4-day hunger strike, an officer bent his finger back until it touched
his wrist. Another detainee alleged that when he arrived at the MDC, officers
repeatedly twisted his arm, which was in a cast, and finger, which was healing
from a recent operation. He also alleged that when he was transferred to
another cell in December 2001, officers slammed him into a wall and twisted




                                       144
his wrist.122 One detainee claimed his chin was cut open and he had to receive
stitches because officers slammed him against a wall.

       During our investigation, the OIG asked the detainees individually to
identify the officers who had committed the abuse through photographic
lineups. The detainees identified many of the same officers as the perpetrators,
and the OIG focused its investigation on eight officers. The OIG interviewed
seven of these officers. Six of them denied physically or verbally abusing any of
the detainees or witnessing any other officer abuse the detainees. Five
remembered at least one of the detainees and some of them remembered a few
of the detainees. Two officers described two detainees as disruptive and
uncooperative. One of the officers explained that the high-security procedures
in place during the weeks following the September 11 attacks required four
officers to physically control inmates during all escorts; face them toward the
wall while waiting for doors, elevators, or the application and removal of leg
restraints; and place them against the wall if they became aggressive during
these escorts.

       The seventh officer interviewed by the OIG told us that he witnessed
officers “slam” inmates against walls and stated this was a common practice
before the MDC began videotaping the detainees. He said he did not believe
these actions were warranted. He said he told MDC officers to “ease up” and
not to be so aggressive when escorting detainees. He also said he witnessed a
supervising officer slam detainees against walls, but when he spoke with the
officer about this practice the officer told him it was all part of being in jail and
not to worry about it. The seventh officer signed a sworn affidavit to this effect.
In a subsequent interview with the OIG, this officer recharacterized the action
as “placing” the detainees against the wall, and said he did not want to use the
word “slam.” He denied that the officers acted in an abusive or inappropriate
manner.



       122  This detainee alleged that while being transferred to another cell in the MDC in
December 2001, two officers threw him against his cell wall, twisted his wrist, and placed him
in the cell naked and without a blanket. The detainee claimed the officers physically abused
him because he refused to clean his cell prior to the transfer. He claimed the officers’ abuse
left a scar on his wrist. The case was referred to the BOP, which interviewed the detainee,
reviewed his medical records, and had the detainee’s wrist examined. The MDC medical
department did not find a scar on the detainee’s wrist. The BOP also interviewed two officers
alleged to have committed the abuse and a supervising officer who witnessed the detainee’s
transfer. All three stated that during a routine cell rotation the detainee began cursing and
threatening the officers. One officer filed an incident report describing what he characterized
as the detainee’s insolent and threatening behavior. The three officers also stated that they did
not throw the detainee against the wall, twist his wrist, or place him in a cell naked and
without a blanket.




                                              145
       The OIG reviewed the detainees’ medical records. The medical records do
not indicate that most of the detainees received medical treatment for the
injuries they asserted they received from officers. Two of the detainees’ medical
records indicate they were treated for injuries that they later claimed were
caused by officers, but the medical records did not indicate that they alleged
their injuries were caused by officers at the time they were treated. One
detainee’s records do not mention the cause of the injury and the other
detainee’s records state the detainee said he was injured when he fell. In his
interview with the OIG, the detainee alleged his chin was badly cut when
detention officers slammed him against the wall. He said that nobody ever
asked him how his injury occurred. The other five detainees did not seek
treatment for their alleged injuries.

       Based on the scarcity of medical records documenting injuries and the
lack of evidence of serious injuries to most of the detainees, the U.S. Attorney’s
Office for the Eastern District of New York and the Civil Rights Division
declined criminal prosecution in this case. All of the detainees, with the
exception of one, now have been removed from the United States.
Nevertheless, the OIG is continuing its investigation of these allegations as an
administrative matter. Because this case is ongoing, we are not describing in
detail all the evidence in the case about the detainees’ allegations. However, we
believe there is evidence supporting the detainees’ claims of abuse, including
the fact that similar – although not identical – allegations of abuse have been
raised by other detainees, which we describe in the next section.

   C. FBI and BOP Investigations of Abuse

      Four cases alleging physical abuse of September 11 detainees at the
MDC were referred to the FBI for investigation. Another two complaints of
abuse were referred to the BOP’s internal affairs office for review. As we
summarize below, the FBI closed three of these cases and one FBI case
remains open. The BOP closed one case due to the resignation of an employee
and closed the other as unsubstantiated after conducting an investigation.

       In each of the four cases assigned to the FBI, the detainee alleged that he
was “slammed” against a wall or door by MDC correctional officers and was
injured as a result. Two of the detainees also alleged that they were threatened
by MDC correctional officers and incurred additional physical abuse, such as
being kicked by officers or having the chain on their leg restraints stepped on
by officers. The detainees’ complaints were forwarded initially to the
Department’s Civil Rights Division, which after a delay in two of the cases
assigned them to the FBI to investigate. In two of the cases sent to the FBI, the
detainees already had been removed by the time the FBI received the
complaints and were not interviewed. In another case, the detainee was
removed six months after the FBI received the case, but was not interviewed.
The FBI did not attempt to locate these removed detainees or to interview the


                                       146
correctional officers. The Civil Rights Division declined prosecution of the three
cases, and the FBI subsequently closed its investigations.

      In the one case that the FBI has not yet closed, the detainee complained
in May 2002 that he was slammed into a wall, unnecessarily strip searched,
and physically abused by MDC officers. The FBI received the case in July
2002, and opened an investigation in September 2002. As of March 19, 2003,
however, the FBI had not interviewed the detainee or any officers.

       In one of the cases referred to the BOP, the correctional officer who
allegedly physically and verbally abused the detainee resigned during the
investigation, and as a result the BOP closed the matter without further
investigation. In the other case, the BOP interviewed the detainee, reviewed his
medical records, and had his alleged injuries medically examined. The medical
department did not find any injuries and the detainee’s medical records do not
indicate any injuries around the time of the alleged abuse. The BOP also
interviewed two subjects and a supervising officer who witnessed the detainee’s
transfer. All three officers denied abusing the detainee and stated that during
a routine cell rotation, the detainee began cursing and threatening the
subjects. The BOP closed its investigation as unsubstantiated.

      Based on the similarity of the allegations in these FBI and BOP cases to
the ongoing OIG investigation, the OIG has decided to complete the
investigations of the FBI and BOP cases and incorporate the relevant
allegations from these cases into our ongoing investigation.

   D. Allegations of Harassment

       All 19 detainees we interviewed also complained of other types of
harassing behavior by MDC staff while they were housed in the ADMAX SHU,
such as staff banging on their cell doors or telling detainees to “shut up” while
they were praying. All 19 detainees told the OIG that MDC officers banged on
their cell doors for the midnight inmate count. When we questioned MDC staff
about these allegations, they told us that they were responsible for ensuring
that the detainees were alive during the nightly count and that banging on the
cell doors was their method of waking the detainees. We confirmed that,
according to BOP Program Statement 5511.06, Inmate Accountability, “Staff
conducting counts shall ensure the observance of a real person and not a
‘dummy.’ When conducting a count, the staff member must personally observe
a living breathing human body for each inmate counted.” MDC staff told us
they banged on the cell door to satisfy the BOP’s national policy requirement to
ensure that a living human body was in each ADMAX SHU cell.123

       123  BOP national policy requires inmate stand-up counts at least five times per day but
specifies times for only two of the counts – 4:00 p.m. daily and 10 a.m. on weekends and
(cont’d)


                                             147
       September 11 detainees also told the OIG that their afternoon prayers
often were interrupted by MDC officers who conducted a “stand-up count” at
4:00 p.m. daily in the ADMAX SHU. MDC officials said the detainees were
informed about these daily counts, including the midnight count, in a 2-page
document containing ADMAX SHU policies that each detainee was supposed to
receive when he first entered the MDC. However, several detainees told the
OIG that they did not sufficiently understand English or they did not realize
they were supposed to stop praying for the count. Two September 11 detainees
said they were disciplined for not standing up during the count by being
deprived of social visits. According to MDC records, one detainee had his social
visitation privileges suspended for 60 days, while another detainee had his
privileges suspended for 90 days.

       When we questioned MDC staff on this subject, one Lieutenant said he
delayed the afternoon count until the detainees had completed their prayers.
All the other Lieutenants and correctional officers we interviewed said they
followed standard BOP regulations and did not delay the afternoon count to
avoid interfering with detainees’ prayers.

   E. Reporting Allegations of Abuse

       Even though the MDC has a formal process for inmates to file complaints
of abuse, we found that MDC staff failed to inform the September 11 detainees
about these procedures in a timely manner. As discussed previously, the
Administrative Remedy Program (ARP) is the BOP’s formal procedure for filing
allegations of physical or verbal abuse against facility staff. While the ARP is
discussed in the MDC’s facility handbook, only 1 of the 19 detainees we
interviewed said he received this handbook when he arrived at the MDC in
October 2001. The other 18 detainees we interviewed told us that they did not
learn about this complaint resolution process until they received their facility
handbooks several months after their arrival at the MDC.124

        Of the 19 detainees we interviewed, 5 who said they never received
facility handbooks told the OIG that they only learned about the ARP from


holidays. The BOP’s practice is to conduct at least one of the other counts sometime during
the hours of darkness.

       124 During intake screening at BOP facilities, a facility handbook normally is provided to

the inmate and prison staff annotates the inmate’s intake form to reflect that the inmate has
received the handbook. When we examined the intake forms for the 19 September 11
detainees we interviewed, all forms were annotated to reflect that each detainee had received a
handbook, which suggested that the handbook was given to the inmate but was quickly
confiscated because it was on the list of forbidden items.




                                              148
other detainees in the ADMAX SHU. Ten detainees said they received a
handbook four to six months after arriving at the MDC, while three other
detainees said they received a handbook within a month of arriving at the
MDC.125 One detainee did not respond to the question about when he received
a facility handbook.

       All 19 detainees told the OIG that they either were informed verbally
about ADMAX SHU policies or they received a 2-page explanation of the
policies instead of the complete MDC facility handbook. We found, however,
that this 2-page summary of MDC policies did not include a description of the
ARP process.

       The Associate Warden for Programs told the OIG that all September 11
detainees were provided with a handbook when they were processed into the
MDC. She suggested that it was possible that correctional officers confiscated
the handbook from the detainees as an unacceptable item in their ADMAX SHU
cell. The two-page document, “Special Housing Unit Rules and Regulations,”
included a list of items that the detainees could retain in their ADMAX SHU
cells. These items included certain clothing items, facility-provided linen,
specified personal items, and select hygiene items. The list of permitted items
did not include a facility handbook. Therefore, according to the Associate
Warden for Programs, because the facility handbook was not on the list,
correctional officers may have confiscated the handbook. On October 17,
2001, the MDC changed its policy to permit detainees to retain the facility
handbook in their cells. MDC officials could not explain why the detainees said
that they did not receive the facility handbooks until months later. The
Associate Warden also stated that some detainees might not have become
familiar with the ARP process until several months after they arrived at the
MDC because they did not understand English or had not read the handbook.

   F. MDC Videotapes

       MDC management took some affirmative steps to prevent potential staff
abuse by installing security cameras in each September 11 detainee’s cell in
the ADMAX SHU and by requiring MDC staff to videotape all movements of
detainees to and from their cells. However, the MDC’s policy that permitted
staff to destroy or reuse these videotapes after 30 days hindered these efforts.
As a result, the OIG, MDC management, and others were unable to use the
videotapes to prove or disprove allegations of abuse raised by individual
detainees.


       125 One of these three detainees said he did not receive a handbook until he was
released into the MDC’s general population in May 2002.




                                             149
      According to interviews with BOP staff, the MDC installed cameras in its
ADMAX SHU cells by mid-October 2001 pursuant to a national directive issued
shortly after the September 11 attacks.126 The directive required that cameras
be installed in each cell housing a September 11 detainee. According to BOP
and MDC officials, the security cameras were installed because the video
record could help protect BOP staff from unfounded allegations of abuse.
According to an “al Qaeda Training Manual” found by police in Manchester,
England, during a search of an al Qaeda member’s home, terrorists
incarcerated in the United States were urged to distract Government officials
by claiming mistreatment. Consequently, the BOP was concerned that
specious allegations of abuse would consume valuable administrative and legal
resources.

      David Rardin, the former BOP Northeast Region Director, directed in an
October 9, 2001, memorandum to Northeast Region Wardens (including the
MDC) that any movement of a September 11 detainee outside of his cell must
be videotaped. According to Rardin’s memorandum, the videotape policy was
intended to deter unfounded allegations of abuse made by September 11
detainees and to substantiate abuse if it occurred.

      Rardin also directed that these videotapes of detainee movements and
tapes of detainees in their cells were to be preserved “indefinitely.” However, by
December 18, 2001, after the MDC had accumulated hundreds of videotapes,
Mickey Ray, Rardin’s successor as the BOP’s Northeast Region Director, revised
the policy for retaining surveillance videotapes from “indefinitely” to 30 days,
except for incidents involving use of force by BOP staff. According to
instructions from Ray, tapes that showed use of force by MDC staff against
detainees were to be preserved for “evidentiary use.” Tapes that did not show
use of force against detainees could be reused on the 31st day. Acting on Ray’s
new policy, MDC Warden Zenk and the MDC Captain told the OIG that
correctional staff destroyed hundreds of tapes to free up storage space at the
MDC.

      Consequently, videotapes that could have helped prove or disprove
allegations of abuse raised by detainees were not available. The lack of
videotape evidence hampered the OIG’s investigation of detainee abuse
complaints.




      126This policy was communicated by BOP Assistant Director Michael Cooksey to all
BOP Regional Directors in a series of video conference calls that occurred between
September 13 and September 20, 2001.



                                           150
VII. OTHER ISSUES

    A. Medical Care

        We were unable to assess fully the level or quality of medical care
 provided to the September 11 detainees based on the limited documentation in
 the detainees’ medical files.127 Four September 11 detainees we interviewed
 complained that MDC medical staff provided them with over-the-counter pain
 relievers for every medical problem they raised, including toothaches and pain
 from kidney stones. The detainees alleged that they were not offered more
 effective treatments for their medical conditions.

       One detainee told the OIG that he was given Tylenol for a sore throat but
 was given nothing for an elevated temperature associated with the flu. Another
 detainee, who fractured his hand prior to arriving at the MDC and had his cast
 removed the day before he arrived, claimed he received no treatment after
 informing MDC medical staff that he was in pain. When the detainee’s hand
 was x-rayed in January 2002, the MDC physician’s assistant allegedly told him
 that while the x-ray showed cracks in his hand, “we are not going to do
 anything about it.” His MDC medical record showed that an x-ray was taken
 but the accompanying notes in the file were illegible. When questioned by the
 OIG, the physician’s assistant said she did not recall making that statement to
 the detainee.

       When we asked the same physician’s assistant whether Tylenol was the
 only pain relief medication offered to the detainees, she responded that the
 MDC’s normal practice was to provide medications that are sufficient to relieve
 pain and discomfort. We interpreted this statement to mean that from the
 physician assistant’s perspective, Tylenol was sufficient to treat most
 discomfort. The physician’s assistant said she dispensed Tylenol to the
 detainee who claimed he was not treated for his hand discomfort.

        In keeping with the high-security procedures implemented by the MDC
 for moving September 11 detainees housed in the ADMAX SHU, a detainee’s
 visit to the MDC medical or dental offices required removal of all other
 non-ADMAX SHU inmates from the offices before medical or dental staff could

         127 An MDC physician’s assistant interviewed by the OIG in May 2002 initially said that

 September 11 detainees were not entitled to the same medical or dental care as convicted
 federal inmates. However, in a January 2003 follow-up interview, the physician’s assistant
 denied making those statements to the OIG, and instead asserted that pretrial inmates are
 entitled to the same health care as any other inmates in BOP custody. According to BOP
 Program Statement 7331.03 on Pretrial Inmates, “staff shall provide the pretrial inmate with
 the same level of basic medical (including dental), psychiatric, and psychological care provided
 to convicted inmates.”




                                               151
conduct diagnostic procedures such as x-rays. The MDC’s escort requirement
for September 11 detainees was unique among MDC inmates and, according to
the physician’s assistant, resulted in delayed medical or dental care for the
detainees. For example, the physician’s assistant told the OIG about a 4-week
delay in x-raying a detainee because of the manpower-intensive escort
requirement. However, she speculated that other reasons also might have
delayed a detainee’s diagnostic procedure, including an unexpected attorney
visit. The physician’s assistant could not recall how many detainees were
affected by such delays for diagnostic services, except that the number was
small.

      Interviews with September 11 detainees and MDC records confirmed that
medical staff made daily rounds in the ADMAX SHU. Beyond that, however,
incomplete documentation in the facility’s medical files made it impossible for
us to draw conclusions about the quality of medical and dental care provided
by MDC staff to September 11 detainees.

   B. Recreation

       MDC staff provided the limited amount of recreation for September 11
detainees required by BOP policy for high-security inmates. However, the large
number of detainees housed in the ADMAX SHU, the lack of warm clothing,
and scheduling conflicts restricted the detainees’ willingness or ability to
participate in exercise.

       According to BOP policy, ADMAX SHU detainees are entitled to one hour
of recreation a day, five days a week. MDC staff documented the ADMAX SHU
record each time they offered recreation to September 11 detainees and also
noted any refusals by a detainee to participate in recreation.

      September 11 detainees told the OIG that lack of proper clothing was a
major reason why they often refused recreation. According to all 19 detainees
we interviewed, during November and December 2001 the short-sleeved shirts
they were provided offered insufficient protection from the cold in the
recreation areas in the ADMAX SHU, which were located on the top floor of the
MDC and were open-air.

       Three detainees told the OIG that in January 2002, MDC staff began
offering jackets to detainees who wanted to exercise. According to 18 ADMAX
SHU reports we reviewed covering a period from November 9, 2001, to
January 8, 2002, almost 75 percent of the detainees held at any one time in
the ADMAX SHU declined recreation because it was regularly offered in the
early morning when conditions were too cold.




                                     152
   C. Lighting in the ADMAX SHU

       Eighteen of the 19 detainees we interviewed told the OIG that lights in
their cells were illuminated at all times, even at night. MDC management told
the OIG that these lights were necessary to properly operate the security
cameras installed in each of the detainees’ cells. In addition, MDC
management claimed that it did not have the ability to reduce the amount of
light in the detainees’ cells due to the manner in which the cellblock’s wiring
was configured. However, we found that MDC staff was able to reduce the
amount of light in individual detainee cells as early as November 2001, but
chose to keep the cell lights on 24 hours a day until at least late February
2002.

       In mid-October 2001, the MDC installed security cameras in each
ADMAX SHU cell. According to Warden Zenk, each cell had to be illuminated
sufficiently to provide for effective operation of the cameras. Each ADMAX SHU
cell at the MDC has two lights: a small, square “nightlight” immediately inside
the cell entrance, and a larger, rectangular “main light” in an upper corner of
the cell. The nightlight, which is flush with the cell wall, is significantly
dimmer than the cell’s larger main light. A single switch located in a secure
area at the end of the range controlled the two lights in all ADMAX SHU cells.
While BOP policy provides that ADMAX SHU cells should be “adequately
lighted,” it does not specify the magnitude of lighting or hours of the day when
lights should be turned on or off.

        Eleven of the 19 detainees we interviewed said both lights in their
ADMAX SHU cells were illuminated 24 hours a day until late March or early
April 2002. Two detainees told the OIG that the main light in their cells was
turned off in the evenings beginning in late February 2002. The other six
detainees we spoke with could not specify the date the main cell lights were
first turned off at night. A Lieutenant assigned to the ADMAX SHU during this
period told the OIG that while he was unsure of the date, he remembered that
detainees in the ADMAX SHU cells cheered when the main lights were first
turned off in the evening.

       All 19 detainees we interviewed complained about the difficulty of
sleeping with both lights illuminated at all times in their ADMAX SHU cells.
Detainees who were transferred to MDC’s general population – which did not
follow the same cell lighting protocols as the ADMAX SHU – told the OIG they
were relieved to have the cell lights turned off during the evenings. The
detainees told the OIG that the constant lighting in their ADMAX SHU cells
affected them in the following ways: lack of sleep, exhaustion, depression,
stress, acute weight loss, fevers, panic attacks, rapid heart beat, and reduced
eyesight. In addition, according to a November 27, 2001, ADMAX SHU report,


                                      153
a September 11 detainee at the MDC whom we did not interview requested to
see the MDC psychologist because he claimed he was suffering from sleep
deprivation “after several months with the cell lights continuously illuminated.”

       When questioned about the issue, Warden Zenk and other MDC
managers told the OIG that both lights in each detainee’s ADMAX SHU cell
were illuminated 24 hours a day until mid-March 2002. They said that at that
time, installation of a new electrical circuit permitted staff to independently
operate the two lights in the cells housing September 11 detainees. MDC staff
said that after mid-March 2002 the main lights in detainees’ cells were turned
off from 11:00 p.m. until 6:00 a.m. on weekdays, and from 11:00 p.m. until
10:00 a.m. on weekends. They said that after mid-March 2002, only the
smaller nightlight in each detainee’s cell was illuminated 24 hours a day, and
this was done to facilitate operation of the security cameras.

       However, we found a wide discrepancy among MDC staff and other BOP
officials as to the date the ADMAX SHU cells were rewired to permit
independent operation of the nightlight and the main light. Our interviews
with MDC and BOP staff found:

             •   The MDC facilities manager stated that the two sets of cell lights
                 were rewired in late September or early October 2001, which
                 allowed the main lights in the ADMAX SHU cells to be turned off
                 independently from the nightlights;

             •   The MDC Associate Warden for Operations estimated that the
                 lights were rewired between January and February 2002;128

             •   The MDC electrician who performed the work said he rewired the
                 circuits for the lights sometime in October or November 2001.
                 While uncertain of the exact date, he told the OIG that he was
                 positive the date was in this 2-month range; and

             •   The BOP’s Northeast Region detailed an employee to the MDC to
                 assist with rewiring the lights in the ADMAX SHU cells and
                 installing the security cameras. A Facilities Management
                 Specialist from the Northeast Region Office told the OIG that he
                 was detailed to the MDC from November 5-9, 2001, and assisted
                 the MDC electrician in re-routing the lighting circuits in the
                 ADMAX SHU cells so the two cell lights could be operated
                 independently.

       128  A written work order was not used to authorize rewiring the switch that controls the
lights in the ADMAX SHU cells. According to MDC management, the work order was conveyed
verbally by the Associate Warden of Operations.



                                              154
       The MDC electrician stated that after detainees complained about both
lights still being illuminated 24 hours a day, he checked the lights in January
or February 2002 and found the rewiring he had performed in October or
November 2001 was operating so that the larger main light in the cells could
have been turned off separately from the smaller nightlight.

       Warden Zenk responded to the OIG’s findings that the main lights could
have been turned off by the fall of 2001 by stating that MDC staff completed
rewiring lights in the ADMAX SHU cells “by December 1, 2001.” He said that
at that point, the circuits for the lights were reconfigured for only two
selections: either the nightlight could be turned on or the main light could be
turned on, but not both lights simultaneously.

       Warden Zenk further explained that while MDC management had
originally told us that the two lights in the ADMAX SHU cells were illuminated
24 hours per day until “mid-March 2002,” this date represented the time by
which all SHU cells, including the second non-ADMAX SHU range that did not
house September 11 detainees, were rewired to permit independent operation
of the two lights. However, his response does not explain why 13 of the 19
September 11 detainees we interviewed stated that both lights in their cells
were illuminated 24 hours a day until at least late February 2002.

       We concluded that MDC staff had the capability to independently operate
the lights in the detainees’ ADMAX SHU cells by November 2001. We based
our conclusion on interviews with September 11 detainees housed in the
ADMAX SHU, BOP personnel from the Northeast Region Office, and staff at the
MDC who either performed the rewiring or exercised direct oversight over the
electrical work. While MDC management claimed that the facility did not have
the ability to separately operate lights in detainees’ ADMAX SHU cells until
December 2001, the earliest date in which detainees said the main lights were
turned off at night was late February 2002. Consequently, we concluded MDC
staff subjected September 11 detainees to having both cell lights illuminated 24
hours a day for several months after they had the ability to independently
control the lights.

      D. Personal Hygiene Items

      Five of the 19 September 11 detainees we interviewed stated that they
were deprived of personal hygiene items. According to applicable BOP policies,
the MDC should have provided each detainee with one fresh towel each week
and should have allowed each detainee to have one bar of soap. Two detainees
stated that they were not given towels or soap during their first month in the
ADMAX SHU. One detainee complained that he was not allowed to keep a
toothbrush, towel, or toilet paper in his cell. Another detainee stated that he
did not regularly receive soap or toilet paper. The fifth detainee stated that he


                                      155
did not have toilet paper in his cell during his first three weeks in the ADMAX
SHU.

      The MDC Captain in charge of the ADMAX SHU told us that the MDC
policy for issuing hygiene supplies to September 11 detainees initially was
established on September 21, 2001. According to this policy,

            The SHU Lieutenant will supervise issuance of hygiene supplies every
            day. The SHU Officers will ensure the inmate receives toilet paper,
            toothbrush, toothpaste, etc. The security toothbrush is the only
            authorized toothbrush for use on this unit. The hygiene supplies will
            be provided to the inmate and then retrieved by the officers a short
            time later [emphasis added].

      The Captain said that correctional officers issued hygiene supplies to the
detainees each day according to this policy. He confirmed that all hygiene
supplies were removed after use. Further, he stated that detainees were not
permitted to keep toilet paper in their cells. When asked about the detainees’
complaints, the Captain expressed disbelief that detainees failed to receive
personal hygiene items. The Captain said the policy was modified on
October 15, 2001, by eliminating the sentence, “The hygiene supplies will be
provided to the inmate and then retrieved by the officers a short time later.”

      E. Hunger Strikes

       Seven of the 19 September 11 detainees we interviewed stated they
participated in a hunger strike while housed in the ADMAX SHU as a protest
against their incarceration and their conditions of confinement. The detainees
told the OIG that they were just “immigration violators” and not drug dealers or
criminals and that confinement in the ADMAX SHU was “excessive
punishment.”

      According to BOP policy, an inmate must refuse nine consecutive meals
before it considers the inmate to be on a hunger strike.129 When a detainee or
inmate refuses nine meals, facility medical staff is required to carefully monitor
the individual by weighing them daily and checking blood sugar levels
frequently.

       The MDC provided us with 18 ADMAX SHU reports for information about
September 11 detainees on hunger strikes. According to these reports, for a
3-day period beginning November 27, 2001, 20 out of 46 detainees in the
ADMAX SHU declared themselves to be on a hunger strike. Among the reasons
cited on the ADMAX SHU reports by the detainees for refusing meals were “left

      129   BOP Program Statement 5562.04, Inmate Hunger Strikes.



                                            156
  for over 60 days with no visits from INS or the FBI, uncertainty over their
  future, confinement in Special Housing instead of general population, and
  limited visits and telephone calls.” By November 29, 2001, all of the detainees
  had ended their hunger strikes, according to the ADMAX SHU reports, after
  many of the detainees received visits from their attorneys.

  Case Study 4:

  A September 11 detainee arrived at the MDC on February 17, 2002, and began
  a hunger strike in late March 2002. According to the ADMAX SHU reports, the
  detainee began his hunger strike to protest his confinement in the ADMAX
  SHU instead of the MDC’s general population and because of the MDC’s
  limitation on visits and telephone calls. The detainee also was upset because
  he was not allowed to see his wife until she proved that she was married to
  him.

  MDC staff began checking the detainee’s blood sugar levels daily and offered
  him liquid nutritional supplements when he refused his ninth consecutive
  meal. By April 2, 2002, the detainee had missed a total of 17 consecutive
  meals. We could not determine how many more meals he missed because the
  next available ADMAX SHU report was dated April 6, 2002, and contained no
  mention of the continuing hunger strike. Therefore, we infer that the detainee
  ended his hunger strike sometime before April 6, 2002. The detainee told the
  OIG that he could not pinpoint the date he ended his hunger strike because he
  did not have access to a calendar.


VIII. OIG ANALYSIS

         In the aftermath of the September 11 attacks, 184 aliens arrested on
  immigration charges were confined in high-security federal prisons, as opposed
  to less restrictive INS detention facilities. Eighty-four of these aliens were held
  at the MDC in Brooklyn, New York. These MDC detainees were held under “the
  most restrictive conditions possible,” which included “lockdown” for at least
  23 hours per day, extremely limited access to telephones, and restrictive escort
  procedures any time the detainees were moved outside their cells. To this end,
  the MDC created an ADMAX SHU specifically to confine the September 11
  detainees.

        The BOP played no role in deciding the security risk posed by individual
  September 11 detainees or their potential connections to terrorism. As
  discussed in Chapter 4, these decisions were made by the FBI in consultation
  with the U.S. Attorney’s Office in the Southern District of New York and were
  communicated to the INS, whose agents generally arrested the aliens as part of
  a Joint Terrorism Task Force effort.



                                         157
       However, once the FBI characterized a detainee as “high interest” and the
INS transferred the detainee to BOP rather than INS custody, the BOP took
responsibility for the detainee’s confinement. In the heightened state of alert
after the terrorist attacks, the BOP combined a series of existing policies and
procedures that applied to inmates in other contexts and applied them to the
detainees they received after September 11, such as designating September 11
detainees as WITSEC inmates.

        As a threshold matter, we question the criteria (or lack thereof) the FBI
used to make its initial designation of the potential danger posed by
September 11 detainees. The arresting FBI agent usually made this
assessment without any guidance and based on the initial detainee information
available at the time of arrest. In addition, there was little consistency or
precision to the process that resulted in detainees being labeled “high interest,”
“of interest,” or “of undetermined interest.” While many of these decisions
needed to be made quickly and were based on less than complete information,
we believe the FBI should have exercised more care in the classification
process, given the significant ramifications on detainees’ freedom of movement
and association depending on whether they were confined in a high-security
facility such as the MDC or a less restrictive facility such as Passaic (discussed
in Chapter 8). More important, as discussed in Chapter 4, the FBI devoted
insufficient resources to investigating or clearing most of these detainees,
resulting in their prolonged confinement under extremely high security
conditions. Even after clearance, the BOP’s delay in notifying the MDC
lengthened even further these detainees’ stay in the ADMAX SHU.

      With regard to the conditions of confinement for detainees at the MDC,
we appreciate that the influx of high-security detainees stretched MDC
resources to their limit, with MDC staff members often working double shifts to
monitor the detainees during a highly emotional period of time. We also
appreciate the uncertainty surrounding these detainees and the chaotic
conditions in the immediate aftermath of the September 11 attacks. However,
our review raises serious questions about the treatment of the September 11
detainees housed at the MDC in several regards.

       First, BOP officials imposed a “communications blackout” specifically for
September 11 detainees within a week of the terrorist attacks. During this
blackout period, detainees were not permitted to receive any telephone calls,
visitors, or mail, or to place any telephone calls or send mail. While we were
unable to determine the exact length of this communications blackout, it
appears to have lasted several weeks, after which time the September 11
detainees were permitted limited attorney and social contacts. During this
time, attorneys and family members were unable to receive any information
about these detainees, including where they were being held. While such a
policy was within the BOP’s discretion, we question the justification for a total


                                       158
communications blackout on all these individuals, particularly for the length of
time that it was imposed. In addition, the telephone limitations imposed on
this group of detainees – one legal telephone call per week and one social call
per month – further hindered the detainees’ ability to obtain legal assistance,
which posed a significant problem since the majority of the detainees entered
the MDC without counsel.

       Second, as noted above, the BOP initially designated all September 11
detainees as WITSEC inmates. Usually, this designation is applied to
individuals who agree to cooperate with law enforcement by providing
testimony against criminal suspects. Application of this WITSEC classification
to the September 11 detainees, however, resulted in MDC officials continuing
to withhold information about the detainees’ location, even after the
communications blackout was lifted.

        This classification frustrated efforts by the detainees’ attorneys, family
members, and even law enforcement officers to determine where the detainees
were being held. Because information on WITSEC inmates is tightly restricted,
even MDC staff working at the front desk in the facility’s lobby did not have
access to information about the September 11 detainees. We found that MDC
staff frequently – and mistakenly – told people who inquired about a specific
detainee that the detainee was not held at the facility when, in fact, the
opposite was true. Instead, the staff referred the caller or visitor to the BOP’s
Inmate Locator system for information about where an individual detainee was
being held. But WITSEC inmates are not listed in this public system because
of security reasons, and this prevented attorneys or family members from
locating these September 11 detainees. We fault the MDC for not considering
in a more timely manner the implications of labeling these September 11
detainees as WITSEC detainees and for not properly communicating to its
employees – especially its staff who worked the facility’s front desk – about the
classification issues affecting September 11 detainees and how to properly
address inquiries from the public.

       The BOP tried at least twice to address this situation by reclassifying the
September 11 detainees, first by renaming them “Group 155” inmates. Even
then we found the BOP continued to use “WITSEC” as its primary designation.
On October 31, 2001, the BOP reclassified the detainees as “Special SIS
Cases.” Neither reclassification alleviated the access issues confronted by
detainees’ attorneys and family members. In fact, we found that as late as
March 1, 2002 – more than six months after the first September 11 detainees
arrived at the MDC – the BOP’s initial decision to classify the detainees as
WITSEC inmates continued to cause confusion and resulted in attorneys being
told incorrectly that their clients were not being held at the MDC.

     We understand the MDC’s efforts to follow instructions from BOP
Headquarters and confine the September 11 detainees under secure


                                       159
conditions. That said, the detainees were pretrial inmates, most of whom had
not obtained legal representation by the time they were confined at the MDC.
Consequently, their designation by BOP officials as WITSEC inmates hindered
the detainees’ efforts to contact legal counsel and their families. We also
believe the BOP should have taken timelier and more effective steps to address
the situation after it realized the impact this designation was having on the
September 11 detainees and the ability of their attorneys and families to locate
them.

       Third, with regard to the policies within the MDC for confining the
September 11 detainees, MDC officials used existing BOP policies applicable to
inmates in disciplinary segregation, and confined the September 11 detainees
in the ADMAX SHU. The detainees were placed in restraints whenever they
were outside their cells, including handcuffs, leg irons, and heavy chains. Four
staff members were required to be present each time a detainee was placed into
restraints and escorted from a cell. The detainees also were required to remain
in restraints during their non-contact visits with their attorneys or family
members.

        Because of these restrictive conditions, we believe it was important for
the FBI, INS, and BOP to determine, in a reasonable time frame, whether these
detainees were connected to terrorism or whether they could be cleared to be
moved from the ADMAX SHU to the MDC’s much less restrictive general
population. Yet, detainees remained in the ADMAX SHU for a long period of
time waiting for the FBI’s clearance process which, as we described in
Chapter 4, was excessively slow. Even when the FBI cleared the detainees,
they remained in the ADMAX SHU for days and sometimes weeks longer than
necessary due to delays between the time the FBI cleared a detainee of a
connection to terrorism and the time the MDC received formal notification of
the clearance. In addition, we found that the MDC did not consistently follow
its established procedures. Without explanation, it released at least four
September 11 detainees from the ADMAX SHU prior to receiving clearance from
the FBI that the detainee had no links to terrorism.

       Fourth, the restrictive conditions imposed by the MDC prevented the
detainees from obtaining counsel in a timely fashion. The BOP has no national
policy regulating the number or length of telephone calls that inmates in an
ADMAX SHU can make to their attorneys. Consequently, the policy regulating
the frequency and duration of legal telephone calls established by the MDC for
September 11 detainees – while complying with very broad BOP national
standards – severely limited the detainees’ ability to obtain and consult with
legal counsel.

       As mentioned previously, most September 11 detainees did not have
legal representation prior to their detention at the MDC (only 2 of the 19
detainees we interviewed had hired legal counsel before they entered the MDC).


                                      160
The MDC imposed a policy that permitted September 11 detainees housed in
the ADMAX SHU only one legal call per week. This type of policy is more
appropriate for pre-trial inmates who have obtained counsel prior to their
incarceration rather than for inmates like the September 11 detainees who
needed to find counsel.

       Further complicating the detainees’ efforts to obtain counsel, the pro
bono attorney lists provided September 11 detainees by the INS through EOIR
contained inaccurate and outdated information. As a result, detainees often
used their sole legal call during a week to try to contact one of the legal
representatives on the pro bono list, only to find that the attorneys either had
changed their telephone number or did not handle the particular type of
immigration situation faced by the detainees. In addition, detainees
complained that legal calls that resulted in a busy signal or calls answered by
voicemail counted as their one legal call for that week. When questioned about
this, MDC officials gave differing responses about whether or not reaching an
answering machine counted as a completed legal call. We believe that counting
calls that only reached a voicemail, resulted in a busy signal, or went to the
wrong number was unduly restrictive and inappropriate.

       In addition, the manner in which the MDC inquired whether the
detainees wanted to place a legal call was unclear and inappropriate. In many
instances, the unit counselor inquired whether September 11 detainees in the
ADMAX SHU wanted their weekly legal call by asking, “are you okay?” For
some period, several detainees told the OIG that they did not realize that an
affirmative response to this rather casual question meant they opted to forgo
their legal call for that week. We believe the BOP should have asked the
detainees directly “do you want a legal telephone call this week?” rather than
relying on the detainees to decipher that a shorthand statement “are you
okay?” meant “do you want to place a legal telephone call?”

       Our review determined that the MDC officials recognized their obligation
to permit representatives from foreign consulates to visit with detainees and
established a clearance procedure to facilitate these visits. However, we found
that consular representatives experienced the same difficulties as attorneys in
obtaining access to detainees due to the BOP’s categorization of the detainees
as WITSEC inmates. In addition, the MDC’s classification of detainee calls to
their consulates as “social calls” severely limited the detainees’ ability to
contact their consulates in a timely manner, given the MDC’s limit of one social
call per month for detainees.

       Fifth, the restrictive BOP policies and the classification of September 11
detainees also hindered family visits. Although MDC management tried to
train reception area staff on proper procedures for granting visitation to
detainee family members, problems persisted even many months after
September 11.


                                       161
       Sixth, with regard to allegations of physical and verbal abuse, we
concluded that the evidence indicates a pattern of abuse by some correctional
officers against some September 11 detainees, particularly during the first
months after the attacks. Most detainees we interviewed at the MDC alleged
that MDC staff physically abused them. Many also told us that that MDC staff
verbally abused them with such taunts as “Bin Laden Junior” or with threats
such as “you will be here for the next 20-25 years like the Cuban people.”
Although most correctional officers denied such physical or verbal abuse, the
OIG’s ongoing investigation of complaints of physical abuse developed
significant evidence that it had occurred, particularly during intake and
movement of prisoners.130

        Seventh, MDC staff failed to inform detainees in a timely manner about
the process for filing complaints about their treatment. Only 1 of the 19
detainees we interviewed said he received a facility handbook when he arrived
that described the formal complaint process. Ten detainees told the OIG they
did not learn about the complaint resolution process until they received their
facility handbook 4 to 6 months after arriving at the MDC.

        The Associate Warden for Programs told the OIG that all September 11
detainees received a facility handbook when they were processed into the MDC.
Yet, even if the detainees received handbooks, staff apparently confiscated
them as unacceptable items to retain in their ADMAX SHU cells. In addition,
we found that a 2-page summary of MDC policies distributed to many of the
detainees did not contain information about how to file a formal complaint.
The haphazard fashion in which MDC staff handled dissemination of the
facility handbook impeded the detainees’ ability to seek review for their
complaints about conditions of confinement at the MDC. If the detainees were
not permitted to keep the facility handbook in their cells for security reasons,
the MDC’s 2-page summary of facility policies should have included
information that described the process for filing a formal complaint.

       Eighth, MDC staff appropriately took affirmative steps to prevent
potential staff abuse against September 11 detainees – and protect MDC staff
from unfounded allegations of abuse – by installing security cameras in each
detainee’s cell and by requiring staff to videotape all detainee movements
outside their ADMAX SHU cells. However, the BOP’s decision to permit MDC
staff to destroy or reuse these videotapes after 30 days hampered the
usefulness of the videotape system to prove or disprove allegations of abuse
raised by individual detainees. We understand the difficulty in storing the

         To date, our investigation has not uncovered any evidence that the physical or verbal
       130

abuse was engaged in or condoned by anyone other than the correctional officers who
committed it. However, our investigation is still ongoing.



                                            162
hundreds of videotapes the MDC accumulated after several months of taping
the detainees. But the decision to recycle or destroy the videotapes created
problems regarding allegations of physical abuse at the MDC. Detainees were
unable to use videotape evidence to support allegations of abuse filed more
than 30 days after an alleged incident. Similarly, MDC staff had more difficulty
refuting abuse allegations raised by detainees if the complaint was filed more
than 30 days after the incident.

       Given the proactive steps taken to prevent or document incidents of
physical abuse against September 11 detainees, we believe rescinding the
videotape retention policy was unwise. If BOP and MDC management wanted
to refute detainee allegations of abuse using videotape evidence, it was
shortsighted on their part to assume that all such allegations would be made
and resolved within 30 days.

      Ninth, we found that recreation offered to the September 11 detainees
was limited due to BOP security policies, the limited number of recreation cells
within the ADMAX SHU, and lack of proper clothing that led detainees to
regularly refuse recreation because it was offered most often in the early
morning hours when it was colder in the open-air recreation cells.

       Tenth, MDC staff subjected the September 11 detainees to having both
lights illuminated in their cells 24 hours a day for several months longer than
necessary, even after electricians rewired the ADMAX SHU range. Our review
determined that, despite the initial representations to us by MDC officials, the
MDC was able to reduce the amount of light in an individual detainee’s cell as
early as November 2001, but instead kept both cell lights illuminated until at
least mid-March 2002. Eighteen of the 19 detainees we interviewed
complained to the OIG about the difficulty of sleeping with both lights
illuminated 24 hours a day, citing exhaustion, depression, stress, and sleep
deprivation. The MDC had little reason for keeping the lights constantly
illuminated for as long as it did.

        In sum, we recognize the uncertainties and confusion surrounding the
initial policies and treatment relating to these September 11 detainees. Much
about these detainees was unknown, and the BOP had to accept the FBI’s
loosely applied assessment of these detainees as “of interest” to the terrorism
investigation. However, while we fault the FBI for the slowness of the clearance
process, we believe the blackout and the initial WITSEC designation that the
BOP imposed for several weeks was excessive, particularly because many of
these detainees had no counsel or any contact with families. We also believe
that the BOP instituted excessively restrictive policies on the detainees,
particularly regarding telephone privileges. In addition, the BOP did not
provide adequate information about the location of the detainees to the
detainees’ attorneys or their family members. These policies hindered the
detainees’ ability to obtain and consult with legal counsel and were more


                                      163
appropriate for detainees who had attorneys prior to arriving at the MDC. We
also believe that some of the detainees were subject to physical or verbal
abuse. Finally, we believe that some of the conditions of confinement were
unnecessarily severe, such as two lights constantly illuminated in the
detainees’ cells. While the chaotic situation and the uncertainties surrounding
the detainees’ role in the September 11 attacks and the potential for additional
terrorism explain some of these problems, they do not explain or justify all of
them. We believe that the Department and the BOP should consider these
issues carefully in an effort to avoid similar problems in the future.




                                      164
                                    CHAPTER EIGHT

                     CONDITIONS OF CONFINEMENT AT
             THE PASSAIC COUNTY JAIL IN PATERSON, NEW JERSEY

I. INTRODUCTION

        Not all September 11 detainees were confined in highly restrictive
facilities like the MDC. The majority of the aliens arrested on immigration
charges after the September 11 terrorist attacks were not deemed by the FBI to
be of “high interest” to its terrorism investigation and therefore were housed in
INS detention facilities or state or county jails under contract to the INS to
house federal immigration detainees.

      The Passaic County Jail (Passaic), located in Paterson, New Jersey,
approximately 25 miles from the INS Newark District Office, has been under
contract with the INS since 1985 to house federal immigration detainees
awaiting processing of their cases.131 It also houses United States Marshals
Service prisoners. The 4-story facility, built in 1956, houses inmates in both
medium- and high-security settings and has a capacity of approximately 1,800
beds.

      According to INS data, Passaic housed 400 September 11 detainees from
the date of the terrorist attacks through May 30, 2002. This represented the
most September 11 detainees held at any single U.S. detention facility. Passaic
eventually housed 52 percent of all September 11 detainees (400 of 762).

       Passaic’s total inmate population was approximately 1,600 on
September 11, 2001. As September 11 detainees began arriving at Passaic, the
total inmate population grew to a peak in late November 2001 of about 1,750
inmates, but never reached the facility’s capacity of 1,800. During the period
September 2001 through May 2002, the population of non-INS inmates
averaged approximately 1,440.

      Unlike the MDC, Passaic had confined federal immigration detainees for
more than 15 years, and the staff at Passaic was familiar with the INS and
issues related to INS detainees. Also different from the MDC, September 11
detainees housed at Passaic were not identified as such by jail staff or
segregated from the rest of the prison population. Passaic officials made no
distinction between the detainees confined as a result of the September 11

       131Two other contract facilities in the INS Newark District – the Hudson County Jail and
the Middlesex County Jail – also housed September 11 detainees.




                                             165
investigation and other INS detainees confined on “regular” immigration
charges. Our interviews with September 11 detainees at Passaic confirmed
that, while most stated that they did not understand why they were in jail, they
were not singled out in any way for exceptional treatment by jail staff because
they were or had been subjects of the September 11 terrorism investigation.

       As discussed in Chapter 7, MDC officials were instructed by the BOP to
treat the September 11 detainees as WITSEC inmates and hold them under
very restrictive conditions. In contrast, the INS did not give Passaic specific
classification instructions, and Passaic officials treated the September 11
detainees as regular INS detainees. Overall, September 11 detainees at Passaic
were given considerably more privileges than detainees at the MDC and were
not systematically subjected to the lockdown conditions or the restrictions on
their freedom of movement or association experienced by detainees held at the
MDC.

      This chapter examines the conditions of confinement experienced by
September 11 detainees housed at Passaic. As in the chapter on MDC, we
address the detainees’ housing conditions, access to legal counsel, attorney
and social visitation, allegations of physical and verbal abuse, medical services,
and opportunities for recreation. We also describe oversight of the Passaic
detainees by the INS Newark District.

        We developed a sample of 66 September 11 detainees housed at Passaic.
The sample included 30 detainees held at Passaic as of April 2002 and 30
additional detainees who were released or transferred prior to April 2002.
When we conducted our fieldwork at Passaic in May 2002, 13 of the 30
detainees identified as currently held at Passaic were still there. The other 17
had been released or transferred. We interviewed the 13 detainees who were
still confined at Passaic. We also interviewed six detainees held at Passaic who
were the subject of media articles, and reviewed files for all 66 detainees in our
sample.

II. BACKGROUND ON PASSAIC COUNTY JAIL

      The INS has entered into numerous Intergovernmental Service
Agreements (IGAs) with county governments across the United States to house
federal immigration detainees. Passaic signed an IGA with the INS in January
1985 to house INS detainees; Passaic currently receives $77 per day for each
detainee it confines. The INS has developed standards that facilities such as
Passaic must follow to be eligible for INS contracts and funding. These
standards articulate policies on a wide variety of confinement issues, including
detainee telephone access, medical care, and discipline.

        The INS Newark District contracted with Passaic and other county
facilities in northern New Jersey to hold INS detainees, and had oversight


                                       166
 responsibility for the September 11 detainees held at Passaic. In contrast, the
 INS New York District had no direct oversight of September 11 detainees
 confined at the MDC because the MDC is a federal prison operated by the BOP.

        INS detainees were housed in the medium security portion of the Passaic
 County Jail. Within that part of the facility, a Special Detention Unit (SDU) of
 six single-person cells is used when needed to segregate inmates either for
 their own protection or to punish inmates who commit disciplinary infractions.
 Inmates confined to the SDU are monitored 24 hours per day by cameras in
 each cell. In addition, SDU inmates only are permitted to place calls to and
 receive visits from their attorneys – no social calls or visits are allowed.
 According to Passaic policy, disciplinary infractions such as assaulting or
 threatening staff and inmates are usually punishable by confinement in the
 SDU for 15 to 30 days per incident. Later in this chapter, we discuss the
 experiences of the few September 11 detainees held in the SDU.

       In late April 2001, Edwin Englehardt, the Passaic County Sheriff for 28
 years, resigned and then-Undersheriff Ron Fava was elevated to Acting Sheriff.
 Fava appointed Felix Garcia as Warden to run the Passaic jail. At the time of
 the terrorist attacks on September 11, 2001, Garcia had operational
 responsibility for Passaic. In January 2002, Jerry Speziale took office as
 Sheriff and appointed Charles Meyers as Warden of the Passaic jail.132

III. HOUSING OF DETAINEES

    A. Processing of September 11 Detainees

        Upon their arrival at Passaic, similar to other INS detainees,
 September 11 detainees were searched, fingerprinted, photographed, issued jail
 clothing, provided with the jail handbook, and placed in a temporary holding
 cell to await a medical examination and mental health screening by Passaic
 staff. Generally within 24 hours, the detainees were assigned to a housing unit
 in the facility.

        The INS’s Detention Standards provide general guidelines for classifying
 inmates based on various factors, including “current offense, past offenses,
 escapes, institutional disciplinary history, and violent episodes/incidents.”
 The classification ranges from Level 1 (least serious) to Level 3 (most serious).
 Under these standards, INS detainees such as the September 11 detainees
 were classified as Level 1 inmates and could not be housed with Level 3
 inmates who had been convicted of acts of physical violence or aggravated
 felonies such as narcotics trafficking. This stands in contrast with the BOP

        132Garcia was promoted to Undersheriff in January 2002, but subsequently left his
 position and was not on staff at the time of our site visit to Passaic in May 2002.



                                             167
memorandum, “Guidance for Handling of Terrorist Inmates and Recent
Detainees,” issued on October 1, 2001, by Michael Cooksey, the BOP’s
Assistant Director for Correctional Programs, that placed the September 11
detainees held by the BOP under extremely restrictive conditions of
confinement.

      Some INS detainees at Passaic were assigned to a unit (pod) with
2-person cells and an associated dayroom, but more often to large dormitory
units housing approximately 50 men. The dormitory units served as both
sleeping quarters and a dayroom. INS detainees, including September 11
detainees, had most of the same privileges and restrictions as other inmates at
the facility, with the exception that jail policy forbade INS detainees from
holding jobs in the jail. Beginning in September 2002, however, INS detainees
were able to work in the Passaic laundry facility.

       According to INS data, 92 percent of the September 11 detainees held at
Passaic (371 of the 400) were arrested in the New York City area. Based on
data from the INS and Passaic, the average number of total INS detainees
housed at Passaic per week climbed steadily, from about 50 detainees out of a
total of 1,596 inmates at the facility prior to September 11, 2001, to 98 by
October 6, 2001. The number of INS detainees continued to climb, to 207 on
October 20, 2001, to 306 on November 3, 2001, to a high of 417 (out of a total
population of 1,777) by early December 2001. During this 3-month period, the
number of INS detainees at Passaic increased from 3 percent to 23 percent of
the facility’s total inmate population. In spite of the dramatic increase in INS
detainees, the facility never reached overcrowded conditions because Passaic
had a significant number of empty beds prior to September 11.


                                    Figure 11
                   Weekly Average Number of INS Detainees Held
                              at Passaic County Jail

                  450
                  400
                  350
                  300
                  250
                  200
                  150
                  100
                   50
                    0
                        Pre 9/11


                                   11/3/2001


                                               12/8/2002


                                                            1/12/2002


                                                                        2/16/2002


                                                                                    3/23/2002


                                                                                                4/27/2002


                                                                                                            5/31/2002




                                                           Week Ending




                                                                  168
       The steady increase in INS detainees over such a relatively short period
of time reduced Passaic’s ability to consistently ensure INS detainees were
segregated from more serious offenders. Passaic Warden Meyers and Deputy
Warden Brian Bendl told the OIG that due to the sudden influx of INS
detainees after September 11, detainees were housed alongside sentenced
county inmates. Bendl said this happened when Passaic did not have
sufficient immigration detainees to fill an entire jail pod or dorm.

       Nine of the 13 September 11 detainees we interviewed at Passaic in May
2002 said they shared dayrooms with sentenced criminal inmates during some
portion of their custody at Passaic. The detainees said they knew this through
their conversations with the inmates and based on the color of the wristbands
worn by different inmates at the facility (according to Passaic staff, federal
detainees wore red wristbands while county inmates wore white wristbands).
Our review of the Passaic housing records also confirmed that at least 7 of the
13 September 11 detainees we interviewed were housed with sentenced
criminal inmates for periods ranging from 1 week to 5 months. Bendl
confirmed that Passaic periodically housed September 11 detainees with
sentenced inmates, but he said only with inmates serving sentences of less
than one year for crimes such as shoplifting, simple assault, and drug
possession. We could not confirm this statement because the housing records
we reviewed did not contain information about inmates’ criminal history.

       All the September 11 detainees we interviewed expressed concern for
their safety or were fearful to some degree. One detainee told the OIG that he
shared a dormitory with county detainees for five months and did not feel safe.
He was eventually moved to a unit with other INS detainees. Another detainee
complained about being moved from an INS housing unit to a unit housing
county inmates. A third detainee complained about problems he and fellow
Muslims were having, not with county inmates but with other INS detainees.

Case Study 5:

We interviewed a September 11 detainee who said that he and other
Muslim detainees were being intimidated by two INS criminal aliens,
both aggravated felons. He told the OIG that when he and his fellow
Muslims quietly conducted afternoon prayers in the common dayroom,
these two criminal aliens turned up the volume on the television. When
he asked them to turn the volume down, the criminal aliens refused and
warned the detainee not to do anything about it.

The detainee said he complained to Passaic staff about this problem to
no avail. In addition, the detainee said that no assistance was
forthcoming from the INS because staff from the INS Newark District had



                                      169
not visited his unit.133 After the detainee raised this issue with the OIG
during his interview, Passaic staff moved one of the criminal aliens out of
the September 11 detainee’s housing unit.


       We saw no evidence that the INS Newark District reviewed the housing
assignments of September 11 detainees in Passaic. According to Deputy
Warden Bendl and Passaic officers who had regular contact with the Newark
District, INS officials did not ask about the detainees’ housing assignments.
Bendl told the OIG that the INS Newark District left the housing decisions for
September 11 detainees to Passaic officials.

        When we interviewed INS Newark District officials, the two INS Newark
detention officers responsible for visiting INS detainees at Passaic told us that
they were not certain whether INS detainees were segregated from county
detainees. Another INS Newark detention officer we interviewed told us that he
thought the INS had no policy for segregating September 11 detainees from
county inmates. These responses illustrate that INS Newark District detention
officers with responsibility for monitoring INS detainees at Passaic did not
ensure that INS policies on classifying and housing INS detainees were followed
at Passaic.

   B. SDU Housing Reviews

      We found that Passaic and the INS also did not maintain adequate
records about September 11 detainees placed in the facility’s SDU. According
to INS detention standards, each detainee’s file should contain a written record
explaining the reasons why, and for how long, a detainee was confined in the
SDU.

      We did not find any SDU housing records in the files of the September 11
detainees, even though our review of the Passaic SDU Log from September 12,
2001, to May 30, 2002, indicated that eight September 11 detainees were
housed in the Passaic SDU for various lengths of time during this period.134
Our review of SDU logs showed that:

             •   Two September 11 detainees were placed in the SDU for medical
                 isolation, one for chicken pox from October 28 to October 30,



       133   We discuss INS Newark District oversight issues later in this chapter.

       134 The SDU Log records the names of the inmates in the SDU, the date they entered the
SDU, the infraction they were charged with, the release date, and any special problems or
restrictions.



                                                170
          2001, and one for pink eye from December 13 to December 18,
          2001.

      •   Two September 11 detainees were sent to the SDU for assaulting a
          third September 11 detainee. The SDU Log records that one was
          in the SDU from January 8 to January 9, 2002; the other from
          January 8 to January 18, 2002. In the incident report, the victim
          stated that the two detainees pulled him out of bed and began
          hitting and punching him. The assaulted detainee was taken to a
          local hospital emergency room for stitches.

      •   One detainee spent eight days (from December 1 to December 8,
          2001) in the SDU. The incident report documents that upon
          arrival at Passaic, the detainee was instructed to remove his
          clothing as part of the initial booking process. He refused to obey
          multiple orders and began to argue with the officer. According to
          the report, the detainee walked up to the officer, put his finger into
          the officer’s chest, and continued to argue. The officer took his
          arm and brought him to the ground to handcuff him. After a
          struggle, another officer handcuffed the detainee. Medical staff
          who examined the detainee a short time later observed no signs of
          injury.

      •   One detainee spent 24 days in the SDU (from December 18, 2001,
          to January 10, 2002) based on an FBI request to segregate the
          detainee. We were unable to determine the reason for the
          segregation request.

      •   One detainee spent his first four days at Passaic in the SDU after
          being transferred from the MDC on March 25, 2002. The detainee
          told the OIG that he was segregated because of his physical and
          mental condition at the time. The detainee stated that when he
          arrived at Passaic he was depressed, non-communicative, and
          could not walk after spending six months at the MDC. Passaic
          officials segregated him from other inmates and detainees until
          they could assess his condition.

      •   A September 11 detainee was placed in the SDU for 14 days (from
          May 19 to June 2, 2002) for threatening and assaulting a Passaic
          correctional officer, using abusive language, and for refusing to
          obey an order.135


135   This incident is discussed in Case Study 6 in this chapter.




                                         171
        An INS Newark District Supervisory Detention Officer told the OIG that
 Passaic officials did not consistently inform the INS Newark District when INS
 detainees were placed in the SDU, contrary to instructions from Deputy
 Warden Bendl and Passaic policy. The only SDU record we found in the INS
 Newark District files regarding a September 11 detainee was for the detainee
 who served 14 days in the SDU for threatening and assaulting a correctional
 officer. After our inspection visit of Passaic in May 2002, the INS initiated a
 requirement that IGA facilities like Passaic must inform the local INS District
 office when a detainee is transferred to the SDU.

        When asked about the lack of documentation in September 11 detainee
 files and the failure to consistently notify the Newark District when INS
 detainees were moved to the SDU, Bendl said that prior to January 2002
 Passaic staff often notified the INS Newark District by telephone about
 incidents involving INS detainees, including placement of detainees in the SDU.
 After January 2002, he instructed his staff to fax incident reports involving INS
 detainees to the INS Newark District, including when a September 11 detainee
 was housed in the SDU. Bendl offered no explanation as to why, despite his
 instructions to his staff, the SDU report regarding the detainee transferred
 from the MDC on March 25, 2002, was not forwarded to the INS Newark
 District Office.

IV. ACCESS TO LEGAL COUNSEL

       We found that September 11 detainees housed at Passaic generally
 received the same access to counsel as non-September 11 INS detainees.
 Furthermore, in contrast to detainees held at the MDC, the Passaic detainees
 generally had no difficulty contacting attorneys or family members, and
 attorneys and family members had no systemic difficulty locating the detainees
 or contacting them.

    A. Background

        Deputy Warden Bendl told us that if an attorney called or visited Passaic
 to speak to a specific INS detainee, Passaic staff would confirm for the attorney
 that the detainee was housed at the facility. Passaic officials said they asked
 attorneys to schedule appointments to see detainees at least 24 hours in
 advance. One attorney for a September 11 detainee in our sample stated that
 when he first contacted Passaic he was told that his client was not being held
 at the facility when, in fact, he was. When asked about this attorney’s
 experience, Bendl told us he was unaware of the specific incident, but that it
 likely was due to a simple mix-up. Bendl said some detainees used more than




                                       172
one name and frequently there was confusion among Passaic staff about
spelling and name order.136

       None of the 13 September 11 detainees we interviewed indicated that
their family members were not informed that they were held at Passaic. At
Passaic, family and friends were allowed to visit detainees. In contrast, only
immediate family members were permitted to visit September 11 detainees
confined at the MDC.

       According to Bendl, in January 2002 immigration rights groups began
contacting Passaic officials requesting information about September 11
detainees held at the jail. Bendl said Andrea Quarantillo, the INS Newark
District Director, ordered Passaic to direct all such inquiries regarding
September 11 detainees to the INS Newark District. At the same time, the INS
requested that Passaic staff ask attorneys to present copies of INS Form G-28
(the document filed with the INS that indicates an attorney is representing a
particular detainee) prior to their visit at Passaic.

        In the spring of 2002, INS Headquarters issued at least two policies
affecting dissemination of information on September 11 detainees. An April 8,
2002, memorandum from the INS’s Office of General Counsel (OGC) to all INS
detention facilities, including contract facilities like Passaic, requested that
facilities notify the OGC of any requests for information that could disclose the
identities of September 11 detainees. In addition, in May 2002 Passaic Warden
Meyers received a copy of an interim INS rule regarding release of information
on INS detainees. This interim rule, effective on April 17, 2002, stated that
detention facilities such as Passaic “shall not release information” on
September 11 detainees and that requests for public disclosure of such
information will be directed to the INS. These two policies continued the
restrictions on the extent to which Passaic could release information on
September 11 detainees to the media, immigration advocacy groups, or anyone
other than individual detainees’ family, friends, or legal counsel. According to
Quarantillo, the INS Newark District released the detainees’ locations to
detainees’ attorneys and family members if they requested.




         136 Bendl also said that particularly in the months immediately following the

September 11 attacks, many detainees were being transferred in and out of the facility and
there was confusion over the correct names of the detainees. If an attorney or family member
called to find out if a detainee was being held at Passaic, Bendl said they might have been told
“no” if the name the caller provided did not correspond exactly to the name on file at Passaic,
even though the detainee may have been present.




                                              173
   B. Legal Telephone Calls

        The INS’s policy on telephone access for immigration detainees states
that contract facilities such as Passaic “shall permit immigration detainees to
make direct calls” to obtain or consult with legal representatives.137 Further,
the policy states that, “the facility shall enable all detainees to make calls to the
INS-provided list of free legal service providers and consulates at no charge to
the detainee or the receiving party.” However, Passaic’s inmate handbook
states that all calls by detainees must be collect, including calls to legal
counsel. We found that all detainee calls made to attorneys, except for those
facilitated by the Passaic ombudsman (discussed later), were collect calls.138




             Image 6: This image depicts telephones in one of the
             Passaic dayrooms used by September 11 detainees.
             Photograph dated May 24, 2002.

      Five of the 13 September 11 detainees we interviewed at Passaic told the
OIG that their attorneys’ offices did not accept collect calls. Warden Meyers
and two other Passaic employees confirmed that several attorneys would not
accept collect calls from September 11 detainees. A Passaic ombudsman also
told us that he was aware that INS detainees were having problems contacting

       137   INS Detention Standard, “Telephone Access,” September 20, 2000.

        138 Detainees’ access to telephones differed somewhat depending on where a detainee

was housed at Passaic. All telephones were located in the dayrooms. Dayroom access for the
detainees in the dormitories was unrestricted. Therefore, these detainees could use the
telephones anytime during the day. However, dayroom access for the detainees in the 2-man
cells that comprised pods was more restricted. These detainees could use the telephones from
8:00 a.m. to 11:00 p.m.




                                              174
attorneys on the INS pro bono list in the days after September 11, 2001,
because some attorneys would not accept collect calls.

       To address this problem, beginning on September 28, 2001, Passaic
officials permitted September 11 detainees to place direct calls to their attorney
or consulate free of charge from the facility ombudsman’s office. According to
an ombudsman, he would schedule a time for the detainee to come to his office
to make a legal call at no cost to the detainee or the person being called after
receiving a written request from a detainee.139

       We interviewed two correctional officers who served as ombudsmen at
Passaic. One had served as ombudsman for five years, while the other served
in this position from September 2001 to February 2002. Both said they made
rounds in the units once a day, told the detainees they were available for
assistance in making legal telephone calls, and collected written requests from
detainees who wanted to place calls. In addition, they said requests to use the
telephone could be transmitted to them through other Passaic staff. The
ombudsmen told the OIG that they permitted numerous detainees to place
legal calls from their office because the detainees had no money or their
attorneys would not accept collect calls. The ombudsmen also said they
assisted interested detainees in contacting their consulates. Detainees we
interviewed confirmed that the ombudsmen facilitated their legal calls.

   C. Pro Bono Attorney List

      We found that pro bono attorney lists were not consistently provided to
September 11 detainees housed at Passaic, as required by INS regulations,
although lists were posted at the jail.

       According to INS regulations, INS officers who processed the
September 11 detainees were responsible for providing each detainee upon
arrest “with a list of the available free legal services . . . located in the [INS]
district.”140 The INS Newark Assistant District Director for Investigations told
the OIG that INS staff provided detainees with pro bono attorney lists when
they were processed in the INS Newark District and before they were sent to
detention facilities such as Passaic.

       As discussed in Chapter 7, the Executive Office for Immigration Review
(EOIR) is responsible for maintaining lists of pro bono attorneys who offer free
legal services to immigration detainees in each INS District. According to
      139 The ombudsman makes daily rounds in the housing units and serves as a liaison

between the inmates and facility staff to address any problems.

      140   8 C.F.R. § 287.3(c).




                                           175
federal regulations, each INS facility, including Passaic, is also required to
“promptly and prominently post” the pro bono attorney lists “in detainee
housing units and other appropriate areas.”141

        According to Warden Meyers and Deputy Warden Bendl, Passaic
employees posted laminated copies of the pro bono attorney lists in the
detainees’ dayrooms and in the law library at Passaic. However, Bendl stated
that it was not facility policy to give each detainee a copy of the pro bono list.
He also acknowledged that not all the units in which the INS detainees were
housed posted the lists.

      Four of the 13 September 11 detainees we interviewed stated they never
received a list of pro bono attorneys either from the INS or Passaic staff. Three
other detainees said they saw a posted list, two said they obtained lists from
immigration judges at their hearings, one said he had a list from another
New Jersey facility from which he was transferred, and one did not recall if he
received a list.

      Three of the 13 September 11 detainees we interviewed already had
attorneys when they arrived at Passaic, and three additional detainees
contacted their families who arranged to hire attorneys. The other seven
detainees said they depended upon the pro bono list or word of mouth from
other detainees to find legal representation.

      None of the eight legal organizations on the list of pro bono attorneys
provided to Passaic officials by the INS Newark District listed toll free numbers.

   D. Legal Rights Presentations

      We found that Passaic took steps to ensure that September 11 detainees
were aware of and able to attend legal rights presentations. In addition, we
found that the INS Newark District was generally responsive to organizations
seeking to conduct legal presentations at Passaic.

      First, according to Deputy Warden Bendl, all INS detainees who entered
Passaic after November 2001 were shown a video informing them of their rights
at the facility, including their legal rights. This video was provided by the INS
Newark District and shown after the detainees’ initial processing at the facility.

      Second, Passaic detainees were given legal rights presentations by
immigration groups. These “Know Your Rights” presentations are designed to
inform INS detainees about U.S. immigration law and INS procedures.
According to INS standards, attorneys and legal groups who wanted to conduct

      141   INS Detention Standard, “Visitation,” September 20, 2000.



                                              176
a legal presentation at Passaic were required to submit a written request and
an agenda to INS Newark District Director Quarantillo. When approved, INS
Newark District officials notified Passaic staff, who in turn contacted the
requesting organization to arrange a date and time for the presentation.
According to Newark District officials, no requests were refused.

      Bendl said legal presentations to detainees were limited generally to one
hour, but could be extended at the discretion of Passaic staff. Detainees were
required to sign up for the sessions 24 hours in advance and newly arrived
detainees were given preference. According to Bendl, the number of detainees
who could attend was limited only by the capacity of Passaic’s chapel, the room
where the presentations were held, which held approximately 200 people.
None of the 13 September 11 detainees we interviewed at Passaic complained
about a lack of legal rights presentations or said they were not permitted to
attend such presentations.

      The American Friends Services Committee conducted the first legal rights
presentation at Passaic on March 10, 2002, after submitting a request in
mid-February to the INS Newark District. Quarantillo said that beginning in
March 2002 and lasting for several months, legal rights groups made
presentations at Passaic an average of “every other week.” Between March and
May 2002, Passaic officials blocked out two hours every Tuesday for legal
rights presentations, and Bendl said between 20 and 70 detainees attended
each session.

V. ALLEGATIONS OF PHYSICAL AND VERBAL ABUSE

       Unlike at the MDC, we did not find evidence of a pattern of physical
abuse of September 11 detainees at Passaic. Eleven of the 13 detainees we
interviewed during our site visits said they were not subjected to any physical
abuse while at Passaic.142 The twelfth September 11 detainee at Passaic who
we interviewed claimed that he was physically abused by correctional officers
at Passaic. See Case Study 6 below. The thirteenth detainee we interviewed,
who transferred to Passaic from the MDC, refused to discuss the issue with us.
He told the OIG, however, that his situation at Passaic was “tolerable”
compared to his situation at the MDC.

      With regard to allegations of verbal abuse, 3 of the 13 Passaic detainees
we interviewed said that on several occasions Passaic staff verbally harassed
them with ethnic slurs.



       142These reports are significantly different than what we heard at the MDC, where 12 of
the 19 September 11 detainees we interviewed told us they were subjected to some form of
physical abuse.



                                            177
       Passaic officials told the OIG that any complaints of physical or verbal
abuse are referred to the Passaic Internal Affairs Division. The Passaic Internal
Affairs Division officer responsible for receiving such referrals said that except
for the incident described in Case Study 6, his office received no complaints
from September 11 detainees about physical or verbal abuse.

  Case Study 6:

  On May 23, 2002, we interviewed a September 11 detainee at Passaic
  who had a black eye and walked with a limp, which he said resulted from
  a series of altercations with Passaic correctional officers on the evening of
  May 19, 2002.

  According to incident reports and the Passaic SDU log, at 4:30 p.m. the
  detainee, who was supposed to receive a vegetarian meal, took a food tray
  with chicken. When a correctional officer ordered him to return it, an
  argument ensued and the officer notified the Sergeant on duty. At
  5:30 p.m., the Sergeant took the detainee to his cell and told him to
  gather his belongings because he was going to be taken down to the first
  floor to be assigned to a different housing unit for using abusive language
  toward a correctional officer.

  The Sergeant and a Lieutenant who escorted the detainee alleged that in
  a corridor on the first floor the detainee assaulted the Sergeant. By
  contrast, the detainee told us that the Sergeant initiated the hostilities by
  threatening him for talking back to the Sergeant. Officers forced the
  detainee to the floor, handcuffed his arms behind his back, and took him
  to the SDU because he continued to yell threats at them.

  At 6:40 p.m., medical staff examined the detainee who, according to the
  medical records, was lying on the floor alert, able to speak, with no
  shortness of breath. The detainee said that his chest hurt, but he
  refused any treatment or medication. Medical staff prescribed Tylenol
  and scheduled him to see the doctor in the morning. The medical
  department noted the detainee did not appear to have difficulty breathing
  because he was very loud and vocal. When the detainee returned to his
  cell, he began yelling and kicking the door.

  At about 8:15 p.m., two other officers visited the detainee’s cell to discuss
  the incident report. According to the officers, the detainee was
  belligerent, uncooperative, and verbally abusive. He took the incident
  report from the officers and refused to give it back. The detainee was
  ordered repeatedly to place his hands outside the cell to be handcuffed,
  but he refused to do so. One officer advised the detainee that if he did
  not cooperate, he would be sprayed with mace. The detainee still did not



                                       178
return the report or allow the officers to handcuff him. The officers
sprayed him with mace, entered the cell, handcuffed him, and retrieved
the incident report. The detainee was taken to the shower to rinse his
face and then to the medical department because he claimed he was
having difficulty breathing.

According to the detainee, the officers wanted him to sign a paper, but he
refused because they would not let him read it. He said the argument
escalated and several officers entered his cell to subdue him. During the
ensuing struggle, the detainee said someone pushed him to the floor;
pressed a knee against his neck, making it difficult for him to breathe;
kicked him in the side; pepper-sprayed him; and punched him in the eye.
As a result of the incident, the detainee claimed he suffered severe back
pain, a badly swollen black eye, chest pains, and injuries that prevented
him from standing, required him to use a wheelchair, and resulted in a
permanent limp.

Subsequent to the incident, the detainee’s left eye became badly swollen
and he complained of chest and back pain. By 12:41 a.m. on May 21,
2002, the detainee complained that he could not move his legs.
According to an incident report, Passaic staff placed him in a wheelchair,
took him to the Passaic medical department where he was examined, and
sent him to a local hospital emergency room for evaluation.

The hospital emergency room discharge report recorded the detainee’s
complaint that he could not move his right leg and observed that his left
eye was blackened and swollen shut. He was x-rayed, given pain
medications, and referred to an ophthalmology clinic. The doctors who
examined the detainee determined he was in good health and had no
spinal or back injuries.

According to the detainee, several days after his visit to the hospital
guards brought a dog from Passaic’s canine unit into his SDU cell when
he informed officers that he was unable to get out of bed. He alleged that
the guards told him that if he did not get out of bed by the next day, they
were going to “let the dog loose.” Passaic officers told us that it is not
unusual to make rounds with dogs, including in the SDU area, but
denied that they threatened to use the dogs on the detainee.

The OIG’s Investigations Division investigated the incident and presented
the evidence in the case to the Civil Rights Division, which declined
criminal prosecution. The OIG is currently conducting an ongoing
administrative investigation of the matter.




                                    179
      The OIG received three other complaints related to allegations of physical
or verbal abuse of September 11 detainees housed at Passaic. In one case, a
detainee alleged that unidentified officers verbally abused him when he arrived
at the facility in October 2001. He also alleged that unidentified officers
deprived him of adequate recreation, medical care, and food, and placed
handcuffs on him so tightly and for such a long time that it caused damage to
his wrist. The detainee’s medical records disclosed no report of injuries to his
wrist. The Civil Rights Division declined prosecution in June 2002, and the
OIG referred the allegations to the INS. It is unclear what further investigative
actions the INS plans to take.

      In the second case, a September 11 detainee informed the INS that while
he was held at Passaic from October 2001 to April 2002, he was not provided
adequate medical care, recreation, diet, or living conditions. He also alleged
that unidentified officers hit, verbally abused, and threatened him, although he
did not identify specific incidents. The detainee’s medical records contained no
evidence of the injuries he claimed he suffered. The INS also did not find any
records of complaints filed by the detainee while he was at Passaic. The INS
did not interview the detainee before he was removed to Morocco on July 8,
2002. However, in October 2002 the INS conducted an official review of
Passaic’s conditions of confinement to assess the detainee’s allegations that
Passaic failed to provide adequate medical care, recreation, diet, or living
conditions. The INS gave Passaic “acceptable” ratings in each of these
categories.

      Finally, a September 11 detainee alleged that when he was transferred to
Passaic in October 2001, an unidentified officer dragged him by his neck to a
room and kicked him in the ankles, feet, and groin. He also alleged he was
verbally abused by officers. The Civil Rights Division declined prosecution of
the case. The OIG referred the allegations to the INS, and the INS referred the
case to local INS management. Local INS management reviewed the detainee’s
medical records, but it appears that they did not investigate the matter further.

VI. OTHER ISSUES

   A. Medical Care

       Our review found that Passaic provided September 11 detainees with the
medical and dental screenings required by INS standards. These standards
require facilities like Passaic that house federal immigration detainees to
provide “24-hour, 7 days per week emergency medical and dental care.”
According to the Passaic Medical Director, Passaic has three shifts of medical
staff to provide round-the-clock coverage with a staff nurse conducting rounds
in each unit every eight hours. In addition, the Medical Director said the
nursing staff collects written requests for medical treatment from detainees
daily and provides treatment based on a “priority of need.” These written


                                      180
requests for treatment are similar to the “copout system” used at the MDC,
which we discuss in Chapter 7.

      According to Warden Meyers, September 11 detainees arriving at Passaic
were examined initially by a nurse practitioner and received a follow-up exam
by a doctor. Based on our interviews and a review of Passaic’s medical files, we
determined that all 66 September 11 detainees in our Passaic sample,
including the 13 detainees we interviewed, received an initial health screening
at Passaic upon their arrival and a physical examination within the 14-day
time frame prescribed by INS standards.

      Our review of requests for medical attention submitted by 12 of the 13
September 11 detainees we interviewed found that Passaic medical staff were
responsive to these written requests for treatment.143 According to Passaic
records, these 12 detainees filed 34 requests for medical treatment. We found
that 47 percent of the requests (16 of the 34) were fulfilled within 2 to 3 days
and 70 percent (24 of the 34) were fulfilled within one week.

       Two September 11 detainees we interviewed complained about untimely
medical care at Passaic. We reviewed their medical records and found that one
of the detainees had submitted two undated medical request forms and
received treatment on both occasions, but we were unable to determine the
timing of the treatment in relation to the requests. The other detainee said he
complained of a toothache and was seen by medical staff four days later. He
later complained of back pains and was seen eight days later.

   B. Hunger Strikes

      INS regulations applicable to the September 11 detainees at Passaic
recognize a hunger strike when a detainee has refused food for 72 consecutive
hours. According to Bendl, Passaic staff generate an incident report each time
an INS detainee refuses a meal. A copy of each incident report is then sent to
the Passaic medical staff and the INS Newark District. In the case of a detainee
missing one meal, the INS Newark District files the Passaic incident report in
the detainee’s detention folder.

      We obtained and reviewed incident reports on the 66 detainees in our
Passaic sample from September 20, 2001, to May 23, 2002. Of the 66
detainees in our sample, three refused to eat a meal, which warranted an
incident report. Of the three detainees who missed meals, two were in the
Special Detention Unit (SDU) at the time they declared themselves to be on a
hunger strike. However, these two detainees each missed only two consecutive
meals, and therefore their actions did not qualify as hunger strikes according

      143   Passaic could not provide the treatment record for one of the 13 detainees.



                                               181
 to INS regulations. One detainee stated he could not eat any food that
 contained milk by-products, and the second detainee said he was unjustifiably
 placed in the SDU for 30 days. According to an incident report, a third
 detainee stated that he was on a hunger strike because the INS left him at
 Passaic for eight months, during which time he should have been removed
 from the United States. He said that he was not upset with Passaic staff and
 that his dispute was with the INS. Beginning the third day of the detainee’s
 hunger strike, Passaic medical staff began monitoring his medical condition
 daily. His hunger strike lasted eight days.

    C. Recreation

       Passaic has two rooftop gyms for outdoor recreation. In addition, Passaic
 has two indoor exercise areas: a weight room and a recreation/exercise room.
 We could not determine whether September 11 detainees were afforded the
 required recreation time. The INS Detention Standard for Recreation requires
 that, weather permitting, contract facilities like Passaic shall make outdoor
 recreation available for detainees at least one hour a day, five days a week, at a
 reasonable time of day. Passaic officials we interviewed asserted that all
 detainees were scheduled for one hour of recreation daily. However, 6 of the 13
 September 11 detainees we interviewed stated that they were offered the
 opportunity to go to the outdoor gym only every few weeks. Seven of the 13
 detainees told the OIG that they were offered recreation only 3 times a week.

       From the Passaic records, we could not determine whether the
 September 11 detainees were scheduled for recreation and whether they
 actually received recreation. When asked about the claims some detainees
 made about not receiving adequate recreation time, Deputy Warden Bendl and
 two correctional officers cited the limited size of the gyms, the lack of
 correctional officers to oversee movements of detainees to and from the gyms,
 and weather as the three factors that prevented detainee access to the outdoor
 recreation facilities as often as scheduled.

VII. INS NEWARK DISTRICT MONITORING OF SEPTEMBER 11 DETAINEES

        We found that the INS Newark District did not sufficiently monitor
 September 11 detainees housed at Passaic, despite claims by INS Newark
 District management about the frequency and duration of their visits to
 Passaic.

        The INS Newark District primarily monitored September 11 detainees at
 Passaic by sending INS Detention and Removal (D&R) staff to visit the facility.
 The INS did not have formal standards dictating how often INS Newark District
 staff were required to visit September 11 detainees at Passaic, according to
 David Venturella, the Deputy Executive Associate Commissioner of the INS’s
 Office of Detention and Removal. According to the IGA between Passaic and


                                        182
the INS, Passaic agreed to allow “periodic inspections” of its facility by the INS
to ensure that a “minimally acceptable level of services” was provided to INS
detainees. According to a supervisory detention officer (SDO) at the INS
Newark District, these inspections are conducted annually by jail inspectors
from the INS Newark District Office of D&R.

       The INS Newark Assistant District Director for Detention and Deportation
told the OIG that the purposes of these visits included communicating with
detainees on their cases, hearing detainee complaints, observing jail
conditions, discussing matters of mutual interest with Passaic management,
and serving INS documents on September 11 detainees.144

      An INS Newark District SDO told the OIG that the INS Newark District’s
unofficial goal was to have an officer from its Office of D&R visit facilities with
more than 100 INS detainees, such as Passaic, every day.145 According to the
SDO, facilities with less than 100 INS detainees were supposed to be visited by
an INS Newark District D&R officer at least one to three times every other
week. The INS Newark Assistant District Director for Detention and
Deportation said that INS Newark District staff visited Passaic at least three
days per week and spent approximately six hours at the facility each visit.
According to INS Newark District officials, 11 INS removal officers – 10 of whom
were detailed from the INS New York District – conducted the site visits to
county jails in the INS Newark District, including Passaic, from October 2001
to May 2002.

        We evaluated the frequency of visits to Passaic by INS Newark District
staff from the weeks ending January 19 to March 2, 2002, a 7-week period
during which Passaic consistently housed more than 100 INS detainees.146
During this period, INS Newark District staff should have visited Passaic daily
(five days per week), according to the INS Newark District. However, we found
that INS District Newark staff visited Passaic daily in only 1 week during this
7-week period. After the INS detainee population slipped below 100 during the
week ending March 9, 2002, we found that INS Newark District staff generally
attained their goal of visiting Passaic 1 to 3 times every other week. However,
no INS Newark District staff visited Passaic from April 28 to May 12, 2002.


        144 When the INS changed the name of the Office of Detention and Deportation to the

Office of Detention and Removal, it did not change personnel titles.

       145 A review of INS data determined that Passaic housed a weekly average of more than

100 INS detainees from October 7, 2001, to March 2, 2002.

       146The length of visits by INS Newark District staff for the weeks beginning March 3,
2002, and April 14, 2002, was unclear in Passaic records and therefore was not included in
our analysis.



                                             183
         With respect to the length of their visits, our analysis determined that
  INS Newark District staff spent an average of from 0.5 to 3 hours at Passaic
  during the 7-week period described above, contrary to the INS’s claim that INS
  Newark District staff generally spent six hours at Passaic during each visit. In
  fact, we estimated that INS Newark District staff spent less than two hours per
  visit at Passaic during this 7-week period.

        In addition, we found that the INS Newark District failed to prepare
  required reports for all incidents involving September 11 detainees reported by
  Passaic staff. Under INS regulations, INS Newark District officials should have
  sent reports on more serious detainee issues – such as hunger strikes or
  assaults involving prison guards – to officials at INS Headquarters in
  Washington, D.C., but we found that this did not occur.

VIII. OIG ANALYSIS

        The Passaic County Jail housed 400 September 11 detainees from the
  date of the terrorist attacks through May 30, 2002, which represented the most
  September 11 detainees held at any single detention facility. Unlike most of
  the detainees housed at the MDC, who were considered of “high interest” to the
  Department’s PENTTBOM investigation, most of the detainees sent to Passaic
  were considered by the FBI to be “of interest,” “of undetermined interest,” or
  “no longer of interest.”

         The Passaic detainees had much different (and significantly less harsh)
  detention experiences than those at the MDC for a variety of reasons. First,
  Passaic staff – unlike staff at the MDC – had more than 15 years’ experience
  handling INS detainees, and was familiar with INS procedures related to
  immigration detainees. Second, September 11 detainees were treated similarly
  to “regular” INS detainees housed at Passaic and were not singled out for more
  restrictive detention. Unlike the September 11 detainees at the MDC, they
  were not locked down 23 hours a day, were not placed in four-man holds
  during movement, and had much more liberal phone call and visitation
  privileges. Highly restrictive confinement conditions were the exception rather
  than the rule for September 11 detainees at Passaic, in stark contrast to the
  MDC where all detainees were confined in the facility’s ADMAX SHU.

         September 11 detainees at Passaic had more independence and flexibility
  to obtain and communicate with legal counsel. Attorneys representing Passaic
  detainees did not experience the same level of difficulty experienced by
  attorneys seeking to visit their MDC detainee-clients. However, Passaic’s policy
  of permitting detainees to place only collect telephone calls initially hampered
  their ability to consult with legal counsel. To their credit, Passaic officials
  quickly realized the difficulty some September 11 detainees were experiencing
  in obtaining legal counsel and, on September 28, 2001, took steps to address



                                        184
this problem by providing detainees access to a telephone in a staff member’s
office to place legal telephone calls free of charge.

       We found that Passaic and INS Newark District officials also took steps
to educate September 11 detainees about the immigration process by
permitting various immigration groups to conduct “Know Your Rights”
presentations at the facility. In addition, Passaic officials permitted regular
visits by family members and friends of September 11 detainees, unlike at the
MDC where only visits by immediate family members were permitted.

       Our review did not find a pattern of physical and verbal abuse against
September 11 detainees held at Passaic by correctional officers. The majority
of detainees we interviewed stated they had not experienced any such abuse.
With regard to allegations of verbal abuse, 3 of the 13 September 11 detainees
we interviewed alleged that Passaic staff verbally harassed them, primarily by
using ethnic slurs. The Passaic officers we interviewed denied making such
remarks. While any such slurs are offensive and unacceptable, we found that
the level of these allegations at Passaic was markedly different from the
pervasive complaints we heard from detainees confined at the MDC.

       We also concluded that Passaic staff provided appropriate medical and
dental screenings and facilitated adequate access to medical services for the
September 11 detainees. We found that Passaic medical staff was responsive
to written requests for treatment by the detainees. The Passaic detainees were
offered recreation opportunities, although not with the frequency specified by
both INS and Passaic standards.

      Finally, we found that INS Newark District staff conducted insufficient
and irregular visits to September 11 detainees at Passaic, and the number and
lengths of these visits were significantly less than INS District management
claimed. We also found that INS Newark District staff was not receiving all
Passaic incident reports or reviewing available documentation during visits to
the facility. Consequently, we question whether the INS Newark District was
adequately monitoring the conditions of confinement experienced by
September 11 detainees at Passaic. We believe the INS Newark District should
have made more effort to monitor the September 11 detainees, especially since
the detainees were housed at a non-INS facility, which reduced the INS’s
interaction with the detainees.

      In sum, we found that the conditions of confinement for September 11
detainees at Passaic were significantly less harsh than those experienced by
detainees at the MDC.




                                      185
                                 CHAPTER NINE

                           OIG RECOMMENDATIONS

       We recognize the tremendous challenges the FBI, INS, BOP, and other
Department components faced as they responded to the September 11 attacks
and mobilized to prevent additional attacks during a chaotic period. We also
recognize the dedication exhibited by many Department employees in response
to the attacks. Without diminishing their contributions in any way, we believe
the Department can learn from the experience in the aftermath of the
September 11 attacks, and we therefore offer a series of recommendations to
address the issues we examined in our review.

I. UNIFORM ARREST AND DETAINEE CLASSIFICATION POLICIES

       The FBI New York Field Office and its Joint Terrorism Task Force
(JTTF) aggressively pursued thousands of PENTTBOM leads in the weeks
and months after the terrorist attacks. Many leads that resulted in an
alien’s arrest on immigration charges were quite general in nature, such
as a landlord reporting suspicious activity by an Arab tenant. However,
we found the FBI and INS in New York City did little to distinguish the
aliens arrested as the subjects of PENTTBOM leads or where there was
evidence of ties to terrorism from those encountered coincidentally to such
leads with no indication of any ties to terrorism.

       The FBI’s New York Field Office took an aggressive stance when it came
to deciding whether any aliens arrested on immigration charges were “of
interest” to its terrorism investigation. Witnesses both inside and outside the
FBI told us that the New York FBI interpreted and applied the term “of interest”
to the September 11 investigation quite broadly. Consequently, all aliens in
violation of their immigration status that the JTTF encountered in the course of
pursuing PENTTBOM leads – whether or not the subjects of the leads – were
arrested, classified as September 11 detainees, and subjected to the full FBI
clearance investigation, regardless of the factual circumstances of the aliens’
arrest or the absence of evidence connecting them to the September 11 attacks
or terrorism. This contrasted with procedures used elsewhere in the country,
where aliens were assessed individually before being considered “of interest” to
the terrorism investigation and therefore subject to the full FBI clearance
investigations.

       Moreover, the FBI’s initial “interest” classification had an enormous
impact on the detainees because it determined whether they would be housed
in a high-security BOP facility like the MDC or in a less restrictive setting like
Passaic. In addition, the decision to label an alien a “September 11 detainee”


                                       186
versus a “regular immigration detainee” significantly affected whether bond
would be available and the timing of the detainee’s removal or release.

 1.   We believe the Department and the FBI should develop clearer and more
      objective criteria to guide its classification decisions in future cases
      involving mass arrests of illegal aliens in connection with terrorism
      investigations. For example, the FBI could develop generic screening
      protocols (possibly in a checklist format) to help agents make more
      consistent and uniform assessments of an illegal alien’s potential
      connections to terrorism. These protocols might require some level of
      evidence linking the alien to the crime or issues in question, and might
      include an FBI database search or a search of other intelligence and law
      enforcement databases.

      In addition, the FBI should consider adopting a tiered approach to
      detainee background investigations that acknowledges the differing levels
      of inquiry that may be appropriate to clear different detainees of
      connections to terrorism. For example, a more streamlined inquiry might
      be appropriate when the FBI has no information that a detainee has ties
      to terrorism, while a more comprehensive background investigation
      would be appropriate in other cases.

 2.   The FBI should provide immigration authorities (now part of the
      Department of Homeland Security (DHS)) and the BOP with a written
      assessment of an alien’s likely association with terrorism shortly after an
      arrest (preferably within 24 hours). This, in turn, would assist the
      immigration authorities in assigning the detainee to an appropriate
      detention facility and the BOP in determining the appropriate security
      level within a particular facility. In addition, the FBI should promptly
      communicate any changes in its assessment of the detainee’s connection
      to terrorism so that the DHS and BOP can make appropriate
      adjustments to the detainee’s conditions of confinement.

 3.   The FBI did not characterize many of the September 11 detainees’
      potential connections to terrorism and consequently they were treated as
      “of undetermined interest” to the terrorism investigation. In these cases
      the INS, in an understandable abundance of caution, treated the alien as
      a September 11 detainee subject to the “hold until cleared/no bond”
      policies applicable to all September 11 detainees. This lack of a
      characterization by the FBI also resulted in prolonged confinement for
      many detainees, sometimes under extremely harsh conditions. Unless
      the FBI labels an alien “of interest” to its terrorism investigation within a
      limited period of time, we believe the alien should be treated as a
      “regular” immigration detainee and processed according to routine
      procedures. In any case, the DHS should establish a consistent



                                       187
       mechanism to notify the FBI of its plans to release or deport such a
       detainee.

II. INTER-AGENCY COOPERATION ON DETAINEE ISSUES

       The INS relied on the FBI to provide evidence about the detainees that it
 could use in bond and removal proceedings. When this information was not
 forthcoming in a timely manner, the INS had to request multiple continuances
 in bond hearings and other immigration proceedings in an effort to maintain
 the detainees in custody. In many of these cases, the INS’s arguments against
 granting bond to the Immigration Court were based on little more than the fact
 the detainees were arrested in connection with PENTTBOM leads.

  4.   Unless the federal immigration authorities, now part of the DHS, work
       closely with the Department and the FBI to develop a more effective
       process for sharing information and concerns, the problems inherent in
       having aliens detained under the authority of one agency while relying on
       an investigation conducted by another agency can result in delays,
       continuing conflicts, and concerns about accountability. At a minimum,
       we recommend that immigration officials in the DHS enter into an
       Memorandum of Understanding (MOU) with the Department and the FBI
       to formalize policies, responsibilities, and procedures for managing a
       national emergency that involves alien detainees. An MOU should
       specify a clear chain of command for any inter-agency working group.
       Further, the MOU should specify information sharing and reporting
       requirements for all members of such an inter-agency working group.

III. FBI CLEARANCE PROCESS

       While we appreciate the enormous demands placed on the FBI in the
 aftermath of the terrorist attacks, we found the FBI did not adequately staff or
 assign sufficient priority to its process for clearing September 11 detainees of a
 connection to terrorism. Agents responsible for clearance investigations often
 were assigned to other duties, which substantially delayed the completion of
 detainee clearance investigations. Even after the clearance decisions were
 centralized at FBI Headquarters, FBI officials failed to provide sufficient
 resources to complete the detainee clearance process in a timely manner. The
 FBI took, on average, 80 days to clear a September 11 detainee.

  5.   We believe it critical for the FBI to devote sufficient resources in its field
       offices and at Headquarters to conduct timely clearance investigations on
       immigration detainees, especially if the Department institutes a “hold
       until cleared” policy. The FBI should assign sufficient resources to
       conduct the clearance investigations in a reasonably expeditious manner,
       sufficient resources to provide timely information to other agencies (in
       this case, additional FBI agents to support the SIOC Working Group),


                                        188
      and sufficient resources to review in a timely manner the results of
      inquiries of other agencies (in this case, completed CIA checks). In
      addition, FBI Headquarters officials who coordinated the detainee
      clearance process and FBI field office supervisors whose agents were
      conducting the investigations should impose deadlines on agents to
      complete background investigations or, in the alternative, reassign the
      cases to other agents.

 6.   We understand the resource constraints confronting the Department in
      the days and weeks immediately following the September 11 attacks. We
      also recognize that decisions needed to be made quickly and often
      without time to consider all the ramifications of these actions. However,
      within a few weeks of the terrorist attacks it became apparent to many
      Department officials that some of the early policies developed to support
      the PENTTBOM investigation were causing problems and should be
      revisited. Examples of areas of concern included the FBI’s criteria for
      expressing interest in a detainee and the “hold until cleared” policy. We
      believe the Department should have, at some point earlier in the
      PENTTBOM investigation, taken a closer look at the policies it adopted
      and critically examined the ramifications of those policies in order to
      make appropriate adjustments. We recommend that the Department
      develop a process that forces it to reassess early decisions made during a
      crisis situation and consider any improvements to those policies.

IV. NOTICES TO APPEAR

       Under federal regulation, the INS was required to decide whether to file
immigration charges against an alien within 48 hours of his arrest. However,
the regulation contained no requirement with respect to when the INS must
notify the alien or Immigration Court about the charges. No statute or
regulation explicitly stated when the INS was required to serve the Notice to
Appear (NTA) on the alien or the Immigration Court. We found the INS did not
consistently serve September 11 detainees with NTAs within its stated goal of
72 hours after arrest. Part of the delay can be traced to the INS’s practice in
the first several months after the terrorist attacks to having all NTAs reviewed
for legal sufficiency at INS Headquarters. Another factor was the
miscommunication that resulted when detainees arrested in New York City
were transferred to the INS Newark District without having been served NTAs.
INS Newark District officials assumed the detainees had been served in
New York, while INS New York District officials incorrectly assumed that INS
Headquarters had forwarded the NTAs to the INS Newark District for service.
These delays affected the detainees’ ability to obtain legal counsel and
postponed the detainees’ opportunity to seek a bond re-determination hearing.

 7.   We recommend that the immigration authorities in the DHS issue
      instructions that clarify, for future events requiring centralized approvals


                                       189
      at a Headquarters’ level, which District or office is responsible for serving
      NTAs on transferred detainees: either the District in which the detainee
      was arrested or the District where the detainee is transferred.

 8.   We recommend that the DHS document when the charging
      determination is made, in order to determine compliance with the
      “48-hour rule.” We also recommend that the DHS convert the 72-hour
      NTA service objective to a formal requirement. Further, we recommend
      that the DHS specify the “extraordinary circumstances” and the
      “reasonable period of time” when circumstances prevent the charging
      determination within 48 hours. We also recommend that the DHS
      provide, on a case-by-case basis, written justification for imposing the
      “extraordinary circumstances” exception and place a copy of this
      justification in the detainee’s A-File.

V. RAISING ISSUES OF CONCERN TO SENIOR DEPARTMENT OFFICIALS

       Department officials established the “hold until cleared” policy believing
that the FBI’s clearance process for September 11 detainees would take just a
few days. However, in many cases the clearance process stretched on for
months and created dilemmas for INS attorneys who handled bond and
removal proceedings. The slow pace of the FBI’s background investigations,
coupled with the lack of individualized evidence connecting specific detainees
to terrorism, left INS attorneys with little evidence to argue for continued
confinement of the detainees.

      The evidence indicated that attorneys in the INS’s Office of General
Counsel made efforts to raise with some Department officials the issue of
whether the INS could refuse to accept bond set by an Immigration Judge
when the Government failed to appeal or block a detainee’s departure from the
country when he had received a final removal order. Yet, when these efforts
were unsuccessful, INS officials did not raise the issue at higher levels in the
Department or submit their legal concerns in writing until months later.

 9.   We recommend that Offices of General Counsel throughout the
      Department establish formal processes for identifying legal issues of
      concern – like the perceived conflict between the Department’s “hold
      until cleared” policy and immigration laws and regulations – and formally
      raise significant concerns, in writing, to agency senior management and
      eventually Department senior management for resolution. Such
      processes will be even more important now that immigration
      responsibilities have transferred from the Department to the DHS.




                                       190
VI. BOP HOUSING OF DETAINEES

         At least 84 September 11 detainees arrested on immigration charges in
 connection with the September 11 investigation were confined at the MDC.
 The BOP housed these detainees in its ADMAX SHU under extremely restrictive
 conditions. While the BOP played no role in deciding which detainees were “of
 interest” or “of high interest” to the FBI, once detainees were transferred to one
 of its facilities the BOP assumed responsibility for the detainees’ conditions of
 confinement.

         The BOP combined a series of existing policies and procedures that
 applied to inmates in other contexts to create highly restrictive conditions of
 confinement for September 11 detainees held at the MDC and other BOP
 facilities. For example, the BOP initially designated September 11 detainees as
 witness security (WITSEC) inmates, a categorization that restricted public
 knowledge of and access to the detainees. This designation frustrated efforts
 by detainees’ attorneys, family members, consular officials, and even law
 enforcement officers to determine the detainees’ location, given how tightly
 information about WITSEC inmates is held. In addition, the BOP’s initial
 communications blackout and its policy of permitting detainees one legal call
 per week (coupled with arbitrary policies on whether reaching an answering
 machine counted as the legal call), severely limited the detainees’ ability to
 contact and consult with legal counsel.

  10. We recommend that the BOP establish a unique Special Management
      Category other than WITSEC for aliens arrested on immigration charges
      who are suspected of having ties to terrorism. Such a classification
      should identify procedures that permit detainees’ reasonable access to
      telephones more in keeping with the detainees’ status as immigration
      detainees who may not have retained legal representation by the time
      they are confined rather than as pre-trial inmates who most likely have
      counsel. In addition, BOP officials should train their staff on any new
      Special Management Category to avoid repeating situations such as
      when MDC staff mistakenly informed people inquiring about a specific
      September 11 detainee that the detainee was not held at the facility.

 11.   Given the highly restrictive conditions under which the MDC housed
       September 11 detainees, and the slow pace of the FBI’s clearance
       process, we believe the BOP should consider requiring written
       assessments from immigration authorities and the FBI prior to placing
       aliens arrested solely on immigration charges into highly restrictive
       conditions, such as disciplinary segregation in its ADMAX SHU. Absent
       such a particularized assessment from the FBI and immigration
       authorities, the BOP should consider applying its traditional inmate
       classification procedures to determine the level of secure confinement
       required by each detainee.


                                        191
12.   We found delays of days and sometimes weeks between when the FBI
      notified the BOP that a September 11 detainee had been cleared of ties to
      terrorism and when the BOP notified the MDC that the detainee could be
      transferred from its ADMAX SHU to the facility’s general population,
      where conditions were decidedly less severe. We recommend that BOP
      Headquarters develop procedures to improve the timeliness by which it
      informs local BOP facilities when the detention conditions of immigration
      detainees can be normalized.

13.   We found evidence indicating a pattern of physical and verbal abuse by
      some MDC corrections staff against some September 11 detainees. While
      the OIG is continuing its administrative investigation into these matters,
      we believe MDC and BOP management should take aggressive and
      proactive steps to educate its staff on proper methods of handling
      detainees (and inmates) confined in highly restrictive conditions of
      confinement, such as the ADMAX SHU. The BOP must be vigilant to
      ensure that individuals in its custody are not subjected to harassment or
      more force than necessary to accomplish appropriate correctional
      objectives.

14.   BOP and MDC officials anticipated that some September 11 detainees
      might allege they were subject to abuse during their confinement.
      Consequently, they took steps to help prevent or refute such allegations
      by installing cameras in each ADMAX SHU cell and requiring staff to
      videotape all detainees’ movements outside their cells. Unfortunately,
      the MDC destroyed the tapes after 30 days. We recommend that the
      BOP issue new procedures requiring that videotapes of detainees with
      alleged ties to terrorism housed in ADMAX SHU units be retained for at
      least 60 days.

15.   We recommend that the BOP ensure that all immigration detainees
      housed in a BOP facility receive full and timely written notice of the
      facility’s policies, including procedures for filing complaints. We found
      that the MDC failed to consistently provide September 11 detainees with
      details about its Administrative Remedy Program, the formal process for
      filing complaints of abuse.

16.   Some MDC correctional staff asked detainees “are you okay” as a way to
      inquire whether they wanted their once-a-week legal telephone call.
      Detainees told the OIG that they misunderstood this question and,
      consequently, unknowingly waived their opportunity to place a legal call.
      We recommend that the BOP develop a national policy requiring
      detainees housed in SHUs to affirm their request for or refusal of a legal
      telephone call, and that such affirmance or refusal be recorded in the
      facility’s Legal Call Log.


                                      192
 17.   We recommend that the MDC examine its ADMAX SHU policies and
       practices in light of the September 11 detainees’ experiences to ensure
       their appropriateness and necessity. For example, we found that while
       the MDC offered September 11 detainees exercise time in the facility’s
       open-air recreation cell, they failed to provide suitable clothing during
       the winter months that would enable the detainees to take advantage of
       this opportunity. In addition, we found that the MDC kept both lights on
       in the detainees’ cells 24 hours a day for several months after they had
       the ability to turn off at least one of the cell lights.

VII. OVERSIGHT OF DETAINEES HOUSED IN CONTRACT FACILITIES

 18.   INS Newark District staff conducted insufficient and irregular visits to
       September 11 detainees held at Passaic. We also found that Passaic
       officials did not always inform Newark staff when detainees were placed
       in the SDU and that Newark officials did not always maintain required
       records for SDU detainees. Consequently, Newark staff was unable to
       consistently monitor detainee housing conditions, health issues, or
       resolve complaints. We recommend that the DHS amend its detention
       standards to mandate that District Detention and Removal personnel
       visit immigration detainees at contract facilities like Passaic frequently,
       with special emphasis on those detainees placed in SDUs, in order to
       monitor matters such as housing conditions, health concerns, and
       complaints of abuse. District visits should include an interview of and a
       review of the records for detainees housed in SDUs. We further
       recommend that the DHS issue procedures to mandate that contract
       detention facilities transmit documentation to the appropriate DHS field
       office that describes the reasons why immigration detainees have been
       sent to SDUs.

 19.   We recommend that DHS field offices conduct weekly visits with
       detainees arrested in connection with a national emergency like the
       September 11 attacks to ensure that they are housed according to FBI
       threat assessments and BOP classifications (or other appropriate facility
       classification systems). In addition, the DHS should ensure that the
       detainees have adequate access to counsel, legal telephone calls, and
       visitation privileges consistent with their classification.

VIII. OTHER ISSUES

 20.   How long the INS legally could hold September 11 detainees after they
       have received final orders of removal or voluntary departure orders in
       order to conduct FBI clearance checks was the subject of differing
       opinions within the INS and the Department. A February 2003 opinion
       by the Department’s Office of Legal Counsel concluded, however, that the


                                       193
      INS could hold a detainee beyond the normal removal time for this
      purpose. That issue is also a subject in an ongoing lawsuit.

      Regardless of the outcome of the court case, we concluded that the
      Department failed to turn its attention in a timely manner to the
      question of its authority to detain such individuals. Where policies are
      implemented that could result in the prolonged confinement of illegal
      aliens, we recommend that the Department carefully examine, at an early
      stage, the limits on its legal authority to detain these individuals.

21.   The INS failed to consistently conduct Post-Order Custody Reviews of
      September 11 detainees held more than 90 days after receiving final
      orders of removal. These custody reviews are required by immigration
      regulations to assess if detainees’ continued detention is warranted. We
      understand that under Department policy in effect at the time, the INS
      was not permitted to remove September 11 detainees until it received FBI
      clearances. We believe the INS nevertheless should have conducted the
      custody reviews, both because they are required by regulation and
      because such reviews may have alerted Department officials even more
      directly that a number of aliens were being held beyond the 90-day
      removal period. We recommend that the DHS ensure that its field offices
      consistently conduct Post-Order Custody Reviews for all detainees who
      remain in its custody after the 90-day removal period.




                                     194
                                 CHAPTER TEN

                                 CONCLUSIONS

      In the aftermath of the September 11 terrorist attacks, the
Department of Justice used the federal immigration laws to detain aliens
who were suspected of having ties to the attacks or terrorism in general.
More than 750 aliens who had violated immigration laws were arrested
and detained in connection with the FBI’s investigation into the attacks,
called PENTTBOM. Our review examined the treatment of these
detainees, including their processing, bond decisions, the timing of their
removal or release, their access to counsel, and their conditions of
confinement. To examine these issues, we focused on the detainees held
at the BOP’s Metropolitan Detention Center in Brooklyn, New York, and
at the Passaic County Jail in Paterson, New Jersey, because the majority
of September 11 detainees were held in these two facilities, and because
many complaints arose regarding their treatment.

      In conducting our review, we were mindful of the circumstances
confronting the Department and the country as a result of the
September 11 attacks, including the massive disruptions they caused.
The Department was faced with monumental challenges, and
Department employees worked tirelessly and with enormous dedication
over an extended period to meet these challenges.

      It is also important to note that nearly all of the 762 aliens we
examined violated immigration laws, either by overstaying their visas, by
entering the country illegally, or some other immigration violation. In
other times, many of these aliens might not have been arrested or
detained for these violations. However, the September 11 attacks
changed the way the Department, particularly the FBI and the INS,
responded when encountering aliens who were in violation of their
immigration status. It was beyond the scope of this review to examine
the specific law enforcement decisions regarding who to arrest or detain.
Rather, we focused primarily on the treatment of the aliens who were
detained.

       While recognizing the difficult circumstances confronting the
Department in responding to the terrorist attacks, we found significant
problems in the way the September 11 detainees were treated. The INS
did not serve notices of the immigration charges on these detainees
within the specified timeframes. This delay affected the detainees in
several ways, from their ability to understand why they were being held,
to their ability to obtain legal counsel, to their ability to request a bond
hearing.


                                    195
      In addition, the Department instituted a policy that these detainees
would be held until cleared by the FBI. Although not communicated in
writing, this “hold until cleared” policy was clearly understood and
applied throughout the Department. The policy was based on the belief –
which turned out to be erroneous – that the FBI’s clearance process
would proceed quickly. Instead of taking a few days as anticipated, the
clearance process took an average of 80 days, primarily because it was
understaffed and not given sufficient priority by the FBI.

        We also found that the FBI and the INS in New York City made
little attempt to distinguish between aliens who were subjects of the
PENTTBOM investigation and those encountered coincidentally to a
PENTTBOM lead. Even in the chaotic aftermath of the September 11
attacks, we believe the FBI should have taken more care to distinguish
between aliens who it actually suspected of having a connection to
terrorism from those aliens who, while possibly guilty of violating federal
immigration law, had no connection to terrorism but simply were
encountered in connection with a PENTTBOM lead. Alternatively, by
early November 2001, when it became clear that the FBI could not
complete its clearance investigations in a matter of days or even weeks,
the Department should have reviewed those cases and kept on the list of
September 11 detainees only those for whom it had some basis to
suspect a connection to terrorism.

       The FBI’s initial classification decisions and the untimely clearance
process had enormous ramifications for the September 11 detainees.
The Department instituted a “no bond” policy for all September 11
detainees. The evidence indicates that the INS raised concerns about
this blanket “no bond” approach, particularly when it became clear that
the FBI’s clearance process was slow and the INS had little information
in many individual cases on which to base its continued opposition to
bond. The INS also raised concerns about the legality of holding aliens to
conduct clearance investigations after they had received final orders of
removal or voluntary departure orders. We found that the Department
did not address these legal issues in a timely way.

       The FBI’s classification of the detainees and the slow clearance
process also had important ramifications on their conditions of
confinement. Many aliens characterized by the FBI as “of high interest”
to the September 11 investigation were detained at the MDC under
highly restrictive conditions. While the FBI’s classification decisions
needed to be made quickly and were based on less than complete
information, we believe the FBI should have exercised more care in the
process, since it resulted in the MDC detainees being kept in the highest
security conditions for a lengthy period. At the least, the FBI should


                                    196
have conducted more timely clearance checks, given the conditions
under which the MDC detainees were held.

      Our review also raised various concerns about the treatment of
these detainees at the MDC. For example, we found that MDC staff
frequently – and mistakenly – told people who inquired about a specific
September 11 detainee that the detainee was not held at the facility
when, in fact, the opposite was true. In addition, the MDC’s restrictive
and inconsistent policies on telephone access for detainees prevented
them from obtaining legal counsel in a timely manner.

       With regard to allegations of abuse, the evidence indicates a
pattern of physical and verbal abuse by some correctional officers at the
MDC against some September 11 detainees, particularly during the first
months after the attacks. Although most correctional officers denied any
such physical or verbal abuse, our interviews and investigation of
specific complaints developed evidence that abuse had occurred.

       We also concluded that, particularly at the MDC, certain
conditions of confinement were unduly harsh, such as illuminating the
detainees’ cells for 24 hours a day. Further, we found that MDC staff
failed to inform MDC detainees in a timely manner about the process for
filing complaints about their treatment.

      The September 11 detainees held at Passaic had much different,
and significantly less harsh, experiences than the MDC detainees. The
Passaic detainees were housed in the facility’s general population and
treated like other INS detainees held at the facility. Although we received
some allegations of physical and verbal abuse, we did not find evidence
of a pattern of abuse at Passaic as we did at the MDC. However, we
found that the INS did not conduct sufficient and regular visits to
Passaic to ensure the conditions of confinement were appropriate.

       In sum, while the chaotic situation and the uncertainties
surrounding the detainees’ connections to terrorism explain some of
these problems, they do not explain them all. We believe the Department
should carefully consider and address the issues described in this report,
and we therefore offered a series of recommendations regarding the
systemic problems we identified in our review. They include
recommendations to ensure a timely clearance process; timely service of
immigration charges; careful consideration of where to house detainees
with possible connections to terrorism, and under what kind of
restrictions; better training of staff on the treatment of these detainees;
and better oversight of the conditions of confinement. We believe these
recommendations, if fully implemented, will help improve the



                                   197
APPENDIX   A
            GLOSSARY   OF NAMES        IN THE REPORT

Ashcroft, John            Attorney General of the United States

Ayers, David              Chief of Staff to the Attorney General

Becraft, Michael          Acting Deputy Commissioner, Immigration
                          and Naturalization Service

Bend!, Brian              Deputy Warden, Passaic County Jail

Cadman, Daniel            Director, National Security Unit, Field
                          Operations Division (INS)

Carpenter, Dea            Deputy General Counsel (INS)

Caruso, Tim               Deputy Executive Assistant Director (FBI)


Cerda, Victor             Chief of Staff to the Commissioner (INS)

Chertoff, Michael         Assistant Attorney General, Criminal
                          Division (Department of Justice)

Cooksey, Michael          Assistant Director for Correctional Programs
                          (BOP)
Cooper, Owen ("Bo")       General Counsel        (INS)

Elwood, Kenneth           District   Director,   Philadelphia   District   (INS)

Fisher, Alice             Deputy Assistant Attorney General, Criminal
                          Division (Department of Justice)

Hussey, Thomas            Director, Office of Immigration Litigation,
                          Civil Division (Department of Justice)

Israelite, David           Deputy Chief of Staff to the Attorney General

Kelley, David              Deputy United States Attorney, Southern
                           District of New York (Department of Justice)

Kerr, Raymond              Supervisory Special Agent in Charge, I-44A
                           Squad, New York Field Office (FBI)



                                                                                   1
Kinnally, Tom            Chief, National Domestic Preparedness
                         Office (FBI)

Laufman, David           Chief of Staff to the Deputy Attorney General

Levey, Stuart            Associate Deputy Attorney General

Levin, Dan               Counselor to the Attorney Genera)

Maxwell, Kenneth         Assistant Special Agent in Charge, New York
                         Field Office (FBI)

Meyers, Charles          Warden, Passaic County Jail

Maleria, Dan             Assistant District Director for Investigations,
                         INS New York District

Mueller, Robert          Director, Federal Bureau of Investigation

Parkinson, Larry         General Counsel        (FBI)

Pearson, Michael         Executive Associate       Commissioner    for Field
                         Operations (INS)

Perkins, Kevin           Section Chief, Inspection Division (FBI)

Pickard, Thomas          Deputy Director, Federal Bureau of
                         Investigation

Quarantillo,    Andrea   District   Director,   Newark District   (INS)

Rardin, David            Former Director, Northeast Region (BOP)

Ray, Mickey              Director, Northeast Region (BOP)

Rolince, Michael         Chief, International Terrorism Operations
                         Section, Counterterrorism Division (FBI)

Rozos, Michael           Chief, Long Term Review Branch (INS)

Thompson, Larry          Deputy Attorney General

Vanyur, John             Senior Deputy Assistant Director,
                         Correctional Programs Division (BOP)




                                                                               2
Venturella, David                   Deputy Executive Associate Commissioner,
                                    Office of Detention and Removal (INS)

Watson, Dale                        Assistant Director,   Counterterrorism
                                    Division (FBI)

Wray, Chris                         Principal Associate Deputy Attorney General

Zenk, Michael                       Warden, Metropolitan Detention Center
                                    (BOP)

Ziglar, James                       Commissioner, Immigration and
                                    Naturalization Service


Note: Individuals mentioned by name in the report are, for the most part,
identified using the titles they held at the time of the event or action under
examination.




                                                                                  3
                   GLOSSARY    OF TERMS

ADMAXSHU                 Administrative     Maximum Special Housing
                         Unit (BOP)

A-File                   Alien File -maintained by the INS; contains
                         an alien's immigration history.

BIA                      Board of Immigration Appeals, Department
                         of Justice

BOP                      Federal Bureau of Prisons

BOP Region               The BOP divides the United States into six
                         regions; each region is responsible for BOP
                         facilities located within its jurisdiction.

CIA                      Central Intelligence Agency

CRU                      Custody   Review Unit (INS)

Department               U .8. Department     of Justice

DHS                      Department of Homeland Security

D&R                      Office of Detention and Removal -the INS
                         division responsible for detaining aliens
                         pending their removal from the United
                         States for violating immigration laws.

EC                       Electronic communication     refers to a
                         messaging system used by the FBI to
                         electronically communicate     between FBI
                         offices or within an FBI office.

EOIR                     Executive Office of Immigration   Review
                         (Department of Justice)

FBI                      Federal Bureau of Investigation

FBI Field Office         The FBI operates 56 Field Offices located in
                         cities throughou~    United States.




                                                                        1
                            ---
Habeas   corpus    Latin term literally translated as "that you
                   may have the body," refers to a legal
                   pleading in which a federal court is
                   requested to order a government official to
                   undertake a particular action.

I-44A Squad        Unit created by the FBI's New York Field
                   Office to follow up on PENTTBOM leads.
                   This squad also had responsibility for
                   clearing detainees arrested in connection
                   with the PENTTBOM investigation in the
                   New York City area.

IGA                Intergovernmental Service Agreement; in
                   this review, relates to a contracts between
                   government agencies to provide services.

INA                Immigration and Nationality Act -created by
                   Pub. L. No. 82-414 (1952) and as amended
                   by Pub. L. No. 107-296 (2002).

INS                Immigration and Naturalization Service (as
                   of March 1,2003, part of the Department of
                   Homeland Security)

INS Custody List   The list maintained by the INS containing
                   names of September 11 detainees.

INS District       The INS operated 33 Districts located in
                   cities throughout the United States; each
                   District was responsible for administering
                   immigration programs within its jurisdiction.

INS Form G-28      Notice of Entry of Appearance as Attorney or
                   Representative -filed with the INS by the
                   attorney of record representing a detainee.

INS Form 1-213     Record of Deportable/Inadmissible    Alien-
                   the INS arrest report.

INS Form 1-286     Notice of Custody Determination -form used
                   by an INS detainee to request a bond
                   re-determination hearing.




                                                                   2
INS Form 1-862                  Notice to Deportable Alien -also known as
                                the Notice to Appear or NTA (the "charging
                                document" in an immigration    case).

INS Region                      The INS field structure included three
                                regions -Eastern, Central, and Western-
                                that reported to INS Headquarters and were
                                responsible for administering immigration
                                programs within their jurisdictions.

ITOS                            International   Terrorism Operations     Section,
                                Counter-terrorism      Division (FBI)

JTTF                            Joint Terrorism Task Force -multi-agency
                                terrorism task force led by the FBI.

Management Interest Group 155   Second designation applied to September 11
                                detainees held at MDC (first designation was
                                "Witness Security" inmates or WITSEC).

MCC                             Metropolitan Correctional Center in
                                Manhattan, New York (BOP)

MDC                             Metropolitan Detention Center in Brooklyn,
                                New York (BOP)

NSLD                            National Security Law Division, Office of the
                                General Counsel (INS)

NSLU                            National Security Law Unit, OGC (FBI)

NSU                             National Security Unit, Field Operations
                                Division (INS)

NTA                             Notice to Appear -INS Form 1-862, Notice to
                                Deportable Alien (the "charging document"
                                in an immigration case).

OGC                             Office of General Counsel

GIG                             Office of the Inspector General (Department
                                of Justice)

OIL                             Office of Immigration    Litigation, Civil
                                Di~on     (Departme-!:!! of Justice) ~



                                                                                    3
OLC                   Office of Legal Counsel (Department of
                      Justice)

Passaic County Jail   Referred to as "Passaic" in the report, the jail
                      is located in Paterson, New Jersey.

PENTrBOM              Name given to the FBI's investigation of the
                      September 11, 2001, Pentagon/Twin Towers
                      Bombings.

POCR                  Post Order Custody Review -the INS review
                      required after a detainee has remained in
                      INS custody for 90 days after issuance of a
                      final order of removal by an Immigration
                      Judge. The purpose of the review is to
                      determine whether the detainee's continued
                      detention is warranted.

Pro Bono List         A list of attorneys willing to represent
                      immigration clients without compensation.
                      The INS is required to provide this list to
                      detainees.

SENTRY                Database used by the BOP to monitor the
                      move men t and management of all BO P
                      inmates.

SDO                   Supervisory Detention Officer (INS)

SDU                   Special Detention Unit (Passaic)

SHU                   Special Housing   Unit (MDC)

SIOC                  Strategic Information and Operations Center
                      at FBI Headquarters in Washington, D.C.

SIOC Working Group    Group established to coordinate efforts
                      among the various Department components
                      that had an investigative interest in or
                      responsibility for the September 11
                      detainees. This group became known as the
                      "SIOC Working Group" because its initial
                      meetings took place in the FBI's SIOC.
                      Members of the group included
                      representatives f~     the FBI, INS, t~


                                                                         4
                   Department's Office of Immigration
                   Litigation, the Terrorism and Violent Crime
                   Section of the Department's Criminal
                   Division, and the Office of the Deputy
                   Attorney General.

SPC                Service Processing Center -facility where the
                   INS processes and detains illegal aliens who
                   are awaiting disposition of their immigration
                   cases or awaiting removal from the country.

Special SIS Case   Third designation used by the BOP for
                   September 11 detainees. The MDC's Special
                   Investigative Staff (SIS) supervised
                   information and visitation policies
                   concerning September 11 detainees.

SSA                Supervisory   Special Agent (INS, FBI)

TVCS               Terrorism and Violent Crime Section,
                   Criminal Division (Department of Justice)

USA PATRIOT Act    The Uniting and Strengthening America by
                   Providing Appropriate Tools Required to
                   In tercept and Obstruct Terrorism Act
                   (Pub. L. No. 107-56 (2001).

USMS               United States Marshals Service

WITSEC             "Witness Security" inmate -WITSEC was the
                   first designation applied by the BOP to the
                   September 11 detainees.




                                                                   5
                        ~N
                        cc
                        cia
                        MC
                        ~-
                        ;:;0
                        I/)      0
                        I/)     I/)
                        '-
                         CI
                        0)1-
                                 tU
                         Cu.
                        8~
                        >.0
                        .c-a
                        -a
                         CI '-CI
                         > CI
                         0:2
                         '- I/)
                         Coc
                         Coo
                         tU (J
                         C       CI
                        .2 .c
                        --a
                         tU-
                        .~ ~
                         c 0
                         tU~
                        0)1/)
                        5~
                         CI     tU
                         '-~
                        -(J
                        aJ I/)
                        u. .-
                        -~
                        tU-
                         C      CI
                        :§I,E
                         '- CI
                        a '-CI
                               :5
                               N
                                 Q)
                                I/)
                                tU
              ~z
              '-0               ~
                               D-
              "'-"'z
              ~'<~o           .:
              ~~s:~             -a
              ~offi2:           Q)
              "'-
              ~u."'C
              -z               ~
              u                 .e
                               .c
                                 ~
                                I/)
                                 Q)
                               .c
                                P-
                                I/)
                                 Q)
                                 0)
                                 C
..-
                                tU
                                ~
                                (J
                                I/)
.                               tiQ)
.
.
.
                                I;
                                '-CI
.
.
.
                                ~
                                ~
                                ti
.                               2
.                              ~
.                               iU
.                                c
.
.                               .2
                               -;N
                                .2
                                 tU
                                '-0
                                0)
                                I/)
                               :s
                                 Q)
                                 >
                                 CI
                                ~0
      a:",                      z
      ~z
      00
      w-
      ~!<
      ...",
      c~
      z'"
      <w
      "'z
      ...>
      ;;;~
      ~z
      w-
      >~
      -a:
      50
      oa:
      ~o
      WIL
    ~
    u
    ~
    ~
    00
    z
    0
    ~
    ~
    ~
    ~                 -
                      !:j~
                      ~~
    ~                 ooU
    ~
    z
    ~
    -<
    z
    0
    ~
    ~
    ~
    ~
    ~
    ~
                             ~
                             u
                             '1!J
         -{Ii   ~-
                ~~
                u'"
                go
                Zz
                             ~
                             '"
                "'0          s
                ~
~
U.S. Department
             of Justice
Immigration and Nanmtlillltion Savice                                                                                            Notice to
 in removal proceedingsunder section240 of the Immigration and Nationality Act:
                                                                                                                  File No:

 In the Matter of:
                                                                                                                         currently residing at:
 Respondent:

                .(Number.                      street, city. state and ZIP code)                                             (Area code and phone number)

 0        1. You are an arriving alien.
 0        2. You are an "lien present in the United States who has not beenadmitted nr paroled.
 0        3. You have beenadmitted to the United States. but are deportable fnr the re"sons st"ted below.

 The Servicealleges that you:




  On the basis of the foregoing, It is charged that you are subject to removal from the United States pursuant to the following provision(s) of
  law:




 0        This notice is being issuedafter an asylum officer has found that the respondent hasdemonstrated a credible fear of persecution or torture

     Section 23S(b}(1)order was vacated pursuant to:            0    8 CFR 208.30(1)(2)          0     8 CFR 23S.3(b)(S)(iv}
     YOU ARE ORDERED to appear before an immigration judge of thl'linited                         States Department of Justice at:


                                           (Complete Address of Immigration Court, including Room Number, if any)--

     on                          at                       to showwhY vou should not be removed from the United Statesbased on
                                                                (Date)                       ~ r,me)

     the charge(s)set forth above.


                                                             (Signature and Tltl. of 1';5UioltOm~.r)

     Date:
                                                                          (City and State)




                                                           Seereversefor important information
                                                                                                                                         Form 1-862 (Rey ;1.22/9'/)101
                                                                 Notice to Respondent
Warning: Any statement you make may be used againstyou in removal proceedings.
Alien Registration: This copy of the Notice to Appear served upon yml i~ ,'vidence of your alien registration while you are under
removal proceedings. You are required to carry it with you at all time~.

Representation: If you so choose,you may be representedin this proceeding.at no expenseto the Government,by an attorneyor
other individual authorizedand qualified to representpersonsbeforethe ExecutiveOffice for Immigration Review, pursuantto 8 CFR
3.16. Unlessyou so request,no hearing will be scheduledearlierthan len days trom the dateof this notice, to allow you sufficient
time to securecounsel. A list of qualified attorney~and organizations\\ hi' mavhe availableto representyou at no cost will provided
with this Notice.

Conduct of the bearing: At the time of your hearing, you should bring with you any affidavits or other documents which you desire
to have considered in connection with your case. If any document is in a foreign language, you must bring the original and a certified
English translation of the document. If you wish to have the testimony, ,rallY \\'itnesses considered, you should arrange to have such
witnesses present at the hearing.

At your hearing you will be given the opportunity to admit or deny any or all of the allegationsin the Notice to Appear and that you
areinadmissibleor deportableon the chargescontainedin the Notice to Appear You will have an opportunity to presentevidenceon
your own behalf,to examine any evidencepresentedby the Government.In objecl, on properlegal grounds,to the receipt of evidence
and to crossexamine anywitnessespresentedby the Government. AI the ,,'nclu~jon of your hearing,you have a right to appealan
adversedecisionby the immigrationjudge.
 You will be advised by the immigration judge before whom you appear of .my relief from removal for which you may appear eligible
including the privilege of departing voluntarily. You will be given a rea~"nablt. opportunity to make any such application to the
 immigration judge.

Failure to appear: You are required 10provide the INS, in writing, with your full mailing addressand telephonenumber. You.must
notify the Immigration Court immediatelyby using Form EOIR-33wheneveryou changeyour addressor telephonenumberdunng
the courseof this proceeding. You will be provided with a copy of this tom!. Noticesof hearing will bemailed to thiSa~dress. If
you do not submit Form EOIR-33 and do not otherwise provide an address at which you may be reached during proceedings, then the
Government shall not be required to provide you with written notice of your hearing. If you fail to attend the hearing at the time and
place designated on this notice, or any date and time later directed by the Immigration Court, a removal order may be made by the
immigration judge in your absence, and you may be arrested and detained hy the INS.

                                                           Requestfor PromptHearing
To expedite a detennination in my case. r request an immediate hearing I '..al\ e my right to have a la-day period prior to appearing
before an immigration judge.


                                                                                                     (Signature of Respondent)
Before:
                                                                                       Date:
            {Signature and Title of INS Officer}


                                                   Certificate of Service
This Notice To Appear was servedon the respondentby me on ---                                            .in the following mannerand in
                                                                                 I Dal':.
compliance with section 239(a)( I )(F) of the Act:

0 in person                         n by certified mail. return receipt rcl.\ue~ted     0   by regular mail
0 Attachedis a credible fear worksheet.
0 Attachedis a list of organizationsand attorneyswhich provide free legal'It:rvices.
The alienwas provided oral notice in the                                            languageof the time and placeof his or her
                                                                                               hearing
and of the consequences
                      of failure to appearas provided in section240Ib)I~) of the-Act.


                  (Signature of Respondent if Pe~nal\y Served)                   -(Signature                       and Title of Officer)




                                                                                                                             Fonn 1-862(Rev 3i22:99)N
                                                     u.s. Departmentof Justice


                                                     Federal Bureau of Investigation

                                                               -
                                                     Washington, D. C. 20535-0001


                                                      December 12; 2001



Mr. Michael E. Pearson
ExecutiveAssociateCommissioner
Field Operations
Immigrationand NaturalizationService

               Re: PENn'BOM-FBI        Major Case#182-INS Custody List

Dear Mr. Pearson:

                Pleasebe advised that after consultation with FBI Headquartersand the
appropriate field offices, the FBI has detennined that presently there is no investigative interest
 in the following persons in connection with the PENTTBOM investigation:

            ~E                                     DATE OF BIRTH                    INS NUMBER




               As a result, the FBI consentsto the removal of the above listed personsfrom
the Immigration and Naturalization's Custody List that was created in connection with this
investigation.


                                                     Sincerely,
                                           -"YlL.~..t<-~~-"<:-"
                                                            t .
                                                     Michael E. Rolince
                                                                               G.e.-:'~d{
                                                     Chief
                                                     InternationalTerrorism
                                                       OperationsSection
                                                      CounterterrorismDivision
APPENDIX   F'
      U.s. Department of Justice
      ImmigrationandNaturalizationService                                                                      Record of Deportable/Inadmissible                                             Alien

                                                                                                                                                                  Hair          EYQ          Cmplxn


                                                                                                                                                    Height        Weight        Occupation

            Address                                                                                                                                 Scars
                                                                                                                                                        m MalbF,B,!

      Date,Place,Time,and Mannerof LastEntry                                                                          PassengerBoardcdol                     Number          I g ~~          0 Malried
                                                                                                                                                                             Ig~=;:; ';:;:;1cd
      Nwnbcr, Street, City, Province (State) and CQ(U1tryofPcrmancnt Rcsidcncc                                                                      Method of Location! Apprehensioo


       Date of Birth                                                      Dale of Action                            I Location Code                 AI/Near                  IDate/Hour.
      City, Province (Stale) and Counuy of Birth                          AR0     I Form:(Typew No.             Lifted0        NO! Liftcd 0         tly

      NlV Issuing Post and NlY Number                                     SocialSccwityAccountName                                                  Statusat Ently            Istatus When Found


      Dale Visa Issued                                                   Social Security Nwnbcr                                                     Lengthof Timen..1y       inu.s.

       Immisration Record                                                                                Criminal Record


      Name, Addrcsa, and Nationality of Spouse (Maidcn Name, if Approprialc)                                                                         Number ond Nationality ofMilllX Children


      FaIhcr'.Name,Nationality,andAddr~, if Known                                                                    Mother'. PresentandMaidenNames,Nationality,andAddress,if Known

      Maties DueIProperty
                        in U.S. Not in ImmediatePossession                          Fingerprinted?0 Yes 0          No        INS S~tcmsChecks CharseCodeWor«.)

      Namc and Address of(Lasl)/(Cwrent)    U.S. Employcr                           Type of Employment                                 Salary                (Employedf"'mlla
                                                                                                                                                      Hr.
      Narrative (Outline particulars wider which alicn was locatcd/apprchcndcd. Includc dclails not shownabove rcgarding timc, placc and marmcr of last cnlly .aucmptcd cnlry, or any other cnuy, and
      elcments wilich establish administrative and/or criminal violation Indicate means and route of mvel to interilY)




      Alien has beenadvised of communication privileges.                            (Date/Initials)                                       (SignaturcandTitlc of INS Official)

      Distribution:                                                                                      Received (Subject and Docwnents) (Report oflnterview)

                                                                                                         Officer




                                                                                                                                                                            Fonn {-213 (Rev 4/1197)Y



US.
V.s,~p'artll1~t   of Jwtice
l1ttmi&J'abanand NatUtalizatian Servicc



                                                                                                  File No:
                                                                                                     Date:



                                                                                                                 ..-
Pursuantto the authority containedin section236 of the Immigrationand Nationality Act and part 236 of title 8,
Codeof FederalRegulations,I havedetem1inedthat pendinga fInal detenninationby the immigrationjudge in
your case,and in the eventyou areordercd~moved from the United States,.Witil you are takeninto custodyfor
removal, you shall be:

         (] detainedin the custodyof this Service.
         [J releasedunderbond in the amountof $                   .
         0 releasedon your own recognizance.

0 Y oumay requesta review of this detem1inationby an immigrationjudge.
D You may not requesta review of this detenninationby an immigrationjudge becausethe Immigration and
Nationality Act prohibits your releasefrom custody.


                                                                         (Si~        allIJlheri2Cd~_)


                                                                            -
                                                                           (TII~ot~%c4 off.-)


                                                                                (D4S otliO1CIce     )



[:I I do a do not rcqucBt atedetermination of this ~ustody decision by an immisrationjud~e.
a I acknowledgere<;eiptof tW notification.


                        (Si...IIu~o("~a1t)                                                              (bAt.)

                                       RESULT OF CUSTODYREDETERMINAnON

 On                             custody status/conditionsfor releasewere reconsideredby:

 C lnunigration Judge                Q District Director   [J Board of Immigration Appeals

 The results of the redetenninationlreconsideration are:
 C No change -Original determination upheld.           D Release -Order of Recognizance
 (J Detain in custody of this Service.                  D Release -Personal Recognizance
 () Bond amount reset to          -~                    CJOther:


                                      (Si~b1re or offi=J



                                                                                                                 Foom
                                                                                                                    "'2U~.4-,.Jj1)W
                                                     v~- uc!"a."'"G...va~.--
                                                     Inlmigration ~!RdNatumization Service



                                                     HQOPS son 8 .C

    omcc o{th~ Executive ASSOCiate
                               Commissioner          42.51 SVUI /IH'
                                                     Wa:hilllton. m: 20J36




                                                            FEe 11 2002




    SUBJECT:       Removal of.-                                 ~ :._-,~From INS Cus~ody LiSt

                           A detemlmation has been made that                           ,           J. 3$
                   not of investigativeinterest to the Federal Bureau of Investigation. As a result, the
                   SUBJECTbas beenremovedfrom the JNS O.1Stody          List. Pleasefollow normal due
                   processproceduresin the handlingof tbis caseand advisethe CUStodyReview Unit if
                   the SUBJECTis releasedor removedfrom the tlnited Sf~te.<.




.
APPENDIX   J
                                                                                                              (/     -~




                                                 u.s.     Department     of Justice

                                                            Federal     Bureau of Prisons


                                                                Washington,     DC 20534

                                                                March 29, 2002



MEMORANDUM FOR ALL           CHIEF    EXECUTIVE         OFFICERS

                               //s//
FROM:                          Michael B. Cooksey, Assistant                  Director
                               Correctional Programs Division
SUBJECT:                     Assignment of Inmates to Management Interest
                       Group 155/Release of Inmates to General
                       Population

Based on recent         information         from the Federal            Bureau of
Investigation        (FBI),      inmates      listed      on the attached          page are no
longer     of interest        to the FBI as related              to the PENTTBOM or
subsequent      investigations.            These inmates           will   be removed from
Management Interest             Group 155 and are no longer                 required      to be
housed subject        to the conditions              outlined      in my October        1, 2001,
memorandum, entitled              "Guidance       for Handling         of Terrorist       Inmates
and Recent Detainees."                Unless you have reason to do otherwise,
these    inmates    can now be housed in general                     population       (GP), and
may be subject        to the same conditions                as any other         inmate or
detainee      in your facility           that is a GP inmate.               However,      we
 suggest    you place       these inmates           on your regular         telephone       and
mail    monitoring      lists      for the immediate           future.

As information      is received     from the FBI, updates will     be
provided    as to other     inmates who can be released       to GP.    Thank:~                            ~-
                                                                                                           -<::: ~=-
you for your ongoing        assistance     in this matter.    If you have any~                             )::> ::,-
                                                                                                            -,": ,...
questions    regarding    this    matter,    feel free to contact   either      .:':.;                     ,=:::'    .
John Vanyur or Bill       Taylor,     Chief of Intelligence.                    ~j
                                                                                                           ~~!:;~.;.";
                                                                                                     I
                                                                                                             .....
                                                                                                    ',\
                                                                                                     ."
                                                                                                    --
                                                                                                    ~
                                                                                                     .:>
                                                                                                    '-oJ


                                                                      SENSITIVE
                                                                   LIMITED OFFICIALUSEONLY
INMATES IN BOP CUSTODY WITH INS/FBI LETTERSINDICATING "NO INTEREST'

~                Re!!isterNumber   Institution    Quarters
                                   MDC Brooklyn   May return to GP
APPENDIX   K
                                                            u.s. Departmentof Justice

                                                            Office of the Deputy Attorney General




Th.: Deputy At!1,rncy Generoll                              1t(J.I'hingIIJn.D.C. 20530


                                                                                                      r".)
                                                                                                    ~;J
                                                            April 4, 2003                           :- ~




 MEMORANDUM TO: GLENN A. FINE
                INSPECTOR GENERAL                                                              ~."!
                                                                                               "J
                                                                                               i-.)
 FROM:                           LARRY D. THOMPSON
                                 DEPUTY ATTORNEY GENERAL

 SUBJECT:                        DIG Review of Seutember 11 Detainees


         I am writing in responseto your request that I review and comment on the mG's Draft
  Report concerning the September11 detainees.

          In considering the issuesraised about the detention and removal of the September11
  detainees, in Chapter Six, it is important to take into account the circumstances and atmosphere
  within the Department of Justice during that period. On September 11,2001, terrorists murdered
  3,000 innocent people on American soil. The period thereafter was one of tremendous intensity
  as the Department was required immediately to alter its central mission to the prevention of
  further acts of terrorism.

         The circumstances required the Department to respond, in a crisis atmosphere,to
  hundreds of novel issues. The members of my staff who tried to coordinate these issueshad to
  shoulder a monumental task and workload. They had a great number of other responsibilities
  during this period as part of our comprehensive effort to protect the American people from
  further acts of terrorism.

         The detention of those illegal aliens suspectedof involvement with terrorism was
  paramount to that mission. My staff understood that the immigration authorities of the
  Department should be used to keep such people in custody until we could satisfy ourselves -by
  the FBI clearance process -that they did not mean to do us harm.

           Given those circumstances, I respectfully submit that it is unfair to criticize the conduct of
   members of my staff during this period. In light of the imperative placed on these detentions by
   the Department, I would not have expected them to reconsider the detention policy in the absence
   of a clear warning that the law was being violated. It is clear from the Draft Report that that did
   not occur until January 2002. When the issue was squarely presented, it is apparent that they
   promptly did the right thing: they changed the policy.
-
Memorandum to Glenn A. Fine
Page 2




        To the extent that OIG still believes that criticism is warranted, I ask that it be directed at
my Office as a whole rather than at the individual members of my staff who, as indicated above,
acted in accordance with my expectations.

      I ask that you include the text of this letter in the section of your report analyzing the
removal of the September 11 detainees.
